<html>
<title> - H.R. 900, PUERTO RICO DEMOCRACY ACT OF 2007; AND H.R. 1230, PUERTO RICO SELF-DETERMINATION ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         H.R. 900, PUERTO RICO
                        DEMOCRACY ACT OF 2007;
                      AND H.R. 1230, PUERTO RICO
                        SELF-DETERMINATION ACT
                                OF 2007

=======================================================================

                          LEGISLATIVE HEARINGS

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                   March 22, 2007 and April 25, 2007

                               __________

                            Serial No. 110-8

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-236                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth, South Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON INSULAR AFFAIRS

            DONNA M. CHRISTENSEN, Virgin Islands, Chairwoman
        LUIS G. FORTUNO, Puerto Rico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            Jeff Flake, Arizona
Raul M. Grijalva, Arizona            Don Young, Alaska, ex officio
Madeleine Z. Bordallo, Guam
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on March 22, 2007...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
        Prepared statement of....................................     3
    Fortuno, Luis G., the Resident Commissioner in Congress from 
      Puerto Rico................................................     5
        Prepared statement of....................................     7
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     9
        Prepared statement of....................................    10
    Serrano, Hon. Jose, a Representative in Congress from the 
      State of New York..........................................    13
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York......................................    16
        Prepared statement of....................................    18
    Weller, Hon. Jerry, a Representative in Congress from the 
      State of Illinois..........................................    15
        Prepared statement of....................................    15
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    12
        Prepared statement of....................................    12

Statement of Witnesses:
    Baquero, Enrique, President, Puerto Rico Foundation for 
      Democratic Action..........................................    76
        Prepared statement of....................................    78
    Diaz, Aida, President, Puerto Rico Teachers Association......   110
        Prepared statement of....................................   111
    Fernandez, Jose Luis, President, Inter-American Entrepreneurs 
      Association................................................    79
        Prepared statement of....................................    81
    Ferraiuoli, Veronica, President, Puerto Rico Chapter of the 
      Federal Bar Association....................................   101
        Prepared statement of....................................   103
    Goldstein, Thomas C., Partner, Akin Gump Strauss Hauer & 
      Feld, LLP..................................................    45
        Prepared statement of....................................    46
    Gorrin-Peralta, Carlos I., Professor, Puerto Rico's Inter-
      American University School of Law..........................    27
        Prepared statement of....................................    28
    Mejia, Manuel A., Chairman of the Board, Puerto Rico Chamber 
      of Commerce................................................    69
        Prepared statement of....................................    71
    Nieves, Ramon Luis, Executive Director, Movimiento 
      Autonomista Socialdemocrata................................    32
        Prepared statement of....................................    34
    Pedroza, Jorge E., President, Vietnam Veterans of America, 
      Council of Puerto Rico.....................................    95
        Prepared statement of....................................    97
    Pildes, Richard H., Professor, New York University School of 
      Law........................................................    38
        Prepared statement of....................................    40
    Romany-Siaca, Celina, President, Puerto Rico Bar Association.   107
        Prepared statement of....................................   109
    Thomas, Kenneth R., Legislative Attorney, American Law 
      Division, Congressional Research Service, Library of 
      Congress...................................................    19
        Prepared statement of....................................    21
    Vales, Luis E. Gonzalez, Official Historian of Puerto Rico...    98
        Prepared statement of....................................    99

Additional materials supplied:
    List of individuals and organizations submitting information 
      for the record.............................................    19


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 25, 2007........................   125

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................   126
        Prepared statement of....................................   127
    Fortuno, Luis G., the Resident Commissioner in Congress from 
      Puerto Rico................................................   139
        Prepared statement of....................................   141
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York, Statement submitted for the record..   235
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Statement submitted for the record..............   162

Statement of Witnesses:
    Acevedo-Vila, Hon. Anibal, Governor, Commonwealth of Puerto 
      Rico, Former Member of U.S. Congress, President, Popular 
      Democratic Party (PDP).....................................   163
        Prepared statement of....................................   165
    Aponte-Hernandez, Hon. Jose, Speaker of the House of 
      Representatives of Puerto Rico.............................   196
        Prepared statement of....................................   197
    Berrios-Martinez, Ruben, President, Puerto Rican Independence 
      Party (PIP)................................................   168
        Prepared statement of....................................   170
    Dalmau-Santiago, Hon. Jose L., Senate Minority Leader, 
      Popular Democratic Party...................................   208
        Prepared statement of....................................   210
    Duprey, Nestor, Spokesman, Puerto Ricans for Free Association 
      and Social Justice (MAS)...................................   225
        Prepared statement of....................................   226
    Ferrer Rios, Hon. Hector, Minority Leader of the House of 
      Representatives of Puerto Rico, Popular Democratic Party...   211
        Prepared statement of....................................   213
    Marshall, Hon. C. Kevin, Co-Chair of the President's Task 
      Force on Puerto Rico's Political Status, Deputy Assistant 
      Attorney General, Office of Legal Counsel, U.S. Department 
      of Justice.................................................   129
        Prepared statement of....................................   131
    Martin, Fernando, Executive President, Puerto Rican 
      Independence Party.........................................   222
        Prepared statement of....................................   223
    McClintock, Hon. Kenneth D., President, Senate of Puerto Rico   188
        Prepared statement of....................................   190
    Passalacqua, Juan Manuel Garcia, Lawyer, Writer, Political 
      Analyst....................................................   228
        Prepared statement of....................................   229
    Romero Barcelo, Hon. Carlos, Former Governor, Commonwealth of 
      Puerto Rico, Former Member of U.S. Congress................   205
        Prepared statement of....................................   207
    Rossello, Hon. Pedro, Former Governor and current Senator, 
      Commonwealth of Puerto Rico, President, New Progressive 
      Party (NNP)................................................   172
        Prepared statement of....................................   175

Additional materials supplied:
    Engel, Hon. Eliot L., a Representative in Congress from the 
      State of New York, Statement submitted for the record......   233
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin, Statement submitted for the record...........   234
    Sanchez, Hon. Loretta, a Representative in Congress from the 
      State of Califonnia, Statement submitted for the record....   234
    List of individuals and organizations submitting information 
      for the record.............................................   128


LEGISLATIVE HEARING ON H.R. 900, TO PROVIDE FOR A FEDERALLY SANCTIONED 
 SELF-DETERMINATION PROCESS FOR THE PEOPLE OF PUERTO RICO (PUERTO RICO 
 DEMOCRACY ACT OF 2007); AND H.R. 1230, TO RECOGNIZE THE RIGHT OF THE 
PEOPLE OF PUERTO RICO TO CALL A CONSTITUTIONAL CONVENTION THROUGH WHICH 
 THE PEOPLE WOULD EXERCISE THEIR NATURAL RIGHT TO SELF-DETERMINATION, 
 AND TO ESTABLISH A MECHANISM FOR CONGRESSIONAL CONSIDERATION OF SUCH 
         DECISION (PUERTO RICO SELF-DETERMINATION ACT OF 2007)

                              ----------                              


                        Thursday, March 22, 2007

                     U.S. House of Representatives

                    Subcommittee on Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1324, Longworth House Office Building, Hon. Donna M. 
Christensen [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Christensen, Faleomavaega, 
Grijalva, Bordallo, Rahall, Fortuno, Gallegly, Flake, and 
Young.
    Ms. Christensen. Good morning. The legislative hearing by 
the Subcommittee on Insular Affairs will now come to order.
    I ask unanimous consent that Members of the full committee 
wishing to participate in the proceedings of the Subcommittee 
be allowed to sit on the dais. Hearing no objection, so 
ordered.
    I also ask unanimous consent that the gentleman from New 
York, Mr. Serrano, the gentlewoman from New York, Ms. 
Velazquez, and the gentleman from Illinois, Mr. Gutierrez, be 
allowed to sit on the dais and participate in the hearing. 
Hearing no objection, so ordered.
    Under Committee Rule 4(g), the Chairman and Ranking 
Minority Member can make opening statements. At this time I 
also ask unanimous consent that in lieu of the authors of the 
two bills before us appearing as witnesses, Mr. Serrano and Ms. 
Velazquez, be extended the opportunity to make an opening 
statement. If any other Members have statements, they can be 
included in the hearing record under unanimous consent. Hearing 
no objection, so ordered.
    The Subcommittee is meeting today to hear testimony on H.R. 
900 and H.R. 1230. H.R. 900, sponsored by Mr. Serrano, will 
provide for a Federally sanctioned self-determination process 
for the people of Puerto Rico.
    H.R. 1230, sponsored by Ms. Velazquez, will recognize the 
right of the people of Puerto Rico to call a Constitutional 
Convention to which the people would exercise their natural 
right to self-determination, and to establish a mechanism for 
Congressional consideration of such decision.
    I now recognize myself for an opening statement.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. As a co-sponsor of H.R. 1230, it is clear 
that I favor a bottoms-up approach to resolving Puerto Rico's 
long-unresolved political status question, one that empowers 
the people of Puerto Rico to translate their hopes and 
aspirations into a new and even possibly unique political 
relationship with the mother country, instead of one that 
dictates what their choices can and cannot be.
    But above any support for one bill over the other, I 
support the right of the people of Puerto Rico to be fully 
informed, to have a fair process, and to have all of the 
possible status options clearly and accurately defined and 
placed before them.
    Keeping this in mind, I want to thank Chairman Rahall for 
reestablishing the Subcommittee on Insular Affairs. It is well 
known that Chairman Rahall has been a long-time friend of 
Puerto Rico, most notably leading the effort in Congress for 
the funding of Trans Urbano. His presence this morning 
underscores his continuing interest in Puerto Rico, its people, 
and his desire to see progress on the status issue.
    We will also be joined by the committee's Ranking Member, 
Mr. Young, as well. As a sole representative of Alaska, one of 
the last U.S. territories to become a state, he knows political 
status issues. As we all know, Mr. Young, as Chairman of the 
Committee, was the main sponsor of the legislation to resolve 
Puerto Rico's political status in 1998. His leadership and 
efforts resulted in the House approval of legislation providing 
for a process to resolve that status.
    During today's hearing, all sides of the Puerto Rican 
status debate will be heard through an ambitious agenda, which 
includes some four panels consisting of 13 witnesses, all of 
whom understand the issue and its history well, and the 
overwhelming majority of whom are full-time residents of the 
Commonwealth. And we welcome all of you.
    Because of the large number of requests to participate in 
the deliberations on these bills, we found that it was not 
possible to have a full hearing on the issues involved today. 
So in approximately one month from today we will convene a 
second hearing on the bills, at which time we will hear from 
the leadership of the political parties, as well as from the 
Commonwealth, government, and legislature.
    I have to say, though, that I am very disappointed that 
after such a harsh evaluation of Puerto Rico's current status 
and such a strong statement on the process they feel should be 
adopted, the Administration is not here with us this morning. I 
hope that this does not mean that their intention is to drop 
that bombshell and disappear, but that the Administration will 
see fit to testify at the second hearing.
    It has been more than 108 years since the United States 
acquired the island of Puerto Rico along with Guam in the 
Philippines at the end of the Spanish-American War. Since that 
time, the people of Puerto Rico have been seeking to have their 
relationship to the United States resolved according to their 
wishes. It is high time that this occurs, and it is my fervent 
hope that beginning with this hearing today, we will all see 
this happen in short order.
    I look forward to the testimony we will receive both in 
person and in writing. And before I conclude and yield to my 
Ranking Member for his opening statement, I want to say two 
last things.
    First, as I made reference to last year, I do hear 
dissatisfaction from the people of Puerto Rico with the status 
quo. But on the socioeconomic issues--housing, education, 
healthcare, crime, even the politics--and also corruption 
inside and outside of government. I cannot see, but I stand 
ready to be educated on how changing political status will 
improve the conditions that the Puerto Ricans care most deeply 
about.
    I see them as not necessarily being connected, and I also 
see a danger in tying too closely together as we move through 
this process.
    Second, your neighbors and fellow non-state areas are 
watching. What happens here, and similarly what happens today 
with the District of Columbia, while they are not exactly 
similar, having bearing on us and our process of self-
determination.
    So let us be mindful, as we pronounce what can and cannot 
be under the Constitution, that such limitations will have a 
far greater impact on those of us whose choices are far more 
limited than our larger cousin, the Commonwealth of Puerto 
Rico.
    I now yield for an opening statement to my colleague and 
friend, the resident commissioner, Mr. Fortuno.
    [The prepared statement of Mrs. Christensen follows:]

     Statement of The Honorable Donna M. Christensen, Chairwoman, 
                    Subcommittee on Insular Affairs

    As a cosponsor of H.R. 1230, it is clear that I favor a bottom-up 
approach to resolving Puerto Rico long unresolved political status 
question; one that empowers the people of Puerto Rico to translate 
their hopes and aspirations into a new and even possibly unique 
political relationship with their mother country instead of one that 
dictates what their choices can and cannot be.
    But above any support for one bill over the other, I support the 
right of the people of Puerto Rico to be fully informed, to have a fair 
process, and to have all of the possible status options clearly and 
accurately defined and placed before them.
    Keeping this in mind, I want to thank Chairman Rahall for 
reestablishing the Subcommittee on Insular Affairs. It is well-known 
that Chairman Rahall has been a long-time friend of Puerto Rico, most 
notably leading the effort in Congress for the funding of Tran Urbano. 
His presence this morning underscores his continuing interest in Puerto 
Rico, its people, and his desire to see progress on the status issue.
    It is also a pleasure to have the Committee's Ranking Member Mr. 
Young here as well. As the sole Representative of Alaska, one of the 
last U.S. territories to become a State, he knows political status 
issues. As we all know, Mr. Young, as Chairman of this Committee, was 
the main sponsor of legislation to resolve Puerto Rico's political 
status in 1998. His leadership and efforts resulted in the House 
approval of legislation providing for a process to resolve Puerto 
Rico's status.
    I think the presence of Chairman Rahall and Ranking Member Young 
sends a clear signal that the Committee looks forward to having 
progress made on this issue in the 110th Congress. I believe that the 
proceedings of this Subcommittee will help in that effort; and give the 
Full Committee a better appreciation of both the complexity of this 
issue and the desire by the people of Puerto Rico for the process to 
begin.
    During today's hearing, all sides of the Puerto Rican status debate 
will be heard from through an ambitious agenda which includes some four 
panels consisting of 13 witnesses--all of whom understand this issue 
and its history well and the overwhelming majority of whom are full 
time residents of Commonwealth.
    Because of the large number of requests to participate in the 
deliberations on these bills, we found that it was not possible to have 
a full hearing of the issues involved in one day.
    So in approximately one month from today we will convene a second 
day of hearings on the bills at which time we will hear from the 
leadership of the political parties from Puerto Rico as well as from 
the Commonwealth government and legislature
    I have to say that am very disappointed that after such a harsh 
evaluation of Puerto Rico's current status and such a strong statement 
on the process they feel should be adopted, the Administration is not 
here. I hope that this does not mean that their intention is to drop 
that bombshell and disappear, but that the Administration will see fit 
to testify at the second hearing.
    It has been more than 108 years since the United States acquired 
the island of Puerto Rico, along with Guam and the Philippines at the 
end of the Spanish American War. Since that time, the people of Puerto 
Rico have been have been seeking to have their relationship to the 
United States resolved according to their wishes. It is high time that 
this occurs and it is my fervent hope that beginning with this hearing 
today we will all see this happen in short order.
    I look forward to the testimony we will receive both in person and 
in writing and to the answers to some questions that the Committee will 
have. They will all be taken into consideration as we move to the full 
committee and seek to move this process to fruition.
    Before I conclude and yield to my Ranking member for his opening 
statement, I want to say two things:
    First, as I made reference to last year, I do hear dissatisfaction 
from the people of Puerto Rico with the status quo--but on the socio-
economic issues--housing, education, healthcare, crime, even the 
politics and corruption in and outside of government. I cannot see, but 
stand ready to be educated on how changing political status will 
improve the conditions that Puerto Ricans care most deeply about. I see 
them as two different things and I also see a danger in tying the two 
too closely together as you move through this process.
    Secondly, your neighbors and fellow non-state areas are watching!
    What happens here, and similarly what happens tomorrow with the 
District of Columbia--while they are not exactly similar--have bearing 
on us and our process of self determination.
    For example, any attempt to ``clarify'' or make clear that the only 
two options available to Puerto Rico constitutionally are statehood or 
independence, automatically limits the options for the Virgin Islands 
as well as for the other smaller territories to just one; independence 
or its cousin Free Association--a choice which is not now supported by 
a majority of constituents.
    Commonwealth or some other status under the sovereignty of the 
U.S., is all that those of us who want to remain part of the United 
States but are too small to become a state is all that we can aspire 
to.
    So let us be mindful, as we pronounce what can and cannot be under 
the constitution, that such limitations will have far a greater impact 
on those of us whose choices are much more limited that our larger 
cousin, the Commonwealth of Puerto Rico.
    I now yield for an opening statement to my colleague and friend, 
the Resident Commissioner of Puerto Rico, Mr. Fortuno.
                                 ______
                                 

      STATEMENT OF THE HON. LUIS G. FORTUNO, THE RESIDENT 
       COMMISSIONER FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Fortuno. Thank you, Madame Chair. Madame Chair, I want 
to take this opportunity to thank you for holding this very 
important hearing today. It has certainly been a pleasure 
serving with you in the Subcommittee, and I look forward to 
continuing to work with you in a bipartisan manner to address 
the current inequities in the way our nation treats U.S. 
citizens and nationals, not only in Puerto Rico, but in all of 
its territories.
    I also want to commend Chairman Nick Rahall and Ranking 
Member Don Young for their longstanding leadership and 
commitment in ensuring that my constituents, the four million 
U.S. citizens that reside in Puerto Rico, are granted the 
opportunity to participate in the truly decolonizing and fair 
self-determination process.
    Furthermore, I want to thank my fellow Subcommittee Members 
that are here or will join us today, and extend a warm welcome 
to our other colleagues present in the hearing who are not 
Members of this Subcommittee, but have taken time from their 
busy schedules because of their keen interest in this very 
important matter.
    In particular I want to thank my three fellow Puerto Ricans 
in Congress: Jose Serrano, Luis Gutierrez, and Nydia Velazquez. 
During my two years in Congress they have provided me with 
invaluable insights, but most of all with their friendship.
    Last, but not least, I want to welcome all of our 
witnesses, most of whom have traveled from the island to be 
with us today to provide the Subcommittee with their views on 
this vitally important issue.
    In our political affairs, consensus is beneficial when it 
can be achieved. But the fact is that in a democracy, we are 
based on majority rule.
    Today we do not have majority rule in Puerto Rico on the 
question of a permanent, non-territorial, and fully democratic 
future political status, even though this is clearly the most 
critical issue we face as a people. Instead, we have polarity 
or minority rule because no defined political status option has 
received a majority in the last two locally sponsored status 
votes.
    Against this backdrop, you may wonder how it is that I can 
come before you today and tell you that we have a consensus in 
Puerto Rico on what Congress must do about the political status 
question. Yet that is exactly what I am here to tell you.
    We have an overall consensus in Puerto Rico that our 
current relation with the U.S. is territorial in nature, not 
fully democratic, not fully self-governing, not based on equal 
rights and duties of citizenship, and does not fully implement 
the principle of government by consent of the governed.
    We have an overall consensus that our current political 
relationship with the United States no longer serves either 
Puerto Rico or the U.S. well. We have an overall consensus that 
the time for change into a permanent, non-territorial 
relationship with the United States is not only long overdue, 
but urgently needed. The reality is that the island's current 
status does not enable the people of Puerto Rico to fulfill 
their potential for social, economic, and political 
development.
    It is not only a political problem; it is also money 
invested in Puerto Rico's chronic economic under-performance. 
This includes the local economic recession, even in the midst 
of our national economic growth and expansion, as well as high 
unemployment, while national unemployment is at record lows. 
This economic reality translates into human discouragement and 
unrealized dreams, and have forced many of my constituents--
some people say about 6,000 per month--to move to the mainland 
in search for better opportunities and equality.
    We have a sacred duty to our children and future 
generations to stop this cycle of unfulfilled human potential. 
That is why there is a consensus in Puerto Rico that the 
current status must be changed to a new status that is 
permanent and non-territorial; one that redeems the promise of 
democracy and opportunity for our people.
    To be sure, the political parties in Puerto Rico still have 
the most profound differences on what permanent non-territorial 
status we prefer. We also disagree on the procedure to achieve 
majority rule and status issue.
    In other words, we agree that there is a problem, but are 
at odds as to what the solution and the process to reach that 
solution should be.
    But I believe we have a consensus that calls upon Congress 
to recognize a democratic referendum process, grounded in self-
determination by the people, based on options compatible with 
the Constitution, but formulated with local participation.
    In this regard, while I strongly believe that H.R. 900 
offers a much better approach and process to resolving once and 
for all Puerto Rico's status dilemma, I have to admit that H.R. 
1230 is more realistic than its previous version in the sense 
that it recognizes the need for a new status that is non-
territorial and permanent. That mere recognition in itself 
constitutes one step in the right direction.
    We, however, still have major differences about how to 
ensure that the people have a direct vote at each stage of the 
process and that Constitutionally valid options are proposed 
instead of options that are legally impossible. Those issues 
are clearly addressed in H.R. 900 but not so in H.R. 1230.
    For example, Governor Acevedo's proposal for enhanced 
commonwealth, as included in his party's 2004 platform, 
provides, among other things, number one, that Puerto Rico 
would be a sovereign nation but in permanent union with the 
U.S. as part of a covenant to which the United States will be 
permanently bound.
    Two. That Puerto Rico would be able to veto most Federal 
laws.
    Three. That Puerto Rico would be able to invalidate Federal 
court jurisdictions.
    Four. That Puerto Rico would be able to enter into trade 
and other agreements with foreign nations and join 
international organizations separate from the U.S.
    Five. That the U.S. would continue all current assistance 
programs to Puerto Rico, plus a new annual block grant for 
socioeconomic development.
    Six. That the U.S. would provide new incentives for 
investment in Puerto Rico.
    Seven. That the U.S. would continue to grant free entry to 
any goods shipped from Puerto Rico.
    Eight. That the U.S. would continue to grant U.S. 
citizenship to persons born in Puerto Rico.
    And nine. That residents of Puerto Rico would not have to 
pay Federal taxes.
    Anyone who objectively reviews the Governor's enhanced 
commonwealth wish list and is honest about it will have to 
conclude that the definition that he is trying to sell in 
Puerto Rico and to some of our colleagues here is 
unconstitutional and thus not acceptable to the Congress. As a 
matter of fact, similar proposals have been rejected by this 
very same committee and the Federal Executive Branch in the 
past.
    My friends, the best of two worlds, as labeled by the 
Governor's party, does not exist. If it did, I have no doubts 
that we in Congress would immediately receive 50 other requests 
for the same deal.
    This, quite honestly, is one of my biggest concerns with 
the Constitutional Assembly approach, where a select and 
limited group of delegates will be entitled to unilaterally 
come up with a status proposal that we in the House, in this 
House, all know would not be acceptable to the U.S. Congress. A 
Trojan Horse, if you will.
    That being said, I firmly believe that most of the issues 
where we currently lack consensus could be resolved through the 
very deliberative process we commence today. The success of 
these hearings and other future proceedings before Congress on 
this issue will rest on whether or not we are able to advance 
the goal of Federal sponsorship of a limited status resolution 
process; one that will enable the issues, and which there is no 
consensus to resolve by self-determination, majority rule, and 
government by consent of the governed, selecting by their 
direct vote their status preference.
    It is in this spirit of seeking solutions based on 
inclusion of all ideas from those with a legitimate interest in 
this question that I literally welcome and encourage the 
contributions to this discourse by Representatives Serrano, 
Velazquez, and Gutierrez, as well as all sectors on the island. 
Together with all our colleagues in the House and the Senate, 
we are seized with a solemn and sacred duty, and with God's 
help, I trust we will acquit ourselves in a way that honors our 
people and our nation.
    Madame Chair, as you know, just a few weeks ago we 
celebrated the 90th anniversary of the granting of U.S. 
citizenship by Congress to Puerto Ricans. The final resolution 
of Puerto Rico's status dilemma has been stalled for too long. 
Let us work together to unlock this process and bring a final 
solution to Puerto Rico's century-old colonial predicament. 
Thank you again.
    [The prepared statement of Mr. Fortuno follows:]

              Statement of The Honorable Luis G. Fortuno, 
                    Subcommittee on Insular Affairs

    Madame Chair, I want to take this opportunity to thank you for 
holding this very important hearing today. It has certainly been a 
pleasure serving with you in the subcommittee, and I look forward to 
continuing to work with you in a bipartisan manner to address the 
current inequities in the way our Nation treats U.S. citizens and 
nationals, not only in Puerto Rico, but in all of its territories.
    I also want to commend Chairman Nick Rahall and Ranking Member Don 
Young for their long-standing leadership and commitment in ensuring 
that my constituents, the 4 million U.S. citizens that reside in Puerto 
Rico, are granted the opportunity to participate in a truly 
decolonizing and fair self-determination process.
    Furthermore, I want to thank my fellow subcommittee members that 
are here or will join us today, and extend a warm welcome to our other 
colleagues present in the hearing, who, while not members of this 
subcommittee, have taken time from their busy schedules because of 
their keen interest in this very important matter. In particular, I 
want to thank my three fellow Puerto Ricans in Congress: Jose Serrano, 
Luis Gutierrez and Nydia Velazquez. During my two years in Congress, 
they have provided me with invaluable insights, but most of all, with 
their friendship. Last, but not least, I want to welcome all of our 
witnesses, most of whom traveled from the Island to be with us today to 
provide the subcommittee with their views on this vitally important 
issue.
    In our political affairs, consensus is beneficial when it can be 
achieved, but the fact is that, in a democracy, we govern based on 
majority rule.
    Today we do not have majority rule in Puerto Rico on the question 
of a permanent, non territorial and fully democratic future political 
status, even though this is clearly the most critical issue we face as 
a people. Instead, we have plurality or minority rule, because no 
defined political status option has received a majority vote in the 
last two locally sponsored status votes.
    Against this backdrop, you may wonder how it is that I can come 
before you today and tell you that we have a consensus in Puerto Rico 
on what Congress must do about the political status question. Yet, that 
is exactly what I am here to tell you.
    We have an overall consensus in Puerto Rico that our current 
relation with the U.S. is territorial in nature, not fully democratic, 
not fully self-governing, not based on equal rights and duties of 
citizenship, and does not fully implement the principle of government 
by consent of the governed. We have an overall consensus that our 
current political relationship with the United States no longer serves 
either Puerto Rico or the U.S. well. We have an overall consensus that 
the time for change into a permanent and non-territorial relationship 
with the United States is, not only long overdue, but urgently needed.
    The reality is that the Island's current status does not enable the 
people of Puerto Rico to fulfill their potential for social, economic 
and political development. This is not only a political problem, it is 
also manifested in Puerto Rico's chronic economic underperformance.
    This includes a local economic recession even in the midst of a 
national economic growth and expansion, as well as high unemployment 
while national unemployment is at record lows. These economic realities 
translate into human discouragement and unrealized dreams, and have 
forced many of my constituents--about 6,000 per month--to move to the 
mainland in search for better opportunities and equality. We have a 
sacred duty to our children and future generations to stop this cycle 
of unfulfilled human potential.
    That is why there is a consensus in Puerto Rico that the current 
status must be changed to a new status that is permanent and not 
territorial, one that redeems the promise of democracy and opportunity 
for our people.
    To be sure, the political parties in Puerto Rico still have the 
most profound differences on what permanent non-territory status we 
prefer. We also disagree on the procedure to achieve majority rule on 
the status issue. In other words, we agree that there is a problem, but 
are at odds as to what the solution and the process to reach that 
solution should be.
    But I believe we have a consensus that calls upon Congress to 
recognize a democratic referendum process grounded in self-
determination by the people, based on options compatible with the 
federal constitution but formulated with local participation.
    In this regard, while I strongly believe that H.R. 900 offers a 
much better approach and process to resolving, once and for all, Puerto 
Rico's status dilemma, I have to admit that H.R. 1230 is more realistic 
than its previous version in the sense that it recognizes the need for 
a new status that is non territorial and permanent. That mere 
recognition, in itself, constitutes an important step in the right 
direction.
    We, however, still have major differences about how to ensure that 
the people have a direct vote at each stage of the process, and that 
constitutionally valid options are proposed instead of options that are 
legally impossible. Those issues are clearly addressed in H.R. 900, but 
not so in H.R. 1230. For example, Governor Acevedo's proposal for 
Enhanced Commonwealth, as included in his party's 2004 Platform, 
provides, among other things:
    1. That Puerto Rico would be a sovereign nation, but in permanent 
union with the U.S., as part of a covenant to which the United States 
would be permanently bound;
    2. That Puerto Rico would be able to veto most Federal laws;
    3. That Puerto Rico would be able to invalidate Federal court 
jurisdiction;
    4. That Puerto Rico would be able to enter into trade and other 
agreements with foreign nations and join international organizations, 
separate from the U.S.;
    5. That the U.S. would continue all current assistance programs to 
Puerto Rico, plus a new annual block grant for social and economic 
development;
    6. That the U.S. would provide new incentives for investment in 
Puerto Rico;
    7. That the U.S. would continue to grant free entry to any goods 
shipped from Puerto Rico;
    8. That the U.S. would continue to grant U.S. citizenship to 
persons born in Puerto Rico, and;
    9. That residents of Puerto Rico would not have to pay Federal 
income taxes.
    Anyone who objectively reviews the Governor's Enhanced Commonwealth 
wish list, and is honest about it, will have to conclude that the 
definition that he is trying to sell in Puerto Rico and to some of our 
colleagues here is unconstitutional and thus, not acceptable to the 
Congress. As a matter of fact, similar proposals have been rejected by 
this very same Committee and the Federal Executive Branch in the past. 
My friends, the ``best of two worlds'', as traditionally labeled by the 
Governor's party, does not exist. If it did, I have no doubts that we 
in Congress would immediately receive 50 other requests for the same 
deal.
    This, quite honestly, is one of my biggest concerns with the 
Constitutional Assembly approach, where a select and limited group of 
delegates would be entitled to unilaterally come up with a status 
proposal that we, in this House, all know would not be acceptable to 
the United States Congress. A Trojan horse, if you will.
    That being said, I firmly believe that most of the issues where we 
currently lack consensus could be resolved through the very 
deliberative process we commence today.
    The success of these hearings and all other future proceedings 
before Congress on this issue will rest on whether or not we are able 
to advance the goal of federal sponsorship of a legitimate status 
resolution process, one that will enable the issues on which there is 
no consensus to be resolved by self-determination, majority rule and 
government by consent of the governed, selecting by their direct vote 
their status preference.
    It is in this spirit of seeking solutions based on inclusion of all 
ideas from those with a legitimate interest in this question that I not 
only welcome, but encourage, the contributions to this discourse by 
Representatives Serrano, Velazquez and Gutierrez, as well as all 
sectors on the Island. Together with all our colleagues in this House 
and the Senate, we are seized with a solemn and sacred duty, and with 
God's help I trust that we will acquit ourselves in a way that honors 
our people and our nation.
    Madame Chair, as you know, just a few weeks ago, we celebrated the 
90th anniversary of the granting of U.S. citizenship by Congress to 
Puerto Ricans. The final resolution of Puerto Rico's status dilemma has 
been stalled for too long. Let's work together to unlock this process 
and bring final solution to Puerto Rico's century old colonial 
predicament.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Fortuno. I also recognize 
and welcome at this time again the distinguished gentleman from 
West Virginia, and the Chairman of the Natural Resources 
Committee, Mr. Rahall, and recognize him for any statement that 
he might make.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Madame Chair. I appreciate very much 
your recognition, as well as your calling this hearing today 
before the Subcommittee on Insular Affairs on two legislative 
proposals--H.R. 900, the Puerto Rico Democracy Act, and H.R. 
1230, the Puerto Rico Self-Determination Act.
    When I was honored to be named Chairman of the Committee on 
Natural Resources earlier this year, I issued an agenda of 
American values to guide the committee in its consideration of 
the many pressing issues we face within our broad jurisdiction. 
One part of that agenda stated, in reference to the territorial 
possessions of the U.S., that we must recognize that there is 
an inherent right of political self-determination.
    The document noted, and I quote, ``For a majority of our 
territories, circumstances of history and acquisition are 
similar. However, timelines to establish any other political 
status will vary. When appropriate, we should work toward 
providing clear direction to achieve political status 
consistent with the U.S. Constitution.''
    Since the establishment of the Commonwealth of Puerto Rico 
in 1952, four popular votes have been held on the status issue 
in three plebiscites and one referendum.
    In going back just to the 1970s, at least 40 separate 
measures have been introduced in Congress to resolve or clarify 
Puerto Rico's political status. In addition, Congress has held 
at least 10 hearings, and four measures have received either 
House or Senate action.
    Further, we have the report by the President's Task Force 
on Puerto Rico's Status, released last year, which was the 
subject of a hearing by the committee.
    With all this background, it does appear to me that among 
all of the territorial possessions of the United States, this 
is indeed the time when we should work toward providing clear 
direction to Puerto Rico to resolve its political status in a 
manner consistent with the U.S. Constitution.
    As such, we are meeting today to examine a simple 
proposition that nonetheless does elicit complex responses. The 
proposition is whether or not the people of Puerto Rico are 
satisfied with the status quo in terms of their political 
status. The responses are extremely complex, and often tinged 
with heated political rhetoric and deep-seated emotions.
    I believe that this Subcommittee's responsibility is to be 
an honest broker with the people of Puerto Rico as this issue 
moves forward. At the same time, I would submit that it would 
be misleading to ignore the recommendations of the report by 
the President's Task Force, the positions of previous 
Administrations, our committee's own record, international law, 
and indeed, our country's Constitution.
    So I conclude by thanking again the distinguished 
gentlelady from the Virgin Islands, Chairman Donna Christensen, 
as well as the Ranking Member of this Subcommittee, the 
gentleman from Puerto Rico, Luis Fortuno, for holding this 
hearing. I commend my Ranking Member of the full committee, 
Chairman Don Young, as well as other Members of Congress that 
have joined us today or will join us for debate on this issue, 
and listening to those who have come to testify.
    Thank you, Madame Chair.
    [The prepared statement of Mr. Rahall follows:]

         Statement of The Honorable Nick J. Rahall, Chairman, 
                     Committee on Natural Resources

    Thank you, Madame Chair. Nearly a year ago, when the Full Committee 
convened a Oversight Hearing to receive testimony on the Report by the 
President's Task Force on Puerto Rico's Status, I saluted the twenty-
one Puerto Rican families who had lost a loved one in our war with 
Iraq.
    Since then, three more soldiers who call Puerto Rico home have made 
the ultimate sacrifice to keep our country free. To the Rodriguez, 
Montalvo, and Soto-Pinedo families; we regret your loss and honor your 
loved ones, along with the twenty-one other patriotic families in 
Puerto Rico with a brief moment of silence.
    Madame Chair, we are here today because the people of Puerto Rico 
have been suffering from political status injustice for more than a 
century. In 1898, when we first raised our stars and stripes beyond our 
continental borders, did we unwittingly lower the promise of freedom, 
representation, and democracy upon which we had built our country? If 
time has been our judge, then the clock seems to favor injustice 
because more than one-hundred years of disenfranchisement and inequity 
remain.
    This is not to say that the issue has not been raised before this 
Congress. Everyone in this room, along with the millions in Puerto Rico 
listening to our proceedings know that Congress has tried to find a way 
to resolve the status issue. We realize how important the issue of 
status is for the people of Puerto Rico; it is debated daily, written 
about often, and divides friends and families.
    In going back just to the 1970's, at least forty separate measures 
have been introduced in Congress to resolve or clarify Puerto Rico's 
future status. Congress has held at least ten hearings and only four 
measures have received either House or Senate action. It seems that a 
lot has been done and very little has been accomplished.
    This may hold true in Puerto Rico as well.
    In the past century, three plebiscites have gauged the people's 
desires to advance their current political status in the American 
family as a U.S. territory. It has become clearer that with each 
completed plebiscite, all has become vague, with a choice of ``None of 
the Above'' garnering more votes than any other political status option 
on the ballot in the 1998 plebiscite.
    Madame Chair, it seems the adage; ``the more things change the more 
they remain the same;'' holds true.
    I am more optimistic today with the re-establishment of this 
Insular Affairs Subcommittee and with Ms. Christensen as its 
chairwoman. She is a thoughtful leader and I trust that she will 
conduct this proceeding in a fair and balanced manner. In fact, I 
applaud her for reaching out into the Puerto Rican community to hear 
from those who may not have been heard in prior proceedings.
    Some have criticized this decision, which has in part left the 
leaders of Puerto Rico's political parties in the gallery; all of whom 
have appeared before us in prior years, and at least one have served 
with us. This Committee knows where you stand and we appreciate you 
coming to give your support for others in the Puerto Rican community 
wanting to add their voices to the debate. I welcome all of you.
    The two bills before us offer very different approaches to resolve 
the future political status of Puerto Rico. To be clear, I support only 
one; H.R. 900. It reflects the recommendations of President Bush's Task 
Force on Puerto Rico's status. It has historical precedence; affording 
the people of Puerto Rico the same opportunity afforded to every other 
U.S. territory or protectorate. Status options that have been deemed 
constitutional and which also have international recognition.
    I realize that there are realities for residents of U.S. 
territories that confront them daily. The application of Federal laws 
that do not make sense. Being a part of the U.S. sometimes, and not all 
the time. Enjoying U.S. citizenship, yet having a unique cultural 
identity that sets you apart from your fellow Americans on the U.S. 
mainland.
    So, it is no surprise that one would want to support a proposed 
arrangement that recognizes all those feelings of inequality and 
disenfranchisement and then empowers you to be in control.
    However, we cannot tailor that sort of arrangement. To do so, sends 
a wrong message not only to our other U.S. territories who have yet to 
walk down the same path that the people of Puerto Rico are on; but also 
to the States of our Union.
    California is one of the largest economies in the world. 
Mississippi is one of the poorest States in the Nation. How could 
either one not ponder what it would be like to independently negotiate 
a trade deal; or have their legislature be able to annul Federal law?
    Madame Chair, I feel that this Subcommittee's hearing is important 
so that the people of Puerto Rico are dealt with honestly. For decades, 
we have allowed for the realm of possibilities and it is now time for 
the realm of reality. We need to give them a process steeped in both 
historical and constitutional precedence.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Chairman. It is also my 
distinct pleasure to recognize the Ranking Member of the full 
committee, the gentleman from Alaska, Mr. Young, for any 
statement he might wish to make.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Madame Chairman, and I will submit 
for the record my total statement, because much of what is in 
my statement has already been said by Luis Fortuno.
    I am a proud sponsor of H.R. 900. As you know, this is not 
new to me. We passed this out of the committee very nearly 
unanimously. We had a margin of about 50 votes on the Floor 
until the morning we had the vote, and the English first group 
came out in droves, and they ended up passing it by one vote.
    I don't believe that will happen this time. I am very 
excited about this bill in the sense it is very similar to the 
one we passed before. I will say that the counter-proposal 
causes me great concern, because I do believe in my heart of 
hearts that bill is dead on arrival.
    We might work out something a little different than 900, 
but what was asked by the Governor is an impossibility, and 
there will be no action in this Congress.
    So my goal is to continue to go forth, try to solve this I 
think long-overdue challenge for the people of Puerto Rico. And 
I want to thank the people of Puerto Rico. As you know, I have 
been down there many times, and it is an area which I truly 
love, and the people.
    We had our 45th wedding anniversary in Puerto Rico. And I 
couldn't think of a better person. And whoever has got that 
cell phone, they had better shut it off.
    I really, really appreciate the passion the Puerto Rican 
people have on this issue and other issues. If you have never 
been to a horse race or a cockfight in Puerto Rico, you haven't 
really experienced excitement.
    So Madame Chair, with that, I yield back the balance of my 
time.
    [The prepared statement of Mr. Young follows:]

       Statement of The Honorable Don Young, Ranking Republican, 
                     Committee on Natural Resources

    Madame Chairwoman, thank you for holding this hearing today and for 
a balanced line-up of witnesses.
    First off, let me say I'm a proud cosponsor of H.R. 900, a bill 
authored by my good friend, Mr. Fortuno, the Ranking Republican of this 
Subcommittee, and Congressman Serrano.
    Many in the room today are familiar with my experience dealing with 
this issue. In the 105th Congress, I sponsored a bill, H.R. 856, to 
resolve the political status of Puerto Rico. My principle aim was to 
consider the status question in a manner that complied with the 
Constitution and that bore in mind the aspirations of the people of 
Puerto Rico to determine their future.
    After three committee hearings, including two in Puerto Rico, the 
Committee passed the bill, and so did the House.
    While H.R. 900 is somewhat different from the bill I sponsored in 
1997, it conforms to my basic goal, which is to enable the people of 
Puerto Rico to determine their status in a manner that is democratic 
and consistent with historic, legal, and constitutional precedents.
    This is not really a ``statehood bill,'' or an ``independence 
bill,'' or a ``status quo'' bill per se. This is a procedural bill, one 
that allows for a transparent, democratic process to resolve the status 
question.
    I recognize and respect the aims of those who support H.R. 1230. 
But I have some fundamental problems with the bill.
    First, it contemplates an outcome which may be unconstitutional. It 
would give Puerto Rico a chance to have a ``new Commonwealth'' status 
that gives it all the benefits of statehood but without the same 
application of federal law as all other states must bear.
    And aside from the constitutional problem, I don't believe the 
House would pass a bill allowing for this arrangement.
    Another problem is that the bill seems to avoid the open, 
democratic process set forth under H.R. 900. This may tend to create 
confusion among residents of Puerto Rico who want to settle the status 
question in a directly democratic fashion.
    I applaud Chairwoman Christensen for holding a hearing to focus on 
some of these academic and constitutional questions surrounding these 
bills.
    I would urge my colleagues to carefully consider what process to 
use and focus first and foremost on which bill conforms most closely to 
the Constitution.
                                 ______
                                 
    Ms. Christensen. Thank you, Ranking Member Young. The Chair 
now recognizes the author of H.R. 900, Representative Serrano, 
for any statement he may have.

    STATEMENT OF THE HON. JOSE SERRANO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Serrano. Thank you. I really appreciate this 
opportunity to participate in this hearing. And you would be 
interested to know that both Ms. Velazquez and I left SBA 
hearings. She is Chairman of the SBA Committee, and I on 
Appropriations overseeing SBA's budget. So SBA took second to 
Puerto Rico today, as it should on any given day.
    Let me just comment on the fact that I may be a member, the 
leader of a group that only has one member: me. And that is 
anything but the colonial status of Puerto Rico. I know that 
one of the favorite pastimes in Puerto Rico is trying to figure 
out whether I support statehood or independence.
    I think that is the problem; that for so many years we 
Puerto Ricans have been asked to be in favor of something, when 
in fact we should have organized ourselves to be against the 
colonial status. Get rid of the colony, move it out of the way, 
and then roll the dice on what comes later and deal as brothers 
and sisters on the island and in Congress.
    And it is with that in mind that I joined Mr. Fortuno. I 
have always proposed the idea that Puerto Rico first must 
decide whether it wants to remain in this relationship, or 
change.
    And so H.R. 900 gives us an opportunity to make that 
decision. And then it puts forth either integration or 
separation from the American Union as the true alternative.
    Now, why do I believe that that is correct? I believe that 
there are things in life that border, or are, in fact, issues 
of morality. And I believe as a legislator of 33 years that 
there is such a thing as legislative morality. So I believe 
that it is legislatively immoral to present to the people of 
Puerto Rico a colonial option as one of its choices.
    You cannot, in the true American, democratic, 
constitutional tradition say I give you the choice of joining 
the Union as a full partner; I give you the choice of becoming 
a member of the world community as an independent nation; but I 
also give you the choice of becoming even a stronger colony. 
Such a thing doesn't exist, and that is why I have always 
proposed.
    Now, I have to tell you that we make compromises when we 
want to get something done. So I am not happy with the opening 
statement of H.R. 900 that says that you wish to remain the 
same. But I know I can't move to step two if we don't ask that 
question first. Given a choice, I would never ask that 
question. I would simply say statehood or independence, and 
that is the choice.
    Now, a comment that was made by our Chairwoman I think 
merits a comment from me. You say that you like a process that 
starts from the bottom up. That makes the assumption that the 
people of Puerto Rico will decide their political future.
    It wasn't Puerto Rico that invaded the United States in 
1898. It was the United States that invaded Puerto Rico. We 
have been holding the colony for 109 years. We have to 
determine whether we want to integrate the colony, or dispose 
of the colony.
    But the U.S. Congress first has to make the determination 
that this can't continue, and it has to make that change.
    Now, as well was said by Mr. Fortuno, which is interesting, 
no one in Puerto Rico supports the present status. When they 
say they support commonwealth, they support a new commonwealth, 
which I call a letter to the Three Kings or a letter to Santa 
Claus. Because it says let me be a state, but let me be an 
independent nation; let me change, but not change.
    Does Puerto Rico deserve that after 109 years of 
colonialism? Absolutely. And I would vote for it. Can any 
Member of Congress outside of three or four of us vote for 
that? Absolutely not. Because as it was said here, if you go 
back to your district, somebody is going to ask you that Sunday 
morning in church, what was it that you gave Puerto Rico that 
you can't give my district. And that is the problem, that it is 
not realistic.
    Now, also it was said that nothing may change the economics 
of Puerto Rico. Well, tomorrow we are voting to give the 
District of Columbia a vote. I will vote for that. Because we 
know what that integration means. We are also promoting 
democracy throughout the world, which is good. We know what 
that means. That is an independent nation, right?
    Well, let us face it. Both of those do guarantee certain 
strong futures. It is the colonial status that guarantees no 
future at all.
    We still live in this Congress in a situation that is sad. 
I keep bringing up the fact that people have told me at times 
can I get them stamps for their collection from Puerto Rico. 
And I still tell the story of the Member of Congress, who is 
still a Member of Congress, who asked me for currency from 
Puerto Rico from his collection. So I took a dollar bill from 
my pocket and gave it to him. And I think that person got the 
message.
    [Laughter.]
    Mr. Serrano. In order for us to move ahead, we have to 
determine whether we are serious or not. I really would beg 
those who support the commonwealth to accept the reality that 
there is such a thing as an enhanced commonwealth; it is called 
free association. You have to move toward that if you truly 
believe in an enhanced commonwealth.
    But to continue to ask for a commonwealth that is colonial 
in nature is a disservice to the people of Puerto Rico, is a 
disservice to this country, and it is a disservice to democracy 
throughout the world.
    I will not rest until the colony is gone. It served a 
purpose for a long time perhaps, and I give credit to those who 
took it from where it was to where it is. But it was never the 
intention of the founders of the commonwealth to keep it as a 
permanent condition, and it is a condition.
    And so I find myself today in a unique situation, a 
situation similar or identical to what Nydia finds herself in. 
We were both born in the colony, and now we serve in the 
Congress of the power that holds the colony. As a Puerto Rican, 
I don't want my birthplace to be a colony. As an American 
Congressman, I think it is indecent that my country has 
colonies in 2007. And this must end.
    For that reason I proposed this bill. For this reason I 
think that the American family will resolve this problem 
jointly, and the Puerto Rican family will do the same.
    Thank you.
    Ms. Christensen. Thank you, Mr. Serrano. Before I move to 
the author of H.R. 1230, I ask unanimous consent that the 
gentleman from Illinois, Mr. Weller, be allowed to sit on the 
dais and participate in the hearing. Hearing no objections, so 
ordered.
    I also understand, Mr. Weller, that you need to leave us in 
a few minutes? And we are limiting our opening statements, but 
I will allow you to acknowledge the witnesses that have 
traveled today.

    STATEMENT OF THE HON. JERRY WELLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Weller. Madame Chair, let me just thank you for the 
courtesy of being able to join you and our colleagues on this 
very, very important Subcommittee.
    I come here today both to support H.R. 900, as well as to 
echo the comments of the lead sponsors of H.R. 900, my friend, 
Jose Serrano, as well as Luis Fortuno, the elected 
representative of the people of Puerto Rico on behalf of H.R. 
900.
    I believe Congress has a role to play, and I also believe 
that H.R. 900 puts into place the appropriate response. I have 
been a witness as well as a participant in this process over 
the last 12 years. For some it has been frustrating, but I 
believe H.R. 900 provides the true answer.
    I have a much longer statement I would like to submit for 
the record. But again, I am here to support H.R. 900. And 
Madame Chairman, thank you very much for the courtesy of 
allowing me to present my very brief comments, as well as to 
express my support. Thank you.
    [The prepared statement of Mr. Weller follows:]

 Statement of The Honorable Jerry Weller, a Representative in Congress 
                       from the State of Illinois

    Madam Chairwoman, I am here today to support H.R. 900, the Serrano-
Fortuno bill, because I believe Congress has a role to play and a 
responsibility to enable a process to achieve democratic majority rule 
in Puerto Rico on the status issue.
    The history of frustrating and disagreeable locally sponsored 
status votes teaches us that a three way choice among options that 
include a commonwealth definition already repeatedly rejected by 
Congress virtually ensures minority rule in the form of indecisive 
plurality votes.
    We need to sponsor a vote with a ballot that enables a majority to 
vote to continue the current status as defined by federal law, or to 
seek change. Only if a majority vote to seek a new status would there 
ever be a vote on statehood or some form of nationhood, either 
independence or free association. So who is afraid of majority rule, 
and how is it unfair?
    I have heard all the hype about exclusion of commonwealth as an 
option, and it is just not true. This bill is fair to commonwealth as 
it really is under current federal law, and may even give it an 
advantage by asking voters to choose between the known and the unknown.
    What is not fair is to return to the practice of asking voters to 
choose among unattainable options defined in the ideological hot house 
of local politics, without any federally sponsored process of 
legitimate and informed self-determination based on constitutionally 
defined options.
    H.R. 1230 will invite yet another agonizing debate and inconclusive 
process focused on an option that is not legally possible or 
politically realistic. That does not empower people, that disempowers 
people.
    We should not waste any more time on the notion of a bilateral 
compact to make Puerto Rico a separate nation under the American flag. 
I agree with those who believe this is just a delaying tactic to 
preserve the status quo. The only way the status quo should be 
preserved any longer is if the majority consent to it in a democratic 
process, and that is what H.R. 900 ensures.
    So we need to shift the focus away from flawed ideology and delay 
tactics embodied in H.R. 1230, and focus on the real issue and 
legitimate self-determination as proposed by H.R. 900.
    I know there are economic and political arguments that can be made 
for and against statehood. Personally, I think statehood is probably he 
best way to ensure that Puerto Rico will develop economically, so that 
the current $15 billion federal subsidy of commonwealth status ends, 
and Puerto Rico can prosper enough to afford to pay its own way in the 
union. Every territory that has become a state has developed and risen 
to and with the level of the national economy.
    I also think it is silly to try to predict whether Puerto Rico will 
send more Democrats or Republicans to Congress if it becomes a state, 
because they elect both Republicans and Democrats now, and they are not 
different than the rest of the U.S. politically. What really matters is 
whether they have full democratic participation, because what we know 
is that both parties are competitive in Puerto Rico and will thrive 
when Americans in Puerto Rico not only attend the national party 
conventions, but vote in the elections that follow.
    However, I don't think the economic and political arguments are as 
important as the constitutional and moral issues. The territorial 
clause in Article IV of the Constitution was never intended to result 
in a century of territorial status for what is now close to 4 million 
U.S. citizens in Puerto Rico.
    How can 4 million U.S. citizens be represented by one non-voting 
member of the House?
    Madame Chairwoman--thank you for the opportunity to share my 
thoughts and testimony here today.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Weller. The Chairman now 
recognizes the author of H.R. 1230, Representative Velazquez, 
for any statement she may have.
    Ms. Velazquez. Thank you.
    Ms. Christensen. And my Chairwoman of the Small Business 
Committee.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Chairwoman Christensen and 
Minority Ranking Member Fortuno, for holding this important 
hearing today.
    I appreciate the opportunity to be here and offer my views 
on H.R. 1230, the Puerto Rico Self-Determination Act of 2007.
    My friends, here we are today debating on the House Floor a 
supplemental regarding the war in Iraq. And we, the U.S. 
Congress, we are in Iraq because we want to empower the people 
of Iraq.
    Well, I am here to empower the people of Puerto Rico. And 
we should not be afraid to provide for a political vehicle that 
will allow the people of Puerto Rico, who live in Puerto Rico, 
come to terms regarding their political destiny.
    I am a Puerto Rican Member of the U.S. Congress, and I will 
not go to Puerto Rico to tell the people of Puerto Rico what is 
the best political option for them. That is a decision that 
they have to make.
    The path to self-determination for the people of Puerto 
Rico has been a long, difficult one. It is full of complex 
factors that warrant thorough discussion in order to make an 
informed decision.
    Previous Congressional initiatives have focused on defining 
what the options should be for the people of Puerto Rico, but 
the truth is Puerto Ricans themselves should decide what their 
options are. That is why I introduced H.R. 1230, the Puerto 
Rico Self-Determination Act, along with Congressman Gutierrez--
that by the way is not here at this moment because he is 
holding a press conference to announce legislation on 
immigration--and Congressman Wicker, to recognize that it is 
the people of Puerto Rico who are best suited to determine 
their political future.
    The residents of the island need to examine the factors 
themselves, the economic, legal, and social issues that are 
coming into play. Most importantly, it must be done in a way 
that allows their opinions to be both heard and considered.
    Puerto Rico has not only a natural right to self-
determination, but it is also entitled to a process that allows 
an informed use of that right. You cannot ask or even expect 
people to choose their future without debating what their 
options are, and what consequences may arise.
    A democratic self-determination process ensures that people 
are able to debate their ideas and reach consensus themselves 
on how to proceed. Plebiscites or referendums do not lend 
themselves to a comprehensive and thoughtful process. 
Arbitrarily defined Federal concepts that require the Puerto 
Rican people to choose in a yes-or-no format are not consistent 
with the practices of self-determination.
    I want to take a moment to remind the Committee today that 
this process will impact eight million Puerto Ricans living in 
our states and on the island. Congressmen Gutierrez, Serrano, 
and myself have a significant number of Puerto Rican 
constituents in our districts, as well as family and friends 
still living on the island. We must make sure that all of their 
opinions are taken into account during this vital discussion.
    It is for this reason that I am strongly encouraging that 
this Subcommittee hold hearings on this issue in Puerto Rico, 
New York, Chicago, and Orlando, so that local community leaders 
and the general public have an opportunity to participate in 
this historic process. These discussions cannot take place on 
Capitol Hill alone, and needs to be seen in the light of day 
for the Puerto Rican community to see and participate.
    Chairwoman Christensen, I appreciate the time you have 
granted me today to share my thoughts on this important issue. 
I am hopeful that under your leadership, this hearing will lead 
to consensus, dialogue, and a fair process for the people of 
Puerto Rico. They simply cannot afford to spend time watching 
yet another round of hearings that in the end only compound the 
already-existing divisions among groups in Puerto Rico.
    This is a complicated issue which draws many emotions from 
the people in Puerto Rico and those Puerto Ricans living in the 
States that feel passionately about their future. We have an 
opportunity before us to address this issue in a comprehensive, 
fair, and transparent manner.
    I look forward to working with you and the Members of the 
Subcommittee in providing the people of Puerto Rico with an 
unbiased approach that guarantees a true expression of the 
right to self-determination and their aspirations.
    Thank you very much.
    [The prepared statement of Ms. Velazquez follows:]

  Statement of The Honorable Nydia M. Velazquez, a Representative in 
                  Congress from the State of New York

    Thank you, Chairwoman Christensen, for holding this hearing today. 
I appreciate the opportunity to be here and offer my views on H.R. 
1230, The Puerto Rico Self-Determination Act of 2007.
    The path to self-determination for the people of Puerto Rico has 
been a long, difficult one. It is full of complex factors that warrant 
thorough discussion in order to make an informed decision. Previous 
congressional initiatives have focused on defining what the options 
should be for the people of Puerto Rico. But the truth is--Puerto 
Ricans themselves should decide what their options are.
    That is why I introduced, H.R. 1230, ``The Puerto Rico Self-
Determination Act'', along with Congressmen Gutierrez and Wicker, to 
recognize that it is the people of Puerto Rico who are best suited to 
determine their political future. The residents of the island need to 
reexamine the factors themselves--the economic, legal and social 
issues--that are coming into play. Most importantly, it must be done in 
a way that allows their opinions to be both heard and considered.
    Puerto Rico has not only an inalienable right to self-
determination, but it is also entitled to a process that allows an 
informed use of that right. You cannot ask, or even expect, people to 
choose their future without debating what their options are and what 
consequences may arise.
    A democratic self-determination process ensures that people are 
able to debate the ideas and reach consensus themselves on how to 
proceed. Plebiscites or referendums do not lend themselves to a 
comprehensive and thoughtful process. Arbitrarily defined federal 
concepts that require the Puerto Rican people to choose in a yes or no 
format are not consistent with the practices of self-determination.
    I want to take a moment to remind the committee today that this 
process will impact 8 million Puerto Ricans living in our states and on 
the island. Congressman Gutierrez, Serrano and myself have a 
significant number of Puerto Rican constituents in our districts, as 
well as family and friends still living on the island. We must make 
sure that all of their opinions are taken into account during this 
vital discussion.
    It is for this reason that I am strongly encouraging that this sub-
committee hold field hearings on this issue--in New York, Chicago, 
Orlando and of course, in Puerto Rico; so that local community leaders 
and the general public have an opportunity to participate in this 
historic process. These discussions cannot take place on Capitol Hill 
alone. It needs to be seen in the light of day for the Puerto Rican 
community to see and participate.
    Chairwoman Christensen, I appreciate the time you have granted me 
today to share my thoughts on this important issue. I am hopeful, that 
under your leadership, these hearings will lead to consensus, dialogue 
and a fair process for the people of Puerto Rico. They simply cannot 
afford to spend time watching yet another round of hearings that, in 
the end, only compound the already existing divisions among groups in 
Puerto Rico.
    This is a complicated issue which draws many emotions from the 
people in Puerto Rico, and those Puerto Ricans living in the states, 
that feel passionately about their future. We have an opportunity 
before us today to address this issue in a comprehensive, fair and 
transparent manner.
    I look forward to working with you and the Members of the Sub-
committee on Insular Affairs in providing the people of Puerto Rico 
with an unbiased approach that guarantees a true expression of their 
right to self-determination, and their aspirations.
                                 ______
                                 
    Ms. Christensen. Thank you, Congresswoman Velazquez.
    I want to welcome also to the hearing today my fellow 
delegates, Congressman Eni Faleomavaega of American Samoa; Ms. 
Madeleine Bordallo, Congresswoman Madeleine Bordallo of Guam; 
and Congressman Patrick Kennedy of Rhode Island.
    I would now like to thank those who responded to the 
Subcommittee's call to hear from organizations that may not 
have had the opportunity to be heard by Congress in the past.
    We received a great number of requests to appear before us, 
and we were not able to accommodate all requests.
    However, if there are no objections, I would like to take 
this opportunity to enter into the record the statements of the 
following people:
    Mr. Ricardo Alvarado; Mr. Carlos Chardon; Mr. Jose Julio 
Diaz,, President of the New Statehood Movement; Lieutenant-
Colonel Freytes; Mr. Arturo Guzman, Chairman of the Institute 
for the Development, Equality, and Advancement of Puerto Rico; 
The League of United Latin American Citizens; Mr. Joaquin 
Marquez, President of the Puerto Rican-American Foundation; Mr. 
Juan Manuel Garcia Passalacqua; Juan Jose Nola Acosta; Ms. Luz 
E. Cuadrado Pitterson; Mr. Mario Porrata; Mr. Dennis Simmons; 
and Dr. Marissel Velazquez-Vicente, President of the Puerto 
Rico Association of Physicians and Surgeons.
    And hearing no objections, so ordered.
    [NOTE: The statements submitted for the record have been 
retained in the Committee's official files.]
    Ms. Christensen. I would now like to call up the first 
panel. Mr. Kenneth Thomas of the Congressional Research 
Service; Professor Carlos I. Gorrin-Peralta of Puerto Rico's 
Inter-American University School of Law; Mr. Ramon Luis Nieves, 
the Executive Director of Movimiento Autonomista 
Socialdemocrata; Professor Richard Pildes of New York 
University School of Law; and Thomas C. Goldstein, a lawyer 
with the firm of Akin Gump Strauss Hauer & Feld.
    The Chair now recognizes Mr. Thomas to testify for five 
minutes. The timing lights on the table will indicate when your 
time is concluded, and all witness statements will be 
submitted, the full statements will be submitted for the 
hearing record.
    Mr. Thomas.

STATEMENT OF KENNETH R. THOMAS, LEGISLATIVE ATTORNEY, AMERICAN 
          LAW DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Mr. Thomas. Madame Chairwoman and Members of the committee. 
My name is Ken Thomas, and I am a legislative attorney with the 
American Law Division of the Congressional Research Service at 
the Library of Congress.
    I would like to thank you for inviting me to testify today 
regarding the committee's consideration of H.R. 900, the Puerto 
Rico Democracy Act of 2007, and H.R. 1230, the Puerto Rico 
Self-Determination Act of 2007. I would also like to thank 
Johnny Killian, Sam Garrett, and Keith Bee of my office who 
helped me in preparation for this hearing.
    I would like to start my discussion with H.R. 900. H.R. 900 
is based on the recommendations of the President's Task Force 
on Puerto Rico's Status. That task force report states that 
there are three constitutionally valid options available to the 
island: independence, statehood, or the continuation of the 
commonwealth status, subject to the territorial clause of the 
U.S. Constitution.
    Under H.R. 900 there would be a plebiscite to ask voters to 
choose between the current commonwealth status or a permanent 
non-territorial status. If a majority of voters chose the 
second options, then a second plebiscite would be held to 
choose between statehood or independence, the latter of which 
would include free association.
    The second bill, H.R. 1230, contemplates convening a Puerto 
Rican Constitutional Convention, which would formulate a status 
option to be voted on in a public referendum. If approved, that 
option would be presented to Congress to be passed as a joint 
resolution.
    There are several aspects of H.R. 1230 that are of special 
note. While a Constitutional Convention could formulate any one 
of there options--again, statehood, independence, or 
commonwealth--any commonwealth status proposed would need to be 
new or modified. Under H.R. 1230 this appears to mean that a 
commonwealth status would be ``based upon the sovereignty of 
the people of Puerto Rico, and not subject to the plenary 
powers of the territorial clause of the Constitution of the 
United States.''
    Now, the territorial clause, found in Article IV, Section 
3, Clause 2 of the Constitution, provides that the Congress 
shall have the power to dispose of and make all needful rules 
and regulations respecting the territory or other property 
belonging to the United States.
    Now, the Supreme Court has held that Congress's power under 
the territorial clause is extremely broad, and can be exercised 
even after the authority to govern has been delegated to a 
territorial government. So the question which needs to be asked 
is what is this new or modified commonwealth option which could 
be proposed by the convention, under H.R. 1230?
    While I would first like to suggest that the language under 
H.R. 1230 is ambiguous to exactly how this commonwealth status 
would be formulated--for instance, this bill, unlike previous 
recommendations, seeks to withdraw Federal jurisdiction over 
Puerto Rico in order to achieve the goal of a new commonwealth.
    Now, it is not clear how far this withdrawal of Federal 
jurisdiction is intended to go. For instance, one could argue 
that this language means that if the Constitutional Convention 
approves a particular definition of new commonwealth or a 
particular governmental structure, and Congress approves it, 
then it is that definition that could not be changed by the 
Federal government.
    In other words, the convention could adopt something like 
the current commonwealth, where there is both an existing 
Puerto Rican self-government, but there is also Federal 
jurisdiction, there are Federal criminal laws, Federal civil 
laws applicable. That is one interpretation. And this I would 
refer to as locking in the commonwealth.
    Now, another possible interpretation would be that 
commonwealth status cannot be considered unless it eliminates 
all Federal jurisdiction over the territory of Puerto Rico; 
again, a very different possible type of commonwealth.
    Now let me briefly address the idea of locking in 
commonwealth status. Now, I should first say that it is 
perfectly consistent with the Constitution for the Congress to 
commit itself not to exercise Federal jurisdiction over the 
commonwealth, and it is certainly perfectly constitutional for 
the Congress to act consistently with that pledge.
    The question is whether the Congress can, by statute, bind 
a further Congress so that such a statute cannot be repealed or 
altered.
    Now, some commentators had argued that perhaps the Fifth 
Amendment due process clause would be relevant here, in that 
you could have vested political rights that cannot be 
withdrawn.
    Now, without addressing these arguments in particular, let 
me just note that H.R. 1230 does not appear to be based on the 
enforcement of Federal rights, but instead on the elimination 
of Federal jurisdiction. Consequently, the vested political 
right argument may not be relevant to this bill.
    Now, one might also consider the alternative 
interpretation, where passage of a newer enhanced commonwealth 
would not just lock in commonwealth status, but it would also 
remove all Federal jurisdiction over the island of Puerto Rico. 
This interpretation also raises constitutional issues.
    The portion of the Constitution which appears to be most 
relevant here is, of course, Article IV, Section 3, which 
addresses both the power to grant statehood and the power to 
regulate or dispose of territories.
    Now, these powers are consistent with three possible 
options: statehood, territorial status such as commonwealth, or 
independence.
    However, 1230 does not specify an alternative 
constitutional authority under which Congress could act to 
create a commonwealth which is not subject to the territorial 
clause.
    You will hear--excuse me.
    Ms. Christensen. You have a few seconds to wrap up.
    Mr. Thomas. Madame Chairwoman, that concludes my prepared 
statement. I would be happy to answer any questions that you or 
other Members of the Subcommittee may have.
    Thank you.
    [The prepared statement of Mr. Thomas follows:]

  Statement of Kenneth R. Thomas, Legislative Attorney, American Law 
     Division, Congressional Research Service, Library of Congress

    Madame Chairwoman and members of the Committee:
    My name is Ken Thomas. I am a Legislative Attorney with the 
American Law Division of the Congressional Research Service at the 
Library of Congress. I'd like to thank you for inviting me to testify 
today regarding the Committee's consideration of H.R. 900, the ``Puerto 
Rico Democracy Act of 2007'' and H.R. 1230, the ``Puerto Rico Self-
Determination Act of 2007.'' I'd also like to thank Sam Garrett, an 
analyst with our Government and Finance Division, who helped me in my 
preparation for this hearing.
    Today, I would like to discuss the specifics of these two bills, 
including how they might be interpreted by a court and how they would 
interact with United States Constitution. Let me start with H.R. 900, 
which would authorize various plebiscites to be held in Puerto Rico on 
the issue of status. Under H.R. 900, a plebiscite would be held to ask 
voters to choose between two different status options, both of which 
are specified in the bill. The first option would be to continue ``the 
existing form of territorial status as defined by the Constitution, 
basic laws, and policies of the United States.'' The second option 
would be to pursue ``a path toward a constitutionally viable permanent 
nonterritorial status.'' If a majority of voters in this first 
plebiscite were to choose the option of maintaining the status quo, 
H.R. 900 would then call for additional plebiscites to be held every 
eight years to reexamine the voters' status preferences. On the other 
hand, if a majority of voters chose the second option, ``a path toward 
a constitutionally viable permanent nonterritorial status,'' H.R. 900 
would authorize a second plebiscite. In this second plebiscite, voters 
would be asked to choose between:
    (1) statehood or (2) becoming a ``sovereign nation.'' The second 
option would include either complete independence or entering into a 
``free association'' relationship with the United States. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ A ``free association'' relationship generally entails 
negotiated legal and economic ties, severable by either side, between 
sovereign nations.
---------------------------------------------------------------------------
    The process contemplated by H.R. 900 is based on the 
recommendations of the President's Task Force on Puerto Rico's Status 
(Task Force). <SUP>2</SUP> The Task Force was established by President 
Clinton in 2000 to, among other things, identify options for the 
territory's future political status and suggest a process for realizing 
such options. <SUP>3</SUP> In December of 2005, the Task Force issued a 
report on Puerto Rico's relationship with the federal government. The 
report asserted that there are only three constitutionally valid 
options available to the island: (1) independence; (2) statehood; or 
(3) continuation as a U.S. territory subject to the Territorial Clause 
of the U.S. Constitution. The provisions of H.R. 900 were drafted to be 
consistent with this finding.
---------------------------------------------------------------------------
    \2\ See U.S. President's Task Force on Puerto Rico's Status, Report 
by the President's Task Force on Puerto Rico's Status (2005) (Task 
Force Report).
    \3\ Executive Order No. 13183, 65 FR 82889 (2000).
---------------------------------------------------------------------------
    By contrast, H.R. 1230 appears to contemplate a method for 
addressing the status relationship between Puerto Rico and the federal 
government that differs significantly from both the process and the 
status options suggested by the Task Force. One significant difference 
is that H.R. 1230 contemplates the convening of a Puerto Rican 
constitutional convention, which would formulate a status option to be 
considered by the people of Puerto Rico and the Congress. The convening 
of the convention, however, would be one part of a multi-step process. 
First, the Puerto Rican government would approve legislation 
establishing the number of delegates to the convention. Then, an 
election would be held in Puerto Rico to select those delegates. Once 
the constitutional convention was convened, the convention delegates 
would be asked to agree on a proposed ``Self-Determination Option'' for 
Puerto Rico. The convention's proposal would then be presented to ``the 
People of Puerto Rico'' in a referendum. Finally, if a majority of 
referendum voters approved the proposed status option, it would become 
a ``Self-Determination Proposal,'' which would then be presented to 
Congress to be passed as a joint resolution.
    The process suggested by H.R. 1230, however, would not necessarily 
end if the ``Self-Determination Proposal'' is passed or rejected by 
Congress. If Congress were to make any changes to the proposal before 
passage, then Sec. 4(a)(1) of the bill provides that these changes 
would be submitted to the Puerto Rican voters for approval in another 
referendum before the proposal could take took effect. On the other 
hand, if Congress rejected the proposed status option outright, 
Sec. 4(a)(2) provides that the constitutional convention may reconvene 
to develop a new proposal.
    There are several aspects of H.R. 1230 that are of special note. 
First, a ``Self-Determination Option'' can involve Commonwealth status, 
statehood or independence. However, if the Commonwealth status is 
chosen, it must be a ``new or modified'' Commonwealth. This language 
appears to be related to the further requirement that, whatever status 
is chosen--Commonwealth, statehood or independence options--it must be 
``based on the sovereignty of the People of Puerto Rico and not subject 
to the plenary powers of the territorial clause of the Constitution of 
the United States.'' This language stands in contrast to the Task Force 
report, which suggests that at least one of the status options, 
Commonwealth, cannot be formulated in a way that is not subject to 
Congress' power under Territorial Clause.
    Of additional interest is the process to be followed by the 
Congress in the event that a ``Self-Determination Proposal'' is sent to 
the Congress by the convention. H.R. 1230 provides that if such option 
is submitted to Congress, then a joint resolution ``shall'' be enacted 
approving both the terms of the proposal and any necessary implementing 
language. At first impression, the use of the term ``shall'' would 
appear to contemplate that Congress would be required, under the bill, 
to accept the status option submitted by the convention. As will be 
discussed later, such an interpretation of this language may raise 
constitutional concerns.
    One thing that the two bills do have in common is that they would 
both allow Puerto Ricans living off the island to participate in the 
proposed status decision-making. H.R. 900 would allow ``all United 
States citizens born in Puerto Rico'' who satisfy eligibility 
requirements set by the Puerto Rico State Elections Commission to 
participate in the plebiscites. The bill would thus allow Puerto Ricans 
born on the island, but not living there today, to participate in the 
plebiscites. H.R. 1230, on the other hand, appears to allow even 
broader suffrage. Although ``voter eligibility'' is not as explicitly 
addressed as it is in H.R. 900, the bill specifies that the ``People of 
Puerto Rico'' would participate in electing constitutional convention 
delegates and in the referendum on the convention's self-determination 
proposal. The ``People of Puerto Rico'' is defined to include resident 
Puerto Ricans and nonresidents ``who are either born in Puerto Rico or 
have one parent born in Puerto Rico.''
    At this point, I would like to briefly give some background on the 
political status of Puerto Rico. After the end of the Spanish-American 
War, the United States and Spain signed the Treaty of Paris, which 
resulted in Spain relinquishing its claims to various holdings in the 
Caribbean, including Puerto Rico. The island was then governed by a 
U.S. military governor from 1898 through1900.
    In 1900, the Congress passed the Foraker Act, under which Puerto 
Rico became an organized territory of the United States. <SUP>4</SUP> 
This Act included numerous provisions to raise revenue, and it provided 
Puerto Rican citizenship for inhabitants of the island who chose not to 
remain Spanish citizens. The Act also established a civilian government 
in Puerto Rico, and provided for a non-voting Resident Commissioner to 
act as the island's representative in Congress.
---------------------------------------------------------------------------
    \4\ Foraker Act of April 12, 1900, ch. 191, 31 Stat. 77 (1900).
---------------------------------------------------------------------------
    Soon thereafter, the Supreme Court began a consideration of the 
island's constitutional status in what have become know as the Insular 
Cases. <SUP>5</SUP> For instance, in the case of Downes v. Bidwell, 
<SUP>6</SUP> the Court considered whether the constitutional 
requirement that duties, excises and imposts were to be uniform 
throughout the United States <SUP>7</SUP> applied to Puerto Rico. 
Justice White, in concurrence, established the territorial 
incorporation doctrine, which was ultimately used in the other Insular 
Cases. Under this doctrine, incorporated territories would enjoy all of 
the Constitution's protections, but unincorporated territories, such as 
Puerto Rico, would only enjoy fundamental constitutional rights and 
those additional civil rights that Congress provided by statute.
---------------------------------------------------------------------------
    \5\ See, e.g., Downes v. Bidwell, 182 U.S. 244 (1901); Dorr v. 
United States, 195 U.S. 138 (1904); Balzac v. Porto Rico, 258 U.S. 298 
(1922).
    \6\ 182 U.S. 244 (1901).
    \7\ U.S. Const. Art. I, Sec. 8, cl. 1.
---------------------------------------------------------------------------
    In 1917, Congress passed an Organic Act for Puerto Rico, which is 
popularly known as the Jones Act. <SUP>8</SUP> Among other things, the 
Act granted a bill of rights and statutory citizenship to the people of 
Puerto Rico. In 1950, the Congress passed the Puerto Rican Federal 
Relations Act, <SUP>9</SUP> giving Puerto Rico the right to establish a 
government and a constitution. This law is considered to be the basis 
for the modern Commonwealth relationship. In 1951, a referendum was 
held which approved the provisions of this Act, and the island's 
electorate subsequently approved a new Puerto Rican constitution. The 
constitution was then amended and approved by Congress. Since that 
time, a series of local referendums and plebiscites have been held on 
the status issue, but no significant change in political status has 
occurred.
---------------------------------------------------------------------------
    \8\ Jones Act of March 2, 1917, ch. 145, 39 Stat. 951 (1917).
    \9\ Public Law 81-600, ch. 446, 64 Stat. 319 (1950).
---------------------------------------------------------------------------
    The nature of the existing Commonwealth relationship between Puerto 
Rico and the United States has long been controversial. It is clear 
that the creation of the Commonwealth was intended to establish a 
significant level of self-government for Puerto Rico. However, 
disagreement exists about whether this relationship, which was 
established in the ``nature of a compact,'' <SUP>10</SUP> was intended 
to be binding on both parties, so that changes to that relationship 
could only be made by mutual consent. A further question is whether, 
regardless of the intent of the parties, Congress can be 
constitutionally bound to observe such an agreement.
---------------------------------------------------------------------------
    \10\ The preamble to the Puerto Rican Federal Relations Act 
provides that: ``the Act is now adopted in the nature of a compact so 
that the people of Puerto Rico may organize a government pursuant to a 
constitution of their own adoption.'' Id.
---------------------------------------------------------------------------
    This debate is also important to the consideration of the status 
options provided for in the bills before the Committee. As noted, the 
Task Force has asserted that the only three constitutionally-recognized 
options available to the island are independence, statehood or 
continuation as a U.S. territory subject to the Territorial Clause. 
While H.R. 1230 also provides for three status options--independence, 
statehood or Commonwealth--it specifies that none of the status options 
shall be subject to the Territorial Clause. Assuming for the moment 
that the current Commonwealth status is subject to the Congress' power 
over territories, H.R. 1230 directly raises the issue of whether such a 
``new or modified'' Commonwealth option not subject to the clause is 
constitutionally permissible.
    Article IV, Sec. 3, cl. 2, the Territorial Clause, provides that 
``The Congress shall have power to dispose of and make all needful 
rules and regulations respecting the territory or other property 
belonging to the United States....'' The Supreme Court has held that 
Congress's power under the Territorial Clause is extremely broad:
        In the Territories of the United States, Congress has the 
        entire dominion and sovereignty, national and local, Federal 
        and state, and has full legislative power over all subjects 
        upon which the legislature of a State might legislate within 
        the State; and may, at its discretion, intrust that power to 
        the legislative assembly of a Territory. <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Simms v. Simms, 175 U.S. 162, 168 (1899).
---------------------------------------------------------------------------
    It should be noted, however, that the Supreme Court has also held 
that the Congress has wide discretion in how it can provide for self-
government in those territories:
        It must be remembered that Congress, in the government of the 
        Territories as well as of the District of Columbia, has plenary 
        power, save as controlled by the provisions of the 
        Constitution, that the form of government it shall establish is 
        not prescribed, and may not necessarily be the same in all the 
        Territories. We are accustomed to that generally adopted for 
        the Territories, of a quasi state government, with executive, 
        legislative, and judicial officers, and a legislature endowed 
        with the power of local taxation and local expenditures, but 
        Congress is not limited to this form.... It may legislate 
        directly in respect to the local affairs of a Territory or 
        transfer the power of such legislation to a legislature elected 
        by the citizens of the Territory. <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Binns v. United States, 194 U.S. 486, 491 (1904).
---------------------------------------------------------------------------
    If Congress delegates authority to local authorities, however, this 
does not limit Congress' continuing power to act in that territory 
under the Territorial Clause. In First National Bank v. County of 
Yankton, <SUP>13</SUP> the Court said:
---------------------------------------------------------------------------
    \13\ 101 U.S. 129 (1879)(upholding congressional authority over 
issuance of bonds by counties under the authority of a territory).
---------------------------------------------------------------------------
        All territory within the jurisdiction of the United States not 
        included in any State must necessarily be governed by or under 
        the authority of Congress. The territories are but political 
        subdivisions of the outlying dominion of the United States. ... 
        The organic law of a Territory takes the place of a 
        constitution as the fundamental law of the local government. It 
        is obligatory on and binds the territorial authorities; but 
        Congress is supreme, and for the purposes of this department of 
        its governmental authority has all the powers of the people of 
        the United States, except such as have been expressly or by 
        implication reserved in the prohibitions of the Constitution. 
        <SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ Id. at 132. See also Sere v. Pitot, 6 Cr. (10 U.S.) 332, 336 
(1810); American Insurance Co. v. Canter, 1 Pet. (26 U.S.) 511, 542 
(1828); Shively v. Bowlby, 152 U.S. 1, 48 (1894).
---------------------------------------------------------------------------
    Considering these parameters, the question arises as to how a court 
might interpret the language of H.R. 1230 which provides that all of 
the status options to be considered by the constitutional convention 
must ``be based on the sovereignty of the People of Puerto Rico and not 
subject to the plenary powers of the territorial clause of the 
Constitution of the United States.''
    A preliminary question with which a court might be concerned is 
just how broad an assertion of sovereignty is contemplated by the bill, 
as the quoted language may be seen as ambiguous. For instance, an 
argument might be made this language provides only that, once a status 
option is chosen and approved by Congress, it was the agreement itself 
which was no longer subject to Congress's power under the clause. 
Another interpretation would be that, whatever status option is chosen, 
that once that option is approved, the Congress would no longer be able 
to exercise its territorial power over Puerto Rico.
    If the first interpretation is correct, then this language would 
appear to be intended merely to ``lock in'' whatever status option was 
chosen by the Congress, by removing Congress' constitutional authority 
to amend the provisions of the enacted joint resolution. This 
interpretation would, of course, raise constitutional issues. In fact, 
it would appear to raise many of the same legal arguments that have 
been made over the course of years concerning the current Commonwealth 
status. In general, these arguments, while accepting the fact of 
continuing federal jurisdiction over the territory of Puerto Rico, have 
suggested that some essential portion of the existing political 
structure, such as the Puerto Rican Constitution, is beyond the 
Congress's power.
    The fundamental controversy in this regard appears to be whether 
the Congress can be bound by political status agreements. For two of 
the status options provided under H.R. 1230, this would not be a 
problem. There is little disagreement with the suggestion that, if 
Congress granted Puerto Rico statehood or independence, these decisions 
could not be reversed, and that under either of these options, Puerto 
Rico would no longer be subject to the Territorial Clause. Nor is there 
any question that Congress, after endorsing a Commonwealth status 
proposal, could refrain from modifying that decision, so that no issue 
of constitutional consequence would arise. Thus, the main point at 
issue is how the legislation as it is constructed is to be interpreted.
    It is not clear from H.R. 1230 what legal theory might be presented 
in this regard. Because of the similarity of the proposal to past 
theories regarding the Puerto Rican Commonwealth, one could postulate 
that some of the legal arguments made in that earlier context would be 
relevant. For instance, commentators have suggested that certain 
compacts granting self-governmental authority to a territory create 
``vested political rights.'' Under the Fifth Amendment, once the United 
States has vested a property right, then Congress cannot deprive a 
person of that property without due process of law; nor can that 
private property be taken for public use without providing just 
compensation. Under a ``vested political rights'' theory, a compact 
granting self-governmental authority to a territory could create such 
vested property rights, so that a subsequent Congress could not revoke 
the compact unilaterally. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ This theory of vested rights was apparently adopted by the 
Department of Justice in a 1963 legal opinion, and was reiterated as 
late as 1975. See Task Force Report, supra note 2 at 6. The Department 
of Justice apparently reconsidered this opinion after the 1986 Supreme 
Court decision in Bowen v. Agencies Opposed to Soc. Sec. Entrapment, 
477 U.S. 41, 54-56 (1986) (holding that a State's purported contractual 
right to withdraw its employees from Social Security was not a property 
right). Since that time, the Department of Justice has apparently held 
the opinion that a political compact cannot rise to the level of vested 
property rights. Id.
---------------------------------------------------------------------------
    It is not clear, however, how this argument could be applied to the 
situation contemplated by H.R. 1230. As noted, the ``vested political 
rights'' theory relies on precepts of due process and the takings 
doctrine, both of which are found in the Fifth Amendment. H.R. 1230, 
rather than invoking the application of these constitutional 
protections, focuses on diminishing the authority of Congress under the 
Territorial Clause. Arguably, the provisions of H.R. 1230 may even work 
against the strength of the ``vested political rights'' argument. As 
noted, the Insular Cases found that the degree to which constitutional 
rights were applicable in the territories was often to be determined by 
Congress under the Territorial Clause. However, to the extent that the 
Territorial Clause was deemed no longer applicable to the ``new or 
enhanced'' Commonwealth, then this would appear to diminish the 
argument that the constitutional prohibition against the deprivation of 
``vested political rights'' was still applicable to Puerto Rico.
    Considering the constitutional problems with the ``vested political 
rights'' theory, one might consider an alternative interpretation of 
proposed language under H.R. 1230. Under this second interpretation, 
the passage of a ``new or enhanced'' Commonwealth would result, not 
just in a ``locking in'' of the status relationship, but also in a 
removal of all federal jurisdiction over the island of Puerto Rico. 
This interpretation, however, may raise more significant constitutional 
issues. As the Congress is limited to its enumerated powers, it must be 
determined under what authority the United States Congress could 
establish such a status relationship.
    The portion of the Constitution which is most relevant to political 
status relationships is Article IV, Sec. 3, which addresses three 
powers of Congress: the power to grant statehood, the power to regulate 
territories, and the power to dispose of territories. These three 
powers are consistent with the three status options of statehood, 
Commonwealth subject to the Territorial Clause, and independence. H.R. 
1230 does not specify under that what alternative constitutional 
authority Congress could act to create a Commonwealth not subject to 
the Territorial Clause, and as noted above, the ``vested political 
rights'' theory that has been suggested in the past may not be 
applicable to H.R. 1230.
    Further, this second interpretation would result in a significant 
change in the relationship between federal government and Puerto Rico. 
Currently, a significant number of criminal or civil federal laws are 
applicable to Puerto Rico. To the extent that a ``new or enhanced'' 
Commonwealth would mean that there is a total loss of federal 
jurisdiction over Puerto Rico, this would suggest a more significant 
change in the existing Commonwealth relationship between Puerto Rico 
and the federal government than has generally been contemplated in the 
past. While it is certainly the case that the federal government could 
choose to amend federal laws to exclude their application to the Puerto 
Rico, this would not eliminate Congress's authority to reinstate such 
statutory provisions.
    Another issue is whether, under H.R. 1230, the Puerto Rican 
constitutional convention could evade some of these constitutional 
concerns by proposing an amendment to the United States Constitution. 
It seems clear that a constitutional amendment could be used to achieve 
the status option of a ``new or enhanced Commonwealth'' not subject to 
the plenary territorial powers of the Congress. Such a status is simply 
not achievable through a statutory route. Thus, to the extent that the 
constitutional convention were to provide a ``new or enhanced 
Commonwealth'' status option regarding Puerto Rico, it would appear 
likely that it would need to take the form of a constitutional 
amendment.
    On its face, H.R. 1230 does not specifically appear to limit a 
status option from being proposed as a constitutional amendment. There 
are certain aspects of the bill language which suggest that a proposed 
amendment to the Constitution would be appropriate. First, the bill 
provides that once a status proposal is submitted to Congress, that it 
shall be passed as a joint resolution, a legislative vehicle more 
commonly associated with special legislation such as constitutional 
amendments than with territorial legislation. Second, the bill itself 
speaks only in terms of Congressional approval of the joint resolution. 
<SUP>16</SUP> Normally, a joint resolution requires the approval of the 
President to become law. Thus, despite the failure to specify 
presidential participation, an interpretation of the bill would require 
either presidential participation or ratification by the states.
---------------------------------------------------------------------------
    \16\ See, e.g., H.R. 1230, Sec. 4(a)(1)(``If Congress approves the 
Self-Determination Proposal with any changes or amendments, it shall be 
submitted in a referendum vote to the People of Puerto Rico for 
approval before it shall be effective.'')
---------------------------------------------------------------------------
    A final provision of H.R. 1230 that should be considered is the 
requirement that Congress ``shall,'' by joint resolution, pass any 
proposal submitted by the Puerto Rican constitutional convention. The 
Supreme Court has held that a statute cannot bind a future Congress so 
that such statute cannot be repealed or altered. <SUP>17</SUP> As the 
Court long ago stated:
---------------------------------------------------------------------------
    \17\ See Eule, Temporal Limits on the Legislative Mandate: 
Entrenchment and Retroactivity, 1987 Am. B. Found. Res. J. 379.
---------------------------------------------------------------------------
        The principle asserted is, that one legislature is competent to 
        repeal any act which a former legislature was competent to 
        pass; and that one legislature cannot abridge the powers of a 
        succeeding legislature. The correctness of this principle, so 
        far as respects general legislation, can never be controverted. 
        <SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Fletcher v. Peck, 6 Cr. (10 U.S.) 87, 135 (1810)(Chief Justice 
Marshall).
---------------------------------------------------------------------------
Similarly, Congress could not mandate that a future Congress take a 
specified action such as the passage of a particular proposal.
    Adding to the interpretational difficulties here is that, despite 
the requirement in H.R. 1230 that the Congress ``shall'' enact any 
status proposal, the bill specifically contemplates the possibility 
that Congress could either reject or modify (i.e., not pass) the status 
proposal. This brings into question whether the use of the term 
``shall'' in this context is truly intended to be mandatory.
    On a final note, if the Congress does fail to consider, pass or 
reject a status proposal, this may lead to other problems with the 
interpretation of the bill. For instance, as noted above, H.R. 1230 
Sec. 4(a)(1) and (2) contemplates additional procedures that can be 
taken in the event that Congress either modifies or rejects a status 
proposal. No such provision is made, however, in the event that 
Congress merely chooses not to consider a joint resolution containing 
the status options. One might argue that such a situation is 
contemplated by Sec. 5 of the bill, which provides that the 
constitutional convention may remain in session until a self-
determination proposal is enacted by Federal law. However, under the 
provisions of Sec. 4(a) cited above, the Puerto Rican convention is 
only authorized to reconvene to propose another status option if 
Congress rejects the last one. If the Congress never considers the 
proposal, then it appears that the bill's language would not provide 
for the consideration of a second self-determination proposal by the 
convention.
    Madam Chairwoman, that concludes my prepared statement. I would be 
happy to answer any questions that you or other Members of the 
Subcommittee may have, and I look forward to working with all Members 
and the staff of the Subcommittee on this issue in the future.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Thomas. We will next 
recognize Professor Gorrin-Peralta.

    STATEMENT OF CARLOS I. GORRIN-PERALTA, PROFESSOR, INTER-
         AMERICAN UNIVERSITY SCHOOL OF LAW, PUERTO RICO

    Mr. Gorrin-Peralta. Good morning, Madame Chairwoman and 
Members of this Subcommittee.
    Puerto Rico is a colony of the United States. It has been 
an unincorporated territory since the relation began in 1898, 
109 years ago. Coincidentally, back in 1898 the Constitution 
was 109 years old.
    For 50 percent of its constitutional history, the United 
States has submitted the people of Puerto Rico to colonial 
rule, which is a subversion of the basic values on which the 
American Republic was founded.
    The Declaration of Independence says that governments are 
instituted among men deriving their just powers from the 
consent of the governed. Self-determination was reaffirmed when 
the people, through a constitutional convention, adopted the 
Constitution. Over the blood spilled on Gettysburg, Lincoln 
would renew the proposition that government of the people, by 
the people, and for the people should not perish from the 
earth.
    Yet, over the course of the 19th century, the nature of the 
Republic was transformed. What Jefferson had referred to as the 
republican ideal of an empire of liberty somehow mutated into a 
very unrepublican regime that claimed the liberty to rule an 
empire.
    As a result of the doctrine of territorial non-
incorporation constitutionalizing the Insular Cases, everyone 
in Puerto Rico is daily subjected to the obligation of Federal 
laws from dawn to sundown, and even in our sleep, without our 
consent.
    You will surely hear happy colonials or their retained 
representatives say that in 1952, the people of Puerto Rico 
consented wholesale to the present relationship, but that is 
tantamount to saying that a slave owner may validly maintain a 
regime of involuntary servitude with the consent of the slaves. 
No individual may consent to slavery. No people may consent to 
colonialism.
    The world has changed. The day has come for the United 
States to finally solve the contradiction between colonial rule 
and fully democratic government. Even Justice White, the 
judicial artificer of the doctrine of territorial 
incorporation, spoke in his opinion in Downes v. Bidwell of, 
and I quote, ``obligations of honor and good faith which 
sacredly bind the United States to terminate the dominion and 
control when the situation is ripe. The presumption must be,'' 
he added, ``that Congress will be faithful to its duty under 
the Constitution.''
    To comply with international law regarding the 
colonization, Congress ought to pass legislation that first and 
foremost declares the unequivocal intention of Congress to 
divest itself of the powers it has exercised under the 
territory clause.
    The process of self-determination should begin with the 
free expression of the people of the will to change the present 
territorial relation. The Congress ought to recognize the 
inherent constituent power of the people of Puerto Rico to call 
for the election of a constitutional assembly as depository of 
the sovereignty of the people to propose, negotiate, and agree 
to future relations with the United States.
    How do H.R. 900 and H.R. 1230 attempt to comply with these 
proposed standards? H.R. 900 proposes, as has been said, a 
series of plebiscites to solve the status issue with a clear 
Congressional purpose to renounce the territorial powers.
    In the first plebiscite, should the majority reject the 
existing territorial status, there would be a clear exercise of 
self-determination which would require a solution with all 
deliberate speed.
    The bill poses several problems, which I discuss in my 
written testimony. For example, the ballot language should be 
simplified and clarified to elicit a yes or no answer to the 
following proposition I suggest. Puerto Rico should no longer 
be subject to the powers of Congress under the territory clause 
of the Constitution of the United States.
    H.R. 1230 also has some positive and negative aspects. It 
would recognize the principle of sovereignty of the people of 
Puerto Rico, and its inherent authority to call a 
constitutional convention to propose a self-determination 
option not subject to the territory clause.
    However, H.R. 1230 does a little more. It contemplates that 
a future Congress will enact a joint resolution to approve the 
terms of the proposal. That, of course, is wishful thinking at 
best, since one Congress may not bind a future Congress.
    Both H.R. 900 and H.R. 1230 have positive aspects and 
pitfalls. Both could complement each other by drawing on the 
positive aspects of each other. What is of paramount importance 
at this point is that Congress act now to set the process of 
self-determination and decolonization in motion. H.R. 900 is a 
step in that direction.
    One hundred and nine years ago began a colonial regime 
which demeans both the colonized and the colonizer. The time 
has come to send a clear signal to the world that Justice John 
Marshall Harlan was right when he stated in his dissent in 
Downes v. Bidwell 106 years ago that, and I quote, ``the idea 
that this country may acquire territories anywhere upon the 
earth, by conquest or treaty, and hold them as mere colonies or 
provinces, is wholly inconsistent with the spirit and genius, 
as well as with the words, of the Constitution.''
    Thank you very much.
    [The prepared statement of Mr. Gorrin-Peralta follows:]

          Statement of Carlos Ivan Gorrin-Peralta, Professor, 
         Puerto Rico's Inter-American University School of Law

    Good morning, Madam Chairwoman and members of this Subcommittee.
    Thank you for the invitation to share with you my perspective 
regarding the two bills under consideration. I will first outline some 
historical and legal concepts regarding the relations between Puerto 
Rico and the United States, as necessary background for my analysis of 
the two measures.
    Puerto Rico is a colony of the United States. It has been an 
unincorporated territory of the United States since the relation began 
as an act of war in 1898, one hundred and nine years ago. 
Coincidentally, in 1898 the Constitution of the United States was one 
hundred and nine years old. That means that for fifty percent of its 
constitutional history, the United States has submitted the people of 
Puerto Rico to the ignominy of colonial rule, which is a subversion of 
the basic values on which the American Republic was founded.
    The Declaration of Independence of 1776, which has been heard more 
clearly around the world than the shots fired at Lexington and Concord, 
states that ``governments are instituted among men deriving their just 
powers from the consent of the governed.--[I]t is the right of the 
people--to institute new government, laying its foundation on such 
principles and organizing its powers in such form, as to them shall 
seem most likely to effect their safety and happiness.'' That seminal 
act of self determination was reaffirmed when ``the people'', through a 
constitutional convention, as depositary of popular sovereignty, and 
through ratification of the proposed document, adopted the Constitution 
of the United States. Blood had been spilled to secure that right of 
self-determination, and has continued to spill since then throughout 
the world. Four score and seven years after independence, over the 
blood spilled on Gettysburg, Lincoln would renew the proposition that 
government OF the people, BY the people and FOR the people should not 
perish from the earth.
    Yet, over the course of the 19th Century, the nature of the 
Republic was transformed. What Jefferson had referred to as the 
republican ideal of an empire of liberty somehow mutated into a very 
unrepublican regime that claimed the liberty to rule an empire. 
Constitutionally, the territory clause of the Constitution, which had 
been conceived as a mere property clause granting the federal 
government the power to dispose of and make all needful rules and 
regulations respecting the Northwest territory and other property 
belonging to the United States, was reinterpreted as granting Congress 
the power to acquire new territories by purchase or by conquest, and to 
exercise sovereignty over them, even though their inhabitants were not 
allowed to participate in their own government.
    By the 1890's, dominant racist and imperialistic ideologies 
resulted in the infamous doctrine of ``separate but equal'' of Plessy 
v. Ferguson, 163 U.S. 537 (1896), and in the colonial doctrine of 
territorial non incorporation, enacted into law in 1900, and judicially 
constitutionalized in the Insular Cases from 1901 onward. Since then, 
Congress has purported to exercise constitutional power indefinitely 
over the nonincorporated territories--Puerto Rico included--as 
possessions which are not part of, but merely appurtenant to the United 
States. Never mind that those possessions are not mere tracts of real 
estate, but are inhabited, as is Puerto Rico, by a distinct and 
separate people who, despite their inalienable right to self-
determination and their inherent constituent power, have never been 
allowed to exercise their collective rights as a people.
    The federal government is not a government OF the people of Puerto 
Rico, nor is it in any way validated BY the people, nor does it rule 
FOR the people of Puerto Rico, but as it should be, for the interests 
of the people and institutions whom it represents. And yet, everyone in 
Puerto Rico is daily subjected to the application of federal laws, from 
dawn to sundown, and even in our sleep. Federal laws apply in Puerto 
Rico without our consent or real participation in the Congress which 
enacts them. The federal executive administers such laws in Puerto Rico 
despite the fact that we do not participate in its election. The 
federal judiciary interprets and applies the laws in Puerto Rico, 
despite the fact that the judges are designated by a President we do 
not elect, and are confirmed by a Senate in which we do not have even 
nominal participation.
    You will surely hear testimony of happy colonials or their retained 
representatives, to the effect that in 1950 to 1952 the people of 
Puerto Rico consented wholesale to the present relationship. But that 
is tantamount to saying that a slave owner may validly maintain a 
regime of involuntary servitude so long as he asks his slave whether 
she wants to adopt the rules for her household or whether she prefers 
that the master continue to dictate those domestic rules. Colonialism, 
like slavery, violates inalienable rights which may not be validly 
abrogated or renounced. No individual may consent to slavery; no people 
may consent to colonialism.
    The legislative record of Law 600 of 1950 is clear. The purpose of 
the enactment was to allow Puerto Rico a greater degree of local self 
government and to obtain acquiescence of the colonized to the existing 
territorial relationship. The nature of the relation was to remain 
intact, as were the legislative authority of this Congress, the 
executive power of the President, and the judicial jurisdiction of 
federal courts.
    The scheme was made possible by the territory clause and the 
doctrine of the Insular Cases, which have allowed the denial of the 
right to self determination, and present a grave inconsistency with the 
founding values of the Republic. The doctrine defers to the political 
branches of the federal government the governance of the territories on 
the basis of political expediency. At the end of the 19th Century 
colonialism was enthroned as the law of the land, and basic tenets of 
democracy, liberty and self-determination were set aside to serve the 
national self-interest through the acquisition of new unincorporated 
territories.
    The world has changed. The national interests that prompted the 
acquisition of Puerto Rico were strategic and economic. Puerto Rico no 
longer has the strategic value it once had. Economically, the colony 
has failed and our society is crumbling. The national self-interest is 
now best served by a new policy aimed at the disposition of the 
territory of Puerto Rico and the implementation of measures to promote 
the right to self-determination. Far from condemning the United States 
to continue an imperial policy of colonial rule, the doctrine of 
territorial incorporation leaves ample space for congressional action 
with respect to the territories. The day has come for the United States 
to finally solve the contradiction existing for too long between 
colonial rule and fully democratic government. Even Justice White, the 
judicial artificer of the doctrine of territorial incorporation, spoke 
in his opinion in Downes v. Bidwell, 182 U.S. 244 (1901), of 
``obligations of honor and good faith which--sacredly bind the United 
States to terminate the dominion and control, when, in its political 
discretion, the situation is ripe to enable it to do so.'' Faced with 
the prospect that his theory could be used to hold an unincorporated 
territory indefinitely, he stated:
        [T]he presumption necessarily must be that [the legislative] 
        department, which within its lawful sphere is but the 
        expression of the political conscience of the people of the 
        United States, will be faithful to its duty under the 
        Constitution, and, therefore, when the unfitness of a 
        particular territory for incorporation is demonstrated the 
        occupation will terminate.... [No pledge is] more sacred than--
        that great pledge given by every member of every department of 
        the government of the United States to support and defend the 
        Constitution.
    This is the historical and legal background against which decisions 
are to be made to facilitate a truly meaningful process of 
decolonization, of disposition of the territory and the exercise of the 
right to self determination.
    The political process necessary to resolve the territorial 
conundrum is twofold. Substantively, what kind of relationship should 
exist between Puerto Rico and the United States? The four options 
mentioned in the Puerto Rican political discourse are: (1) the present 
territorial relationship under the sovereignty of the United States; 
(2) full sovereignty under independence as a basis for a new 
relationship established by treaty; (3) admission as a state of the 
Union; or (4) sovereignty limited by a compact of free association, as 
that concept is defined under international law. Of course, the first 
is not really an option; territoriality is the problem, so it cannot be 
the solution. The other three will depend on the final decision of the 
people, and in the case of statehood and free association, the approval 
by Congress.
    The other aspect of the process is procedural: how to reach the 
final substantive decision. H.R. 900 and H.R. 1230 suggest different 
approaches. Both have strengths and both have weaknesses. Neither, by 
itself, is an appropriate measure. But both have elements which could 
be combined in a new measure. Both pose many questions and raise issues 
which cannot be addressed in the limited time now available. I will 
focus on its fundamental design.
    In order to comply with international law regarding decolonization, 
the measure ought to, first and foremost, declare the unequivocal 
intention of Congress to dispose of the territory, and to divest itself 
of the powers it has exercised over Puerto Rico under the territory 
clause of the Constitution. Once Congress complies with its 
international and constitutional obligation, the process of self-
determination should begin with a free expression of the people of the 
will to change the present territorial relation and to enter into a 
future relation whereby Puerto Rico shall not be subject to 
congressional power under the territory clause. In order to promote 
subsequent actions towards self-determination in Puerto Rico, Congress 
ought to recognize the inherent constituent power of the people of 
Puerto Rico to call, through its elected government, for the election 
of a constitutional assembly, as depositary of the sovereignty of the 
people, or any other decolonizing mechanism, to propose, negotiate and 
agree to future relations with the United States that will not be 
colonial or territorial in nature. Finally, the process of self-
determination would culminate with the ratification by the people of 
the terms of the new relation.
    How do H.R. 900 and H.R. 1230 attempt to comply with these proposed 
standards?
    H.R. 900 proposes a series of plebiscites to solve the status 
issue. In a first plebiscite, the people would select between the 
existing territorial status and an alternative ``viable permanent 
nonterritorial status.'' The bill would allow for a valid exercise of 
self determination if the people were to claim a change in status on 
the first round of voting. Should a majority reject the existing 
territorial status, there would be a clear exercise of self 
determination which would require a solution with all deliberate speed.
    There are some problems with the first vote. The language of the 
ballot defines the alternative as ``a constitutionally viable permanent 
nonterritorial status.'' The concept of ``constitutional viability is 
ambiguous. It would invite subsequent controversies regarding what is 
viable or not, when the different political groups would begin 
specifying their status options for the second round of voting. In 
addition, the second plebiscite would require that the voter select 
between statehood and ``sovereign nation,'' grouping here both 
independence and free association, two distinct options. Free 
association is by definition not permanent, since any party to the 
relation may opt out at any time.
    The second round of voting presents another pitfall. A rejection of 
the current status and a demand for change in the first vote would 
automatically prompt a second plebiscite in which the voter would 
choose between statehood and another nonterritorial option. Experience 
shows that a significant number of Members of Congress would not 
support H.R. 900 because it would contain a self-executing provision 
that could result in a majority demand for statehood. No one here will 
come out and say it explicitly, but you know it is true; and that 
provision might hinder approval of the bill as it stands and stagnate 
the process. Nothing should stand in the way of congressional action at 
this time.
    On the other hand, if the majority were to select the existing 
territorial status in the first vote, then another plebiscite would be 
held eight years later. It could be interpreted that Congress would 
have implicitly decided to renounce to its territorial powers at some 
future indefinite date when the people so decide. But there is no 
explicit declaration to that effect, and furthermore, the bill 
contemplates the possibility of consent to territoriality for periods 
of eight years, an excessively long period of territorial government, 
which contradicts the true intention of the measure which is to end the 
territorial regime.
    The greatest problem with H.R. 900 lies in its absolute silence 
regarding the inherent constituent power of the people to determine 
their future. On the contrary, the bill would require that the 
permanent nonterritorial status be designed and submitted to Congress 
by the President's Task Force on Puerto Rico's Status, in mere 
consultation with the Governor, the Resident Commissioner, the 
President of the Senate and the Speaker of the House of Representatives 
of Puerto Rico. That is a flagrant denial of self-determination and a 
usurpation of the constituent power that belongs to the people. Those 
four officials will not have been endowed, nor can they be endowed by 
this Congress, with constituent power, nor can they validly represent 
the people in this matter.
    H.R. 1230, on the other hand, also has some positive and negative 
aspects. First, on the positive side, the bill is premised on an 
implicit policy of disposition of the territory, that is, a 
congressional objective to renounce to its territorial powers. The 
definition of a ``self-determination option'' would recognize the 
principle of sovereignty of the people of Puerto Rico and limit options 
for the future to alternatives not subject to the plenary powers of the 
territory clause of the Constitution. Some may argue, as they have in 
the past, that since 1952 this Congress does not exercise plenary 
powers. Therefore, they would probably argue, if the current language 
is enacted, that the existing relationship could be a self-
determination option. That, of course, is contrary first to the 
understanding of probably all 535 Members of Congress regarding the 
plenary nature of all federal powers, as decided almost two hundred 
years ago in McCulloch v. Maryland, 17 U.S. 316 (1819). In any case, 
the ambiguity can be avoided by changing the phrase ``plenary powers'' 
in Section 2 (2) of the bill, page 2, line 12, to the words ``any 
powers.''
    Section 3 of the bill would recognize ``the inherent authority of 
the people of Puerto Rico to call a constitutional convention--in 
accordance to legislation approved by the Commonwealth of Puerto 
Rico,'' which under Section 5 would remain in session until a definite 
self-determination proposal is finally adopted by the people in 
referendum and ``enacted by federal law.'' There is a major flaw in 
Section 5. Only a territorial status option or an admission to 
statehood would culminate in a federal law. Relations under both 
independence and free association would culminate with the signature 
and ratification of a treaty. I would suggest that the language be 
modified as follows: ``A constitutional convention--may remain in 
session until all legal instruments needed for transition to a new 
nonterritorial relation shall have come into effect.''
    Despite its positive recognition of the inherent authority of the 
people, H.R. 1230 does little more. Section 4 contains a non-binding 
desideratum that whenever the constitutional assembly submits a self-
determination proposal to Congress, that future Congress will enact a 
joint resolution to approve the terms of the proposal. That, of course, 
is wishful thinking at best, since one Congress may not bind a future 
Congress. In any event, requiring congressional approval to implement 
independence would be illegal under international law because once a 
people select independence, the colonial power may only accede to the 
demand and facilitate by law, not the decision itself, but the 
transition to the new status.
    In conclusion, both H.R. 900 and H.R. 1230, as I have said before, 
have positive aspects and pitfalls. By facilitating that the people 
demand a profound change through a plebiscite, now or eventually, H.R. 
900 clearly pursues a policy of disposing of the territory by 
congressional renunciation of the powers under the territory clause of 
the Constitution. On the other hand, H.R. 1230 would recognize the 
authority of the people of Puerto Rico to call for a constitutional 
convention as the procedural mechanism for the exercise of its right to 
self-determination.
    What is of paramount importance at this point is that Congress act 
now, to set the process of self-determination and decolonization in 
motion. H.R. 900 is a step in that direction. In the first plebiscite 
the people could decide that the time has come to demand a change in 
the fundamental nature of the relationship. The ballot submitted to the 
voter should elicit a Yes or No answer to the following proposition:
        Puerto Rico should no longer be subject to the powers of 
        Congress under the territory clause of the Constitution of the 
        United States of America.
    Congress has the legal and moral obligation to act. Unfortunately, 
disagreement among the different political sectors of Puerto Rican 
society has been used as an excuse for inaction in the past. The result 
has been congressional complicity during the one hundred and nine years 
of a colonial regime which demeans both the colonized and the 
colonizer. A radical transformation of the relationship is in order, 
now.
    The time has come for Congress to finally find it in the best 
interest of the United States to send a clear signal to the Supreme 
Court, to the Puerto Rican people and to the world to the effect that 
Justice John Marshall Harlan was right after all when he stated in his 
dissent in Downes v. Bidwell, one hundred and six years ago, that ``the 
idea that this country may acquire territories anywhere upon the earth, 
by conquest or treaty, and hold them as mere colonies or provinces--is 
wholly inconsistent with the spirit and genius as well as with the 
words of the Constitution.''
    Thank you.
                                 ______
                                 
    Ms. Christensen. Next we will hear from Mr. Ramon Luis 
Nieves.

STATEMENT OF RAMON LUIS NIEVES, EXECUTIVE DIRECTOR, MOVIMIENTO 
                  AUTONOMISTA SOCIALDEMOCRATA

    Mr. Nieves. Thank you. I appear before you as Executive 
Director of Movimiento Autonomista Socialdemocrata, MAS.
    MAS is a political organization that advocates for the 
adoption of a Compact of Free Association between the United 
States and Puerto Rico.
    I also appear as a student of the status issue. As a result 
of such studies, I published a book titled ``Estado Libre 
Asociado del Siglo XXI,'' an argument for free association.
    MAS has decided not to state an official preference either 
for H.R. 900 nor H.R. 1230. Our goal is to share our thoughts 
as to both bills, in the hope that future action by Congress 
provides for an effective process of self-determination.
    The discussion of process must be based on two basic 
premises: fundamental fairness and expediency. Fundamental 
fairness requires that any bill approved by Congress provides a 
mechanism that does not play favorites with any status formula.
    The U.S. will violate international law if it fails to 
recognize on equal grounds the options of statehood, 
independence, and free association.
    The other premise is expediency. The economy of Puerto Rico 
is currently undergoing an historic crisis. MAS believes that 
resolution of the status problem is key to the acquisition of 
the tools required to implement solutions to our economic and 
social problems. The process to solve the status issue must 
begin sooner, rather than later.
    Our first comment on H.R. 900 is that there is no need to 
vote in order to express dissatisfaction with the current 
territorial status. The three political parties in Puerto Rico 
already advocate for a non-territorial status option.
    The proposed first plebiscite will be redundant, and it 
will delay resolution of the issue.
    MAS also objects to the sovereign pathway of the second 
plebiscite. As it is, H.R. 900 will contribute to play 
favorites with statehood by merging the association alternative 
with independence. This approach will certainly help those who 
have insisted on eliminating political association from any 
status process.
    Congress should not be confused by those who articulate the 
apparent value of assigning an artificial minority in favor of 
statehood.
    Hence, MAS proposes the following amendments to H.R. 900. 
Elimination of the first plebiscite and separate columns for 
statehood, independence, and free association in the remaining 
electoral event.
    Enter H.R. 1230. In Puerto Rico, the language of politics 
or the politics of language has electoral consequence. The 
combination of Puerto Rican sovereignty with the concept of new 
or modified commonwealth should be clarified.
    MAS will support the association option as long as it is 
non-territorial and sovereign in nature. It is clear and in 
compliance with international law and U.S. Constitutional 
practice.
    H.R. 1230 must be amended to establish a process to 
implement the association alternative. The complexities of 
political association require that the option be submitted to 
the electorate in the form of a statement of principles. MAS 
has already submitted to the Subcommittee a statement of 
principles for free association. A similar statement will be 
the type of proposal submitted to the voters, and then included 
as part of the joint resolution contemplated in H.R. 1230.
    MAS also proposes that Section 4 of H.R. 1230 be amended to 
provide that in the case of the approval of an association 
option, Congress instructs the Executive Branches of both the 
U.S. and Puerto Rico to designate representatives to a 
bilateral commission 60 days after approval of the joint 
resolution.
    This commission will be in charge of negotiating a compact 
of free association during a period of no more than two years, 
with a possibility of an additional one-year extension.
    The need for expediency leads MAS to propose that Section 3 
of H.R. 1230 be amended to express that the initial process of 
articulating a self-determination option be limited to two 
years, with an additional one-year extension declared by the 
convention itself.
    MAS believes that Puerto Rico needs the political and 
economical powers inherent to sovereign free association in 
order to maximize the opportunities available for our nation, 
Puerto Rico, in the global economy. We sincerely hope that this 
Congress agrees on a fair and expedient mechanism in 
furtherance of our self-determination, as well as the 
democratic ideals and international obligations of the United 
States.
    Thank you.
    [The prepared statement of Mr. Nieves follows:]

       Statement of Ramon Luis Nieves, Esq., Executive Director, 
                 Movimiento Autonomista Socialdemocrata

    My name is Ramon Luis Nieves. I am an attorney-at-law in the 
private sector. I appear before you as executive director of Movimiento 
Autonomista Socialdemocrata (MAS). MAS is a political organization that 
advocates for the adoption of a Compact of Free Association between the 
United States (U.S.) and Puerto Rico, and for diverse ideas of social 
justice and economic development. The option of free association 
advocated by MAS would be based in the U.S. constitutional experience 
in the Pacific, but also taking into account the important differences 
between Puerto Rico and the Micronesian nations, including U.S. 
citizenship; Puerto Rican national identity and; levels of economic 
assistance and integration with the U.S.
    I also appear as a person who has studied the U.S.-Puerto Rico 
relationship for half of my life. As result of such studies, I 
published a book titled ``Estado Libre Asociado del Siglo XXI'', whose 
second edition appeared in 2004. The abovementioned book, an argument 
for free association, contains a critical analysis of Commonwealth 
status, as well as a detailed analysis of the Compacts of Free 
Association between the United States, the Federated of Micronesia, the 
Marshall Islands and Palau. It also includes discussions about the 
negotiations for ``Compact II'', approved by the 108th Congress and 
President George W. Bush in 2003, a process which I followed closely.
    Let me begin by commending Chairwoman Donna M. Christensen, for 
convening hearings to discuss both H.R. 900 and H.R. 1230. We are 
grateful for the opportunity to appear before the Subcommittee to share 
our views on both bills.
    MAS has decided not to state an official preference either for H.R. 
900 nor H.R. 1230. Our goal is to share our thoughts as to both bills, 
in the hope that future action by Congress provides for an effective 
procedural mechanism in furtherance of self determination for the 
Puerto Rican nation.
The Basic Premises: Fundamental Fairness and Expediency
    The discussion of process must be based on two (2) basic premises: 
fundamental fairness and expediency.
    The U.S. government must take into account that, since the 19th 
Century, the Puerto Rican nation has been debating its definitive 
political status. Three main currents of political thought or 
aspirations have emerged during the process: independence, statehood 
and an alternative of political association, which has prevailed in all 
the referenda held during the last part of the 20th Century.
    Fundamental fairness requires that any bill approved by Congress 
provides a mechanism that does not ``play favorites'' with any status 
formula. MAS submits that the U.S. would violate recognized principles 
of international law, such as the right of self determination, if it 
approves any process that fails to recognize, on equal grounds, the 
options of statehood, independence and political association. 
International law on the subject, as codified by United Nations 
Resolution 1541 (XV), recognizes integration, independence and free 
association as separate options of self government. American 
constitutional experience has also recognized such options when it 
granted independence to the Philippines; when it incorporated into the 
Union thirty seven (37) territories and; when Congress approved 
Compacts of Free Association with the former Strategic Trust 
Territories in the Pacific.
    In addition to the aforementioned legal and constitutional 
framework, Congress should take notice that no advancement has been 
made in previous congressional efforts where one or more status options 
have been excluded from the process. Three options, separated from each 
other, presented in a fair way for their evaluation and approval by the 
Puerto Rican nation: that is the fundamental fairness required for any 
real process to advance.
    The other premise of any status process is expediency. The economy 
of Puerto Rico is currently undergoing a historic crisis. The current 
crisis of the Puerto Rican economic model includes as factors the end 
of federal tax incentives (known as IRC Section 936 / 30A), which were 
an important element of the Puerto Rican economy during most part of 
the 20th Century; a self inflicted fiscal crisis; problems in 
governance of the Commonwealth government and social ills and basic 
inequality in Puerto Rican society, expressed by an increase in 
substance abuse, alienation, violence at all levels and an alarming 
decrease of general civility. The Puerto Rican crisis has caused the 
migration to the U.S. of thousands of well-educated professionals and 
workers, mostly to Florida, in search of the quality of life and 
material opportunities that they have not been able to find in our 
Islands.
    MAS believes that resolution of the status problem is key to the 
acquisition of the tools required to implement permanent solutions to 
the economic and social problems that affect the Puerto Rico. Hence, 
MAS submits that the process to solve the status problem must begin 
sooner rather than later.
    In accordance with the abovementioned premises, I hereby submit our 
comments to H.R. 900 and H.R. 1230.
H.R. 900--``The Puerto Rico Democracy Act of 2007''
    H.R. 900 provides for the calling of at least two plebiscites. The 
first of such plebiscites would be held in 2009. That first plebiscite 
would allow the Puerto Rican voters to decide if the current 
territorial status shall continue, or if they would prefer to pursue a 
path toward a so-called ``constitutionally viable permanent 
nonterritorial status''. If the majority of the voters agree with the 
continuation of territorial status, plebiscites would be held every 
eight (8) years, until the voters favor the other option.
    If voters choose the ``pathways'' option, a second plebiscite would 
be held between two (2) alternatives: a path towards statehood, or a 
path toward a ``sovereign nation'', either fully independent from or in 
free association to the U.S. This second plebiscite would be held 
during the 112th Congress, in 2011, four (4) years and two (2) 
subsequent terms of Congress later.
    If H.R. 900 has been conceived in furtherance of democratic 
principles for the Puerto Ricans, it would do so very late. Assuming 
that the voters approve the ``pathways'' option in 2009, they will not 
begin to walk towards their chosen ``path'' until 2011. The proponents 
of the bill apparently have figured that the process of self 
determination would be affected if it is debated on an election year 
for the Presidential election, the Puerto Rican general election, and 
future congressional elections. This appears to be the only reason for 
the proposed stalling of our self determination.
    However, MAS believes that such considerations are contrary to the 
urgent economic needs of the Puerto Rican nation. Moreover, the Puerto 
Rican electorate is more than ready to cast their votes. One hundred 
and nine (109) years of painful and costly political education is more 
than enough time. Puerto Ricans should not be required to wait another 
two, three, or even eight years to conclude the status issue.
    MAS also opposes the proposed first plebiscite. In our view, there 
is no need to vote in order to express dissatisfaction with the current 
territorial status. The vast majority of Puerto Ricans, and the three 
registered political parties in Puerto Rico, already have expressed 
their desire for a non-territorial status option. Even the Popular 
Democratic Party, which has advocated in the past for minor 
``modifications'' to the current form of Commonwealth, now officially 
advocates on its platform and by mandate of its governing bodies, for 
an option of non-territorial political association based in the 
sovereignty of the Puerto Rican People.
    As to the U.S., the apparent consensus in the body politic since 
the early 1990's is that Puerto Rico remains a territory under the 
Constitution. Both Congress and the Executive branch have repeatedly 
referred to Puerto Rico as a ``territory''. The federal body politic 
has even described the creation of the Commonwealth during the 1950's 
as an ``arrangement'', as opposed to a legitimate political 
association. The apparent honesty in confessing the colonial nature of 
its relationship with Puerto Rico serves to explain why the U.S. has 
not vehemently opposed the annual resolutions passed by the United 
Nations Committee on Decolonization since the 1990's. The end, both of 
the Cold War and the strategic significance of the Puerto Rican 
Islands, accelerated the process whereby the U.S. has come out of its 
colonial closet.
    An additional argument to oppose the first plebiscite proposed on 
H.R. 900 is that it could severely damage the self determination 
process itself. If the electorate rejects the current territorial 
relationship by voting for the ``pathways'' option, Puerto Ricans would 
have effectively and directly ended the legitimacy of U.S. sovereignty 
over Puerto Rico. As argued above, the legitimacy of U.S. sovereignty 
has already been put into question by the majority of Puerto Ricans in 
the political discourse. However, a direct rejection of current 
territorial status through the ballot would place Puerto Rico in a 
state of pure and unadulterated colonial rule by the U.S. Puerto Rico 
would be back to 1949, all over again.
    MAS also objects to the ``sovereign pathway'' proposed as 
alternative in the second plebiscite contemplated on H.R. 900. This so-
called ``pathway'' runs counter to the premise of fundamental fairness 
mentioned above. Instead of a sole pathway to sovereignty, MAS proposes 
separate columns for the independence and free association options.
    As it is, H.R. 900 will contribute to ``play favorites'' with the 
``pathway'' toward statehood. Although some Puerto Ricans desire 
independence, advocates for statehood have historically claimed that 
free association, or even minor modifications to Commonwealth status, 
are really a backdoor to independence. These are precisely the type of 
political games that have been rejected and vehemently opposed by the 
Puerto Rican nation in the not so distant past. Congress should not be 
confused or impressed by those who articulate the apparent value of 
simplifying the status option in order to manufacture a fraudulent and 
artificial majority in favor of the ``pathway'' to statehood.
    MAS strongly considers urges you to consider that the option of 
political association is neither ``derivative'', nor dependent, on full 
independence. This position has been validated by U.S. constitutional 
practice and international law on the subject.
    Last, but not least, this Congress must respond a fundamental 
policy question: whether to allow non-resident persons who claim Puerto 
Rican descent to participate in the self determination process. H.R. 
900 would bar from the process persons who, although born outside of 
Puerto Rico, claim Puerto Rican descent. On the other hand, H.R. 1230 
would allow the vote of non-resident persons either born in Puerto 
Rico, or who have one parent born in the Islands. This policy question 
goes to the heart of the debate of national identity. The definition of 
who could be considered a member of the Puerto Rican nation is 
fundamental to our process of self determination.
    MAS agrees with the approach proposed on H.R. 1230 as to this 
important issue. The economics of colonialism are mostly responsible 
for the migration to the U.S. and the national identity issues of 
people of Puerto Rican descent living in the U.S. Hence, exclusion of 
persons who claim Puerto Rican descent from a self determination 
process would be a cruel and cynical position to assume.
H.R. 1230--``The Puerto Rico Self-Determination Act of 2007''
    H.R. 1230 provides for the recognition by Congress of ``the 
inherent authority of the People of Puerto Rico to call a 
Constitutional Convention'' for the purpose of proposing a ``Self-
Determination Option'' to the People of Puerto Rico. The so-called 
``Self-Determination Options'' are statehood, independence and a ``new 
or modified Commonwealth status''; all of which ``must be based on the 
sovereignty of the People of Puerto Rico and not subject to the plenary 
powers of the territorial clause of the Constitution of the United 
States''.
    In Puerto Rico, the language of politics, or the politics of 
language, has electoral consequences. In all fairness, the combination 
of Puerto Rican sovereignty with the term ``new or modified 
Commonwealth status'' should be clarified. The explicit clarification 
of the non-territorial and sovereign nature of the association option 
is the paramount issue here. MAS would support the association option 
as long as its non-territorial and sovereign nature is clear and in 
compliance with applicable international and U.S. constitutional law.
    An important point has to be raised as to the process to consider 
free association (or the so-called new or improved ``sovereign'' 
Commonwealth.) as a ``Self-Determination Option''. H.R. 1230 must be 
amended to establish an adequate and workable process to implement the 
``sovereign association'' alternative. In the case of ``sovereign 
association'', the nature of the political process would require that 
the ``Self Determination Option'' that the Constitutional Convention 
would submit to the electorate be prepared in the form of a 
``declaration of principles'' of association. The existing Compacts of 
Free Association, their Subsidiary Agreements, and even the CNMI 
Covenant, are complex documents which were the result of lengthy 
negotiations.
    MAS includes, as an Exhibit, a ``Statement of Principles for Free 
Association between the United States of America and Puerto Rico''. The 
enclosed ``Statement of Principles'' is based on the ``Hilo 
Principles'' agreed upon between the U.S. and Micronesia during a 
crucial stage of the Compact I negotiations, in the late 1970's. A 
similar ``statement of principles'' would be the type of proposal that, 
in reality, could be submitted to the electors, and then be included as 
part of the joint resolution contemplated in Section 4 of H.R. 1230.
    Considering the constitutional experience of the U.S. as to the 
negotiation of compacts of free association, MAS proposes that Section 
4 of H.R. 1230 be amended to provide that, in the case of the approval 
of a ``Self Determination Option'' named either as ``free association'' 
or ``sovereign association'', the joint resolution to be passed by 
Congress instructs the executive branches of both the U.S. and Puerto 
Rico to designate representatives to a bilateral commission, sixty (60) 
days after its approval. This bilateral commission would be in charge 
of negotiating, drafting and agreeing on a Compact of Free Association, 
which would then be submitted both to the Puerto Rican electorate and 
the Congress. MAS also proposes that the joint resolution instructs the 
bilateral commission to conduct negotiations for a Compact and its 
Subsidiary Agreements on a period of no more than two (2) years, with 
the possibility of an additional one-year extension.
    It is proper to address the issue of uncertainty in the time-frame 
to start the process of self-determination proposed in H.R. 1230. This 
is a gray area. An instruction by Congress of a time-frame to conclude 
approval by a Constitutional Convention of a ``Self-Determination 
Option'' could be construed as an obstacle to our right of self-
determination. However, the abovementioned need for expediency leads 
the MAS to propose that Section 3 of H.R. 1230 be amended to express 
that the initial process of proposing a ``Self-Determination Option'' 
would not last more than two (2) years, counted from the moment the 
bill becomes Federal law, with an additional one-year extension, which 
would be approved by the Convention itself. MAS believes that two (2) 
years is a fair time-frame to call the Convention, elect the delegates, 
prepare the proposal, and submit it to the electorate. H.R. 1230 
already provides for the situation whereby the voters reject the 
proposal of the Convention, and such mechanism would not be affected by 
the proposed time-frame.
    Lastly, the Subcommittee must consider a political reality in 
Puerto Rico as to the procedural alternative of a constitutional 
convention. The Independence Party of Puerto Rico and the Popular 
Democratic Party, who favor independence and sovereign association, 
respectively, currently agree on a constitutional convention as the 
preferred process of self determination. Together, they represent more 
than half of the voters in Puerto Rico. However, the pro-statehood New 
Progressive Party officially opposes the alternative of a 
constitutional convention. The official objection of the party 
leadership is that a direct election through plebiscites is by nature 
more democratic than the People acting through delegates to a 
Convention. The real basis for their opposition is that the party 
suspects that pro-independence and pro-association advocates would 
create a political alliance in favor of sovereign free association.
    Sadly, the opposition of the New Progressive Party represents an 
important roadblock to the procedural mechanism contemplated by H.R. 
1230. The party represents almost half of the electorate. Furthermore, 
the New Progressive Party has a history of ignoring and, in fact, 
acting in opposition to the democratic wishes of the People. Such was 
the aftermath of pro-Commonwealth results in the 1967 and 1993 
plebiscites, which were not respected by the pro-statehood party. The 
history of non-compliance with the will of the People by the pro-
statehood party presents an important challenge to the mechanism 
proposed in H.R. 1230.
Conclusion
    MAS believes that Puerto Rico needs the political and economical 
powers inherent to sovereign free association, in order to maximize the 
opportunities available for our nation in the global economy.
    We sincerely hope that the Subcommittee on Insular Affairs takes 
our comments into consideration. The Puerto Rican nation also hopes 
that this Congress agrees on a fair and expedient mechanism in 
furtherance of our right of self determination, as well as the 
democratic ideals and international obligations of the United States of 
America.
                                 ______
                                 
EXHIBIT

      ``Statement of Principles for Free Association between the 
               United States of America and Puerto Rico''

    1. The United States and the Free Associated State of Puerto Rico 
shall negotiate and enter into a Compact of Free Association, which 
could only be altered by mutual consent;
    2. The People of Puerto Rico shall retain all powers not 
specifically delegated in the Compact to the United States;
    3. The United Status will provide financial and technical 
assistance to the Free Associated State of Puerto Rico, in 
furtheranceof the economic advancement and self reliance of the People 
of Puerto Rico. Both nations shall identify target sectors to enhance 
the social and economic development of Puerto Rico (education, health, 
infrastructure, etc.), and will collaborate intensively in the design 
and implementation of strategies for the effective investment of 
federal funding in initiatives to promote job creation and business 
development;
    4. The Compact of Free Association will provide for the continued 
transmission of the United Status citizenship. The Constitution and 
laws of the Free Associated State of Puerto Rico shall provide for the 
recognition of Puerto Rican citizenship;
    5. Puerto Rico will continue to be eligible for U.S. federal grants 
and assistance, on a government-to-government basis. Individuals shall 
retain their economic entitlements as U.S. citizens, including their 
Social Security benefits, as well as other job-related entitlements (as 
federal employees and veterans);
    6. Free transit of goods, services, capitals and persons between 
the United States and the Free Associated State of Puerto Rico shall be 
maintained;
    7. The Free Associated State of Puerto Rico will have full capacity 
to conduct its foreign affairs; to enter into, in its own name and 
right, treaties and other international agreements with governments and 
regional and international organizations, including the U.N.
    8. The Constitution of Puerto Rico will remain in full force and 
effect, as well as the applicable laws of the U.S. pursuant to the 
Compact. Nevertheless, the Constitution of Puerto Rico shall be amended 
to incorporate the new governmental powers obtained through the Compact 
of Association;
    9. The United States and the Free Associated State of Puerto Rico 
will establish special areas of mutual assistance and cooperation to 
secure the well-being of both the Puerto Rican and American peoples, 
for example: law enforcement efforts against drug trafficking; illegal 
immigration; terrorism; natural disasters; environmental protection; 
labor protection and standards; communications and; technological 
advancement to secure the well being of the people and the Puerto Rican 
economy;
    10. The United Status shall maintain full authority and 
responsibility in security and defense matters of Puerto Rico, in 
accordance with the provisions of the Compact. The Free Associated 
State of Puerto Rico shall foreclose access to or use of its territory 
for the military or strategic purposes of any third country.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Nieves. Next we will hear 
from Professor Richard Pildes.

            STATEMENT OF RICHARD PILDES, PROFESSOR, 
               NEW YORK UNIVERSITY SCHOOL OF LAW

    Mr. Pildes. Thank you, Madame Chairwoman, for holding this 
panel on the vital constitutional issues concerning the 
potential political status of Puerto Rico and other non-state 
areas. And thank you for inviting me to testify.
    I want to focus on one essential point. In my view, H.R. 
900 rests on an incorrect, deeply flawed, and inadequate 
constitutional analysis.
    Should the Congress of the United States and the President 
jointly, through legislation, along with the people of Puerto 
Rico, agree to legislation that provides greater autonomy for 
Puerto Rico on the basis of mutual consent, there is nothing in 
the U.S. Constitution that denies the U.S. Government the power 
to make this choice.
    H.R. 900's language and structure is based on the 
constitutional analysis in the 2005 Presidential Task Force 
report. That analysis consists largely of the repetition of a 
single platitude: one Congress cannot bind another.
    While that platitude is true for the run-of-the-mill 
legislation, in my view that constitutional analysis is deeply 
flawed for at least four reasons when it comes to matters of 
political status.
    First, the analysis completely ignores American 
constitutional history and past political practice. From the 
time of the Constitution's formation, Congress has enacted 
mutual consent clauses that permanently altered the political 
status of non-state areas. The famous Northwest Ordinance is 
the perfect example. That established the process by which 
Congress pledged to incorporate territories as states in a way 
that involved mutual consent, and it was permanently binding.
    Later Congresses followed the model of the Northwest 
Ordinance in enacting organic acts for the incorporation of 
future territories and their admission as states.
    The Task Force analysis requires the conclusion that the 
original Congress, many of whose Members formed the 
Constitution, and many subsequent Congresses, acted 
unconstitutionally in establishing this mutual consent process 
for changing the status of a territory into a state.
    Moreover, individual states of the United States have long 
enacted mutually binding compacts. The United States Supreme 
Court not only has recognized this practice, it has endorsed it 
and required that these compacts be enforced according to their 
terms; and that individual states not be permitted to 
unilaterally alter the terms of a compact that they have 
entered into.
    Second, the analysis ignores central constitutional 
doctrine that deals with the complex issues of the U.S. 
relationship to non-state areas. There are not a lot of cases 
directly on point, but those that are enforce pledges Congress 
has made to non-state areas.
    For example, once Congress pledges by law to incorporate an 
area as a state, the United States Supreme Court, in a series 
of cases, has held that that promise is binding on future 
Congresses. The Rasmussen case, which I describe in my 
testimony, is an example.
    Second, when it comes to alterations of the political 
status of individuals, when Congress legislates to change 
citizenship status, the U.S. Supreme Court has also recognized 
that that pledge binds subsequent Congresses, and Congress no 
longer has the power to change the citizenship status that has 
been granted by law.
    Moreover, under the territory clause itself, the United 
States Supreme Court has recognized that Congress has flexible, 
pragmatic, and expansive powers which implicate foreign policy 
matters to decide on the kind of relationship that best suits 
the United States' association with various non-state areas. 
After all, the original Constitution only refers by its terms 
to states and territories. But in the insular cases for better 
and worse in a complex act of political pragmatism and 
political morality, the United States Supreme Court recognized 
that clause empowers Congress to choose new forms of political 
relationship.
    Finally, the United States Justice Department has agreed 
with my position on the constitutional issue for nearly 40 
years. In 1963, when the U.S. Justice Department first took a 
position on mutual consent clauses involving Puerto Rico, 
reaffirmed in 1973, reaffirmed when the Northern Mariana 
Islands, mutual consent clause was adopted by Congress, 
reaffirmed in 1989 in the Guam Task Force report. Through all 
of this period, the Department of Justice recognized the 
constitutional power of the United States to enter into mutual 
consent clauses that are binding with respect to matters of 
political status.
    It is only in the early 1990s that the Justice Department 
made a 180-degree about-face on this issue, on the basis of 
reasons that I have to say I find constitutionally mysterious.
    The Justice Department referred to a Supreme Court case 
from the 1980s involving Congressional welfare programs, and 
decided, the Court's decision in that case fundamentally 
changed 200 years of American constitutional history on mutual 
consent clauses. For reasons I elaborate on in my written 
testimony, I find that analysis wholly unavailing and 
irrelevant to the kinds of issues involving political status to 
Puerto Rico.
    In sum, my view is that Congress's power to enter into 
mutual consent clauses regarding political status, when the 
United States determines its foreign policy and political 
interests are best served by doing so, is supported by 
longstanding political practice; it is supported by Supreme 
Court decisions involving the territory clause; it is supported 
by the longstanding position of the United States Justice 
Department; and it is supported in my view by sound 
constitutional analysis.
    None of this, in conclusion, is to articulate any position 
on the specific choices the Puerto Rican people face. My only 
concern is to eliminate lack of clarity and confusion of how 
the constitutional structure within those choices should be 
framed.
    Thank you.
    [The prepared statement of Mr. Pildes follows:]

 Statement of Professor Richard H. Pildes, Sutler Family Professor of 
         Constitutional Law, New York University School of Law

    Thank you for inviting me to testify. I specialize in 
constitutional issues concerning the structure of American government. 
The United States Supreme Court has cited my scholarship on these 
issues many times. I am also the co-author of a casebook entitled The 
Law of Democracy (2nd ed. 2001 and 2006 Supplement). I successfully 
represented the Puerto Rico Election Commission before the United 
States Court of Appeals for the First Circuit in the resolution of 
Puerto Rico's 2004 disputed gubernatorial election. I also successfully 
represented the government of Puerto Rico before the United States 
Court of Appeals for the District of Columbia Circuit in litigation 
concerning the legal status of Puerto Rico under particular federal 
laws. I am here testifying in my own capacity, based on my academic 
study of the relevant issues and my knowledge developed during my legal 
representation.
    In my view, were the United States Congress and the people of 
Puerto Rico to prefer expanding the existing Commonwealth relationship, 
in a way that provides greater autonomy for Puerto Rico on the basis of 
mutual consent, it would be unfortunate, even tragic, for that option 
to disappear due to confusion or error about whether the Constitution 
permits Congress to adopt such an option. Yet one of the proposed 
bills, H.R. 900, rests on precisely such confusion about how the 
Constitution applies to the potential political status of Puerto Rico. 
H.R. 900 would artificially and wrongly limit a plebiscite to two, and 
only two, options. H.R. 900 would deny the people of Puerto Rico the 
right to express their preference for a mutually-binding covenant that 
would determine Puerto Rico's status to be that of an autonomous, self-
governing Commonwealth. H.R. 900 eliminates this option due to a faulty 
constitutional analysis that assumes, incorrectly, that the 
Constitution denies Congress the power to enter into such a mutually-
binding covenant.
    The plebiscite structure H.R. 900 would establish reflects the 
constitutional conclusions expressed in the December 22, 2005 report of 
President Bush's Presidential Task Force on Puerto Rico's Status (the 
Task Force). I would note that none of the members of the Task Force 
are academic authorities in constitutional law, particularly the 
exceptionally complex and arcane law that controls the relationship of 
the United States to various non-state entities, such as incorporated 
territories, unincorporated territories, the current Commonwealth of 
Puerto Rico, or entities of other political status with which the 
United States, for reasons of history and policy, might desire to form 
various types of political relationships. Perhaps for that reason, the 
Task Force's constitutional analysis is unpersuasive and inadequate. 
The analysis largely consists of the repetition of certain general 
platitudes that I believe to be wrong in the context of the United 
States' relationship to Puerto Rico. Time and time again, the United 
States Supreme Court has insisted that this relationship has ``no 
parallel in our history.'' Examining Bd. of Engineers v. Flores de 
Otero, 426 U.S. 572, 596 (1976); Katzenbach v. Morgan, 384 U.S. 641, 
658 (1966) (discussing ``unique historic relationship between the 
Congress and the Commonwealth of Puerto Rico''). Proper understanding 
and analysis of this unique relationship is only confused and obscured, 
rather than advanced, by the repetition of highly general legal 
platitudes not designed to address the specific, exceptional context of 
the United States-Puerto Rico relationship.
    The major platitude in the Task Force report, and which appears to 
be the basis for H.R. 900, is the notion that it ``is a general rule 
that one legislature cannot bind a subsequent one.'' Task Force Report, 
at 6. From this ``general rule'' it purportedly follows that Congress 
and Puerto Rico cannot enter into a mutually-binding covenant on Puerto 
Rico's status--even if both Congress and the people of Puerto Rico 
prefer that option. According to the Task Force report, the United 
States Constitution, as currently written, ``does not allow for such an 
arrangement.'' Id. The reason, allegedly, is that such a covenant would 
involve one Congress binding a later one. Thus, Congress and Puerto 
Rico could not enter into a mutually-binding covenant to guarantee 
Puerto Rico's status as an autonomous, non-State entity in permanent 
association with the United States. As a practical matter, there might 
be no realistic likelihood that the United States would violate such a 
solemn commitment, if Congress were to make that commitment. 
Nonetheless, the Task Force suggests that, as a matter of abstract 
constitutional theory, such an agreement would not, in principle, be 
valid.
    This superficial analysis is seriously defective. First, 
constitutional issues involving the political status of entities 
associated with the United States are too significant, unique, and 
complex to be addressed through general platitudes such as ``one 
Congress cannot bind another.'' Like most platitudes, this one is true 
in many routine contexts of lawmaking. Congress cannot, for example, 
pass a tax bill and deny a later Congress the power to amend, modify, 
or repeal that bill. But when it comes to far more fundamental issues 
involving the basic political status of individuals and entities, 
platitudes of this sort break down and lose their relevance. Congress' 
creation of a new political status, for individuals and entities, can 
be a legal act that transforms the status quo irrevocably, in a way 
that does bind later Congresses. Not only does the Constitution permit 
Congress to do so. The Constitution actually requires later Congresses 
to adhere to the change in political status that an earlier Congress 
has established.
    Thus, with respect to individuals, when one Congress grants 
statutory citizenship to a class of individuals, that statutory grant 
does bind later Congresses. When Congress changes the political status 
of individuals by making them citizens, the United States is bound, 
constitutionally, to honor this new political status. This commitment 
of one Congress binds the United States going forward. As the Supreme 
Court has said, Congress lacks a ``general power ... to take away an 
American citizen's citizenship without his assent.'' Afroyim v. Rusk, 
387 U.S. 253, 257 (1967). That is, once Congress enacts legislation 
signed by the President (or adopted over his veto), that legislation 
creates a new political status for individuals; the Constitution itself 
then denies later Congresses the power to change that status. Afroyim 
addressed naturalized citizens, who have become citizens only by virtue 
of legislation. Most commentators agree Afroyim applies in the same way 
to all statutory grants of citizenship. The United States Department of 
Justice agrees that it does. See Letter of Assistant Attorney General 
Robert Raben to The Honorable Frank H. Murkowski, January 18, 2001.
    With respect to territories associated with the United States, the 
constitutional principle is the same. The issue has directly arisen, 
however, in only one context of which I am aware. In that context, the 
Supreme Court similarly made clear that when one Congress changes the 
political status of a territory, later Congresses are bound by that 
change. Thus, it has long been bedrock constitutional law that, when 
Congress through legislation pledges to incorporate territory into the 
United States, that legislative commitment binds subsequent Congresses. 
See Rasmussen v. United States, 197 U.S. 516 (1905). The congressional 
pledge to incorporate transforms the legal status of a territory. 
Congress no longer has the ``plenary power'' under the Territory 
Clause, Art. IV, Sec. 3, cl.2, that it had before it enacted 
legislation to incorporate the territory. Rasmussen involved the Alaska 
Territory, which the United States had pledged originally, by treaty 
and statute, to incorporate into the United States. As a result of this 
statutory pledge, the Court held unconstitutional laws enacted by a 
later Congress that were inconsistent with the earlier Congress' legal 
commitment to treat the Alaska Territory as an incorporated territory. 
Rasmussen is just one of many cases in which the Supreme Court, early 
in the 20th century, established that a congressional statute 
committing the United States to eventual incorporation of territory 
into the United States creates an irrevocable commitment that later 
Congress are constitutionally required to honor. The President's Task 
Force does not indicate any awareness of Rasmussen or the many cases 
similar to it, let alone explain why those cases do not show the 
irrelevance of the ``one Congress cannot bind another'' platitude in 
the context of legal changes to the political status of territories.
    Of course, one Congress can also irrevocably bind another Congress 
to a change in political status of a former territory in other, obvious 
ways. As it did with the Philippines, Congress can enact a statute 
granting a former territory full political independence. No one would 
suggest that, as a matter of domestic law, a later Congress could 
simply pass a new law declaring the Philippines to once again be a mere 
territory of the United States. Similarly, Congress can transform a 
former territory into a State, as it did with Hawaii. Again, once one 
Congress does so, it irrevocably commits the United States to 
maintaining Hawaii as a state on an equal footing with all other 
States. See Pollard v. Hagan, 44 U.S. 212 (1845) (discussing equal-
footing doctrine). Thus, the United States can act in numerous ways to 
change the political status of territories or non-state areas of the 
United States: it can pledge to incorporate them into the United 
States, it can admit them as a State, it can grant them independence. 
Any of these changes are irrevocable once made and bind later 
Congresses. The one thing the United States purportedly cannot do, 
however, according to the President's Task Force report, is to enter 
into a mutually-binding agreement to transform a territory into a 
Commonwealth, with guarantees of the self-governing autonomy of that 
entity. It would be exceedingly odd for the Constitution to single out, 
for no apparent reason, this one option as one that Congress does not 
have the discretion to choose. Surely some substantial explanation 
should be required before reading the Constitution to require such an 
odd result. Yet the Task Force report does not even attempt to provide 
such an explanation.
    Moreover, to read the Constitution as denying Congress power to 
decide what forms of political relationship best serve the interests of 
the United States would be odd for at least three further reasons. 
First, the United States has a long history of entering into mutual 
consent clauses. Section 14 of the famous Northwest Ordinance of 1787, 
for example, contained six ``articles of compact, between the original 
States and the people and States in the said territory, and [shall] 
forever remain unalterable, unless by common consent.'' Van Brocklin v. 
Tennessee, 117 U.S. 151, 159 (1886). Many early territorial organic 
acts that Congress enacted incorporated these mutual-consent clauses 
from the Northwest Ordinance, either expressly or by reference. Clinton 
v. Englebrecht, 80 U.S. (13 Wall.) 434, 442 (1872). If the 
constitutional analysis of the President's Task Force is correct, 
Congress has been acting unconstitutionally for over 200 years, and the 
fundamental legal structures through which Congress historically has 
incorporated territory into the United States has been 
unconstitutional.
    Second, individual States can enter into mutually-binding Compacts 
with other States. States can draft these Compacts so that they are 
binding absent mutual consent to a change by the other States in the 
Compact. As former Chief Justice Rehnquist wrote for the Court, the 
``classic indicia of a compact'' between States is that once a State 
has entered into a Compact, it has no ability ``to modify or repeal ... 
[the Compact] unilaterally. ...'' Northeast Bancorp, Inc. v. Board of 
Governors, 472 U.S. 159, 175 (1985). Nothing in the Constitution denies 
States the power to further their interests through such arrangements. 
The platitude that ``one legislature cannot bind another'' does not 
apply to these Compacts. See, e.g., Jill Elaine Hasday, Interstate 
Compacts in a Democratic Society, 49 Fla. L. Rev. 1, 2 (1997) (``An 
interstate compact is an exception to the rule that one legislature may 
not restrict its successors.'').
    Far from being unconstitutional, these arrangements are 
constitutionally sanctioned, enforced, and protected. Once a State 
consents to such a Compact, that consent binds the State going forward. 
See, e.g., West Virginia ex rel. Dyer v. Sims, 341 U.S. 22, 28 (1951); 
Rhode Island v. Massachusetts, 37 U.S. (12 Pet.) 657, 725 (1838); Green 
v. Biddle, 21 U.S. (8 Wheat.) 1, 92 (1823). Just as it is obviously 
advantageous for individuals to have the capacity to enter into binding 
contracts, it can be advantageous for a State to have the ability to 
enter into mutually-binding Compacts with other States. But unless the 
text of the Constitution expressly required it, why should the 
Constitution deny Congress the exact same power individual States have? 
If Congress and the President believe the interests of the United 
States, domestic and international, are best served by entering into a 
mutually-binding covenant with a non-state area or territory tied to 
the United States, under which the United States transforms that 
territory into a self-governing Commonwealth and pledges not to change 
the terms of that agreement absent mutual consent, is there anything in 
the Constitution that would preclude the United States from pursuing 
its interests in this way? If the text of the Constitution expressly 
forbid such an arrangement, that would be one thing. But the Task Force 
report does not claim that. There is nothing in constitutional history, 
precedent, or logical inference from the powers the Constitution grants 
Congress that requires such an odd and unlikely result.
    Third, even a brief history of American political practices under 
the Territory Clause refutes the simplicity of the Task Force's 
analysis. The Constitution itself only mentions two forms of political 
entity that the United States might govern: States and territories. If 
Congress' powers were constitutionally limited to forming political 
relationships between only ``States'' and ``territories,'' as the 
Constitution originally understood those categories, Congress would 
never have had the power to forge the relationships it did for many 
decades between the United States and Puerto Rico, the Philippines, 
Guam, and other places. But Congress did form these relationships, in 
the late 19th century, by creating the novel distinction between 
``incorporated'' territories and ``unincorporated'' ones. The former 
are lands the United States has pledged eventually to incorporate as 
States; the latter entail no such pledge.
    Before Congress decided to create this novel distinction, it had 
long been thought, and widely understood, that a ``territory'' within 
the meaning of the Constitution was limited to land the United States 
possessed with a commitment to turn that land eventually into a State. 
Nonetheless, the Supreme Court concluded that the Constitution, through 
the Territory Clause, grants Congress the power and flexibility to 
create additional forms of political entities beyond the two originally 
conceived and expressly mentioned in the text. Congress has the power 
to establish distinct political relationships with these entities. The 
conclusion that the Constitution grants Congress flexibility to create 
novel forms of political relationship is, of course, the basis for the 
Insular Cases, such as Downes v. Bidwell, 182 U.S. 244 (1901). This 
constitutional principle is also the foundation for the relationship 
the United States has had with Puerto Rico. Whatever one thinks as a 
matter of policy or political morality about the desirability of the 
United States holding lands indefinitely in a status other than 
statehood, it is clear as a matter of constitutional law that Congress 
has the power and flexibility, as United States policy interests 
dictate, to forge new kinds of political relationships and associations 
with lands formerly held as territories. The Territory Clause has long 
been a source for expansive and creative congressional policymaking, 
not a rigid straitjacket. The Court has never invoked the Territory 
Clause to deny Congress the power to form new types of political 
relationships and associations. If Congress were to enter into a 
mutually-binding covenant with Puerto Rico to ensure Puerto Rico's 
expanded autonomy as a Commonwealth, this history strongly suggests the 
Court would acknowledge Congress' power to do so.
    Indeed, it would be perverse for the Constitution to permit 
Congress in the early 20th century the power to ``invent'' a new 
political status, that of unincorporated territory, that permitted the 
United States to possess territories in a colonial-like relationship, 
but then to deny Congress today the power to invent a new relationship, 
such as an amended and more autonomous Commonwealth, that promotes the 
self-governance and autonomy of places like Puerto Rico. I do not 
believe the Constitution, properly interpreted, requires such a 
perverse result.
    In my last remarks, I would like to address the shifting positions 
of the Department of Justice (DOJ) on these issues over the years. For 
most of the past 50 years, DOJ concluded that Congress did have the 
power, constitutionally, to enter into mutually-binding agreements with 
non-state areas, such as an agreement to respect Puerto Rico's status 
as a Commonwealth. In 1963, DOJ expressly took the position that such 
agreements were legally effective; DOJ concluded that Congress had the 
power to define the political status of a non-state area through a 
mutually-binding covenant that could not be revoked unilaterally. Once 
again, in 1973 DOJ confirmed this position--in a memorandum approved by 
then Assistant Attorney General William Rehnquist--when Congress sought 
DOJ's advice in conjunction with pending negotiations over the status 
of Micronesia. Based on DOJ's constitutional analysis, Congress did 
insert a mutual-consent clause into Section 105 of the Covenant with 
the Northern Mariana Islands. Yet again, DOJ endorsed the 
constitutionality of mutual-consent clauses in connection with the 
First 1989 Task Force Report on the Guam Commonwealth Bill. This 
history of the DOJ's consistent position is set forth in the DOJ 
Memorandum, Mutual Consent Provisions in the Guam Commonwealth 
Legislation n.2 (July 28, 1994) (written by Teresa Wynn Roseborough, 
Deputy Assistant Attorney General, Office of Legal Counsel).
    For reasons that remain difficult to understand, DOJ suddenly 
shifted its position in the early 1990s. That shift first occurred when 
then Attorney General Thornburg testified to Congress in 1991. U.S. 
Congress, Senate Committee on Energy and Natural Resources, Political 
Status of Puerto Rico: Hearings Before the S. Comm. on Energy and 
Natural Resources on S.244, 102 Cong. 210 (1991). The fullest 
explanation for that shift is in the Roseborough memorandum, above. 
According to that document, the Supreme Court's 1986 decision in Bowen 
v. Agencies Opposed to Soc. Sec. Entrapment, 477 U.S. 41 (1986), 
required this 180-degree change in DOJ's position. I find that position 
mysterious. Bowen dealt with the routine context of a State's 
participation in the Social Security system for its employees; in 
creating this system, Congress had initially permitted States to 
participate voluntarily and to terminate their participation at a later 
date. The Act also expressly reserved the right of Congress to amend 
these terms at any time. In the 1980s, Congress exercised this right to 
end the option of States to terminate their coverage. Bowen rejected a 
State's argument that in doing so, Congress had unconstitutionally 
``taken'' the State's property.
    Bowen has nothing to do with mutual-consent clauses concerning the 
fundamental political status of non-state areas. Most obviously, in 
Bowen the statute expressly reserved Congress' right to amend it at any 
time. By contrast, the whole point of mutual-consent clauses is that 
Congress expressly relinquishes the power unilaterally to amend the 
terms of the agreement. Not surprisingly, Bowen concluded that there 
could be no ``vested right'' in an arrangement in which Congress had 
expressly reserved the right to change that arrangement at any time. 
See 477 U.S. at 55. That alone is enough to make Bowen irrelevant when 
Congress instead chooses to enter into a mutual-consent clause over 
political status. In addition, Congress' power to change, modify, or 
repeal routine regulatory programs is well-established. But 
congressional acts that distribute routine regulatory and welfare 
benefits and burdens are not of the same constitutional stature as 
those that address fundamental issues of political status. The latter 
are much more the analogue at the level of territories and non-state 
areas to what citizenship is at the level of the individual. And as 
Afroyim recognizes, once Congress changes the political status of 
individuals and confers citizenship on them, a later Congress no longer 
has the power unilaterally to revoke that status. One need not go as 
far as Afroyim to recognize the constitutionality of Congress' adoption 
of mutual-consent clauses over political status. Afroyim suggests it 
would be unconstitutional for Congress to attempt to change such an 
agreement over political status. Without going that far, the doctrine 
strongly suggests that, at the very least, the Constitution does not 
prohibit Congress from entering into such agreements.
    In sum, H.R. 900 is fundamentally flawed and misleading. It rests 
on a mistaken constitutional premise. That premise is central to the 
Task Force report, on which H.R. 900 is based. Congress does have the 
power, should it choose to use it, to enter into a mutual-consent 
agreement that would create and respect a more autonomous form of 
Commonwealth status for Puerto Rico, in which Congress would pledge not 
to alter the relationship unilaterally. Congress' power to do so is 
supported by longstanding historical practice, going back to the 
Northwest Ordinance and the period in which the Constitution was 
framed; it is supported by Supreme Court doctrine establishing the 
flexibility Congress has under the Territory Clause; it is supported by 
the longstanding position of the Department of Justice, before DOJ 
inexplicably changed positions; and it is supported, in my view, by 
sound constitutional analysis. H.R. 900 therefore does not give the 
people of Puerto Rico a full and informed choice of options concerning 
the potential future status of Puerto Rico. For that reason, Congress 
ought to reject H.R. 900.
    None of this is to state my own personal view on what future status 
for Puerto Rico would best serve the interests of the Puerto Rican 
people. That is an issue on which, I believe, the Puerto Rican people 
should first be permitted to express a free and informed opinion. Nor 
do any of my comments address questions concerning the current legal 
and constitutional status of Puerto Rico. But as I noted at the outset, 
it would be highly unfortunate, even tragic, for Congress to limit 
artificially the choices in any plebiscite of the Puerto Rican people 
based on confusion or mistakes about what options the Constitution 
would permit Congress to adopt. Because H.R. 900 does exactly that, I 
urge its rejection.
                                 ______
                                 
    Ms. Christensen. Thank you, Professor Pildes. Our last 
speaker on this panel is Attorney Thomas E. Goldstein.

          STATEMENT OF THOMAS C. GOLDSTEIN, PARTNER, 
              AKIN GUMP STRAUSS HAUER & FELD, LLP

    Mr. Goldstein. Madame Chairwoman and distinguished Members 
of the Subcommittee, my name is Thomas Goldstein.
    While I have written on matters of election law, even more 
relevant here my views are often sought on the question of how 
the Supreme Court will resolve difficult constitutional 
questions. And it is my view in that respect that H.R. 900 and 
its provision for a Federally defined status process is the 
better option before you. Better in the sense of it has a more 
realistic chance of surviving review in the Supreme Court of 
the United States.
    Puerto Rico is of course an annexed, but unincorporated, 
territory with sovereignty retained by Congress. And thus, 
contrary to the premise of H.R. 1230, the residents of Puerto 
Rico do not, in fact, exercise--and this is perhaps 
regrettable--the inherent power or the natural right to make a 
decision on their political status.
    The powers of the people of Puerto Rico, under Article I of 
the Territorial Constitution, do not reach matters of national 
sovereignty, including the political status of Puerto Rico. 
That power is reserved to Congress and constrained by the 
Constitution, unless and until democracy is actually restored 
in Puerto Rico.
    H.R. 900 is, of course, status-neutral. It favors no 
legally valid status over any other, and, unlike H.R. 1230, 
does not place on the ballot a status that is precluded by the 
Constitution. And that is the reason that I favor it.
    H.R. 1230, by contrast, makes a promise that you cannot 
keep, and that is permanency. Enhanced commonwealth status 
under the Constitution is most analogous not to the admission 
of a state or to a compact between states, but to a treaty. And 
it is firmly settled in the law, and this is not a platitude, 
that Congress, having entered into a treaty, can later change 
it by statute. And therefore, it is not the case that under 
H.R. 1230 there could be a promise of a permanent enhanced 
commonwealth status that could not be abrogated by Congress.
    For those reasons, as well as those set forth in my written 
statement, it is my conclusion that H.R. 900 provides the best 
means to redeem government by the consent of the people of 
Puerto Rico, based on legally valid options under the U.S. 
Constitution. Those who contend that H.R. 900 is incomplete for 
failing to include a provision for enhanced commonwealth status 
undoubtedly have the best interests of the citizenry in mind, 
but regrettably, such an option is simply not constitutionally 
available under our system of government.
    I would like again to thank you, Chairwoman Christensen and 
the Members of the Subcommittee, for taking so seriously your 
responsibility to ensure that essential American democratic 
values, such as equality and self-determination, are fulfilled 
in Puerto Rico.
    Thank you.
    [The prepared statement of Mr. Goldstein follows:]

              Statement of Thomas C. Goldstein, Partner, 
                  Akin Gump Strauss Hauer & Feld, LLP

I.  Puerto Rico and the Doctrine of Annexed but Unincorporated 
        Territory
    Before addressing the constitutional and policy principles 
implicated by H.R. 900 and H.R. 1230, I would like to direct the 
Subcommittee's attention to what I believe is at the heart of the 
Puerto Rico status issue. It is that the interpretation and application 
of Article IV, Section 3, Clause 2 of the Constitution (the 
``Territorial Clause''), has resulted in the current problem in which a 
population of U.S. citizens in Puerto Rico larger than that of half the 
states in the Union is being governed by Congress indefinitely without 
a full and equal national citizenship, or access to a democratic 
process to attain one. As such, the residents of Puerto Rico are, in 
effect, a disenfranchised subclass of American citizens, without, among 
other things, equal civil rights or legal status under law, a direct 
voice in U.S. policy, or voting rights in the election of U.S. national 
leaders.
    I believe this outcome would be a surprise to the Framers of our 
Constitution. The Framers, it must be recalled, were familiar only with 
the model of territorial incorporation embodied in the Northwest 
Ordinance of 1787. For this reason we would have to explain to the 
Framers that:
    <bullet>  Over the course of the 19th century the U.S. became a 
global power and by the dawn of the 20th century the U.S. had acquired 
sovereignty over remote island realms with large non-citizen 
populations; and
    <bullet>  In a series of decisions in the first quarter of the 20th 
century, referred to as the ``Insular Cases,'' the Supreme Court 
created the unincorporated territory doctrine and ruled that Congress 
could govern such overseas possessions under the Territorial Clause as 
it had all earlier American territories, but without following the 
historical model of political status resolution through incorporation 
and without applying the Constitution to the unincorporated territories 
in the same manner as it had with prior territories; and
    <bullet>  The unincorporated territory doctrine of the Insular 
Cases meant that the Constitution did not ``follow the flag'' to the 
annexed but unincorporated territories with non-citizen populations; 
and
    <bullet>  Consistent with the Insular Cases, U.S. citizenship was 
withheld from the citizens of the Philippines as a step toward that 
island nation's independence, and the conferral of U.S. citizenship for 
Alaska and Hawaii was part of the process of incorporation leading to 
statehood for those territories; and
    <bullet>  In contrast to those precedents, the Supreme Court's 1922 
decision in Balzac v. Porto Rico interpreted the conferral of U.S. 
citizenship on the residents of Puerto Rico as neither putting Puerto 
Rico on the path toward incorporation nor extending to its residents 
the rights and protections of the Constitution that came with 
citizenship in incorporated territories on the path to statehood.
    As a result of these and other events, Congress now presides over 
Puerto Rico as an annexed but unincorporated territory populated by 
four million disenfranchised U.S. citizens who possess, essentially, 
the same constitutional status as aliens under the original Insular 
Cases doctrine. As discussed below, certain ``fundamental rights'' have 
been extended on an ad hoc basis by statutory policy and court 
decisions, but not by direct application of the Constitution. This 
reality--over one hundred years after the annexation of Puerto Rico and 
approximately nine decades after U.S. citizenship was conferred on the 
residents of Puerto Rico--is, arguably, a byproduct of legislative 
inaction and would concern the Framers, just as it concerns, among 
others, the sponsors of H.R. 900, H.R. 1230, and the members of the 
Subcommittee.
II.  The Importance of Resolving the Political Status of Puerto Rico
    It is in the historical context of the Insular Cases and the Balzac 
decision that this Subcommittee must address the constitutional and 
policy implications of H.R. 900 and H.R. 1230.
    In combination these two bills present a question to Congress--Can 
the present dilemma regarding Puerto Rico's political status be 
resolved through: (1) a status resolution process initiated at the 
local level like the one outlined in H.R. 1230; (2) a federally 
sponsored process based on status options and procedures defined by 
Congress as set forth in H.R. 900; or (3) a process that combines 
elements of (1) and (2)? It is my conclusion that the record on the 
Puerto Rico status question before the Natural Resources Committee is 
clear that Congress possesses the responsibility and exclusive 
constitutional power to determine the appropriate status resolution. I 
have further concluded that, although both bills raise important issues 
about the substance and process of status policy, H.R. 900 is the 
measure that can best accomplish the imperative of redeeming government 
by consent for the people of Puerto Rico based on legally valid options 
under applicable federal law and policy.
A.  H.R. 1230--Puerto Rico Self-Determination Act of 2007
    H.R. 1230 seeks to enact a resolution process initiated at the 
local level via local constitutional convention. Contrary to the 
language of H.R. 1230, as residents of an annexed but unincorporated 
territory under the Territory Clause, the people of Puerto Rico do not 
have ``inherent'' or ``natural'' rights of sovereignty recognized by 
Congress or the Supreme Court under the Constitution. Instead, Article 
I of the local territorial constitution, which empowers the local 
government of Puerto Rico to implement the will of the people, is 
limited to local territorial administration within the scope of powers 
of the territorial government instituted under federal law. While the 
considerable degree of self-government that the Puerto Rico territory 
has achieved under its local territorial constitution and the 
commonwealth system for administration of internal civil affairs of the 
territory is an impressive tribute to American democratization, the 
powers of the local government do not extend to affairs of national 
sovereignty or to the political status of Puerto Rico. Those powers are 
expressly reserved to and vested in Congress under the Territorial 
Clause, as expressly recognized in Article IX of the Treaty of Peace 
ceding Puerto Rico to the United States, which records that the ``civil 
rights and political status'' of Puerto Rico shall be determined by 
Congress.
    While I am convinced that only Congress has the authority to 
resolve the political status of Puerto Rico, I am not aware of any 
constitutional limitation that would preclude a local constitutional 
convention from being a part of a federally authorized status 
resolution process, particularly once Congress has defined the options 
and the procedural mechanism for status resolution. To the extent 
Congress elects to recognize such a convention within the status 
resolution process, I offer the following suggestions to minimize the 
risk of confusion and misinterpretation:
    <bullet>  The inclusion of any local constitutional convention 
should be predicated on a clear recognition that: (1) the current 
commonwealth system of local government in Puerto Rico, while also 
adopted at the local level, was created by federal powers as a form for 
territorial government; and (2) the commonwealth system does not define 
Puerto Rico's political status.
    <bullet>  To the extent a local constitutional convention is 
recognized as a means to facilitate local democratic participation in 
the status resolution process, the participants should recognize that 
any proposed changes to the local territorial constitution that would 
purport to change Puerto Rico's political status can be given legal 
meaning and effect only pursuant to federal statute, based on a federal 
status resolution policy and process, with options defined or accepted 
by Congress as compatible with federal law.
    <bullet>  Any provisions in an act of Congress relating to a local 
constitutional convention should be based on the understanding that 
such a convention will operate subject to the supremacy of federal law 
and may not impair the local constitutional process with respect to 
other initiatives and measures meant to address the political status 
issue.
    <bullet>  Unless otherwise explicitly agreed and intended, Congress 
should require that any such local convention operate in a manner 
compatible with the local territorial constitution and laws of Puerto 
Rico, so that the federal enabling act is not construed as a unilateral 
federal amendment of the local constitution as approved by Congress and 
the people in 1952.
    I suggest the foregoing caveats merely as a means to avoid creating 
any false expectation by the residents of Puerto Rico of congressional 
recognition of inherent rights or powers not granted to non-state 
territories by the Constitution or otherwise. Without similar 
protections, the inclusion of a local constitutional convention risks 
harming the status process from a political and constitutional 
perspective. A consequence of which would be to stymie the status 
process and invite re-submission to Congress of a proposal to give 
Puerto Rico a status combining features of statehood and sovereign 
independence--commonly referred to as enhanced commonwealth status--
that does not exist under the Constitution and, notably, has never been 
endorsed by Congress as constitutionally or politically viable. In 
addition, the foregoing caveats will make clear that the adoption of 
the 1952 local territorial constitution simply created a system of 
limited local government and did not establish a constitutionally 
defined political status.
B.  Congress is Obligated to Provide a Lawful Political Status 
        Resolution
    As noted above, the power to resolve the political status of Puerto 
Rico is vested exclusively in Congress and the local constitutional 
process must operate within any framework created by Congress. By 
accepting the unincorporated territory doctrine of the Insular Cases, 
however, Congress has acquiesced in prolonging a political status for 
Puerto Rico in which the sovereignty of its people is held in abeyance 
and residual sovereignty is retained by Congress by operation of the 
Territorial Clause. Pursuant to the unincorporated territory doctrine, 
Congress and the federal courts can, and indeed have, extended 
fundamental rights by statute or court decision, but this is 
essentially permissive and/or discretionary and can be modified or even 
reversed through subsequent statutes or court rulings. For example, the 
federal court decisions in Examining Board v. Flores de Otero, Mora v. 
Mejias, and Rodriguez v. Popular Democratic Party appear to create a 
body of federal statutory policy and decisional jurisprudence that 
extend such fundamental rights as due process and equal protection to 
certain actions by the federal and local governments in Puerto Rico. 
The Supreme Court's ruling in Harris v. Rosario, however, confirms the 
power of wide ranging power of Congress under the Territorial Clause to 
alter its treatment of Puerto Rico. In addition, cases such as U.S. v. 
Quinones and U.S. v. Acosta-Martinez confirm that adoption of the local 
territorial constitution in 1952 did not change the status of Puerto 
Rico or carve out a zone of local sovereignty beyond the reach of the 
Territory Clause power of Congress. More importantly, the ``fundamental 
rights'' recognized under federal law in Puerto Rico are not part of a 
constitutionally defined citizenship equivalent to that secured through 
incorporation and statehood, or through separate nationhood, and, as 
such, are not part of a status leading to full and equal citizenship at 
the national level. Stated another way, the unincorporated territory 
doctrine has not enabled or empowered the U.S. citizens of Puerto Rico 
to exercise many of the most fundamental rights of all, including the 
rights to self-determination and government by consent of the governed.
    Political status resolution is first and foremost a political 
question for Congress, and the Insular Cases and Balzac decision 
represent, if nothing else, a deferral by the federal courts to the 
political power of Congress under the Territorial Clause. However, like 
many legal decisions, the Insular Cases and Balzac decision venture 
into the realm of policy making. It is likely that that in deciding the 
Insular Cases or Balzac the Supreme Court felt a need not only to 
clarify the meaning of the territorial statutory policy at issue, but 
to fill a vacuum created by congressional inaction or ambiguities and 
inconsistencies created by congressional action.
    The organic acts and territorial policies adopted for Hawaii, 
Alaska, Puerto Rico and the Philippines after 1900 illustrate this 
ambiguity and congressional inconsistency. Moreover, the disparate 
treatment of each of those territories in some respects represents a 
departure from the historical practices and constitutional law of the 
United States governing territorial status resolution. With regard to 
the Philippines, Congress declared in 1916 a policy of withholding U.S. 
citizenship from the Philippines and, on that basis, adopted a policy 
leading to a local constitutional government as a step to independence. 
With regard to Puerto Rico, however, Congress in 1917, just months 
after adopting its policy for the Philippines, conferred U.S. 
citizenship on the residents of Puerto Rico and left unanswered the 
effect of citizenship on Puerto Rico's future political status.
    Instead of treating the grant of citizenship to the residents of 
Puerto Rico as a step toward incorporation as it had done with regard 
to Alaska in Rassmussen v. United States, the Supreme Court, with its 
decision in Balzac, filled the vacuum on the issue of future status for 
Puerto Rico by concluding that, contrary to the assumption of the 
Insular Cases that conferral of citizenship led to incorporation which 
led to statehood, the extension of U.S. citizenship was not a step 
toward incorporation for Puerto Rico. There are credible arguments on 
both sides of whether the Insular Cases were ``good law'' or ``bad 
law'' in trying to resolve the exigencies of America's experiment in 
imperialism and colonialism in the Philippines and Puerto Rico before 
U.S. citizenship was extended to Puerto Rico. However, the effects of 
those decisions on federal territorial policy become more conspicuous 
with each passing year and render it much more difficult to sustain a 
favorable view of the Balzac decision separating citizenship from the 
Constitution and its fundamental promise of government by consent for 
all U.S. citizens. Further undermining the continuing validity of the 
Balzac ruling is the questionable justification offered by Chief 
Justice Taft that any individual aggrieved by the decision could simply 
move to a State. According to Chief Justice Taft:
        It became the yearning of the Puerto Ricans to be American 
        citizens...and the act gave them the boon. What additional 
        rights did it give them? It enabled them to move into the 
        continental United States and becoming residents of any state 
        there to enjoy every right of any citizens of the United 
        States, civil, social and political.
    This passage confirms that the Balzac decision created a class of 
U.S. citizenship under American sovereignty and under the America flag 
that could only be redeemed from a discriminatory state of inequality 
and disenfranchisement by migration to another part of America. That 
arguably was not really ``good law'' in 1922, and it should not be 
acceptable to Congress as federal law or policy in 2007. Put simply, 
when Congress' past exercise or failure to exercise its Territorial 
Clause power gives rise to a constitutional detriment to Puerto Rico, 
Congress has a concomitant obligation to take responsibility for and 
ameliorate the failures of that political judgment. For all these 
reasons, a legally authoritative political status policy for Puerto 
Rico is not only within the exclusive power of Congress, as recognized 
by U.S. Senate Resolution 279, adopted September 17, 1998, but also the 
responsibility of Congress under the Territory Clause power.
C.  H.R. 900--Puerto Rico Democracy Act of 2007
    As introduced, H.R. 900 meets the criteria for a federal statutory 
policy on status resolution for Puerto Rico. Implicit in H.R. 900 is 
the principle that all U.S. citizens are entitled to enjoy two of the 
most essential American democratic values--equality and self-
determination. H.R. 900 accomplishes this by allowing voters to choose 
for Puerto Rico to either retain its current status or pursue permanent 
nonterritorial status. Pursuant to H.R. 900, if a majority of voters 
favors the continuation of existing territorial status, additional 
votes will continue to be held every eight years unless and until a 
majority votes to seek permanent nonterritorial status. In my view, 
this provision is necessary to ensure that a less than fully democratic 
status does not continue due to the failure of Congress to provide 
access to a federally sponsored mechanism for expression of the 
political will of the residents of the territory. Such periodic acts of 
self-determination as between options determined by Congress to be 
compatible with the Constitution and applicable federal law are vital 
to redeem America's democratic principles and the fundamental rights of 
U.S. citizens in Puerto Rico.
    Alternatively, if, and only if, a majority of the voters choose for 
Puerto Rico to pursue a path toward permanent nonterritorial status, 
H.R. 900 mandates that a plebiscite be conducted that allows voters to 
choose between statehood or sovereign nation status, including the 
possibility of free association, subject to such terms as may be agreed 
upon by Congress consistent with U.S. constitutional practice and 
international legal criteria. It bears noting that free association as 
envisioned by H.R. 900 is based on an agreement between two sovereign 
nations, and recognition of separate sovereignty, nationality, and 
citizenship. It also must be terminable at will by either party in 
order to preserve the right of each nation to independence. Otherwise, 
if terminable only by mutual agreement, it would give each nation the 
power to deny the other nation's right to independence, and would 
therefore not be non-colonial and non-territorial. When crafted within 
the bounds of these principles, free association can be a useful means 
for a former colony and a former colonial power to sustain a close and 
mutually beneficial postcolonial relationship.
    By approving H.R. 900, Congress can begin to correct the historical 
and constitutional dilemma created by the Insular Cases, the Balzac 
decision, and the incorporated versus unincorporated territory 
doctrines. Indeed, H.R. 900 is predicated on the need for a federally 
sponsored process in which Congress exercises it powers regarding a 
political status resolution for Puerto Rico based on informed self-
determination between status options recognized as compatible with 
federal law and international criteria of decolonization in the modern 
era. For this reason, it is my view that H.R. 900 is a functionally 
status neutral approach. H.R. 900 neither favors a particular status 
nor gives rise to any sort of undue influence leading to a so-called 
artificial majority. Equally as important, H.R. 900 does not promote 
politically unrealistic or constitutionally unavailable status options 
for inclusion on a plebiscite ballot. H.R. 900 does, however, provide a 
clear path to end the current status policy for Puerto Rico that 
separates U.S. citizenship from the Constitution without any remedy 
based on consent of the governed. The end of this policy has the 
likelihood of leading to a democratically instituted unity of national 
citizenship and inherent sovereignty at the national level for the 
inhabitants of the Puerto Rico territory, if that is what a majority 
want when given the chance to express their will.
    It bears noting that, whether by direct right of referendum 
sponsored by Congress or through a combination to federal and local 
measures including, but not limited to, a local constitutional 
convention, there is precedent for periodic votes in order to achieve 
orderly political status resolution. For example, in 1889 Congress 
sponsored a status resolution process for Dakota, Montana and 
Washington. Congress required each territory to propose a constitution 
``not repugnant to the Constitution of the United States'', and to keep 
submitting such proposals to the voters until one was approved and 
proclaimed compatible with the federal enabling act by the President of 
the United States. As I noted in my earlier testimony, Congress may 
want to enact H.R. 900 exactly as introduced, or it may want to 
recognize a possible role for a constitutional convention similar to 
that proposed in H.R. 1230. As long as the constitutional convention is 
in some manner compelled to advance proposals determined at the federal 
level to be compatible with federal law, and the local constitutional 
process is not impeded from other measures to resolve the status 
question, there would be no legal reason not to recognize the concept 
underlying H.R. 1230 as part of an overall status policy. Of course, 
the local territorial constitution already authorizes constitutional 
conventions, and a convention called thereunder could possibly propose 
amendments that would change the status of Puerto Rico if approved by 
the people and Congress. With or without a local constitutional 
convention provision, a federally managed process is necessary to 
facilitate majority rule by the people of Puerto Rico in the 
determination of whether the current territorial status should 
continue, or a new political status should be pursued.
CONCLUSION
    Congress now presides over Puerto Rico as an annexed but 
unincorporated territory. Currently, the people of Puerto Rico lack 
full and equal national citizenship and they lack a status resolution 
process through which they can acquire full and equal national 
citizenship. Congress possesses the exclusive constitutional power to 
determine the appropriate status resolution. Moreover, it is imperative 
that Congress exercise this power in a fashion that is compatible with 
the options made available by the Constitution. It is my belief that 
H.R. 900 provides the best means to accomplish the necessary goal of 
redeeming government by consent for the people of Puerto Rico based on 
legally valid options under applicable federal law and policy.
                                 ______
                                 
    Ms. Christensen. Thank you, panelists. I want to remind the 
Members that Committee Rule 3(c) imposes a five-minute limit on 
questions.
    The Chair will now recognize myself for questions, and 
follow up with recognizing Members for any questions they might 
have.
    I begin with Attorney Thomas. My first question to you is, 
in your view, does the Constitution prohibit Congress from 
entering into an arrangement that establishes a self-governing 
political status that cannot be changed by mutual consent?
    Mr. Thomas. Madame Chairwoman, I would start first that 
absolutely the Congress could enter into such an agreement, and 
could choose by itself to honor the terms of those agreements. 
And as a matter of fact, I think that is what has principally 
been done in the case of Puerto Rico.
    As to whether Congress could bind itself or bind a future 
Congress from changing that agreement, my, I guess, essential 
point is one of locating that constitutional authority.
    I do agree with the comment of Professor Pildes that there 
is, there may well be nothing in the Constitution that 
prohibits the enhanced commonwealth; however, the Constitution 
is a document of both limits and powers. And the perhaps more 
relevant question is where does that power come from in the 
Constitution.
    And I do understand that there are, you know, significant 
gaps in our constitutional knowledge here because of the lack 
of case law on some of these issues. However, at this point I 
can't confidently say that there is a place in the United 
States Constitution that would provide the authority for a 
mutual binding agreement between the Federal government and a 
territory.
    Ms. Christensen. OK, but the first answer to the question 
is yes, it is possible, but you don't know that it can bind the 
following Congress.
    Mr. Thomas. Yes, that is correct.
    Ms. Christensen. I think that Professor Pildes responded in 
his testimony to how he feels about that, so I am not going to 
ask you that question right now.
    My question to you, though, is, for those territories that 
due to size or other reasons are not candidates for statehood 
or independence at this point, what is your view of the notion 
that such areas ``shall forever remain at the will of 
Congress?''
    Mr. Pildes. Well, Madame Chairwoman, I would say first that 
the territory clause itself is the source of power for Congress 
to decide on the appropriate relationship with various non-
state areas. So to answer Mr. Thomas's comment, precisely 
because the territory clause power is so broad and expansive, 
one of the ways in which Congress might choose to use that 
power, which is supported by Supreme Court precedent, is to 
create new forms of relationship, including in my view a 
binding mutual consent provision.
    For other areas, the territory clause gives the United 
States flexibility and pragmatic policymaking authority to 
determine the appropriate relationship over time, partly in 
response to the preference of the people who live in those non-
state areas, if those preferences change over time.
    Ms. Christensen. Thank you. Professor Gorrin, since the 
people of Puerto Rico, as I understand it, have several times 
voted in at least a plurality to remain as a commonwealth, it 
seems to me that the people of Puerto Rico chose themselves to 
remain in that status; that it is not necessarily being imposed 
upon them by Congress or the Federal government. Do you 
disagree with that?
    Mr. Gorrin-Peralta. Yes, I do, Madame Chairwoman. The 
original decision in 1950, when the people of Puerto Rico 
received Law 600 adopted by this Congress, gave Puerto Rico the 
alternative of deciding whether it wanted to draw up domestic 
rules for the household, or whether it wanted not to draw up 
those household rules and wanted Congress to keep on drawing 
them.
    But it had no alternative. It was either a yes-no answer to 
a colonial relationship. And that, of course, cannot be legal 
under either constitutional or international law.
    So the only time that Congress has admitted to the people 
of Puerto Rico any kind of question was at that time, and that 
was an invalid question.
    Ms. Christensen. I am going to reserve my next questions 
for the next round, since I am almost out of time, and I will 
turn to the Ranking Member, Mr. Fortuno, for any questions he 
may have.
    Mr. Fortuno. Thank you, Madame Chair. And thank you for all 
the witnesses coming up today.
    My first question is for Mr. Thomas. And I read, last night 
I read your written statement that you had put into the record. 
And you mentioned, and actually you were commenting on H.R. 
1230, which proposes that a non-territorial or enhanced 
colonial status be one of the status options.
    I believe in your written testimony that you stated that 
this at some point could require a constitutional amendment 
here in the United States. Could you expand on that, please?
    Mr. Thomas. Yes. In my written testimony I was speaking to 
the language of H.R. 1230, which seems to provide a broad 
discretion to the convention as to the types of proposals they 
could make. And I would note that the H.R. 1230 speaks of the 
Congress passing a joint resolution in response to the 
convention's proposals.
    And I just thought that that raised the possibility, and I 
wouldn't say that this is necessarily the intent of the bill, 
but I would say it raises the possibility that the proposal 
which could be submitted from the convention could be one of a 
constitutional amendment.
    And that also has the advantages of avoiding some of the 
constitutional issues that might arise if the proposal was sent 
up in the form of a statute.
    Mr. Fortuno. Mr. Thomas, so that everyone is here and 
actually hearing us in Puerto Rico understands, what does it 
take for a constitutional amendment to be approved in the 
United States?
    Mr. Thomas. In the United States, the Congress, both Houses 
of Congress would pass the bill by two-thirds. It would not go 
to the President; it would go directly to the states for 
ratification by three-fourths of the states.
    Mr. Fortuno. Last time the country tried this was ERA. 
Could you tell us what happened?
    Mr. Thomas. In that case, the ERA failed, and I believe 
there were numerous states that did ratify it. The ERA 
legislation was actually amended to extend the opportunity for 
passage, but ultimately it did fail.
    Mr. Fortuno. When was the last time that the U.S. 
Constitution was amended?
    Mr. Thomas. The 27th Amendment was fairly recent, although 
that is an interesting case because that actually was started 
over 200 years ago as one of the original Bill of Rights, and 
was not actually ratified until fairly recently.
    Mr. Fortuno. And the 27th Amendment, what does it state, if 
I may?
    Mr. Thomas. The 27th Amendment speaks to whether the 
compensation of Members can be raised without an intervening 
Congressional election.
    Mr. Fortuno. And it took 200 years to get through that. 
Thank you.
    Mr. Thomas. Thank you.
    Mr. Fortuno. Mr. Goldstein, you have commented on the 
enhanced colonial status that has been proposed. Could you go 
further into, for example, the ability for Puerto Rico, non-
territorial or enhanced colony of Puerto Rico, to have veto 
power over Federal legislation, and to invalidate Federal court 
jurisdiction?
    Mr. Goldstein. I think that that would be in grave 
constitutional doubt, given, as has been said, the plenary 
power of the Congress under the territory clause.
    If Puerto Rico were to remain in some form of commonwealth 
status, the plenary power would remain with the Congress. And 
in addition to the points that were made earlier about the 
political will to give such a special status to Puerto Rico, I 
think that it would be highly questionable to give a territory 
effectively a veto over the application of laws that were 
passed by Congress.
    Congress, nonetheless, could itself provide, as it has, 
that certain laws don't apply in Puerto Rico. But that is a 
very different question from giving Puerto Rico the opportunity 
to veto those laws itself.
    Mr. Fortuno. The things that the platform, 2004 platform of 
the party, of the Governor's party, states that actually it 
will be the Puerto Rico legislature that will veto our laws 
here in Congress. That is what they are saying that could be 
done. Essentially you are saying that that is not doable.
    Mr. Goldstein. That would not be possible.
    Mr. Fortuno. OK, thank you. Mr. Thomas, I know you--and 
again, I was reading this last night, and you looked at both 
bills. Do you have an opinion as to which of the two will 
actually have, are less likely to survive the constitutional 
scrutiny of the proposed options? That is, statehood, 
independence, or this type of free association, or an 
enhanced--well, basically, we keep it all, but we don't give 
anything back?
    Mr. Thomas. Well, again I should reiterate that I believe 
that both bills are constitutional in the sense, well, first of 
all, that they are really just establishing----
    Mr. Fortuno. I am sorry, my question is about the options, 
the actual options. I am sorry.
    Mr. Thomas. Right. And if the Puerto Rican Convention under 
H.R. 1230 does choose a commonwealth option, and the 
commonwealth option they do choose is one that would withdraw 
the Federal jurisdiction, again, that is, in and of itself, not 
unconstitutional.
    But the question is whether it is effective. The question 
is if then a Congress later came and decided that it was 
necessary for whatever reason to change some aspect of the 
commonwealth in a way that the Puerto Rican Convention had 
decided was inappropriate, I think it would be very difficult 
to find an argument binding that later Congress from taking 
that action.
    Mr. Fortuno. Thank you. I yield back, Madame Chairman.
    Ms. Christensen. Thank you. At this point, before I move to 
Mr. Faleomavaega, I ask unanimous consent that the gentleman 
from Indiana, Mr. Burton, be allowed to sit on the dais and 
participate in the hearing. And hearing no objection, so 
ordered. Welcome.
    Next, Mr. Faleomavaega, you are recognized for five 
minutes.
    Mr. Faleomavaega. Thank you, Madame Chairwoman. And I guess 
you might say this is my maiden speech for this important 
hearing. And certainly I want to thank Chairman Rahall and 
Chairman Young; I do call the gentleman from Alaska as Chairman 
Young, because he was Chairman of this important committee. In 
fact, he has worn so many hats, I don't know which one that I 
could really address properly the senior Member from our good 
friend and colleague from Alaska, Mr. Young.
    But I do want to thank you, Madame Chairwoman, for calling 
this very important hearing. Again, to figure out how we can 
best determine to give the people of Puerto Rico the best 
option or the best opportunity to determine for themselves as 
to what their future should be.
    I also want to say at the beginning, I have nothing but the 
highest respect for my good friend and colleague, Congressman 
Fortuno, who has represented his district in a most excellent 
way, not only before this body, but certainly before other 
members of this institution.
    I thank also the gentleman from Indiana, because these 
gentlemen all have institutional memories, excellent 
institutional memories, of what has happened for all these 
years in trying to determine what can we do for Puerto Rico. 
And obviously, those of us who represent the insular areas take 
a tremendous interest always when we talk about political 
status for Puerto Rico, because it does have very serious 
implications on the future of the other insular areas, as well.
    So I welcome this opportunity again, and look forward to 
seeing where we are going to be, how we are going to make this 
determination.
    And one of the interesting twists that we find ourselves 
in, that we have two bills introduced by those who are 
originally from Puerto Rico--my good friend, the gentleman from 
New York, Mr. Serrano, and also Ms. Velazquez--for introducing 
both pieces of legislation.
    I have been here almost 20 years now, and there are so many 
different cross-currents going on, and as has been in the past 
and is true in the present.
    I have a grandson, very interestingly enough. He is part 
Tahitian, he is Samoan, and he is also Puerto Rican. So I just 
want to say how far our precenos have traveled, all the way 
from Puerto Rico to the South Pacific. So I am very proud and 
so happy that my grandson does have a sense of heritage, and a 
base or foundation from the good people of Puerto Rico. And I 
look forward to working with my colleagues here on the 
committee, and see how we can best resolve this issue of what 
should be the best option to pursue.
    Now, I look at it from a different perspective. The problem 
we have here so often is that we are almost like in a courtroom 
situation. You get expert witnesses. If I want someone who kind 
of bends a little bit toward H.R. 900, I will call Professor 
Pildes. If I want someone who bends on H.R.--wait a minute, the 
opposite--900, it is Mr. Goldstein, and if it is 1230, maybe 
perhaps Professor Pildes. And I wish we didn't have to do it 
this way, but this issue is not very simple. It is very 
complex. So many constitutional cross-currents, under-currents, 
I don't know what to call them.
    I recall years ago when we held a hearing right in Puerto 
Rico. And right in the middle of the hearing, all of a sudden 
an opinion or a commentary was written by one of the most noted 
conservative journalists or leader, activist, what you want to 
call him, by the name of Pat Buchanan. And he comes out and 
says you give Puerto Rico statehood, we are going to have a 
welfare state. And that caused a barnstorm, and then all kinds 
of things flared up and said my gosh, is this what we want to 
do, in the most--I say it was a very wrong way to look at it, 
perceive what options should be made available for the good 
people of Puerto Rico.
    The political implications are, to me, as the way I look at 
it, from why even the Congress has not dealt very well in 
dealing with this issue.
    What I am saying here, it is a political issue, more so 
than saying whether it is constitutional or right or wrong, to 
try to meet the needs of Puerto Rico.
    We are looking at seven potential Members of Congress. Are 
they going to be Republicans or Democrats? Two Senators; are 
they going to be Republican or Democrat? That is, from what I 
recall before Alaska became a state, the fear politically was 
whether Alaska was going to be a democratically controlled 
state. And guess what? They are Republicans.
    The same situation happened also with the State of Hawaii. 
The fear was that Hawaii was going to be Republican, and guess 
what? They are all Democrats.
    So to me, that seems to be the problem that we have here in 
the Congress, looking at it as a political issue, and not 
looking at the rightness of what should be done to meet the 
best course of action for the people of Puerto Rico and their 
future.
    I am sorry, my time is up. I didn't even have a chance to 
ask questions, but I will hopefully wait for the second round. 
Thank you, Madame Chair.
    Ms. Christensen. Thanks, and we will have a second round. I 
now recognize our Ranking Member on the full committee, Mr. 
Young, for any questions.
    Mr. Young. Thank you, Madame Chairman. I will say that my 
good friend from American Samoa put it very well. This is a 
political issue.
    But I have one, other than Hawaii, one of the most recent 
territories that became a state. And I can say this is my 
interest in this. I make no apologies. I am a statehood person. 
Because I knew where we were as a territory, and what we could 
not do, and how we were being treated as a colony.
    It was a big fight in the State of Alaska. And we 
petitioned the Congress, and the Congress responded, and we 
became a state in 1959.
    And in retrospect, if we knew we had as much oil as we 
had----
    [Laughter.]
    Mr. Young.--we would have probably become a nation, and I 
would have become Emperor. But I don't think you would let us 
do it right now.
    But my goal here is to really try to allow Puerto Rico to 
advance. And I do not believe you can advance as a 
commonwealth. I say that from my heart. Because we were not 
able to advance as a commonwealth. We were a territory. And my 
goal is to listen to the Puerto Rican people, listen to 
witnesses like we have today. But my ultimate goal is to try to 
give the Puerto Rican people a choice. And my bill, H.R. 900, 
does give them a choice.
    And if they decide to be an independent nation, God bless 
you. If you decide to be a state, God bless you. If you decide 
to be a commonwealth, you are not going to grow. And I am not 
going to ask God to bless you in that case.
    [Laughter.]
    Mr. Young. I yield back the balance of my time.
    Ms. Christensen. Thank you. Before I move to Ms. Bordallo, 
I also have to ask unanimous consent that the gentleman from 
Pennsylvania, Mr. Dent, be allowed to sit on the dais and 
participate in the hearing. And hearing no objection, so 
ordered.
    I now recognize my colleague from Guam, the Congresswoman 
Madeleine Bordallo, for such questions as she might have.
    Ms. Bordallo. Thank you very much, Madame Chairman, and 
Ranking Member Fortuno, and of course our distinguished Mr. 
Young who just left the room, and Mr. Rahall, who was here 
earlier, and to all of the distinguished witnesses.
    It has been a very important morning for me to listen to 
some of the dialogue on this matter. I represent the territory 
of Guam. Guam has in the past gone through the same exercises 
as you have in Puerto Rico over the years. We have introduced a 
number of pieces of legislation in the U.S. Congress. So I 
don't know what the future is for Guam, but this is a learning 
process again for us, and I am sure that in the future we will 
also be entertaining a status change for Guam.
    Now, in examining the, or first, I would like to ask Mr. 
Thomas a question. I want to thank you and your colleagues in 
the American Law Division of the Congressional Research Service 
for all of the professional work that you have done for the 
committee, for all of us.
    I have a general question. Much of your written testimony 
focused on potential interpretation by the courts of H.R. 1230. 
And you also touched upon H.R. 900, which is based on the 
President's Task Force report.
    My question then, Mr. Thomas, in examining the task force's 
report and recommendations, do you note any constitutional 
deficiencies in the options and the process presented, or in 
the legal basis that the task force cites for its 
recommendations? Are there any issues that you see in the task 
force report with respect to constitutional compatibility, or 
anything Congress should keep in mind in particular with 
respect to the legal bases cited by the task force report's 
recommendations?
    Mr. Thomas. Well, Congresswoman, I would note that the task 
force really does have two components. One is a process 
component, and the other is a component regarding status 
options.
    As to the process component, obviously there is a lot of 
different ways that plebiscites can be held, different 
variations, and I would certainly have no policy suggestions as 
to which plebiscite form would be most appropriate.
    As to the status options that are presented, as I indicated 
in my report, I did find that the three general options that 
are going to be available to Puerto Rico will probably be 
statehood, independence, and some form of territorial status, 
such as commonwealth. And I think that is consistent with the 
task force.
    There is, of course, extensive appendices associated with 
the task force report that goes into great detail regarding 
some of the legal issues in this. I read those appendices, and 
thought that they went into a lot of the arguments on both 
sides, and noted some of the opposing case law, some dicta, 
some different arguments that could be made. And I thought they 
did a reasonable job of setting forth that. So I found nothing 
that I would consider, that would contradict my testimony.
    Ms. Bordallo. So in other words, Mr. Thomas, you found 
nothing unconstitutional.
    Mr. Thomas. Again, I recognize that the Congress can enter 
into these agreements. But as to whether these agreements can 
bind in the future, I would agree with the task force's 
conclusion on that matter.
    Ms. Bordallo. Thank you. Thank you, Madame Chairman.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Burton for five minutes.
    Mr. Burton. First of all, I want to thank you, Madame 
Chairman, for allowing me to sit in on your meeting. I really 
appreciate that.
    I have worked with Mr. Fortuno and Congressman Young for 
many years on this issue. I have been to Puerto Rico many 
times, and I am a very strong supporter of Puerto Rico becoming 
the 51st state.
    But I am also a realist, and I realize that it is extremely 
important that the people of Puerto Rico have the options 
presented to them, so they can make the decision themselves. 
And for that reason, I am a very enthusiastic supporter of H.R. 
900, and I certainly hope it passes the committee and goes to 
the Floor quickly.
    And with that, I will yield the rest of my time to the 
gentleman from Puerto Rico.
    Mr. Fortuno. Thank you. I want to thank the gentleman from 
Indiana; thank you for your support, and certainly for being 
there for so long for this cause. Actually, for an unfinished 
matter that has to be dealt with. On behalf of the four million 
citizens that I represent, I thank you for your leadership in 
this.
    I also acknowledge the fact that one of the Members of our 
Subcommittee and committee is here, Mr. Flake. I am sorry I 
couldn't make it to today's press conference, but I certainly 
wanted to be there, and I commend you on your leadership on 
another important issue that this country, this nation of ours, 
is facing, immigration, and I support you wholeheartedly.
    If I may, coming back to Puerto Rico. Mr. Goldstein, I 
stayed up until late last night; I was reading all of your 
testimonies. And you mentioned something in H.R. 1230 there is 
language that talks about inherent powers of Puerto Rico as a 
sovereign to do certain things. And I wonder if you have been 
able to look at what is the authority for the nature of those 
inherent powers that H.R. 1230 alleges.
    Mr. Goldstein. Yes, sir. The Territorial Constitution does 
give the citizenry of Puerto Rico certain autonomy and the 
ability to make certain decisions. But H.R. 1230 I think 
dramatically overstates, under the current legal regime, the 
authority of the citizenry to make sovereign decisions, because 
that power is vested in Congress.
    And I think it is unfortunately misleading to the citizenry 
to suggest that until democracy is restored, that Puerto Rico 
would have such great control over its destiny that it would be 
able to, for example, veto Federal legislation, because that is 
not the way the U.S. Constitution works, regrettably.
    So long as there was a commonwealth or enhanced 
commonwealth status, the power will remain in the Congress. 
Unless and until Puerto Rico becomes a state or becomes 
independent, Puerto Rico does not have this inherent sovereign 
power to exercise so much control as H.R. 1230 suggests.
    Mr. Fortuno. So essentially, you have serious qualms about 
whether what has been actually promised to the people of Puerto 
Rico in the platform of the Governor's party, essentially that 
we will have veto power over Federal legislation, that we would 
actually be able as well to limit the jurisdiction of the 
Federal district courts in Puerto, actually that we will be 
able to, believe it or not, benefit from all these free trade 
agreements and other agreements that our nation enters into.
    But by the same token, if some of them are not of our 
liking, that we will be able to enter into separate agreements. 
Could you comment on those, as well?
    Mr. Goldstein. I have more than serious qualms. I don't 
believe that it is a constitutionally permissible arrangement. 
It is, no doubt, idealistic, in a sense; it would be a 
wonderful arrangement for the people of Puerto Rico, as it 
would be for all of the 50 states that currently exist. But it 
is not something that is recognized by the Constitution.
    Mr. Fortuno. Actually, with this I will yield back. And I 
thank you again, Mr. Goldstein. I am convinced that if we could 
get all that, there will be 50 requests for that before this 
committee.
    I yield back, Madame, my time.
    Ms. Christensen. Thank you, Mr. Fortuno. I now recognize 
Mr. Kennedy for five minutes.
    Mr. Kennedy. Thank you, Madame Chair. And I want to thank 
you, Madame Chair, for allowing me to be here today. I also 
want to commend the Member from Puerto Rico, Mr. Fortuno, for 
his leadership on this issue.
    It was mentioned, the issue of fairness. The delegate from 
Puerto Rico, Mr. Fortuno, has been outspoken on behalf of the 
people of Puerto Rico. And I think all of us, as Members of 
Congress, are painfully, painfully aware of the fact that 
although he represents seven times the number of people that 
each and every one of us represents, there is only one of him. 
And he doesn't get to go to the Floor of the U.S. Congress 
right now.
    We are about to go for a vote, and he doesn't get to go and 
vote. If you want the truest test of where the power is under 
the Constitution right now, it is in this vote. Because we are 
going to have a vote, and he doesn't get to go vote. The proof 
is in the pudding right there. He doesn't get to go and vote on 
the Floor.
    So if you want to cut right through all of the talk, that 
is where the bottom line is. If you want to know where the 
sovereignty really is, that is where it is. Puerto Ricans don't 
have the power. And until Congressman Fortuno--and he would 
actually have six other colleagues, Members of Congress, if the 
people of Puerto Rico had the right to vote--were able to go 
and vote right now, then you would have real democracy in 
Puerto Rico. That is the real issue here, and that is why we 
are listening to this bill, and why we need to act on this.
    Whether the people of Puerto Rico choose to have people go 
and vote as a state or whether they choose to have 
independence, that is their choice. But they can't allow this 
current disenfranchisement to continue.
    And Delegate Fortuno, you have been outspoken on this 
issue, and I commend you for it. And I think your point on this 
1230, the notion that under developed commonwealth, that 
Congress concede power to Puerto Rico to nullify Federal laws, 
let me ask Mr. Pildes a question, because you brought up the 
issue of the Northwest Ordinance.
    You said the territorial incorporation example of a mutual 
consent arrangement in the Northwest Ordinance was a statutory 
policy subject to alteration by Congress, despite the mutual 
consent provisions it contained.
    But isn't it true that paragraph 14 of the Northwest 
Ordinance, Article IV of the so-called unalterable compact, 
expressly states it was subject to ``such alterations as shall 
be constitutionally made to the Articles of Confederation and 
all acts and ordinances of the Congress of the United States.''
    And isn't it also true that the Northwest Ordinance was 
amended in 1789 by Congress, without the consent of the 
territories?
    Mr. Pildes. Representative Kennedy----
    Mr. Kennedy. Yes or no? Well, the answer is yes, in case 
you needed to know.
    Mr. Pildes. May I respond? I am sorry. I just wanted to say 
that the terms of the ordinance do say that they cannot be 
altered except by mutual consent.
    Mr. Kennedy. Well, it was altered without the consent of 
the territories, contrary to your testimony.
    Mr. Pildes. I don't believe that is correct, 
Representative.
    Mr. Kennedy. Well, I can show you----
    Mr. Pildes. Yes, we can----
    Mr. Kennedy. I have got it here in case you want it.
    Mr. Pildes. I would be happy to look at that, and I would 
be happy to submit a written response to it, if you want to 
give me that information.
    Mr. Kennedy. We have got the Library of Congress right 
here, Ken Thomas is here.
    Mr. Pildes. Do you want to ask him the question?
    Mr. Kennedy. No. I have got the Library of Congress here 
that has refuted your testimony that the Northwest Ordinance 
that you said had mutually consented to the Articles of 
Confederation being amended was not true.
    Mr. Pildes. Representative Kennedy, the United States 
Supreme Court has held constitutionally that the one time I am 
aware of that Congress did try to alter a mutual consent clause 
for a territory, when it came to Alaska, that that, in fact, 
was unconstitutional for Congress to do. That is an explicit 
express holding of the United States Supreme Court in the 
Rasmussen case.
    So as far as I am aware, the only time the U.S. Supreme 
Court has ever confronted the question, it has held that 
Congress is bound by a mutual consent clause when it makes that 
pledge in a statute to a non-state area. And again, that is the 
Rasmussen case, and there is a whole line of cases that follow 
Rasmussen which reaffirm that principle.
    Mr. Kennedy. May I ask Mr. Goldstein--actually, my time is 
up. But if I could ask Mr. Goldstein, once again, does not the 
power to change the status of the people of Puerto Rico reside 
with the people or reside with Congress?
    Mr. Goldstein. Congress controls the future of Puerto Rico, 
and the bills before you seek to take their views and let them 
make a choice. But it is a Congressional power. Unfortunately, 
that is true.
    Ms. Christensen. Mr. Kennedy, your time has expired. Thank 
you.
    I would like to recognize Mr. Flake for five minutes.
    Mr. Flake. I would like to thank the Chair for convening 
this hearing.
    Let me just go quickly to Mr. Thomas. You mentioned in your 
testimony that you thought that both bills were constitutional, 
but you expressed some concern, constitutional concern, in your 
testimony with regard to H.R. 1230. Are those concerns enough 
to give you pause about its constitutionality? Or do you still 
state that that bill is constitutional?
    Mr. Thomas. I guess the best way to phrase it, I would be 
concerned about its enforceability. And again, this would not 
arise until such time as Congress chose, if 1230 again led to a 
plebiscite, led to a commonwealth, enhanced commonwealth status 
that was to be non-alterable, the issue would not be joined 
until Congress tried to alter it. And at that time I do believe 
that the courts would find that the Congress still had the 
power to alter even a solemnly entered-into agreement.
    Mr. Flake. So constitutional, but not enforceable.
    Mr. Thomas. That might be the best way to describe it.
    Mr. Flake. Let me yield my remaining time to Mr. Dent. I 
know we have a vote quickly.
    Mr. Dent. Thank you, Mr. Flake. And also, at the outset I 
just wanted to say I am very pleased to see that included in 
today's witnesses we will include representatives from our 
armed forces from Puerto Rico. I think that is very important.
    I do want to commend Madame Chairwoman and the committee 
staff for inviting these veterans who have done their duty, and 
are here to ask that we in Congress do our duty and uphold our 
oath of service as honorably as they did.
    That said, regarding the status of Puerto Rico, which is 
the subject of the hearing today, I am not here to advocate 
statehood or independence, or even the current status, for 
Puerto Rico. Instead, I support the process laid out in H.R. 
900. And I think we need to clearly define the status options 
Congress is willing to consider if approved by a majority in a 
Federally recognized referendum.
    And if a majority of our fellow citizens in Puerto Rico are 
not ready to make the choice Congress is prepared to offer, 
they can choose to continue their current status, and we can 
continue to assist the commonwealth in its development goals as 
a territory, based on the democratic acceptance, and at least 
for now, the current political status.
    And I do again want to applaud Congressmen Serrano and 
Fortuno and their legislation, which will allow just that kind 
of freely expressed government by consent on the status issue. 
Indeed, there would be no vote on statehood or nationhood until 
a majority seek a new status, and an end to the current status. 
And this is a sound approach. It is a sound process. And that 
is why I strongly support H.R. 900.
    So why would a guy from Pennsylvania care about this 
legislation? Well, I, too, like many people, are concerned 
about the island. I represent a large number of people who have 
strong ties or roots to the island of Puerto Rico, and many of 
my constituents are following this issue very closely.
    And so as this debate unfolds, I certainly am going to 
listen to all sides on this issue. And again, I want to thank 
you, Madame Chairwoman, for putting on this hearing today. And 
again I want to applaud Congressmen Serrano and Fortuno for 
their strong leadership on H.R. 900.
    Thank you. I yield back.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Serrano for five minutes.
    Mr. Serrano. Thank you so much. There is not that much time 
left before the vote, but I will do some work here.
    Mr. Pildes, just a question probably more on American 
foreign policy than on anything else.
    Did I hear you say that the United States can hold a colony 
if it is in our best interest?
    Mr. Pildes. Well, unfortunately, that was the decision in 
the insular cases, as you know, in Downes v. Bidwell. And I 
actually think it would be perverse for the Constitution to be 
understood to permit that initial move.
    But now to be understood to deny Congress the power to 
expand the self-governing autonomy of Puerto Rico on the basis 
of some view that the one thing the territory clause does not 
do is permit Congress to expand the self-government, the 
autonomy, the political independence of Puerto Rico.
    So that is why in my view the Court's decisions in the 
insular cases actually support an expansive power for Congress 
to cede some of its territory clause powers, and to respect the 
decision of the people of Puerto Rico if that is what they 
prefer in a free and informed process, to become self-governing 
in relationship with the United States.
    Some intermediate form, more autonomous than today, 
distinct from statehood, strong association with the United 
States distinct from independence. I believe whatever of these 
options is right, and whatever the people of Puerto Rico 
prefer, the Congress and the President, because both have to 
join in this decision, do have the constitutional power at 
least to give the Puerto Rican people these different options. 
And that is all I am really trying to insist on here.
    Mr. Serrano. OK. To, very quickly, Mr. Thomas and Mr. 
Goldstein. The H.R. 1230 accepts the now well-known Serrano 
Amendment, which is in H.R. 900, that allows for those of us 
that were born on the island to vote. In fact, I think 1230 
goes a step further and says the children of those born on the 
island.
    I suspect that will probably be the first thing that some 
people go after constitutionally. Is it your feeling that could 
hold constitutional muster?
    Mr. Thomas. Congressman, I would be willing to submit a 
memo on that, not having looked at it closely in some time.
    However, the ability of a governmental entity--here a 
territory with Congressional authorization--to establish the 
parameters of the voting, of its vote, of who gets to vote, of 
suffrages, has quite a bit of discretion. And I wouldn't say 
that there might not be some equal protection issues raised, 
but I think that as long as there is a rational basis for the 
extension of suffrage on an even-handed basis I think would 
survive constitutional scrutiny.
    But I would like to, if necessary, develop that further. 
Thank you.
    Mr. Goldstein. Congressman, I think much would depend on 
the ultimate status of Puerto Rico and the degree of 
independence and autonomy that it ultimately elected to secure.
    I don't think there would be an equal protection problem. 
And Congress does have the ability to extend citizenship. A lot 
would depend, I think, on what came with that citizenship, and 
the ability----
    Mr. Serrano. No, no. I am talking about during those votes, 
to have those of us who reside in the States vote in the 
plebiscites.
    Mr. Goldstein. No, I think that Congress could very 
likely--I apologize--could very likely, with some logical 
basis, such as that relationship to the island, choose to allow 
that level of participation. I don't think that it would 
violate, it would dilute the votes of citizenry in any 
substantial way.
    I do think if, for example, the Congress were to say the 
citizens of the State of Indiana--not to pick on Indiana, which 
is a wonderful place--but were to pick some illogical 
relationship, there would be problems. But I expect that what 
you described would be constitutional.
    Mr. Serrano. OK. Let me just close by saying that I will 
probably have a lot of people in Puerto Rico scratching their 
heads why I would bring up the subject, but part of the 
confusion has been seen in Congress in Major League Baseball.
    C.Q., a national journal, once published a list of foreign-
born Members of Congress, and it listed Ms. Velazquez and I as 
foreign-born, and it listed Mr. Gutierrez as native-born, 
because he was born in Chicago.
    Major League Baseball says that Bernie Williams is foreign-
born, and they have got Martinez as native-born. And so it 
dilutes the numbers of Puerto Ricans.
    So it really can be resolved by Major League Baseball 
first, and then we can move on to take care of it. Thank you so 
much.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Serrano. Sure.
    Mr. Faleomavaega. I was introduced by one of the Member's 
colleagues on the Floor of the House as the gentleman from 
Somalia.
    [Laughter.]
    Mr. Faleomavaega. Thank you.
    Mr. Serrano. Well, I represent the Puerto Rican capitol of 
the world, the South Bronx.
    Ms. Christensen. Would you yield again?
    Mr. Serrano. Absolutely.
    Ms. Christensen. As far as I know, Bernie Williams' family 
is from the Virgin Islands. He just happens to be born in 
Puerto Rico.
    Mr. Serrano. Well, and we gave you a great Governor for a 
while, right?
    Ms. Bordallo. Sir, would you yield for just a moment? I am 
also known as the Representative from Guatemala.
    Mr. Serrano. I think I started something here.
    Ms. Christensen. We are going to entertain a second round 
of questions. And fortunately, four of us sitting here do not 
have to vote right now.
    But I would like to ask Mr. Nieves, as far as I know, none 
of the other freely associated states have continuing U.S. 
citizenship. And I noticed that that is number four in your 
principles.
    Why do you think that that would be possible, to continue 
to be U.S. citizens under a freely associated state?
    Mr. Nieves. OK. The issue of citizenship is very hard to 
discuss. But the things that, the decision to grant citizenship 
to Puerto Ricans was not made by us; it was made by the United 
States in 1917.
    In the case of Puerto Rico, Puerto Ricans, for several 
historic reasons, have come to value their American 
citizenship. The things that any movement toward a form of 
sovereignty, free association, must take into account a 
historical reality, that Puerto Ricans value American 
citizenship. Although it could be said that it is a kind of 
second-class citizenship, but that is the historical reason.
    We should make that American citizenship, that there are no 
constitutional problems for a new arrangement within Puerto 
Rico and the United States, based on the sovereignty of Puerto 
Rico, whereby in the free association, there could be a 
recognition of continued American citizenship.
    We submit, Madame Chairwoman, that this is not a legal 
issue, per se; it is a political decision that could be made by 
the United States. There are no legal----
    Ms. Christensen. Impediments.
    Mr. Nieves.--impediments to making that decision.
    Ms. Christensen. Thank you. Thank you for your answer.
    Mr. Nieves. Thank you.
    Ms. Christensen. Mr. Goldstein, would you agree that should 
the new enhanced commonwealth be the choice through whatever 
process, that it would have to be negotiated? And through that 
negotiation, can you say with any certainty that none of those 
provisions of commonwealth could be successfully negotiated? 
Could you with certainty say that any one of them cannot be 
negotiated with the United States Government?
    Mr. Goldstein. No, Madame Chairwoman. My concern is only 
with two things. One is the fundamental promise that H.R. 1230 
would be making to the citizens of Puerto Rico that this would 
be permanent, and that they could count on the U.S. Congress 
never being able to change the deal. And I don't think that is 
a promise that could be made.
    And my second point is that there are important promises 
there about the ability to veto Federal laws and Federal 
jurisdiction that might be at the heart of the citizens' desire 
to adopt that proposal that would be very problematic under the 
Constitution.
    Ms. Christensen. But your answer was no, that you can't say 
with certainty that they could not be negotiated.
    Mr. Goldstein. That no provision of that could be 
negotiated, no, that is not my point. But the fundamentals are 
very doubtful.
    Ms. Christensen. Thank you. Professor Pildes, can you 
explain--I would like to go back to some of the conclusions of 
the President's Task Force. And can you explain in more detail 
why the Bowen case contradicts many of the conclusions of that 
task force?
    Mr. Pildes. Well, the task force relies on recent Justice 
Department memoranda in the 1990s that assert that the decision 
in this Bowen case by the Supreme Court from the 1980s required 
a dramatic change in position of the Justice Department 
regarding whether Congress has the power to enter into these 
mutual consent clauses over political status.
    I gather the theory of the Justice Department as to why 
Bowen suddenly required this about-face in Justice policy is 
that Bowen held that California did not have the right 
permanently to choose to remove itself from the Social Security 
system once it had entered into that system.
    One of the obvious problems with reasoning the Justice 
Department analysis is that the Social Security system, the 
relevant Congressional statutes expressly reserve the right of 
Congress to amend those statutes and change them at any time. 
So the argument of California, that somehow it had a pledge 
from Congress never to alter the Social Security system was 
refuted by the very statute on its face.
    And for that reason alone, it seems to me the Bowen case is 
utterly irrelevant to a statute that would say we pledge to 
respect the autonomy of Puerto Rico in this particular form, 
whatever form was adopted. I just find it utterly inexplicable, 
unless there is some political or policy judgment that is not 
reflected in the legal analysis, as to how one could conclude 
that that decision dramatically changed the constitutional 
doctrine about whether Congress could create one of these 
mutual consent agreements.
    Ms. Christensen. Thank you for your answer. Mr. Fortuno, I 
recognize you for five minutes.
    Mr. Fortuno. Thank you, Madame Chair, again. Mr. Goldstein, 
just to finish on the question that Madame Chair just asked 
you. Is there a legal impediment to Congress guaranteeing a 
million dollars to each Puerto Rican for life? Legal 
impediment?
    Mr. Goldstein. There is a different rule that would apply 
to when you promise someone property, which has been something 
that, an analogy that has been made for the enhanced 
commonwealth status. There would be a significant impediment to 
promising permanent autonomy that Congress could never revisit, 
and the ability to veto Federal laws and the like.
    Mr. Fortuno. And the bottom line here is that even if we 
can have our cake and eat it, too, the next Congress could take 
it away.
    Mr. Goldstein. That is right. And this could be a promise 
that could not be kept.
    Mr. Fortuno. Exactly. That is why it is not permanent. That 
is the reason why, there are two words in our H.R. 900, 
permanent and non-territorial. And there is a reason for each 
word in that legislation, to make sure that we finish this 
discussion once and for all.
    And talking about finishing the discussion once and for 
all, if I may, Professor Gorrin, even though we differ on the 
final outcome of this situation, not only our families tied for 
a long, long time, but I have the utmost respect for you. I 
would like for you to expand even further on whether we changed 
our status back in 1952, and whether we selected our status in 
1952.
    Mr. Gorrin-Peralta. Well, the committee would do well to go 
back to the legislative history of Law 600. That record is 
quite clear. Everybody was very clear at that time. The Senate 
committee that recommended the legislation, the House 
committee, the State Department, the hearings, the Interior 
Department at the hearings, and even the Representatives of the 
Puerto Rican Government at that time, referred once and again 
that the purpose of that legislation was to give the people of 
Puerto Rico a greater degree of self local government, and to 
obtain some kind of collective consent to the current 
relationship back then. In other words, a consent to the 
territorial status at that time.
    And all those reports and all those positions reiterated 
that the fundamental relation between Puerto Rico and the 
United States would not be changed. Even the Governor of Puerto 
Rico told, in a hearing just like this one at that time, if the 
Puerto Rican people should go crazy, Congress will always have 
the power to go back and legislate again.
    Mr. Fortuno. That is why, indeed, what we have today is not 
permanent in nature, because Congress any day can change it.
    I have just one more question, and that is to Mr. Pildes. 
Your name sounds familiar. Were you involved in the case 
stemming out of the 2004 election, by any chance?
    Mr. Pildes. I absolutely was, Representative Fortuno.
    Mr. Fortuno. Who did you represent?
    Mr. Pildes. I represented the Puerto Rico Electoral 
Commission in the First Circuit, on behalf of the Commission's 
view about how to resolve that disputed election, which was the 
position that the First Circuit ultimately endorsed.
    And I should also add I have represented Puerto Rico in 
litigation over its status in the United States Court of 
Appeals for the District of Columbia Circuit. And that 
litigation centered on the question you were just asking, which 
is----
    Mr. Fortuno. During what time did you represent in those 
cases before the District of Columbia?
    Mr. Pildes. That is in my testimony, but I believe it was 
in the last two years, that litigation.
    Mr. Fortuno. So under this Administration. So you have 
worked for this Administration.
    Mr. Pildes. In that litigation, I did represent the 
Government of Puerto Rico. That is correct.
    Mr. Fortuno. Governor Anibal Acevedo Vila's administration.
    Mr. Pildes. That is correct.
    Mr. Fortuno. Thank you very much. I yield back the balance 
of my time.
    [Laughter.]
    Mr. Pildes. That is OK.
    Ms. Christensen. The Chair now recognizes Mr. Faleomavaega 
for five minutes.
    Mr. Faleomavaega. Thank you, Madame Chair. I appreciate the 
opportunity again. I do have some questions I would like to 
share with the members of the panel.
    I have the famous or infamous pleasure, when people ask me 
well, what is your territorial status, you representing 
American Samoa. And I say we are an unincorporated and 
unorganized territory of the United States.
    [Laughter.]
    Mr. Faleomavaega. Which leads me to my first question to 
the members of the panel. With my limited understanding of the 
insular cases, I remember the doctrine of incorporation was 
first instituted during the insular cases, especially in Downes 
v. Bidwell, as I recall. And this is where the Supreme Court 
invented what was known as whether you are an incorporated or 
unincorporated territory.
    And as I recall clearly, Puerto Rico was classified as 
unincorporated territory. Which means, if I understand that 
correctly again, that any territory that is to be considered as 
an unincorporated territory will never see the day of ever 
becoming a state. That is my understanding of the doctrine of 
incorporation.
    But I would like to ask the members of the panel, what do 
they understand the doctrine of incorporation. Because it does 
have serious implications on the whole realm of constitutional 
court cases and problems of whether or not some provisions or 
all provisions of the Constitution apply to the insular areas. 
And Puerto Rico has always been the lead case in anything 
dealing with insular areas.
    And especially I would like to ask my good friend, 
Professor Peralta, if you could help me with this. Am I correct 
that the current status of Puerto Rico is an unincorporated 
territory?
    And second, wasn't there a tremendous reluctance on the 
part of the Congress even to entertain the idea of statehood 
for Puerto Rico, because they were from a different culture? 
They didn't speak English? Their whole relationship was more 
toward Spain than it is with our own country? I just wanted to 
ask you that question.
    Mr. Gorrin-Peralta. You are absolutely right, Downes v. 
Bidwell was the first judicial expression of the theory of non-
incorporation, which actually originated in this Congress, 
when, in 1900, the first organic act for Puerto Rico was 
approved by Congress. And a tax was established, which was not 
a uniform tax, as the Constitution orders, for any, for the 
United States.
    Thus, the validity of that tax depended on whether Puerto 
Rico was part of the United States or not. That is the issue in 
Downes v. Bidwell. And the United States said that 
unincorporated territories are not part of, but merely are 
pertinent to, the United States.
    Contrary to the incorporated territories, which had been 
all previous territories, including the Northwest Territory, 
which was Federalized in 1784 through the first Ordinance for 
the Northwest, and thus became part of the United States. It 
was just a matter of time. The ordinance established that that 
territory would become several states. The ordinance was 
amended a few years later, and the number of states increased.
    From then on, since the Louisiana Purchase, the acquisition 
of Mexican territories, the acquisition of Florida, the 
acquisition of Washington State, et cetera, et cetera, et 
cetera, all territories had been acquired through instruments 
of annexation that referred to the rights of the inhabitants of 
the Northwest Territory, which meant that all new territories 
during the 19th Century had been annexed as part of the United 
States. It was just a matter of time before they were to be 
admitted as states. That was the case also with Alaska and 
Hawaii. That is why----
    Mr. Faleomavaega. That is where we are right now.
    Mr. Gorrin-Peralta. That is where we are. And in 1952, that 
situation did not change, as I said before, because everybody 
was clear in Congress that the fundamental relationship would 
not change. The only thing that would change was the local 
government would not be dictated by Washington through an 
organic act, but through an exercise of constitutional 
government by the people of Puerto Rico.
    Mr. Faleomavaega. Would you say--and my time is running 
down, so I just--would you say that this proposed enhanced form 
of commonwealth that other faction is trying to pursue here is 
really almost the same as the current status of a compact of 
free association? That the three entities Micronesia currently 
have with the United States--Palau, the Republic of Palau, the 
Republic of the Marshall Islands, and also the Federated States 
of Micronesia.
    In fact, the term compact of free association was derived 
from the word commonwealth, which I understand, I am not very 
good in Spanish, but it means free association, if I am correct 
on that definition. And the Micronesians just simply adopted 
the term and expanded it now in terms of having literally a 
treaty relationship between the United States and these three 
Micronesian entities that for every 15 years, they will then 
renegotiate or come back to the table and find out where we go 
from there as far as their futures are concerned.
    But they are independent and sovereign nations. They are 
members of the United Nations. They participate in 
international organizations. And the people even there can join 
the military. But they are not U.S. citizens.
    And I am sorry, my time is out again, Madame Chair. I will 
try to come back again. I know we have got two more panels, but 
I really want to welcome our members of the panel, Madame 
Chair. They have been very, very good, and I wish we would have 
more time to pursue with more questions.
    But thank you again.
    Ms. Christensen. The Chair now recognizes Ms. Bordallo for 
five minutes.
    Ms. Bordallo. Thank you. Thank you, Madame Chairman.
    Attorney Goldstein, this question is for you. The task 
force report seems to relish in the language if you are a 
territory, you are at the will of Congress. What are the 
boundaries of the will of Congress? Could Congress remove the 
Governor of Puerto Rico, or any of its elected officials from 
office? Or for that matter, a Governor or any officials from 
any other territory?
    Mr. Goldstein. To intervene in the ongoing politics of the 
island could create due process problems for rights that have 
already been exercised. But it is perfectly clear, I think, 
that Congress could prospectively dictate what the form of 
government on the island would be.
    So Congress's powers are very, very broad in this respect. 
And it is regrettable that the citizenry itself doesn't have 
the kind of autonomy that it deserves.
    Ms. Bordallo. I am gathering that you are saying yes to 
that.
    Mr. Goldstein. Well, I think it would present, if you were 
to remove someone from office it could present constitutional 
problems for the rights of the citizens that have already been 
exercised to elect that person in the first place. I think it 
would be a very, very close constitutional question. It would 
be at the outer bounds probably of Congress's authority.
    Ms. Bordallo. Well, say that the answer more is leaning to 
an affirmative.
    Mr. Goldstein. Yes?
    Ms. Bordallo. Do you think any Federal court in this 
country would actually allow that?
    Mr. Goldstein. Do I think that, on the assumption that 
Congress has the power to do it, do I think that a Federal 
court would actually let them do it? The answer is probably 
yes; that a Federal court would express its dismay at the 
continued mistreatment of the citizens of Puerto Rico, but it 
would conclude that Congress's power here is exceptionally 
broad, if that is the premise of your question.
    Ms. Bordallo. Thank you. And I do have a question for 
Professor Pildes. I am sure you are familiar with the 
legislation that is pending before Congress, and which is 
scheduled, I think, to come to the Floor of the House for a 
vote tomorrow, as a matter of fact, that would grant the 
District of Columbia voting representation in the House of 
Representatives based on Article I of the Constitution's broad 
authority over D.C.
    In your opinion, Professor, is the analysis employed in the 
deliberations over this bill in any way illustrative of the 
process and issues that we are discussing here?
    Mr. Pildes. I think that that is a fairly unique issue, 
which poses specific problems. Because when Congress, by 
statute, tries to enhance representation in the U.S. House of 
Representatives, then I think there are quite serious 
constitutional questions about whether the Constitution does or 
does not permit that particular act.
    Congress can treat D.C. as a state for purposes of many 
Federal statutes, which is has. But the extension of voting 
rights always means that someone else's voting power is being 
diminished as a formal matter. And as Mr. Goldstein said 
earlier, when vote dilution issues are present, there are 
always very difficult and very serious constitutional issues.
    So I don't tend to think, at least as far as I have studied 
the D.C. bill at this point, that the resolution of that very 
specific issue about voting power by statute in the House has 
any direct implication for these issues about the process 
Congress might set up to allow the people of Puerto Rico, in 
the first instance, to make their judgment about what political 
status they would like going forward.
    Can I just, for the record, I would like to state one 
thing?
    Ms. Bordallo. Yes, sure.
    Mr. Pildes. I am here testifying in my own capacity as an 
academic. I am not being paid to be here. My expenses are not 
being paid by anybody.
    When I testify as an academic, I place a very high value on 
my credibility and my academic statements. And I just would 
like the record to reflect that.
    I have learned about these issues in part through my 
experience litigating cases, as well as my academic study. But 
I am here testifying as an academic.
    Ms. Bordallo. Thank you. Thank you, Professor. Thank you, 
Madame Chair.
    Ms. Christensen. Thank you. I would like to thank the 
panelists. And as I dismiss you, I wanted to point out that 
this panel, as the other two, are made up of individuals 
recommended by all three political parties, plus the MAS, and 
with the intention of trying to bring a balanced view on the 
issues before us.
    And as such, we recognize that different panelists may have 
relationships or affiliations with political parties or 
organizations representing one view or another. And in the 
interest of full disclosure, I would just like to say that Akin 
Gump also has contracts with the Citizens Educational 
Foundation of Pro Statehood, a lobbying group that works on 
behalf of Puerto Rico.
    So with that, I would like to thank the panelists. You are 
dismissed.
    We are going to take just a five-minute break as we bring 
up the second panel.
    [Recess.]
    Ms. Christensen. The Subcommittee on Insular Affairs is now 
back in session. Members will be coming in and out. Those who 
are voting will be coming back and going back and forth, and we 
may expect to be rejoined by our fellow delegates. And the rest 
of the commissioners will be right in.
    So I would now like to recognize our second panel. And on 
that panel we have Mr. Manuel Mejia, the Chairman for the 
Puerto Rico Chamber of Commerce; Mr. Enrique Baquero, the 
President of the Puerto Rico Foundation for Democratic Action; 
and Mr. Jose Luis Fernandez, President of the Inter-American 
Entrepreneurs Association.
    I would like to recognize Mr. Mejia for five minutes.

            STATEMENT OF MANUEL A. MEJIA, CHAIRMAN, 
                PUERTO RICO CHAMBER OF COMMERCE

    Mr. Mejia. Good morning. Madame Chairwoman and Members of 
the Insular Affairs Subcommittee, my name is Manuel Mejia. I am 
the Chairman of the Board of the Puerto Rico Chamber of 
Commerce.
    We want to thank you for the opportunity to express the 
views and positions of our Chamber regarding the political 
status of Puerto Rico.
    I would like to briefly summarize the salient points of our 
statement. However, we have submitted our full statement to the 
Subcommittee, and would appreciate its inclusion in the printed 
record of these proceedings.
    At the outset, I would like to state that I am appearing 
here not in my personal capacity, but as Chairman of the Puerto 
Rico Chamber of Commerce. It has 2500 members, plus over 60 
affiliate associations who together employ over two-thirds of 
the island's labor force.
    I would like to take this opportunity to congratulate Dr. 
Christensen on becoming the first female Chairwoman of this 
Subcommittee.
    This hearing is also truly historic for another reason. It 
is the first where both a Chairwoman and the Ranking Minority 
Member are delegates from territories.
    I would also like to thank you for promptly scheduling a 
hearing on the two bills before us. Each of those bills 
implements a different process for resolving the longstanding 
political status issue. However, because the Puerto Rico 
Chamber of Commerce does not favor any particular form of 
political status, I will not discuss here today the merits or 
the merits of any of those bills. I will focus my presentation 
on a discussion of those general procedural principles that 
must be included in each of the bills to ensure a prompt and 
fair resolution of the status issue.
    I will also address the Chamber's concerns regarding the 
economic and commercial effects of any transition. The first 
principle must be the principle of informed consent. This 
requires Congress, regardless of the process chosen, whether a 
constitutional convention or a referendum, to provide clear 
guidance regarding constitutional limits. This guidance will 
enable either the members of the convention or the voters to be 
fully informed regarding the alternatives before them.
    In addition, Congress must provide for a thorough 
educational program to acquaint voters with the consequences 
attendant to each alternative. The wider the educational 
program, the more voters that will participate. An educated 
electorate assures our nation and the international community 
that the process has been fair, transparent, and in accordance 
with international law.
    The second principle is the principle of transition. By 
this I mean that no matter what status is selected by the 
members of the constitutional convention or by the electorate 
directly in the referendum, Congress must provide for an 
orderly transition in order to avoid economic and other 
dislocation.
    The Chamber and its members have a particular concern 
regarding the effects that a lack of a proper and smooth 
transition may have on the economy. This transition, depending 
on the status selected, may affect such matters as taxation, 
citizenship, language, public entitlement, educational 
benefits, migration, obligation of terrorists, capital [ph] 
laws, Federal infrastructure expenditures on the island, 
Federal procurement, conditions and restriction to the island's 
access to United States and foreign markets.
    The economic well-being of Puerto Rico and its ability to 
compete in a global market are among the principle concerns of 
the Puerto Rico Chamber of Commerce. Accordingly, we are 
extremely concerned about the effects that an improper 
transition may have on our multi-sectoral economy. You are 
responsible for providing for a transition in any legislation. 
Please bear in mind that an orderly transition will be very 
beneficial to the island, whereas an improper transition can 
gravely affect Puerto Rice's economy.
    In conclusion, the Puerto Rico Chamber of Commerce 
sincerely hopes that this historic hearing marks the beginning 
of a new and definite process for resolving the island's 
political status. We welcome any prompt action that you can 
take to assure the prompt passage of legislation toward that 
end.
    We do urge, however, that any such legislation contain 
clear constitutional guidelines, a thorough education program, 
and an orderly transition if a new status is chosen.
    The Chamber stands ready to assist this 110th Congress in 
the drafting of appropriate legislation by providing such data 
and information as this Subcommittee may require.
    I would like to again thank the Subcommittee for its prompt 
scheduling of this hearing, and for the interest demonstrated 
in Puerto Rico's future.
    [The prepared statement of Mr. Mejia follows:]

         Statement of Manuel A. Mejia, Chairman of the Board, 
                    Puerto Rico Chamber of Commerce

    Madam Chairman and Members of Congress, my name is Manuel Mejia; I 
am the Chairman of the Board of the Puerto Rico Chamber of Commerce. We 
want to thank you for the opportunity to express the views and 
positions of our Institution on this most important issue; Puerto 
Rico's Political Status.
    The issue of the political status has been an open and unresolved 
question in the history of Puerto Rico. It creates serious divisions 
among our society, forcing us to devote valuable human and economic 
resources in its debate, without reaching yet a definite solution. The 
Puerto Rico Chamber of Commerce certainly appreciates the present 
Congressional efforts to find a democratic solution to this issue.
    Before I enter into the discussion, of the principal issues, allow 
me to say that today we stand before this distinguished committee as 
representative for over 2,500 businesses and professionals of all 
sector and university students as well as a federation of over 60 
private sector organizations in the Island jointly employing two thirds 
of the workforce.
    The Puerto Rico Chamber of Commerce does not favor any particular 
form of political status. Its membership includes individuals from all 
political perspectives. In this diversity, chamber members have reached 
a consensus on the need to resolve the status issue and bring emotional 
and economic stability to our society. Without an organized 
congressionally sanctioned process, locally celebrated plebiscites on 
the status issue will continue to create much uncertainty among present 
and potential investors. Such situation hinders economic prosperity; 
therefore, this should be resolved as quickly as possible. Neither 
Congress nor the Puerto Rican people should wait another decade to 
decide this issue. Once the status question is resolved, efforts could 
be efficiently channeled to deal with the various social and economic 
problems of our society.
    The Puerto Rico Chamber of Commerce will not address the provisions 
of H.R. 1230 regarding the process to exercise the right to self-
determination thru a Plebiscite versus a Constitutional Convention. 
Further, we will not address the provisions of H.R. 900 on the two 
federally sanctioned plebiscite processes. For this reason our comments 
will be limited to the issues which have to be considered in the 
transition to any given status formula selected by the people of Puerto 
Rico. The central focus in our analysis is the economic and social 
circumstances of our members and, what is more important, those of the 
people of Puerto Rico. Before entering into the discussion of the 
process here are some pointers regarding Puerto Rico present economic 
structure.
    Puerto Rico's economic model dates back to the early 1980s. During 
such years, most developing country governments, with a few exceptions, 
as well as many international organizations, had in mind a similar 
model of the development process as they went about their work. That 
model of how development goals should be attained greatly influenced 
government policies and institutions. It also profoundly affected 
national legal systems and the way government officials, lawyers, and 
legal scholars thought about law and its role in development. Since the 
late 1980s, most developing countries, in varying degrees, have 
abandoned that first model of development (Development Model I) and 
have evolved to a new model (Development Model II) that supersedes it. 
That has not been the case of Puerto Rico. This fundamental change in 
development models was in many ways as significant a transformation for 
developing countries as was the movement in the 1950s and 1960s from 
dependent to independent political status. This transformation is 
partially reflected in the change of name used to describe the ``Third 
World: the ``developing countries'' of the 1960s have become the 
``emerging markets'' of the 1990s. (The International Lawyer Winter 
1999; Volume 33; Number 4 page 876).
    Probably all Third World countries entered the decade of the 1960s 
with a fundamental belief that their governments had the primary 
responsibility for bringing about economic development. In the minds of 
most officials, lawyers, and scholars, the belief in government's 
dominant role evolved into a definite model about the nature of the 
development process. This model had four elements: (1) public ordering 
and state planning of the economy and society; (2) reliance on state 
enterprises as economic actors; (3) restriction and regulation of 
private enterprise; and (4) limitation and control of the country's 
economic relations with the outside world. Puerto Rico's model still 
has these elements present to certain extent. (The International Lawyer 
Winter 1999; Volume 33; Number 4 page 877)
    The position of our institution revolves around two main concerns. 
One is that the process ought to be fair and well informed, for the 
people to make an enlightened decision. The other is that, should the 
people of Puerto Rico decide to change the present status, an orderly 
and well-defined transition has to be clearly stated. This is of 
outmost relevance, because the people should know, not only the final 
outcome of their decision, but the road to reach it, if they are going 
to issue a responsible vote.
The Process
    The self determination process should be dealt on its own merits. 
It should not be mixed with the normal electoral process. Voters have 
to be able to focus upon the status issue, apart from any distractions 
and confusions with other issues. All political parties in the Island 
have different positions with regard to their desired solutions to the 
status question. Indeed, each one of them uses the status as the 
principal issue in their political platforms and as their main 
identifier. As a result, the issues of governance and administrative 
policies are mingled in the electoral process with those related to the 
status and the type and form of future political relations between 
Puerto Rico and the United States. This situation creates confusion 
among voters, obscuring their ability to focus on the real issues to be 
decided at each electoral process. The status question is an 
ideological and emotional issue, becoming one of the most divisive 
issues in Puerto Rico. Too many human and economic resources have been 
spent in debating this issue. It is clear that a final solution is of 
foremost relevance for the future of our people. By solving the status 
issue, we will be deciding not only our future, but also the one for 
the generations to come.
    The long-term process to address the status issue in Puerto Rico 
requires that voters be well-informed on the consequences of their 
decisions throughout the entire process. Before Puerto Ricans are asked 
to stamp their status preference on a plebiscite ballot, it is 
necessary to clearly spell-out the cultural, political and 
socioeconomic consequences of each political status alternative to be 
presented.
    The information transmitted to the people should be based upon 
accurate and unbiased data. The data that the Federal Agencies provide 
with respect to the costs and benefits of each status alternative must 
be consistent in terms of objectivity and basis. Some examples where 
consistency and objectivity are of utmost importance are statements 
about the nature of our American citizenship. Statements on the 
implications of federal corporate and personal taxation under statehood 
must be based on scientific estimates. We hereby offer the resources of 
our institution to help in obtaining additional information about the 
socioeconomic impact of each status alternative to supplement what has 
already been obtained, and what needs to be gathered in order to allow 
the people to make an informed decision.
    The only viable alternative to solve Puerto Rico's status issue is 
a federally sanctioned process. This process must outline very specific 
steps to accomplish its objectives, the participating institutions for 
each step in the process, and, very importantly, the responsibility and 
role of each participant at each step. Our institution believes that 
the private sector must have a role and a consequent responsibility in 
this important undertaking. Political parties should welcome the 
private sector's contributions to this process. On this issue we would 
like to congratulate Madam Chairman and the distinguished members of 
this commission for allowing us to testify this morning. We feel that 
this is an initial step, to encourage a broader participation of 
private sector institutions in Puerto Rico to complement the views and 
recommendations of our local government and political parties.

The Outcome and Its Transition

1. The transition

[GRAPHIC] [TIFF OMITTED] T4236.001


    Puerto Rico's economy has been directed and structured on the basis 
of its present status. Our economy has achieved a high degree of 
integration to the U.S. economy. Our total exports in the year 2005 
were $56.5 billion. It should be noted that, on the average, 82.6% 
percent of our exports of merchandise go to the U.S. market. Most of 
our imports come from the continental U.S., and our financial markets 
are totally integrated to the national market. The capital stock of 
Puerto Rico, and the investments made considering the reduction of 
political risk due to the stability of our relationship with the U.S. 
and the application of federal laws in interstate cannot be changed 
overnight. To do otherwise risks grave dislocations and suffering for 
the people of Puerto Rico if the change is not accompanied with 
countervailing measures.
    Our local tax system is based upon the present flexibility granted 
to the states and is administered considering local economic conditions 
as any tax system ought to be. Any change in political status will 
require a major restructuring of the tax system in Puerto Rico. A 
drastic and fast change in the local tax system could affect the whole 
economy.

2. U.S. Citizenship
    We are U.S. citizens since 1917, accepting with honor the rights 
and responsibilities of such citizenship. Our great participation in 
U.S. military conflicts from World War I to the most recent 
interventions in Iraq is a clear evidence of this point.
    Contradictory statements have confused our people on the nature of 
our citizenship and its future under different status options should be 
avoided. We feel that Congress has the duty to state without ambiguity 
what will happen to our present U.S. citizenship under each status 
alternative. A clear expression from Congress is necessary to spell out 
the confusion created by federal and local officials, so that Puerto 
Ricans can make the appropriate decision.

3. The Federal Tax Treatment of U.S. Corporations
    Our industrialization program was developed on the basis of 
preferential federal tax treatment of U.S. corporations doing business 
in Puerto Rico. Drastic modifications were made in 1993 and 1996 to 
Section 936 until its eventual phase out in 2005. These modifications 
have severely eroded industrialization initiative, not only because tax 
benefits were diminished, but also because they created uncertainty 
about the stability of federal policies toward Puerto Rico. Since 
uncertainty is a formidable enemy of productive investment and economic 
growth, we now face more difficult conditions to promote the prosperity 
for our people.
    No matter if Puerto Rico chooses to maintain the present 
commonwealth status, or to become a state or a republic, there is a 
common interest in promoting the economic development of the Island. We 
obviously want to prosper. It is not in the best interest of the United 
States to have a territory, state or an independent neighbor plagued 
with poverty. Over the past half century Puerto Rico has made, with the 
assistance of the federal government, big efforts to promote its 
economic growth. We have worked hard, and achieved great improvements 
in economic conditions. But more efforts are needed to improve our 
economic development under our competitive global economy. Even the 
status quo should be regarded as a transition from poverty to progress, 
and our economic development strategies are designed from this 
perspective. Any change in status has to provide instruments to achieve 
our common goal of economic development.
    It is important for Congress to realize that any successful 
transition requires an efficient instrument. For that reason, we 
actively support the efforts of private organizations and of the 
Government of Puerto Rico to develop new and efficient and effective 
economic development model, to transform our Island into a developed 
and prosperous economy. At the very least, Congress ought to clearly 
state what will be the federal tax treatment to U.S. corporations under 
each status formula, as well as under the corresponding transition 
periods, including the period of time for which the corresponding tax 
treatment is guaranteed.

4. Federal Tax Treatment to Residents and Local Business
    People know that the local tax system will have to be adjusted if 
there is a change in status. We all realize that the present tax 
structure is consistent with existing conditions, and that any 
transformation in conditions, as it will be the case if the political 
status is changed, will result in deep modifications in taxation. The 
problem is that no reliable information has been produced about what 
those changes might be.
    The role, functions and activities of government differ under each 
status formula. In a state, the U.S. federal government is in charge of 
many activities that are the responsibility of local authorities, and 
federal taxes will be levied on local residents. In a republic, all or 
most of the activities actually performed by the federal government in 
Puerto Rico will be transferred to the local government, and it won't 
be subject to federal laws and regulations. Both scenarios drastically 
change the needs and tax system for government financing. 
Transformations of that nature cannot be done overnight without a great 
risk of serious economic dislocation.
    We know of no serious study to document and analyze this most 
important aspect. It is unfair to ask people to choose between status 
options and not tell them the consequences of their decisions. At the 
very least, Congress ought to clearly establish which will be the 
federal tax treatment to residents under each status, as well as during 
the different stages of each transition period.

5. Access to U.S. Commercial and Financial Markets
    Over the past century, Puerto Rico integrated its economy to the 
U.S., with obvious mutual benefits. It has been already shown that 
82.6% percent of our exports of merchandise are sold in the U.S., and 
that we depend upon external trade to achieve a reasonable rate of 
economic growth. Our monetary and financial systems are also totally 
integrated to the U.S. Most of our productive and infrastructural 
investments are financed with funds lent from U.S. individuals and 
institutions, while Puerto Rican savers hold over $20 billion in assets 
issued by the federal government and private U.S. institutions.
    Any modification in the status quo will have consequences in our 
financial institutions and in the asset values of all citizens. These 
effects ought to be clearly identified, and measures designed to take 
advantage from favorable opportunities and to minimize any adverse 
effect. Again, limited information has been produced in this respect. 
Here it is necessary to clarify what will be the terms and conditions 
for Puerto Rico's access to the United States commercial and financial 
markets under each status formula, including what will be its position 
with respect to present and future trade agreements that the U.S. 
engages with foreign countries.

6. Access to Foreign Commercial and Financial Markets
    Puerto Rico's economic model is predicated upon the diversification 
of our economy. It calls for promoting growth in all industrial 
sectors, and diversifying manufacturing by strengthening the Life 
Sciences and Biotechnology Sectors. It also seeks to diversify export 
markets and sources of investment funds. Such policy is consistent with 
U.S. interests in reducing its trade deficit.
    A change in status would modify conditions for the implementation 
of this economic model. In order to know what modifications we will 
have to make in our economic development strategies, it is necessary to 
know which will be the conditions and restrictions to Puerto Rico's 
access to foreign commercial and financial markets under each status 
formula, as well as the market penetration of foreign goods in our 
economy.

7. Long Term Public Debt
    The topic of the long term public debt under each status formula is 
important by itself, as well as in relation to the design of 
modifications in our tax structure. Our long term public debt has been 
issued to finance investments in infrastructure. Many of these 
investments are the responsibility of the federal government in the 
states of the Union. A sovereign nation in order to benefit from the 
international trade agreements will have to establish a level playing 
field through the rule of law, but harmonized and unified with a free 
market economy and free market system which in itself will require that 
investments be made. On the other hand, some of these investments were 
made to comply with federal laws and regulations. Also, the design of 
local projects would have to meet or exceed federal regulations, thus 
constructions costs would be higher, increasing the needed for debt 
financing.

[GRAPHIC] [TIFF OMITTED] T4236.002


    Long term public debt represents 68.8 percent of Puerto Rico's GNP. 
Given the tax structure presently available, the Island has no problem 
in paying for the service of that debt. But with a change in status, 
the government's ability to raise revenues will also change, and 
adjustments have to be made to recognize that fact.
    Also, Puerto Rico needs to continue its present aggressive program 
to enhance its infrastructure. That is essential for the 
competitiveness of our economy. It is, therefore, necessary to know if 
there will be any constraints for issuing new public debt under the 
transition periods of the different status formulas.

8. U.S. Transfers

[GRAPHIC] [TIFF OMITTED] T4236.003


    The issue of federal transfers is another that should be properly 
addressed before the Puerto Rican people are asked to make a decision 
about the status. Federal transfers to individuals totaled $9,862.1 
million in Fiscal Year 2005, accounting for 20.2% percent of personal 
income in the Island. Of these transfers, 79.0% percent were earned 
benefits, such as Social Security pensions and Veterans benefits.
    It is essential for the people to know what will be the amount and 
terms of U.S. transfers to Puerto Rico under each status option. That 
information is vital for the persons to make an informed decision. 
Particular attention has to be paid to what is going to happen to the 
contributions that Puerto Rico makes to earmarked funds, such as Social 
Security, Medicare, and Unemployment Insurance, among others.

9. Travel and Migration
    Almost all families have close relatives living in the continental 
United States. For family ties to be maintained, it is necessary to 
keep unrestricted travel between the U.S. and Puerto Rico.
    Migrations of Puerto Ricans to the continent happened as a derived 
effect of U.S. citizenship, a significant demand for employment in the 
United States coupled to high unemployment and low income levels in the 
Island. In consequence, the issue of migration is related to the 
previously mentioned U.S. citizenship and economic development, but has 
a humanitarian dimension by itself. Hence, voters must know conditions 
for travel and migration between Puerto Rico and the United States 
under each status alternative.

Final Remark
    In finalizing this presentation it is important to conclude that no 
law should be approved and consequently the proposed process should not 
be held if these basic concerns are not properly addressed. Not 
covering these basic concerns will not have afforded the Puerto Rican 
voters an opportunity to make an informed decision in selecting among 
the status options at the time.
    The Puerto Rico Chamber of Commerce realizes that some of the key 
factors that have contributed to our economic development are subject 
to changes as circumstances vary over time, but we are also aware that 
drastic changes over a short period of time could prove to be 
disastrous if the changes occur at a rate faster than the ability of 
our economy to adjust to them.
    Whatever alternative is democratically chosen by the people of 
Puerto Rico will probably result in economic adjustments and could 
entail sacrifices on our part. Private enterprise is ready to shoulder 
its responsibility; however, even in times of budgetary restrain, 
Congress should be sensitive to our needs and economic realities. Self-
sustained economic development can only be achieved through a long term 
process. With your help, and a great deal of work on our part, we are 
confident that we can achieve our mutual goal of human progress for the 
people of Puerto Rico. But an adequate transition period is necessary. 
It ought to be designed in all relevant details and informed to the 
people before they are asked to choose.
    Once again we would like to express our most sincere gratitude to 
Madam Chairwoman and the distinguished members of this Committee. The 
status issue needs to be solved if Puerto Rico is to offer a secure 
long term investment environment to interested individuals and 
organizations. Congress needs to act now. Our immediate goal at the 
Puerto Rico Chamber of Commerce is to focus on the preparation of a 
strategic plan for Puerto Rico's future economic development. A plan 
which is capable to adapt and transition into any status alternative 
and that will guaranty our fellow Puerto Ricans future economic 
prosperity and a better quality of life.
    Thank you.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Mejia. Next I recognize Mr. 
Enrique Baquero for five minutes.

STATEMENT OF ENRIQUE BAQUERO, PRESIDENT, PUERTO RICO FOUNDATION 
          FOR DEMOCRATIC ACTION, SAN JUAN, PUERTO RICO

    Mr. Baquero. Good afternoon, Madame Chair, Dr. Donna 
Christensen, distinguished Subcommittee Members. Thank you for 
the opportunity to discuss my organization's stance on the two 
measures before this committee relating to the political status 
of Puerto Rico. We especially thank you for spreading the net 
wider to hear other voices on this important matter that 
affects four million Puerto Ricans in particular residing in 
Puerto Rico.
    My name is Enrique Baquero, and I am here as President of 
the Foundacion Accion Democratica Puertorriquena, a civil 
society non-partisan group that advocates national self-
determination for the people of Puerto Rico, and also supports 
a constitutional assembly or convention of Puerto Rican 
delegates to initiate the process of self-determination.
    By way of background, we have been active since 1984, and 
have participated in previous Congressional hearings on Puerto 
Rico's political status favoring the inclusion of the sovereign 
free association option as a separate option in itself, which 
is different from traditional independence and recognized as 
such by the United Nation's General Assembly Resolution 1541 of 
1960 and 2625 of 1970.
    In addition, we have also been active in international 
activities seeking solidarity for Puerto Rico's right to 
national self-determination, and for the right of the residents 
in Vieques to live in peace.
    With respect to bills H.R. 1230, sponsored by Congresswoman 
Nydia Velazquez, and H.R. 900, sponsored by Congressman Jose 
Serrano, we believe strongly that these two measures ought to 
be viewed against certain guiding principles. Let me elucidate.
    First, we feel strongly that any process of self-
determination should be respectful of international law if it 
is to meet the true test of a valid self-determination process 
for the people of Puerto Rico. This means that any territorial 
status leaving Puerto Rico under U.S. sovereignty violates in 
essence the inalienable right of national self-determination of 
the people of Puerto Rico to choose among sovereign non-
territorial and non-colonial options, such as those recognized 
by the United Nations and by international law precedents.
    The plain fact is Puerto Ricans are clearly a distinct 
people, and cannot be excluded from exercising this right which 
has been reaffirmed in 2004 as an erga omnes right by the 
International Court of Justice; that is, a right which pertains 
to all peoples without exceptions, and generates obligations 
and responsibilities to all states, without exceptions, with 
reference to the international community.
    Therefore, we urge this Subcommittee and Congress to 
exclude territorial commonwealth as an option in any future 
consultation to the people of Puerto Rico. To ask Puerto Ricans 
if we wish to continue being a territory, as stipulated in 
Section 3[a] of H.R. 900 in its present form, is as absurd and 
cynical as it would be to ask an inmate due for parole whether 
he or she would prefer to stay in jail instead of exercising 
the right to parole.
    If the United States sincerely wishes to comply with 
international law standards, territorial status must be 
excluded as a valid option. We are persuaded that this is the 
only way to resolve this stubborn issue between the United 
States and Puerto Rico in a satisfactory manner, and end what 
the late Senator Daniel Patrick Moynihan once said about Puerto 
Rico in a letter to former President Clinton on territorial 
status, characterizing the relationship as ``this remnant of 
19th Century imperialism.''
    Second. Prior to any consultation or plebiscite on Puerto 
Rico's future political status, Congress ought to recognize the 
inalienable right of the people of Puerto Rico to elect, in an 
exercise of its natural right to sovereignty, a constitutional 
convention of delegates to deliberate on the political future 
of Puerto Rico. The constitutional convention as a mechanism 
will give due course to the initiative of the people of Puerto 
Rico to provide an educational process for a national 
discussion, as well as multiple opportunities to engage in 
fruitful conversations and negotiations with Congress.
    We recommend that in both the constitutional convention and 
in all subsequent referenda on political status options, 
mechanisms be established to allow the inclusion of native-born 
Puerto Ricans not residing in Puerto Rico, but interested in 
participating in the process of national self-determination of 
the Puerto Rican people.
    Finally, we reiterate most emphatically that the options of 
sovereign free association be considered as an option in 
itself, for this option is vastly different from independence, 
statehood, or any other non-territorial option. Free 
association conveys a special and particular political economic 
relationship, rendering this option distinct from the other 
sovereignty-based alternative as is independence.
    H.R. 900 version of free association implies that this is 
identical to independence, thus ignoring important substantive 
and procedural fundamentals, leading to necessary confusion and 
distortion, particularly among nonastute [ph] advocates.
    In conclusion, a final point. We want this committee to 
fully understand and appreciate that our organization and 
similar groups, as well as civil society groups in Puerto Rico, 
are prepared to reorganize and promote an international 
campaign against any process of pretended self-determination 
that includes territorial status as an option, or that resorts 
to unfair manipulations to obstruct or impede a democratic, 
just, and rightful level playing field for the competition 
among the different non-territorial options.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Baquero follows:]

               Statement of Enrique Baquero, President, 
              Fundacion Accion Democratica Puertorriquena

    Chairwoman Dr. Donna Christensen, distinguished subcommittee 
members, thank you for the opportunity to discuss my organization's 
stance on the two measures before this committee relating to the 
political status of Puerto Rico. We especially thank you for spreading 
the net wider to hear other voices on this important matter that 
affects 4 million Puerto Ricans, in particular, residing in Puerto 
Rico.
    My name is Enrique Baquero, and I am here as President of the 
Fundacion Accion Democratica Puertorriquena (ADP), a civil society non 
partisan group that advocates national self-determination for the 
People of Puerto Rico and also supports a Constitutional Assembly or 
Convention of Puerto Rican delegates to initiate the process of self 
determination.
    By way of background, we have been active since 1994 and have 
participated in previous Congressional hearings on Puerto Rico's 
political status favoring the inclusion of the sovereign free 
association option as a separate option in itself, which is different 
from traditional independence and recognized as such by the United 
Nations General Assembly Resolutions 1541 (XV) of 1960 and 2625 (XXV) 
of 1970. In addition, we have also been active in international 
activities seeking solidarity for Puerto Rico's right to national self-
determination and for the right of residents in Vieques to live in 
peace.
    With respect to bills H.R. 1230 sponsored by Congresswoman Nydia 
Velazquez and H.R. 900 sponsored by Congressman Jose Serrano, Accion 
Democratica Puertoriquena believes strongly that these two measures 
ought to be viewed against certain guiding principles. Let me 
elucidate:
    (1)  We feel strongly that any process of self-determination should 
be respectful of international law, if it is to meet the true test of a 
valid self-determination process for the People of Puerto Rico. This 
means that any territorial status, leaving Puerto Rico under U.S. 
sovereignty violates in essence the inalienable right of national self-
determination of the People of Puerto Rico to choose among sovereign 
non-territorial and non-colonial options, such as those recognized by 
the United Nations and by international law precedents. The plain fact 
is Puerto Ricans are clearly a distinct People, and cannot be excluded 
from exercising this right which has been reaffirmed in 2004 as an erga 
omnes right by the International Court of Justice, i.e. a right which 
pertains to all peoples, without exceptions, and generates obligations 
and responsibilities to all states, without exceptions, with reference 
to the international community. Therefore, we urge this sub-committee 
and Congress to exclude territorial Commonwealth as an option in any 
future consultation to the people of Puerto Rico. To ask Puerto Ricans 
if we wish to continue being a territory, as stipulated in Section 3 
(a) of H.R. 900 in its present form, is as absurd and cynical as it 
would be to ask an inmate due for parole whether he or she would prefer 
to stay in jail instead of exercising the right to parole. If the 
United States sincerely wishes to comply with international law 
standards, territorial status must be excluded as a valid option. We 
are persuaded that this is the only way to resolve this stubborn issue 
between the United States and Puerto Rico in a satisfactory manner and 
end what the late Senator Daniel Patrick Moynihan once said about 
Puerto Rico in a letter to former President Clinton on territorial 
status, characterizing the relationship as ``this remnant of 19th 
Century imperialism.''
    (2)  Prior to any consultation or plebiscite on Puerto Rico's 
future political status, Congress ought to recognize the inalienable 
right of the People of Puerto Rico to elect, in an exercise of its 
natural right to sovereignty, a Constitutional Convention of delegates 
to deliberate on the political future of Puerto Rico. The 
Constitutional Convention as mechanism would give due course to the 
initiative of the People of Puerto Rico to provide an educational 
process for a national discussion as well as multiple opportunities to 
engage in fruitful conversations and negotiations with Congress.
    (3)  We recommend that in both the Constitutional Convention, and 
in all subsequent referenda on political status options, mechanisms be 
established to allow the inclusion of native born Puerto Ricans, not 
residing in Puerto Rico but interested in participating in the process 
of national self-determination of the Puerto Rican people.
    (4)  Finally, we reiterate most emphatically that the options of 
sovereign free association be considered as an option in itself. For 
this option is vastly different from independence, statehood or any 
other non-territorial option. Although from the point of view of the 
United States, both independence and free association would mean 
disposing of the territory and hence ending U.S. sovereign powers over 
the territory, it is important to bear in mind that under the option of 
sovereign free association a special political and economic relation is 
maintained, between the two sovereign nations, through a bilateral 
treaty of free association as has been done in the case of the freely 
associated states of Palau, Micronesia and the Marshall Islands with 
the United States. The nature and content of such a treaty of free 
association establishes a clear difference between Puerto Rican 
sovereignty in free association with the United States and Puerto Rican 
sovereignty under the option of independence. We believe that H.R. 900 
attempts to mislead and confuse the people by considering free 
association as a form of independence status. The foregoing is regarded 
as a palpable direct and unacceptable manipulation to avoid a level-
playing field for all options in order to favor statehood by making 
people associate free-association with independence.
CONCLUSION
    In conclusion, a final point. We want this committee to fully 
understand and appreciate that our organization and similar groups, as 
well as civil society groups in Puerto Rico are prepared to organize 
and promote an international campaign against any process of pretended 
self-determination that includes territorial status as an option or 
that resorts to unfair manipulations to obstruct or impede a 
democratic, just and rightful level-playing field for the competition 
among the different non-territorial options. I thank you for the 
opportunity to discuss our firm position on this very important topic, 
and I am happy to answer your questions.
    Thank you very much.
                                 ______
                                 
    Ms. Christensen. The Chair now recognizes Mr. Jose Luis 
Fernandez for five minutes.

  STATEMENT OF JOSE LUIS FERNANDEZ, PRESIDENT, INTER-AMERICAN 
             ENTREPRENEURS ASSOCIATION, PUERTO RICO

    Mr. Fernandez. Madame Chair and distinguished Members, 
thank you for inviting such a representative group of citizens 
to testify.
    My name is Jose Luis Fernandez, President of the Inter-
American Entrepreneurs Association in Puerto Rico, an 
organization founded 46 years ago to promote free enterprise 
and international business development. We, like most other 
Puerto Ricans, hope you will provide us with a serious process 
to answer the question of the territory's status preference.
    Our primary interest is the serious deterioration of our 
island's economic situation due to the lack of resolution as to 
what the territory's ultimate status will be.
    This basic political question denies us the economic 
advantages of statehood or nationhood needed to compete in the 
greater American and global economies, distracts attention from 
economic and social issues, raises questions about what the 
appropriate economic and social policies are, and discourages 
investment in Puerto Rico while encouraging investment 
elsewhere.
    A state of confusion, indifference, and uncertainty has 
permeated over the years. Territory status stopped benefitting 
Puerto Rico long ago. That is why the status quo only obtained 
0.06 percent of the vote the only time it was ever voted on, in 
1998. And all other status proposals, including commonwealth 
proposals, have been for a different governing arrangement.
    Dissatisfaction with Puerto Rico's current situation is so 
great that now there are as many people of Puerto Rican origin 
in the States as in the islands. Over 3,000 Puerto Ricans a 
month move to Florida, and a recent poll revealed that at least 
a third of all Puerto Ricans are seriously considering leaving 
the territory.
    Past local processes to answer the question of our status 
preference have failed because they have included proposals not 
attuned to what the Congress would accept based on the 
Constitution and basic laws and policies of the United States. 
In most cases, these options have included commonwealth 
proposals later rejected by the U.S. Government, which would 
have to act to change Puerto Rico's status.
    In the 1998 referendum, the impossible option was a none-
of-the-above line, when all of the options that U.S. officials 
have ever said they would be willing to implement were on the 
ballot.
    H.R. 1230 would repeat the mistake by inviting us to choose 
a non-territory commonwealth status that would not be statehood 
or nationhood, when there is no precedent for such a status, 
and the President's Task Force on Puerto Rico's Status, the 
Clinton Administration, and the first Bush Administration have 
all said that there cannot be such a status.
    Further, the local political minority that requested H.R. 
1230 has repeatedly made it clear that their intent is that the 
non-territory commonwealth status be their development of the 
commonwealth proposal. Chairman Don Young and Ranking Democrat 
Miller of your full committee reported in 1999 that the 
proposal is based on principles that the committee rejected in 
1998. The Clinton Administration specifically rejected it as 
impossible for constitutional and other reasons in testimony, 
and in a report to the full committee in 2000 and 2001. And the 
President's Task Force on Puerto Rico's Status rejected it in 
December 2005.
    The proposal would permanently bind the U.S. to Puerto Rico 
determining the application of most Federal laws and court 
jurisdiction; Puerto Rico entering into international trade and 
other agreements and organizations that states and territories 
cannot; replacing tax exemptions for the income of U.S. 
companies in Puerto Rico that Congress just repealed; granting 
an additional subsidy for the insular government; and 
continuing all current programs of assistance to Puerto Ricans, 
totally free entry to any goods shipped from Puerto Rico, and 
citizenship.
    It would be counter-productive and irresponsible for 
Congress to invite Puerto Rico to propose a non-territory 
commonwealth status when it knows that the intent of the 
proponents for such a status is a proposal that Congress would 
not, and cannot, implement.
    By contrast, the Puerto Rico Democracy Act, H.R. 900, 
proposes a process that includes only real statuses: statehood, 
independence, and nationhood, in a true free association with 
the U.S. in addition to the current territory status quo, all 
of the real statuses that have support in the island.
    It would continue the current status if, and for as long 
as, Puerto Ricans vote for that instead of voting to seek one 
of the real status alternatives.
    My one concern about H.R. 900 is that it would enfranchise 
non-citizens of Puerto Rico to vote in the determination of 
Puerto Rico's status preference, even though they may have no 
real connection with the islands, other than birth, and may 
never. Like citizens of Puerto Rico, these citizens of the 
States would also have voting representation in the U.S. 
Government decision of whether to implement the preference.
    Madame Chair and distinguished Members, Puerto Ricans want 
to finally be able to choose among real statuses that can be 
implemented by Congress. The ongoing political impasse divides 
and holds down our people, and only benefits a few select 
economic interests, some external companies and a select few 
who work for them, and some lobbyists here in Washington, 
versus most Puerto Rican entrepreneurs and most Puerto Ricans.
    The business community, representative of our people as a 
whole, abhors the uncertainty of the present status and; abhors 
the unrealistic process implied by the constitutional 
convention proposal. Congress should not be in a position to 
raise expectations that eventually would not be willing to 
fulfill.
    Madame Chair, I appreciate your openness and willingness to 
listen to the citizens. People need to regain confidence. They 
are looking for trust, and they are expecting a true 
commitment.
    Please help put an end to this limbo that has forced so 
many of us to leave the island, consigns almost half of those 
who remain to poverty, has resulted in Puerto Rico slipping 
further and further behind the States economically, as reported 
last year by the Brookings Institution and the Government 
Accountability Office, and denies us the democracy for which so 
many Puerto Ricans have sacrificed on behalf of the United 
States.
    Thank you.
    [The prepared statement of Mr. Fernandez follows:]

             Statement of Jose Luis Fernandez, President, 
        Inter-American Entrepreneurs Association in Puerto Rico

    Madame Chair and Distinguished Members:
    Thank you for inviting such a representative group of citizens to 
testify.
    My name is Jose Luis Fernandez, President of the Inter-American 
Entrepreneurs Association in Puerto Rico, an organization founded 46 
years ago to promote free enterprise and international business 
development. We--like most other Puerto Ricans--hope you will provide 
us with a serious process to answer the question of the territory's 
status preference. Our primary interest is the serious deterioration in 
our islands' economic situation due to the lack of resolution as to 
what the territory's ultimate status will be. This basic political 
question:
    <bullet>  Denies us the economic advantages of statehood or 
nationhood needed to compete in the greater American and the global 
economies;
    <bullet>  Distracts attention from economic and social issues;
    <bullet>  Raises questions about what the appropriate economic and 
social policies are; and
    <bullet>  Discourages investment in Puerto Rico while encouraging 
investment elsewhere.
    A state of confusion, indifference and uncertainty has permeated 
over the years. Territory status stopped benefiting Puerto Rico long 
ago. That is why the status quo only obtained 0.06% of the vote the 
only time it was ever voted on--in 1998--and all other status 
proposals--including ``Commonwealth'' proposals--have been for a 
different governing arrangement.
    Dissatisfaction with Puerto Rico's current situation is so great 
that now there are as many people of Puerto Rican origin in the States 
as in the islands; Over 3,000 Puerto Ricans a month move to Florida; 
and a recent poll revealed that at least a third of all Puerto Ricans 
are seriously considering leaving the territory.
    Past local processes to answer the question of our status 
preference have failed because they have included proposals not attuned 
to what the Congress would accept based on the Constitution and basic 
laws and policies of the United States.
    In most cases, these options have included ``Commonwealth'' 
proposals later rejected by the U.S. Government, which would have to 
act to change Puerto Rico's status.
    In the 1998 referendum, the impossible option was a ``None of the 
Above'' line--when all of the options that U.S. officials have ever 
said they would be willing to implement were on the ballot.
    H.R. 1230 would repeat the mistake by inviting us to choose a non-
territory ``Commonwealth status'' that would not be statehood or 
nationhood--when there is no precedent for such a status and the 
President's Task Force on Puerto Rico's Status, the Clinton 
Administration, and the first Bush Administration have all said that 
there cannot be such a status.
    Further, the local political minority that requested H.R. 1230 has 
repeatedly made it clear that their intent is that the non-territory 
``Commonwealth status'' be their ``Development of the Commonwealth'' 
proposal. Chairman Don Young and Ranking Democrat George Miller of your 
full Committee reported in 1999 that the proposal is based on 
principles that the Committee rejected in 1998, the Clinton 
Administration specifically rejected it as impossible for 
constitutional and other reasons in testimony and in a report to the 
full Committee in 2000 and 2001, and the President's Task Force on 
Puerto Rico's Status rejected it in December 2005.
    The proposal would permanently bind the U.S. to:
    <bullet>  Puerto Rico determining the application of most federal 
laws and court jurisdiction;
    <bullet>  Puerto Rico entering into international trade and other 
agreements and organizations that States and territories cannot;
    <bullet>  Replacing tax exemptions for the income of U.S. companies 
in Puerto Rico that Congress just repealed;
    <bullet>  Granting an additional subsidy for the insular 
government; and
    <bullet>  Continuing all current programs of assistance to Puerto 
Ricans, totally free entry to any goods shipped from Puerto Rico, and 
citizenship.
    It would be counter productive--and irresponsible--for Congress to 
invite Puerto Rico to propose a non-territory ``Commonwealth status'' 
when it knows that the intent of the proponents for such a status is a 
proposal that Congress would not--and cannot--implement.
    By contrast, the ``Puerto Rico Democracy Act'', H.R. 900, proposes 
a process that includes only real statuses--statehood, independence, 
and nationhood in a true free association with the U.S. in addition to 
the current territory status quo--all of the real statuses that have 
support in the island.
    It would continue the current status if--and for as long as--Puerto 
Ricans vote for that instead of voting to seek one of the real status 
alternatives.
    My one concern about H.R. 900 is that it would enfranchise non-
citizens of Puerto Rico to vote in the determination of Puerto Rico's 
status preference even though they may have no real connection with the 
islands (other than birth) and may never. Unlike citizens of Puerto 
Rico, these citizens of the States would also have voting 
representation in the U.S. Government decision of whether to implement 
the preference.
    Madame Chair and Distinguished Members, Puerto Ricans want to 
finally be able to choose among real statuses that can be implemented 
by Congress. The ongoing political impasse divides and holds down our 
people and only benefits a few select economic interests--some external 
companies and a select few who work for them--and some lobbyists here 
in Washington--vs. most Puerto Rican entrepreneurs and most Puerto 
Ricans.
    The business community--representative of our people as a whole--
abhors the uncertainty of the present status and abhors the unrealistic 
process implied by the Constitutional Convention proposal. Congress 
should not be in a position to raise expectations that eventually would 
be unwilling to fulfill.
    Madame Chair, I appreciate your openness and willingness to listen 
to the citizens. People need to regain confidence, they are looking for 
trust and they are expecting a true commitment. Please help put an end 
to this limbo that: has forced so many of us to leave the island; 
consigns almost half of those who remain to poverty; has resulted in 
Puerto Rico slipping further and further behind the States 
economically, as reported last year by the Brookings Institution and 
the Government Accountability Office; and denies us the democracy for 
which so many Puerto Ricans have sacrificed on behalf of the United 
States.
    Thank you.
                                 ______
                                 
    Ms. Christensen. I thank all of the panelists for your 
testimony, and I recognize myself for five minutes.
    Mr. Mejia, you talked about the fundamental changes that 
have taken place in development models and the transformation 
for developing countries over the last 50 years. Do you believe 
that the current political status of Puerto Rico harms or helps 
its economic development, in spite of or because of its 
economic model, which you say dates back to the early 1980s?
    Mr. Mejia. The situation in Puerto Rico is basically one of 
uncertainty, and that hinders any economic developments. So it 
all depends, in the actions of Congress, the future of Puerto 
Rico.
    I certainly want the future, the progress and the future of 
Puerto Rico to be better than it is right now, and that the 
people of Puerto Rico have the conditions and the competitive 
advantage that has been, has been changing through years.
    Ms. Christensen. But under the current, do you think that 
the commonwealth in and of itself, the political status was 
harmful to the economy of Puerto Rico? Or helpful?
    Mr. Mejia. It has been for some time very beneficial. But 
time changes, and it is a time for Congress to act.
    Ms. Christensen. Thank you. Mr. Fernandez, in your 
statement you make reference to the plebiscite, where you state 
that commonwealth got only .6 percent of the vote. Isn't that 
not quite accurate, since the PDP was not happy with the 
definition in that plebiscite, and the fact that none of the 
above got more, 50 percent or a little over 50 percent? Doesn't 
that really contradict what you are trying to imply by that .6 
percent?
    Mr. Fernandez. Madame Chair, if you look at the numbers 
throughout history, there has been a significant change in 
terms of how people feel about the different options. 
Regardless of the ideology, regardless of who belongs to which 
party or some ideology, people are reflecting in these local 
elections which have not been valid elections, because people 
really haven't had any confidence in these, unless Congress 
really guides us through a real serious process leading to 
that.
    But regarding that particular one, where I point out that 
0.06 percent only voted for the commonwealth, is according to 
what the Constitution of the United States and the policies and 
laws of the United States consider that as a reasonable option, 
as a reasonable option. The fact that a lot of people voted for 
none of the above, and that a lot of people supported 
statehood, and people supported independence and free 
association, does imply that people do want to change. 
Regardless of the outcome of the election, the fact that none 
of the above, I mean, that is a very, very strong message.
    Ms. Christensen. But it was a message that was generated by 
opposition to the definitions by the supporters of 
commonwealth. So I think it is a pretty strong statement that 
they could get supportive of commonwealth generally--I am maybe 
making an assumption here--to vote for none of the above, 
because they were dissatisfied.
    Mr. Fernandez. But the fact that we have a none of the 
above again, and we have people, and over the course of history 
the different local plebiscites that we have had, numbers have 
significantly changed. In fact, none of the above, support for 
other statuses that were not previously considered as part of 
the options presented to the people, do reflect that people do 
want to change.
    The issue and the point here is that people want to make 
sure that the process that they are confronted with is a 
serious process, and that the options that they will be voting 
for will be respected, and will be accepted by the Congress of 
the United States. And that is the bottom line.
    Ms. Christensen. Thank you. I just wanted to try to get in 
another question to Mr. Baquero. Why do you believe that the 
option of choosing to continue being a territory, in Section 
3[a] of H.R. 900, which you say is absurd and cynical, was 
included in the bill? Shouldn't the democratic process afford a 
people the opportunity to choose something that they believe 
works for them?
    Mr. Baquero. I think definitely the actual territory is 
colonial. Following principles established by, as I quote here 
from the United Nations international law precedents, I think 
we need to change that. I don't think it is an option.
    The only option under the commonwealth status would be free 
association developed as such. I don't see a territorial status 
being prevailing in Puerto Rico as an option.
    Ms. Christensen. I am not sure that territory and 
commonwealth quite, as being defined, are exactly the same. But 
my time is up. I am going to recognize Mr. Fortuno for five 
minutes.
    Mr. Fortuno. Thank you. And again I want to thank all the 
members of the panel for flying up here and joining us this 
afternoon.
    One of the purposes for which I commend again the 
Chairperson, Madame Chair of the Subcommittee for this hearing, 
one of the purposes of the hearing is to allow for Congress to 
understand what is going on in Puerto Rico. So if I may, even 
though it may sound unrelated to the topic, I believe it is 
certainly related to it, I will ask, if I may, the Chairman of 
the Chamber of Commerce to briefly describe the economic 
situation in Puerto Rico as we speak right now, with the latest 
numbers that have been put out, official numbers, in terms of 
negative growth for two consecutive years in our economy.
    So if you may, Mr. Mejia.
    Mr. Mejia. For the last couple of years we have certainly 
lost a competitive advantage due to the uncertainty of our 
status.
    In the 1980s we were the economic example of the under-
developed, of the countries that were looking for some type of 
progress. I mention Singapore Island, such countries. And from 
that point on, from the nineties on, Puerto Rico has been 
losing that competitive advantage. And probably the reason for 
that is that the status issue hasn't been resolved.
    Mr. Fortuno. Actually, Madame Chair, if I may, I would like 
to introduce for the record--and we will do so in the next 24 
hours, if that is OK with you--a chart with the growth rate in 
the last 40 years in Puerto Rico. And we will show that since 
the early seventies on, our economic performance has been 
lackluster. And actually at this moment, for the first time in 
our history, our economy is not following the national trend. 
The national economy has been growing for 43 consecutive 
months, and now we have had two years where we have had 
negative growth.
    But I believe it will be good for us to understand what has 
happened to the economy in the last 50 years or so, so we can 
compare it to the national economy, if I may.
    Ms. Christensen. Without objection, admitted.
    Mr. Fortuno. Thank you, I appreciate it.
    [The information submitted for the record has been retained 
in the Committee's official files.]
    Mr. Fortuno. Mr. Fernandez, in your statement you talk 
about uncertainty, unrealistic processes and expectations. And 
actually there were some statements somewhat similar in Mr. 
Mejia's comments relating to the effect of that uncertainty of 
the present status has over the economic climate in Puerto 
Rico. Could you expand on that, please?
    Mr. Fernandez. Sure. I must first say that uncertainty is 
not good for people, and it certainly is not good for business.
    The fact that uncertainty permeates, and the fact that 
people are concerned about the economic situation of Puerto 
Rico, the social situation, the situation with public safety 
and all these other things, that uncertainty unfortunately has 
driven a lot of professionals, youth, people who would be 
responsible for the direction of public and private 
institutions in Puerto Rico, to leave the island.
    Unfortunately, we are losing that capital that we need in 
order to grow our infrastructure in all areas: economic, 
social, and educational, as well.
    The fact that this uncertainty has been leading people is 
because they look at the political situation, they look at the 
economic situation, how education is affected by all of this, 
the social problems that are structural to the situation in 
Puerto Rico, and they have just lost faith. And I think that we 
need to give some injection and some hope back to the people.
    And that is why a serious process I believe will lead to 
that direction.
    Mr. Fortuno. Certainly we need a change, and most people 
are dissatisfied with what we have.
    Final question, if I may, to you, Mr. Fernandez. What 
happened to the economies of Hawaii and Alaska once they became 
states?
    Mr. Fernandez. Once they became--increasingly, they have 
grown dramatically. I mean, and I am sure that Congressman 
Young, and I am sure that the Congressmen of Hawaii and Alaska 
and the Senators, could talk about that more in general.
    But we see it. And I have been to Hawaii. I have seen how 
they have been able to grow their economy, how they have been 
able to foster their values, their cultural values as well.
    But at the same time, the fact that that unresolved 
business that was happening back then in Alaska and Hawaii gave 
some stability, gave some security, gave some direction to the 
people. And that is why they say, you know, if I know where I 
am going, if I know that things are going to stay stable, I 
know that I will have an opportunity for growth.
    But in the matter that uncertainty permeates, in the matter 
that people don't know what is going to happen, don't know if 
their pockets will be filled any time soon, they will have no 
hope for their families, they will have no hope for the future. 
We need to change that.
    Mr. Fortuno. Thank you. Thank you again. Madame, I yield 
back.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Faleomavaega for five minutes.
    Mr. Faleomavaega. Thank you, Madame Chair. And I do 
apologize for not being here while our distinguished members of 
the panel had testified before the committee, but I sense that 
the whole gist of this panel's expertise in terms of their 
positions or opinions is in reference to the economic 
conditions and the status of the Commonwealth of Puerto Rico.
    As indicated in the White House Task Force report, going 
back again to the three plebiscites that were held, at least in 
terms of the records that were taken in 1967, the people of 
Puerto Rico opted for commonwealth status with 60 percent of 
the vote, statehood at 39 percent, and for independence, 1 
percent.
    And then there was a 1993 plebiscite for which people opted 
for commonwealth at 48 percent, those who wanted statehood was 
at 46.3 percent, and independence, 4.4 percent.
    I thought that perhaps after the 1993 plebiscite that there 
would be a runoff between commonwealth and statehood. But that 
was not made possible, so we are right back again to square 
one.
    I understand also I think the latest plebiscite, if you 
consider it as such, but because of a lot of misgivings and 
misunderstandings about definitions were in the 1998 
plebiscite, where people opted for territorial commonwealth at 
6 percent, free association at 29 percent, statehood at 46.49 
percent, but none of the above was some 50.3 percent. So here 
again we are kind of fuzzy in terms of exactly where do the 
people of Puerto Rico desire to opt for whatever future that 
they may want to have.
    As we hold this hearing, there is a big, big debate, 
furious as it is, in trying to determine even to give the 
delegate of the District of Columbia full voting rights. And 
Eleanor Norton-Holmes represents 600,000 U.S. citizens. They 
all pay Federal income taxes, and yet they have no full voting 
rights. So even the Congress is having a little problem even 
doing this, and there are some very serious constitutional 
issues. Just as we now find ourselves in, and have been for how 
many years now, in dealing with the Commonwealth of Puerto 
Rico.
    I had asked some previous questions about the doctrine of 
incorporation. I don't want to get into the legal stuff, but I 
think I did mention that years ago, in the middle of a hearing 
that we held in Puerto Rico--and I was there--that this 
conservative columnist by the name of Pat Buchanan issued a 
commentary, saying that if Puerto Rico was to become a state 
tomorrow, it would become a welfare state, and the United 
States were going to have to provide a tremendous amount of 
funding to upkeep the people. Which, you know, it came at the 
wrong time, and I felt it was very unfair, especially not only 
to the people of Puerto Rico, but even to the American people, 
because that was just one opinion.
    But my basic position is this. I want to ultimately, 
whatever option that the people of Puerto Rico want, that is 
what we should do.
    Here is the question that I have for our members of the 
panel. Suppose the option of statehood is presented in such a 
way that this is ultimately what the people of Puerto Rico have 
decided. But are you aware of the fact that just because the 
people of Puerto Rico opted for statehood, there is no 
guarantee that Congress is going to grant you statehood?
    Mr. Baquero. Yes.
    Mr. Faleomavaega. Are you aware of that fact? Because that 
is another side of the coin, so to speak.
    So we are back again with the situation of commonwealth 
status in terms of however you may want to interpret it. Some 
have said, as I stated earlier, that it seems to me that this 
enhanced form of commonwealth is almost similar to what the 
compact of free associations have now been developed by the 
Republic of Marshall Islands, Palau, as well as the Federated 
States of Micronesia.
    And I want to ask my good friends here on the panel, do you 
honestly believe that the economy of Puerto Rico will stabilize 
if Puerto Rico was to become a state tomorrow? Is this the 
basic tenets of our members of the panel and their opinions on 
this issue?
    Mr. Baquero. I think the basic question here is give the 
people the opportunity. We have to educate a lot. I think we 
have fallen prey to the political parties' status orientation, 
and that type of politics in Puerto Rico has created negative 
effects in the development of democracy.
    I think that is why a civil society has to take a role in 
this, more active than now, and make an issue of this. Because 
the way to develop Puerto Rico basically through the political 
status is one option, but we have to create also a new economic 
plan for the island based on the real facts, not illusions.
    Mr. Faleomavaega. Madame Chair, just one comment I wanted 
to make. I have the highest respect for my good friend and 
colleague, Resident Commissioner Fortuno, and the fact that he 
does support statehood. And I have the utmost respect for his 
position that he has taken. There is nothing wrong with that.
    His predecessor also sat on this committee. He is now the 
Governor of Puerto Rico. But he opts for a different status, 
which is primarily commonwealth and however you want to define 
it.
    So we are torn between these two. And this is not being 
disrespectful for those who advocate independence, as well. But 
we have been going through this now for 50, 60 years, among 
these three options. And I am tortured and really hopeful that 
some way or somehow we are going to have a major breakthrough 
that maybe combining the two pieces of legislation that is now 
before the committee, taking the pluses of both proposed 
legislations, so that there is fairness in the process.
    If there is anything that I think that I would like to 
advocate very strongly, as I am sure it is the feeling and 
sentiments of all the Members of Congress, is that we come up 
with a proposed bill that will be fair to all the people of 
Puerto Rico. And let the people of Puerto Rico make that 
decision in terms of their option for their future.
    I am sorry. Thank you, Madame Chair.
    Ms. Christensen. Thank you, Mr. Faleomavaega. The Chair now 
recognizes Mr. Serrano for five minutes.
    Mr. Serrano. Thank you. I didn't hear the testimony, so I 
apologize. But I will just stick with some of the concerns that 
are always voiced.
    As you know, I am clear on my opposition to the 
commonwealth status, and I am clear on opposition to any status 
that doesn't remove Puerto Rico from the colonial territorial 
status that it finds itself in now. And that is the one thing 
that everybody agrees with now on the island, finally. They may 
not call it a colony, but people understand that this has to 
change.
    Now, one of the arguments always presented is, one, could 
Puerto Rico survive as an independent nation; and two, can 
Puerto Rico carry the burden of being a state, in terms of its 
economy. I don't know if that question has been asked; if it 
has, I apologize for asking it again, or perhaps asking it 
differently.
    But I would like for you to comment on both, with the full 
understanding, incidentally, that if Puerto Rico was a state, 
obviously it would immediately share in all that states share 
in, within certain responsibilities that it may not have now. 
And if it was an independent nation, I doubt that after 109, 
110, 111 years, the U.S. would simply say goodbye, see you 
later. There would be a close relationship, probably the 
closest we would have with anyone in the world, I would say, 
because it is, you know, a member of the family doesn't leave 
and totally become not a member of the family.
    So can you, any of you, comment, or all of you, on that 
whole notion? The economy under statehood, and the economy 
under----
    Mr. Baquero. I think the basic issue here has to be a 
transition period for both equations, both for statehood or for 
independence. Because the economy is right now in a state of 
like an appendix to the American economy. And to develop 
properly as a republic, as an independent nation, Puerto Rico 
needs to have fully transition.
    The same with the statehood. That is my opinion.
    Mr. Fernandez. Well, I think particularly, going back to 
uncertainty, I think the fact that there is uncertainty in the 
environment and in the business community, that the citizens in 
general have no idea as to what is going to happen, has 
frustrated a lot of people. That is why we are getting our 
professionals and youth to leave the island.
    In terms of the final decision, I think what is really most 
important is to have a fair process, a serious process, where 
people could feel confident that the options that they are 
voting for are going to be accepted by the Congress. And if 
people openly express that they favor statehood, or they favor 
independence, or they favor free association, or the status 
quo, then that there is a fair process to accept and assimilate 
that will from the people.
    But I think until the people are confronted with that, 
uncertainty is really fading away hope in general, in Puerto 
Rico. And I think that that is the key issue that we need to 
address.
    Mr. Mejia. The Chamber's concern at this point in time is 
the process should be fair, and that transition should be a 
smooth one. Education is power; thus, that will allow the 
people of Puerto Rico to make an enlightened decision. So 
whatever process Congress decides to do, it is very important 
that the people are educated in what are the choices.
    Mr. Serrano. Would it be fair or unfair to suggest that the 
business community may never truly favor statehood because of 
the tax issue that it would impose on the island, on that 
state? Is that a fair statement, or is that an unfair statement 
on my part?
    And please understand, if that was the case, it would be, 
you know, I have made a career out of pointing out that 
corporate America every so often thinks of itself first, and 
the people somewhere down the line, maybe never. So you know, 
corporate America would now be corporate-new state America or 
territory America.
    So my question is, if you had a vote amongst Puerto Rican 
businessmen--and I don't mean, you know, Don Pepe or Comer 
Icoco [ph] and Dutrieri Esso [ph]--just on the tax issue, would 
they not be in favor of statehood?
    Mr. Mejia. At this point in time, the Chamber of Commerce 
is only concerned with a fair process and a smooth transition.
    Mr. Serrano. OK.
    Mr. Baquero. I think the key is I come back to education. 
We have to really put the numbers and educate the people as to 
the real effect of all the alternatives. Because that way, our 
people will know what is the reality that we are talking about, 
not illusions.
    Mr. Fernandez. Let me add, also, Congressman. I think 
economic stability and growth for business community as well 
has to do as well with the developments in the political arena. 
They are not excluded.
    I mean, and in the way that the citizens, including the 
business community, are involved in the political decision-
making process for things that have an impact over the economy, 
over social development, over education, over public safety, 
over everything that is around us, that is kind of a big 
statement just right there.
    And when people are fully able to either engage in 
international treaties and be able to do that to expand the 
economy, or fully integrate as a state, then that sort of full 
participation in the political decision-making process will get 
more people to be confident for economic development of Puerto 
Rico, and that will also be helpful for foreign investment, as 
well, as to the stability of the island.
    Mr. Serrano. May I just take a few seconds more? If you 
don't smile, I won't take a second more.
    [Laughter.]
    Mr. Serrano. OK, thank you for smiling. See, here is my 
concern. We get to the nitty-gritty, as we say, we get to a 
vote. And that vote then becomes an issue of independence and 
statehood. And then you see the business community pour a lot 
of money into that vote. That is why I would hope, and we 
shouldn't discuss this now, that those both be totally funded 
to keep people from having to donate to those campaigns.
    Then you will get the business community to say well, what 
do we support? Do we support getting to the burden of paying 
taxes? Or do we support the uncertainty we think of an 
independent nation, that it will be another Cuba? You are going 
to hear all of these silly arguments that have nothing to do 
with anything, and it will be just the agenda of the business 
community, which scares the hell out of me.
    And then last, I have noticed that if you take a survey, 
you may find out that a lot of New Yorkers retire in Florida, 
but they don't retire in Puerto Rico. Non-Puerto Rican New 
Yorkers. Is that also linked to--I mean, some people may say 
good that they don't retire here, you know, in droves. But is 
that linked to the status issue? The uncertainty over political 
situations?
    Mr. Fernandez. Or why do we have more Puerto Ricans 
stateside, on the mainland, than in Puerto Rico, as well?
    Mr. Serrano. Well, that is because of my leadership.
    [Laughter.]
    Mr. Fernandez. But I feel, and that is my personal feeling, 
that Puerto Rico has a lot to offer. And it is a beautiful 
place. It is a place with a great infrastructure. It is a place 
with great opportunities for the region and the international 
marketplace, as well.
    But the fact that people don't feel comfortable in Puerto 
Rico, and we are losing as much--I mean, the most recent poll 
that I read was 36.5 percent of people are seriously 
considering leaving the island--is because of the uncertainty, 
is because of the public safety, because of the lack of, the 
uncertainty with the economy, education, and anything related 
to that. They want to make sure that their families have a 
share in that. And they are looking for that elsewhere, 
unfortunately.
    Mr. Serrano. Thank you. Thank you, Madame Chairwoman.
    Ms. Christensen. You are welcome, Mr. Serrano. I am going 
to do another round, because I have a couple of questions that 
I wanted to ask.
    Mr. Mejia, you said that in recent years, I believe you 
said four, that it is in recent years that an uncertainty has, 
and the economy of Puerto Rico has seen a decline.
    To what extent do you think that is related to our removal 
of 936?
    Mr. Mejia. The benefits of 936 helped the economic 
development of Puerto Rico for many years. For reasons of a 
decision by Congress, that has changed. There was a phase-out 
of 10 years, and at this point in time Puerto Rico doesn't have 
the necessary benefits, tax benefits, to be able to improve 
their economic development. Although I believe Puerto Rico 
still has a lot to offer, and I believe in the human capital 
and the desire of all the Puerto Ricans to become entrepreneurs 
and to move forward. That made a change.
    Ms. Christensen. 936 did make a change.
    Mr. Mejia. It did make a change.
    Ms. Christensen. Thank you. Mr. Baquero, I believe you said 
that what Puerto Rico needs is a real economic plan. What 
prevents it from happening under the current status?
    Mr. Baquero. You have to have a clear definition of 
purpose, and we don't have it right now.
    The way we operate in Puerto Rico with the political system 
creates, well, they already said uncertainty, in terms of a 
stability, in terms of doing things in one direction. There is 
no sense of direction.
    One party comes over, change the policy. The other comes 
back, change the policy again. We need to work together, and 
that is the problem.
    So I think it is obviously establishment. Once we have a 
clear-cut definition of what we are, what we are going to do, 
then we can establish the economic plan that Puerto Rico needs 
and deserves. And it is getting late. It is getting late.
    Ms. Christensen. Once the choice is decided and stability 
established because that choice has been made, Puerto Rico can 
move ahead. It doesn't seem to me that it has to be one or the 
other.
    Mr. Baquero. Then we don't have too much fighting among 
ourselves. That is keeping us divided.
    Ms. Christensen. Thank you. Thank you. Mr. Fernandez, you 
did say in your testimony that you have one concern about 900, 
is that it would enfranchise non-citizens of Puerto Rico to 
vote in the determination of Puerto Rico's status. And then 
1230 would enfranchise not only persons born in Puerto Rico, 
but also possibly children of parents.
    I suspect that, you know, that that may be a concern of 
others in Puerto Rico. How would you suggest we resolve that 
issue?
    Mr. Fernandez. I honestly feel, I mean, I wake up in Puerto 
Rico, go to work in Puerto Rico, have to live the consequences 
of what permeates around the environment these days. I go to 
sleep and wake up the next morning in Puerto Rico.
    I think it is very important that the people of Puerto 
Rico, that people who are living in Puerto Rico and who aspire 
to live in Puerto Rico and further develop their families and 
their economic environments in Puerto Rico, are able to decide 
the ultimate status option for Puerto Rico.
    As I say, more than the current population of Puerto Rico 
live in the mainland and abroad. And the fact that we could 
probably extend that vote to over four million Puerto Ricans 
who have fully integrated into a state, and now have their kids 
and everything, they already, they live in a different 
scenario.
    The scenario that we live in Puerto Rico right now is very 
different. And I think that the desperation or the frustration 
of the people of Puerto Rico should be respected in the regard 
that these are, we who live in Puerto Rico need to make sure 
that we feel confident about the final status decision. Because 
our aspiration is to remain there.
    Ms. Christensen. Thank you. Mr. Fortuno, do you wish five 
minutes?
    Mr. Fortuno. Yes, very briefly. I have a concern that I 
believe is shared by many of us. At the rate that we are 
losing, and it has been touched upon briefly here, we are 
losing the best and brightest of Puerto Rico, at a fast pace.
    And in addition to Mr. Serrano's leadership certainly, 
which is I know is the number one reason for it, I have no 
doubts about it----
    Mr. Serrano. I don't want another person to leave, believe 
me.
    Mr. Fortuno. But certainly, I do have--not to Florida, 
anyway, I know. Which is where most of them are living.
    But certainly, what we are discussing here has a direct 
impact on that. And actually, I have, there are a number of 
things we need to do.
    I believe the issue of uncertainty has been actually raised 
by all three in one way or another. That is out there, has been 
out there for a while.
    We have been under-performing. Actually, if we look at it, 
none of the last two years, since the early seventies on, we 
have been under-performing as an economy.
    I just filed a couple weeks ago H.R. 1340. And I will use 
this to pitch my bill. And essentially that bill is status 
neutral. That bill doesn't get economic development in the 
middle of politics, or politics in the middle of economic 
development. That bill tries to provide for an economic 
development tool to create jobs in Puerto Rico.
    And I have discussed it with Chairman Rahall and Ranking 
Member Jim McCrery. I invite all of you here to look at it. It 
would apply to pockets of poverty, not just in Puerto Rico, I 
mean around the country, including the territories.
    And I believe we can do both things. We can try here to try 
to address the issue of status, and provide for a pathway to 
solve it; and we can try in this Congress to address, at least 
in part, the issues of economic development that are affecting 
Puerto Rico's economy right now.
    Having said that, I will again stress what has been 
mentioned by all three: that this uncertainty provides for what 
a friend of mine calls the Puerto Rico discount rate. And you 
know, if this existed in the mainland, it would cost so much 
more. The value of it would be so much more. And I hear that 
over and over and over.
    On top of that, our tax rates. Oftentimes the issue of 
taxes has been used as an excuse, saying we cannot move on on 
status. And actually, if we were to move on to statehood, that 
would be detrimental. Well, we have proven, and history has 
proven, that in the country we pay more taxes than anybody else 
under the American flag. So we have ended up with the worst of 
both worlds, actually.
    And my question here is, Mr. Fernandez, if you feel that 
once we have a process, even before we have a status change, if 
we have a process that is mandated by Congress, if you feel 
that that sense of that things will get better will commence to 
permeate the business sector right away.
    Mr. Fernandez. A process for providing----
    Mr. Fortuno. Status, economic.
    Mr. Fernandez. Definitely. I mean, the fact that the 
local--again, I want to stress that again. The fact that 
previous plebiscites, people have been confronted with 
definitions that have not been approved. People have not had 
confidence in the process.
    People really aspire to participate or engage in a process 
that they feel confident about. And I think that H.R. 900 
clearly, clearly outlines a process that includes all the 
possible constitutionally viable options for the people of 
Puerto Rico in a way that allows, you know, gives space for all 
sectors of society to be involved, and to look at all 
constitutionally viable options to the people.
    If the people of Puerto Rico are not confronted with a 
serious process, fully supported by the U.S. Congress, we will 
keep having elections, keep having elections with local 
plebiscites and local political parties making, writing the 
definitions, and there will be more confusion, more 
frustration. And people will not be confident about a future 
resolution of this matter.
    I think this is a historic time. It is a historic time that 
we are really taking a serious step into considering this 
process. And I fully feel confident about the U.S. Congress 
presenting options that are viable, and that they are willing 
to accept.
    Mr. Fortuno. Thank you. I yield back.
    Ms. Christensen. Thank you. Mr. Serrano, I think you took 
up half of this round already, but we are willing to recognize 
you for any questions you might have.
    Mr. Serrano. By the way, I want to thank you for that 
letter for those items that you want in your district, that you 
sent to me, to the Appropriations Committee.
    [Laughter.]
    Mr. Serrano. I am learning the system well.
    [Laughter.]
    Mr. Serrano. Mr. Fernandez, you broke my heart.
    Mr. Fernandez. Thank you.
    Mr. Serrano. As a child, I remember during the Luis 
Administration, sound trucks going around in Barrio Parisa 
Majagues telling my parents that there were jobs available in 
Brooklyn and in the Bronx. That is why they left.
    They didn't leave because El Coqui was making too much 
noise; they didn't leave because the hot water in mani were too 
hot for them. They didn't leave because El Parma, and I don't 
mean El Parma you have today, but El Parma was upsetting them.
    They left because they had no choice; because of economic 
conditions. And you should understand that better than anyone 
else.
    Those economic conditions I claim were the direct result of 
the relationship. So when the relationship is going to be 
defined--and statehood is forever, and independence is forever, 
and hopefully there will be no more colonial forever--when that 
is to be defined, then all the children of the colony should be 
allowed to participate. It is no different than to ask an 
American Jew to turn his back on Israel. It is no different to 
tell African-Americans to turn their back on Haiti or on the 
Continent of Africa.
    But I ask you the difficult question. If you are willing to 
keep me from voting, are you willing to go on the record now 
and say that any Cuban, Dominican, Colombian, Mexican who came 
to Puerto Rico and made a deal with the U.S. Government for 
citizenship--not for the people of Puerto Rico--that they 
should be allowed to vote on that plebiscite, and not me?
    Mr. Fernandez. Congressman, I believe that the Cubans, the 
Guatemalans, the Salvadorans, and all of the people who became 
citizens and now live in Puerto Rico; they work in Puerto 
Rico----
    Mr. Serrano. But they became American citizens, not Puerto 
Rican citizens, right?
    Mr. Fernandez. They became American citizens and live in 
Puerto Rico. No, I mean, U.S. citizens and residents, as well, 
of Puerto Rico, of course.
    But my point is in the regard that they live in Puerto 
Rico, and that everything that happens around them, in terms of 
the economy, in terms of the social structures, has an impact 
over them.
    We have millions of Puerto Ricans living abroad.
    Mr. Serrano. And you don't think the conditions that Puerto 
Rico lives under has an impact on us? What the heck am I doing 
on this panel right now?
    Everything that happens in Puerto Rico has an impact on 
those of us who were born there, and our generations to follow. 
I did not have to prove my worth in New York because I was a 
white, blue-eyed, blond, Anglo Saxon-type American. I had to 
prove my worth because I was seen as a Puerto Rican.
    I had to explain that it was under the American Flag day 
after day, and still do. Everything that happens in Puerto Rico 
has an impact on what happens throughout this nation to Puerto 
Ricans. That is why we left or were forced out by our own 
government in cahoots with the Federal government, but we were 
forced--do you think we created the Puerto Rican parade in New 
York because we like to take a Sunday and march down a big 
street? Do you think we created a Fiesta Forclorica in Hartford 
because they had nothing better to do? It was a reaffirmation 
of who we are.
    And may I remind you that before Puerto Ricans discovered, 
except for some people in this audience, the Puerto Rican Flag 
in the eighties, the Puerto Ricans were keeping it on the fire 
escapes in New York since the 1920s.
    So really think that out, because whether one party likes 
it or the other, somo solo una sola nacion, you know. And that 
has to be remembered forever.
    Mr. Fernandez. And that leads me--thank you, Congressman. 
And that leads me to two points.
    First, the sense of urgency to come with a serious process 
to resolve this matter, so that we don't have hundreds of 
thousands of Puerto Ricans to keep leaving the island because 
they have no future or they feel they have no future for them.
    The sense of urgency--and I really respect your opinion, as 
well, and because of the situations that they went through in 
Puerto Rico, as well--sometimes I feel uncomfortable when I get 
into debates with Puerto Ricans who I admire very much, as 
well, in the mainland, and have fully integrated to the States, 
and talk----
    Mr. Serrano. With all due respect, because my time is 
running out. I really think you need to do more work on this. 
Fully integrated, I don't know what that means. I am as 
American as apple pie, and I am a Member of the U.S. Congress. 
I served in the military. I am as American as apple pie.
    But I never stopped being as Puerto Rican as--I mean, we 
wrap it in paper, but it never changed on the inside. It just 
changed on the outside.
    Mr. Fernandez. I refer to the integration to the States.
    Mr. Serrano. So why do you insist on assuming that we have 
integrated somewhere else, and no longer belong to the nation? 
We are one nation. And that, I am not asking to vote for 
Governor or for President of the Republic once it is 
established. I am not asking for that. I am not asking to vote 
for any Member of Congress there if Puerto Rico is a state.
    But I am saying when this decision is going to be made, it 
belongs to all the children of the colony. And you shouldn't 
try to keep some of us out.
    Mr. Fernandez. If I might say just one thing. I would 
really like to have an opportunity to share more thoughts about 
this, Congressman. I really feel that this is a very important 
issue. It is a very important issue.
    But I want to stress and end with the statement that there 
is a sense of urgency to come into a conclusion of this matter. 
A sense of urgency.
    But I do agree that we have some common ground, and I would 
like to talk to you about that.
    Mr. Serrano. I am afraid you might convince me.
    Ms. Christensen. Thank you. I would like to thank this 
panel for your testimony and your answers to our questions. And 
this panel is dismissed.
    And we are ready to recognize the third panel of witnesses. 
I believe we can get through on one round. We are going to 
finish before 4:00.
    [Recess.]
    Ms. Christensen. I would like to now recognize the third 
panel of witnesses. They are Mr. Jorge Pedroza, the State 
Council President of Vietnam Veterans of America; Mr. Luis E. 
Gonzalez Vales, the Official Historian of Puerto Rica; Ms. 
Veronica Ferraiuoli, the President of the Puerto Rico Chapter 
of the Federal Bar Association; Ms. Celina Romany, the 
President of the Puerto Rico Bar Association; and Ms. Aida 
Diaz, the President of the Puerto Rico Teachers Association.
    The Chair now recognizes Mr. Pedroza to testify for five 
minutes, and we are going to follow the lights on the table.

STATEMENT OF JORGE E. PEDROZA, STATE COUNCIL PRESIDENT, VIETNAM 
                      VETERANS OF AMERICA

    Mr. Pedroza. Madame Chair and Members of the Subcommittee 
on Insular Affairs, Committee on Natural Resources of the House 
of Representatives. My name is Jorge Pedroza. I am the 
President of the Vietnam Veterans of America, Puerto Rico State 
Council.
    I appear before this Congressional committee on behalf of 
my organization. I served in Vietnam from 1967 to 1968 with the 
U.S. Army Pathfinder Detachment, Fourth Infantry Division, and 
proud of it.
    Those of us who served in Vietnam performed our duty with 
honor and pride, to defend and preserve our democratic values 
and way of life. Hundreds of my brothers-in-arms died in that 
conflict, and thousands were wounded.
    For those of us who came back, there were no parades or 
celebrations. It took many years and the dedication of the 
Vietnam Memorial monument in Washington, D.C., which we have in 
the back, and a memorial monument in San Juan and many cities 
around the nation, for the American people to at last extend 
the Vietnam veterans the recognition and remembrance they 
justly deserve.
    Today I come before the U.S. Congress to request a similar 
recognition on behalf of over 200,000 veterans who live in 
Puerto Rico, and the thousands of brave young men and women 
from Puerto Rico deployed in Iraq, Afghanistan, and throughout 
all the world, who proudly wear the U.S. Armed Forces uniform.
    Our request is simple. Give us the opportunity to actively 
participate in American democracy. Veterans of Puerto Rico who 
have so proudly fought in the past, and continue to do so in 
the present, approve legislation authorizing a plebiscite to 
provide the veterans and the people of Puerto Rico the 
opportunity to determine a non-colonial and non-territorial 
political status.
    Puerto Rico is a non-incorporated territory of our nation. 
It has been such since 1898, when the island was invaded by the 
U.S. forces under General Miles. U.S. was entrusted with two 
obligations: civil rights of the inhabitants will be determined 
by Congress, and political status will be determined by 
Congress. It means that the obligation accepted by the U.S. 
Representatives in the Treaty of Paris was to resolve the 
political status of the island, and that rested in Congress.
    The time has come to empower the Puerto Rican men and women 
to make a decision regarding the island's ultimate destiny. Let 
the people of Puerto Rico, with your authorization, decide they 
want to become a State of the Union or an independent republic.
    This request for self-determination is supported by the 
National Organization of the Vietnam Veterans of America. A 
resolution entitled Self-Determination for Puerto Rico was 
unanimously approved at the National Convention held on August 
3 at St. Louis, Missouri. It calls for the U.S. Congress to 
define the legal status options available for Puerto Rico, and 
authorize a plebiscite regarding the island's future. I am 
including with my remarks a copy of said resolution, which is 
this that I have at this moment.
    I understand you have two bills under consideration. The 
bill that represents the position adopted by the Vietnam 
Veterans of America is H.R. 900, introduced by Congressman Jose 
Serrano and 93 co-sponsors, including Chairman Nick Rahall and 
Puerto Rico Resident Commissioner Luis Fortuno. We believe this 
bill affords the people of Puerto Rico with the opportunity to 
make an informed decision and directly vote on their status 
preference on constitutionally valid options, as defined by 
Congress.
    Until you, my honorable ladies and gentlemen of this 
committee, act, Puerto Rico will continue suffering of being a 
second-class territory of the Union. And we, the U.S. citizens 
who have served in the U.S. armed services, have paid our 
greatest tribute of all--be willing to give our lives for our 
nation--lack the rights to vote for he who sends us to battle, 
to he who sends us to defend this nation and the right to 
decide our political status.
    Thank you for giving me this opportunity. God bless our 
veterans and our soldiers at home and around the world.
    [The prepared statement of Mr. Pedroza follows:]

 Statement of Jorge E. Pedroza, President, Vietnam Veterans of America 
                         Council of Puerto Rico

    I was born in Cayey, Puerto Rico on November 6, 1947.
    After graduating from high school in May 1967, I volunteered to 
serve my country in the United States Army in June 1967. I served in 
the Vietnam War, participating in the 1968 Tet offensive as an U.S. 
Army Pathfinder 4th Infantry Division in Pleiku South Vietnam. I was 
honorably discharged from service in June 1970.
    Married with 3 children and 2 granddaughters I have lived in 
Guaynabo, Puerto Rico since then.
    In 1987 I joined the Vietnam Veterans of America Organization as 
President of Chapter 59, which held only 11 members. Today the 
membership counts 380 hundred.
    By 1988, I started a protest movement on behalf of my fellowship 
veterans against the Department of Veterans Affairs that lasted 4 
years. The conclusion was the Giusti Bravo lawsuit vs. U.S. Department 
of Veterans Affair. 1,000 compensations, which were taken away from our 
Vietnam veterans in Puerto Rico, were restored as a result by 1992. 
During that same period; 1993 to 1996, I was able to start new chapters 
around the island; Yauco, Ponce, and Arecibo. In 1993 I demanded the 
need for a State Council in Puerto Rico becoming it's president until 
1996 and regaining the position unanimously again in May 2001 to 
present.
    At the age of 59 I still have the strength and pride of being a 
contribution as a servicemen to the greatest country in the world, to 
all the veterans and to my brothers at war.
STATEMENT
    Madame Chair and members of the Subcommittee on Insular Affairs, 
Committee on Natural Resources of the U.S. House of Representatives.
    My name is Jorge E. Pedroza, President of the Vietnam Veterans of 
America Puerto Rico State Council.
    I appear before this Congressional Committee on behalf of my 
organization. I served in Vietnam from 1967 to 1968 with the U.S. Army 
Pathfinder Detachment, 4th Infantry Division.
    Those of us who served in Vietnam performed our duty with honor and 
pride to defend and preserve our democratic values and way of life. 
Hundreds of my brothers in arms died in that conflict, and thousands 
were wounded. For those of us who came back there were no parades or 
celebrations. It took many years and the dedication of the Vietnam 
Memorial Monument in this Capital city and the Memorial Monument in San 
Juan and many cities around the nation, for the American people to at 
last extend to the Vietnam Veterans the recognition and remembrance 
justly deserved.
    Today, I come before the U.S. Congress to request a similar 
recognition on behalf of over 200,000 thousand veterans who live in 
Puerto Rico and the thousands of brave young men and women from this 
island deployed in Iraq, Afghanistan, and through all the world who 
proudly wear the U.S. Armed Forces uniforms. Our request is simple: 
give us the opportunity to actively participate in the American 
Democracy. Veterans of Puerto Rico have so proudly fought in the past 
and continue to do so in the present. Approve Federal Legislation 
authorizing a plebiscite to provide the veterans and the people of 
Puerto Rico the opportunity to determine a non-colonial and non-
territorial political status.
    Puerto Rico is a non-incorporated territory of our nation. It has 
been such since 1898 when the island was invaded by the U.S. Forces 
under General Miles. U.S. was entrusted with 2 obligations: Civil 
rights of the inhabitants will be determine by Congress, Political 
status will be determine by Congress.
    It means that the obligation accepted by the U.S. representatives 
in the Treaty of Paris to resolve the political status of the island of 
Puerto Rico rests in Congress.
    The time has come to empower the Puerto Rican men and women to make 
a decision regarding the island's ultimate destiny. Let the people of 
Puerto Rico with your authorization decide if they want to become a 
State of the Union or an independent republic.
    This request for self determination is supported by the National 
Organization of the Vietnam Veterans of America. A resolution entitled 
``Self-Determination for Puerto Rico'' was unanimously approved at the 
National Convention held on August 3, 2003 in St. Louis, Missouri. It 
calls for the U.S. Congress to define the legal status options 
available for Puerto Rico and authorize a plebiscite regarding the 
island's future. I am including with my remarks a copy of said 
resolution.
    I understand you have (2) two bills under consideration. The bill 
that represents the position adopted by the Vietnam Veterans of America 
is H.R. 900 introduced by Congressman Jose Serrano and 93 co-sponsors, 
including Chairman Nick Rahall and Puerto Rico Resident Commissioner 
Luis Fortuno. We believe this bill affords the people of Puerto Rico 
the opportunity to make an informed decision and directly vote on their 
status preference on constitutionally valid options as defined by 
Congress.
    Until you my honorable ladies and gentleman of this committee act, 
Puerto Rico will continue suffering of being a second class territory 
of the union and we the U.S. citizens who have served in the U.S. Armed 
Services having paid our greatest tribute of all: Be willing to give 
our lives for our nation, lack the rights to vote for he who send us to 
the front lines in combat and the right to decide our political status.
    Thank you for giving me this opportunity. God bless our veterans 
and our soldiers at home and around the world.
    NOTE: Additional information submitted for the record by Mr. 
Pedroza has been retained in the Committee's official files.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Pedroza. We will now hear 
from Mr. Luis Gonzalez Vales, the Official Historian of Puerto 
Rico. Five minutes.

             STATEMENT OF LUIS E. GONZALEZ VALES, 
               OFFICIAL HISTORIAN OF PUERTO RICO

    Mr. Gonzalez Vales. Madame Chair, Members of the committee, 
I am speaking as the Official Historian, a position created by 
the Legislature in 1903, with tenure for life and not subject 
to recall by any party.
    I am not advocating any status or side. The only 
consideration that has prompted me to appear before the 
committee is my feeling that this may be a historic moment in 
the possible solution to the island's long-standing status 
controversy.
    There is unanimity among all leaders and political groups 
that after 109 years of U.S. sovereignty over Puerto Rico, it 
is time to find a solution that provides a democratic form of 
government at the national government level.
    I am confident that from a historical perspective, the 
Puerto Rico Democracy Act, H.R. 900, would provide a process 
that addresses this central question in a more direct and 
precise way than H.R. 1230. In my judgment, it is more 
democratic, for it places in the hands of all Puerto Rican 
voters the decision. In addition, it provides at each stage 
clearly defined alternatives to choose from.
    Since 1967, there has been a number of status referendums 
and plebiscites which have been inconclusive, because the 
political parties have defined each status option without 
considering their constitutionality. Therefore, it is the 
Government of the United States who has to act to change Puerto 
Rico's status.
    The fundamental flaw of H.R. 1230, in my humble opinion, is 
the inclusion of a new or modified commonwealth status not 
subject to Federal territory governing powers as an option for 
Puerto Rico's future status.
    Puerto Rico is an unincorporated territory of the United 
States. Commonwealth is a word in the formal name of its local 
government adopted with the adoption of the territorial 
constitution. It is not now a status in the sense that 
territory, State of the United States, and nations are 
statuses. And very early--and it has been stated here before--
Governor Munoz and Resident Commissioner Fernos agreed with the 
U.S. Representatives of both Houses of Congress, including this 
Subcommittee's predecessors and with a precedent and Federal 
powers, regarding the territory was not being, the powers 
regarding the territory were not being relinquished, and that 
Puerto Rico remains subject to U.S. Government powers under the 
territory clause. It has been also the conclusion of the 
Supreme Court and Justice and State Departments.
    Puerto Rican proposals for an enhanced commonwealth status 
have been rejected by the U.S. Government repeatedly since soon 
after the local constitution was adopted in 1952. In my 
opinion, there would be a significant difference between the 
constitutional convention proposed by the H.R. 1230 and the 
1950 Convention that resulted in the drafting of the 
Commonwealth of Puerto Rico Constitution.
    Public Law 81.600 included specific parameters to guide the 
work of the convention. Then a consensus was reached among all 
convention delegates, regardless of their political 
affiliation, as to how the local government should be 
organized, and unanimity was nearly achieved.
    Today, with the present polarization among the major 
political parties, there is a strong possibility that a 
convention may end deadlock, making the solution to the status 
question nearly impossible.
    H.R. 1230 also excludes one of Puerto Rico's status 
options: nationhood in a true free association with the United 
States, which has been recognized by President Clinton and the 
President's Task Force on Puerto Rico.
    H.R. 1230 would further recognize an inherent authority of 
the people of Puerto Rico to call a constitutional convention 
in the territory, authority which is provided by U.S. Public 
Law 81.600.
    H.R. 900 otherwise would provide a good process for 
determining Puerto Rico's status preference, the process 
recommended by the Presidential Task Force on Puerto Rico's 
Status, established initially by President Clinton and 
continued by President Bush. It includes all the options for 
Puerto Rico recognized to date. It provides for the current 
status to continue if, and as long as, the voters want it. It 
provides a process for the issue to be resolved in the future 
if there is not a majority for seeking the territory's ultimate 
democratic status in an initial or subsequent vote.
    Finally, it is my opinion that Congress, after more than a 
century of being entrusted with the responsibility by Article 
IX of the Treaty of Paris of 1898, must act to provide a viable 
solution to this longstanding issue which has consumed a lot of 
energies that could be better spent addressing the island's 
social and economic problems.
    I have appeared before you, for I strongly believe that it 
is time that Puerto Rico ceases to be foreign in a domestic 
sense.
    Thank you.
    [The prepared statement of Mr. Gonzalez Vales follows:]

                 Statement of Luis E. Gonzalez Vales, 
                   Official Historian of Puerto Rico

    I am speaking as the Official Historian, a position created by the 
Legislature in 1903, with tenure for life and not subject to recall by 
any party. I am not advocating any status or side. The only 
consideration that has prompted me to appear before the Committee is my 
feeling that this may be a historic moment in the possible solution the 
Island's long standing status controversy.
    There is unanimity among all leaders and political groups that 
after 109 years of U.S. sovereignty over Puerto Rico is time to find a 
solution that provides a democratic form of government at the national 
government level.
    I am confident that from a historical perspective the Puerto Rico 
Democracy Act, H.R. 900, would provide a process could resolve this 
central question ``the ultimate solution to the status issue ``whereas 
H.R. 1230 might not. In my judgment it is more democratic for it places 
the decision directly in the hands of all Puerto Rican voters. In 
addition it provides, at each stage clearly-defined ``and real status--
alternatives to choose from.
    Beginning in 1967, the Commonwealth has held a three (3) status 
referendums which have been inconclusive because the status options 
have been proposed without considering their constitutionality. It is 
the Government of the United States who has to act to change Puerto 
Rico's status, so the federal positions on local status proposals are 
needed to ensure a meaningful choice.
    The fundamental flaw of H.R. 1230 is the inclusion of a ``new or 
modified Commonwealth status'' not subject to federal territory 
governing powers as an option for Puerto Rico's future status (that 
could be chosen by what is called a ``constitutional convention'' even 
thought it would not draft a constitution).
    Puerto Rico is an unincorporated territory of the United States. 
``Commonwealth'' is a word in the formal name of its local government 
adopted with the adoption of the territorial constitution; it is not 
now a status in the sense that territory, State of the United States, 
and nation are statuses. Puerto Rico's representatives in the U.S. 
legislative process that authorized and approved the local 
constitution, Governor Munoz and Resident Commissioner Fernos, agreed 
with the U.S. representatives of both houses of Congress--including 
this Subcommittee's predecessor--and the President's administration 
that federal powers regarding the territory were not being 
relinquished. That Puerto Rico remains subject to U.S. Government 
powers under the Territory Clause has been the conclusion of the 
Supreme Court, the Justice and State Departments, successive 
Presidents, the Congress, Government Accountability Office and Library 
of the Congress, the House of Representatives, and the Senate 
committee.
    Puerto Rican proposals for a ``Commonwealth'' status have been 
rejected by the U.S. Government repeatedly since soon after the local 
constitution was adopted in 1952. Past proposals were made in: 
legislation in the 1950's; negotiations between Gov. Munoz and the 
Kennedy White House; legislation in the 1960's; legislation in the 
1970's based upon the results of a referendum in 1967 that result in a 
majority for a ``Commonwealth'' with some national government powers 
with continued U.S. jurisdiction benefits; legislation between 1989 and 
``91; a referendum in 1993 that resulted in a plurality--not a 
majority--for a ``Commonwealth'' immune from federal tax and other laws 
and for restoration of tax exemptions for the Puerto Rico income of 
companies based in the States that had just been cut by the President 
and Congress, trade protection for Puerto Rican products that 
contradicted NAFTA and GATT, and $1.5 billion a year in additional 
social programs funding; legislation that passed the U.S. House in 
1998; and unsuccessfully arguing before the federal court that the 
definition of the current status on a 1998 referendum ballot was 
erroneous.
    In my estimation there would be a significant difference between 
the constitutional convention proposed in H.R. 1230 and the 1950 
convention that resulted in the drafting of the Commonwealth of Puerto 
Rico Constitution under which our Government has functioned during the 
past fifty five years. Public Law 81-600 included specific parameters 
to guide the work of the Convention. Then a consensus was reached among 
all convention delegates regardless of their political affiliation as 
to how the local government should be organized and unanimity was 
nearly achieved. Today, with the present polarization among the major 
political parties there is a strong possibility that a convention may 
end deadlock making the solution to the status question nearly 
impossible. And this ``constitutional convention'', unlike de 1950-2 
convention would not have the purpose of writing a constitution for an 
already-determined status; it would have the purpose of choosing a 
status from among proposals that cannot be reconciled--a choice that 
should be made by the people directly.
    H.R. 1230 also excludes on of Puerto Rico's status options: 
nationhood in a true free association with the United States, which has 
been recognized by President Clinton, the President's Task Force on 
Puerto Rico's status; and H.R. 900.
    H.R. 1230 would, additionally, define the ``People of Puerto Rico'' 
differently than the reference in the local Constitution of Puerto Rico 
approved by U.S. Public Law 82-447. The bill includes individuals who 
do not live in Puerto Rico who were born in the island or who had one 
parent born in the island. And it would provide for these ``non-
resident Puerto Ricans'' to vote in the determination of the future 
status of Puerto Rico even if they had no other connection with the 
island, diluting and skewing the vote of the actual people of Puerto 
Rico. There is no precedent in the U.S. law for persons resident in one 
U.S. jurisdiction to vote in another U.S. jurisdiction.
    H.R. 1230 would, further, recognize an ``inherent authority'' of 
``the People of Puerto Rico'' to call a ``Constitutional Convention'' 
in the territory. The authority for Puerto Rico to call a 
constitutional convention is provided by U.S. Public Law 81-600.
    The one questionable provision of H.R. 900 would enfranchise 
individuals who are not residents of Puerto Rico but who were born in 
the island to vote in the determination of Puerto Rico's status 
preference.
    H.R. 900 otherwise would provide a good process for determining 
Puerto Rico's status preference, the process recommended by the 
President's Task Force on Puerto Rico's Status established by President 
Clinton through Executive Order 13183 and comprised of senior 
appointees of President Bush.
    It includes all of the options for Puerto Rico recognized to date 
``continued territory status, U.S. statehood, and nationhood, although 
it could be argued based on U.N. General Assembly Resolution 1541 that 
the nationhood option should be separated into separate independent and 
free association options.
    It provides for the current status to continue if--and for as long 
as--the voters want it.
    It provides a process for the issue to be resolved in the future if 
there is not a majority for seeking the territory's ultimate, 
democratic status in an initial or subsequent vote on whether to seek a 
not-territory status.
    Finally it is my opinion that Congress, after more than a century 
of being entrusted with the responsibility by Article IX of the Treaty 
of Paris of 1898, must act to provide a viable solution to this long 
standing issue which has consumed a lot of energies that could be 
better spent addressing the island's socials and economic problems. I 
have appeared before you for I strongly belief that is time that Puerto 
Rico ceases to be ``Foreign in a domestic Sense''. Thank you.
                                 ______
                                 
    Ms. Christensen. Thank you very much, Mr. Gonzalez. Next I 
would like to recognize Ms. Veronica Ferraiuoli for five 
minutes.

   STATEMENT OF VERONICA FERRAIUOLI, PRESIDENT, PUERTO RICO 
             CHAPTER OF THE FEDERAL BAR ASSOCIATION

    Ms. Ferraiuoli. Good afternoon. My name is Veronica 
Ferraiuoli. I am the President of the Puerto Rico Chapter of 
the Federal Bar Association, and appear before you on its 
behalf.
    The Federal Bar Association is a voluntary non-partisan 
organization whose main objective is to serve as the 
representative of the Federal legal profession in Puerto Rico. 
Currently our chapter boasts about 800 members, and it includes 
practitioners, judges, and students from all political 
ideologies.
    As a representative of the Federal Bar Association, I am 
not here to advocate any particular status choice. However, I 
am here to urge you to protect the integrity and the 
jurisdiction of the United States District Court for the 
District of Puerto Rico.
    The options under H.R. 900 are clear with respect to the 
jurisdiction of the Federal Court in Puerto Rico. If status quo 
is chosen, the Federal Court in Puerto Rico will remain 
unchanged. If the people of Puerto Rico choose statehood, the 
Federal Constitution will determine the Federal Court's 
jurisdiction.
    If independence or free association is the choice of the 
people of Puerto Rico, international law will divest the 
Federal judiciary of jurisdiction in Puerto Rico. In contrast, 
the constitutional convention to be held under H.R. 1230 
provides no safeguard or guarantee of the Federal Court's 
continued jurisdiction in Puerto Rico. Without such a guarantee 
that the Federal Court's current jurisdiction will be 
respected, as long as Puerto Ricans continue to be citizens of 
the United States, the Federal Bar Association cannot support 
this bill.
    Changes in the political relationship between Puerto Rico 
and the United States may necessitate changes in the 
jurisdiction of the Federal Courts in Puerto Rico. 
Historically, discussions regarding changes in Puerto Rico's 
political status have been accompanied by attempts to limit or 
abolish Federal Court jurisdiction in the island. This, even 
when the proposals sought to maintain or to grant United States 
citizenships for Puerto Ricans.
    Our written statement details the many attempts at this, 
all of which have failed to date. Suffice it to say that what 
began as a court for the foreigners and the wealthy in Puerto 
Rico has become the court of choice for persons seeking redress 
or protection from commonwealth action.
    After the enactment of the 1964 Civil Rights Act 
especially, the number of cases seeking redress from 
commonwealth action filed before the Federal Court has 
increased substantially. In addition, that court has 
experienced an increase in the filing of constitutional 
challenges to both Federal and commonwealth law.
    But even in the face of the growing popularity and prestige 
of the Puerto Rico Federal Court in the minds of the general 
population, limitations to its jurisdiction continue to be 
advanced. Veiled in H.R. 1230 is a proposal for a new 
commonwealth, which provides that while Puerto Ricans will 
continue to be citizens of the United States by birth, the 
Puerto Rico District Court's jurisdiction will be limited to 
matters arising from the Federal Constitution and whichever 
Federal laws apply in Puerto Rico and are not inconsistent with 
the laws of the commonwealth.
    It would appear that under this proposal, the Federal Court 
in Puerto Rico would be divested of diversity jurisdiction. In 
addition, it appears that under this proposal, the Federal 
Court will lack jurisdiction over statutory challenges to 
commonwealth law, such as actions under the 1964 Civil Rights 
Act.
    Further, under this proposal the Federal Court's 
jurisdiction will be left to the whim of the commonwealth, who 
could enact statutes which would strip the Federal Court of its 
jurisdiction.
    Despite a history of constant attempts to limit the 
jurisdiction of the Federal Courts in Puerto Rico, it currently 
holds a privileged place among the Federal District Courts in 
the United States, territories, or commonwealth-affiliated 
unions with the United States.
    The District Court for the District of Puerto Rico is the 
only Article III Court in the territories. Moreover, the very 
differences which have been used in the past to support the 
integration of Federal jurisdiction to the local court system 
have placed the Federal forum in a privileged place within the 
life of the citizens of Puerto Rico. The Federal right to a 
jury trial in civil cases is unavailable in our local courts, 
and has made the Federal Courts the forum of choice for 
plaintiffs in diversity cases.
    This notwithstanding, the Federal Court continues to be the 
preferred forum for American and foreign corporations, which 
language and practice are more familiar than that of the local 
courts. Moreover, the fact that commonwealth judges are 
appointed for terms, as opposed to lifetime tenure, has led to 
a perception of politicization in the local judiciary cases 
involving the commonwealth, since they, the judiciary, depend 
on the favor of the executive to be reappointed, and of the 
Legislative Assembly to be confirmed.
    Puerto Rico remains subject to Federal powers under the 
territory clause of the United States. The government initially 
established pursuant to the Foraker Act, and continued by the 
Puerto Rican Federal Relations Act, has left many questions 
unanswered regarding the relationship between Puerto Rico and 
the United States.
    However, the Federal system interacts and coexists with 
local law. It has become the preferred forum for the people of 
Puerto Rico to obtain relief from their grievances, and it has 
become an integral part of the system of justice of Puerto 
Rico, despite all attempts at abolishing it. More than in any 
state it has come to represent the liberties guaranteed by the 
United States Constitution and the Federal laws.
    For this reason, the Federal Bar Association, Puerto Rico 
Chapter, cannot support H.R. 1230. We cannot support a bill 
which, unlike H.R. 900, fails to guarantee the continued 
existence of a Federal court system in Puerto Rico, with 
jurisdiction consistent with that of all states so long as 
Puerto Ricans continue to be United States citizens.
    I thank you for your time.
    [The prepared statement of Ms. Ferraiuoli follows:]

                   Statement of Veronica Ferraiuoli, 
           Puerto Rico Chapter of the Federal Bar Association

    Good morning. My name is Veronica Ferraiuoli. I appear before you 
on behalf of the Puerto Rico Chapter of the Federal Bar Association 
(the ``FBA''). <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The position taken herein is that of the Puerto Rico Chapter of 
the Federal Bar Association only. The National Council of the 
Association has not taken any public position regarding these bills.
---------------------------------------------------------------------------
    The FBA is a voluntary, non-partisan organization whose main 
objective is to serve as the representative of the Federal legal 
profession in Puerto Rico. Currently, our Chapter boasts about 800 
members and it includes practitioners, judges and students from all 
political ideologies.
    As a representative of the FBA, I am not here to advocate any 
particular status choice. However, I am here to urge you to protect the 
integrity and the jurisdiction of the United States District Court for 
the District of Puerto Rico as an integral part of the proceedings 
before this Subcommittee.
    Since all of Puerto Rico's status proposals involve changes in 
federal law and policy, Puerto Ricans need to know federal positions on 
the proposed options so they can make an informed, meaningful, and fair 
choice.
    The options under H.R. 900 are clear with respect to the 
jurisdiction of the federal court in Puerto Rico. If the status quo 
option is chosen by the people of Puerto Rico, the federal court in 
Puerto Rico will remain unchanged by this choice. If the people of 
Puerto Rico choose statehood as their option, Article III of the United 
States Constitution and federal law will determine the federal court's 
jurisdiction. If independence is the choice of the people of Puerto 
Rico, international law will prevail and will divest the federal 
judiciary of jurisdiction in Puerto Rico.
    In contrast, the Constitutional Convention to be held under H.R. 
1230 provides no safeguard or guarantee of the federal court's 
continued jurisdiction in Puerto Rico. Without such a guarantee--that 
the federal court's current jurisdiction will be respected as long as 
Puerto Ricans continue to be citizens of the United States, the FBA 
cannot support this bill.
The History of Federal Jurisdiction in Puerto Rico
    The U.S. District Court for the District of Puerto Rico has its 
genesis in the U.S. Provisional Court for the Department of Puerto 
Rico. It was established by Governor Davis on June 27, 1899 with 
judicial power extending to all cases that would otherwise fall within 
the jurisdiction of the United States circuit or district courts, over 
violations to the United States Constitution and all common law 
offenses. <SUP>2</SUP> The Provisional Court followed the same law and 
equity principles as the United States courts and, for its procedures, 
rules, and case management, it was to follow as closely as possible 
those of the federal courts. Three judges were appointed to the 
Provisional Court, who were vested the with the same powers as the 
judges of the other federal circuit or district courts. Spanish 
citizens still residing in the Island welcomed the Provisional Court; 
they saw the federal court as the only forum which would guarantee 
their property rights under the Treaty of Paris. The Provisional Court 
was, thus, the safe heaven of foreigners seeking protection from the 
perceived injustices of the local governing body.
---------------------------------------------------------------------------
    \2\ General Order No. 88, San Juan, P.R. June 27, 1899, Brigadier 
General George W. Davis.
---------------------------------------------------------------------------
    Puerto Rico was under military rule from October 18, 1898 through 
April 30, 1900. On May 1, 1900, the Foraker Act came into effect. 
<SUP>3</SUP> This first Organic Act established that the Island was a 
territory belonging to the United States and contained no provisions 
for the Island's political development towards statehood or 
independence. Puerto Ricans were denied U.S. citizenship at that time; 
a political body was created under the name of the ``People of Porto 
Rico'' entitled to the protection of the United States, with no 
provisions for the implementation of the United States Constitution or 
the Bill of Rights.
---------------------------------------------------------------------------
    \3\ Foraker Act, Ch. 191, 31 Stat. 77, 48 U.S.C. Sec. 731; Organic 
Act of 1099, April 12, 1900, Historical Documents, P.R. Statutes 
Annotated, Vol. I, 24-29 (1999).
---------------------------------------------------------------------------
    With respect to the federal judiciary, Congress provided for the 
judicial District of Porto Rico, created pursuant to the Territorial 
Clause of the United States Constitution, to be the successor of the 
Provisional Court. Although, this court initially enjoyed the same 
ordinary jurisdiction on all matters that would come before the 
district courts or the circuit courts of the United States, Congress 
extended its jurisdiction to civil matters ``where the parties or 
either of them, are citizens of the United States, or citizens or 
subjects of a foreign State or States, wherein the matter in dispute 
exceeds'' $1,000. <SUP>4</SUP> Under this expanded diversity 
jurisdiction, United States citizens residing in Puerto Rico were 
granted the option of suing in the insular courts or in federal courts, 
a right not extended to Puerto Ricans. <SUP>5</SUP> The establishment 
of a federal forum where foreign and U.S. citizens could take their 
civil and constitutional claims proved to be a necessary tool to 
attract foreign capital since American investors felt wary of a 
language they did not understand and a legal system with unfamiliar 
procedures. <SUP>6</SUP>
---------------------------------------------------------------------------
    \4\ An Act of Congress of March 2, 1901, P.R. Statutes Annotated, 
Historical Documents, Vol. I, 52-54.
    \5\ Jose Trias Monge, Historial Constitucional de Puerto Rico, Vol. 
I, (Ed. U.P.R. 1980), at 295.
    \6\ Guillermo A. Baralt, History of the Federal Court in Puerto 
Rico: 1899-1999 (Publicaciones Puertorriquenas 2004), at167-168.
---------------------------------------------------------------------------
    It was not long after the Foraker Act came into effect when the 
deficiencies of the governmental structure established thereunder came 
to light and local voices started crying out for reform. The structure 
of the Puerto Rico district court was one of the matters that often 
came up during the debates to amend the Foraker Act. For example, the 
Olmstead Bill to amend the Foraker Act, introduced in March 1910, 
included a clause to limit the federal court's diversity jurisdiction 
to causes involving American citizens who were not domiciliaries of 
Puerto Rico. <SUP>7</SUP> The bill for a new organic act introduced in 
1912 by Senator Jones also originally included a provision to limit 
diversity jurisdiction in the same manner provided for in the Olmstead 
Bill. <SUP>8</SUP>
---------------------------------------------------------------------------
    \7\ The Olmstead Bill had various versions. The principal ones were 
H.R. 22554 and H.R. 23000, 61st Cong., 2nd Session.
    \8\ H.R. 13818, 63rd Cong., 2nd Session.
---------------------------------------------------------------------------
    During this period, the federal court came under strong opposition 
from local institutions. On March 9, 1915, the P.R. House of Delegates 
approved a resolution calling for the President and Congress to grant 
Puerto Rico a republican form of government; and further called for the 
``exclusive jurisdiction of the Puerto Rico Supreme Court...in all 
matters pertaining to the District and Circuit Courts of the United 
States.'' <SUP>9</SUP> In 1916, the Puerto Rico Bar Association 
publicly supported the abolition or limitation of the federal court's 
jurisdiction in Puerto Rico stressing the efficiency and integrity of 
the insular court judges and the problems caused by the use of the 
English language in the federal court on the Island, objected to the 
court's broad jurisdiction, and recommended that the Puerto Rico 
Supreme Court hear all cases involving federal questions. <SUP>10</SUP> 
On April 18, 1916, the House of Delegates again called for the 
suppression of the federal court in Puerto Rico and the transfer of its 
jurisdiction to the Puerto Rico Supreme Court based on the later's 
``prestige''. <SUP>11</SUP>
---------------------------------------------------------------------------
    \9\ Trias Monge, Historia Constitucional de Puerto Rico, Vol. II 
(Ed. U.P.R. 1981), at 61.
    \10\ Baralt, op. cit., at 161.
    \11\ Trias Monge, Historia Constitucional de Puerto Rico, Vol. II 
(Ed. U.P.R. 1981), at 61-62.
---------------------------------------------------------------------------
    The Organic Act of 1917 came into effect on March 2, 1917. 
<SUP>12</SUP> The final, approved version of the Organic Act of 1917 
ratified the presence of the federal court in Puerto Rico, even over 
the strenuous objections of the House of Delegates and of the Puerto 
Rico Bar Association and their requests for the elimination of the 
federal court. The federal court was granted jurisdiction over ``all 
controversies [exceeding $3,000] where all of the parties on either 
side of the controversy are citizens or subjects of a foreign State or 
States, or citizens of a State, Territory, or District of the United 
States not domiciled in Puerto Rico'' and ``of all controversies in 
which there is a separable controversy involving such jurisdictional 
amount and in which all of the parties on either side of such separable 
controversy are citizens or subjects of the character aforesaid.'' 
<SUP>13</SUP> This notwithstanding, the United States Supreme Court did 
limit the federal court's jurisdiction soon thereafter. In late June 
1920, the Supreme Court interpreted the Organic Act of 1917 to exclude 
from federal jurisdiction those cases involving aliens domiciled in 
Puerto Rico. <SUP>14</SUP> A year later, that court also found federal 
jurisdiction to have been denied to American citizens domiciled in 
Puerto Rico. <SUP>15</SUP>
---------------------------------------------------------------------------
    \12\ Organic Act of 1917, March 2, 1917, Ch. 145, 39 Stat. 951.
    \13\ Organic Act of 1917, Sec. 41.
    \14\ Agueros v. Sanjurjo, 11 P.R. Fed. 574 (1920).
    \15\ Alvarez v. Madera, 12 P.R. Fed. 278 (1921).
---------------------------------------------------------------------------
    The federal court's jurisdiction remained basically unchanged 
through the status proceedings related to Public Law 600 and the 
establishment in 1952 of the Commonwealth of Puerto Rico, except for 
one thing: Public Law 600 granted the federal court in Puerto Rico 
jurisdiction over diversity cases where neither of the parties were 
residents of Puerto Rico, even if they resided in the same state. 
<SUP>16</SUP> But the ink was not yet dry on Public Law 600 when the 
jurisdiction of the federal court was challenged. Less than ten years 
after its enactment, changes to the court's jurisdiction were 
prominently included in the amendments to Public Law 600 contained in 
the Fernos-Murray Bill; the applicable provisions provided for the 
federal court for the District of Puerto Rico to share the same 
jurisdiction as those of the other States. Federal jurisdiction was 
also challenged in court, where it was alleged that, as a result of the 
creation of the Commonwealth, Congress had voluntarily and irrevocably 
granted Puerto Rico full and absolute responsibility over all internal 
affairs and, thus, abandoned federal jurisdiction over matters 
involving strictly Commonwealth law. None of these attempts prospered.
---------------------------------------------------------------------------
    \16\ This special grant of jurisdiction, which was unique to Puerto 
Rico's district court, was repealed by Public Law 91-272 of June 2, 
1970, 84 Stat. 294, Sec. 13.
---------------------------------------------------------------------------
    Not long after, though, the federal court in Puerto Rico underwent 
an important transformation. On September 12, 1966, Public Law 89-571 
was signed, making judiciary appointments in the United States District 
Court for the District of Puerto Rico lifetime appointments under 
Article III of the United States Constitution. The Senate Report stated 
that
        Federal litigants in Puerto Rico should not be denied the 
        benefit of judges made independent by life tenure from the 
        pressures of those who might influence his chances of 
        reappointment, which benefits the Constitution guarantees to 
        the litigants in all other Federal courts. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ 1966 U.S. Cong. and Adm. News 2787.
---------------------------------------------------------------------------
    Another reason for lifetime appointment was the following:
        the court is now the only judicial agency on Puerto Rico which 
        is independent of the Commonwealth government and it will aid 
        the district judges to perform their functions impartially, 
        particularly in those cases involving the Federal Government on 
        one side and the Commonwealth government on the other if they 
        have the full independence inherent in a lifetime tenure. 
        <SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Id., at 2788.
---------------------------------------------------------------------------
    At that time, the prototypical petitioners before the federal court 
also began to change. After the enactment of the 1964 Civil Rights Act, 
the number of cases seeking redress from Commonwealth action filed 
before the federal court increased substantially. In addition, the 
court has experienced an increase in the filing of constitutional 
challenges to both federal and Commonwealth law.
    What began as a court for the foreigners and the wealthy, has 
become the court of choice for persons seeking redress or protection 
from Commonwealth action. However, even in the face of the growing 
popularity and prestige of the Puerto Rico federal court in the minds 
of the general population, limitations to its jurisdiction continue to 
be advanced. For example, in the 1998 plebiscite on status, the Popular 
Democratic Party proposed a new Commonwealth providing that, while 
Puerto Ricans will continue to be citizens of the United States by 
birth, the federal court's jurisdiction will be limited to matters 
arising from the United States Constitution and whichever federal laws 
apply in Puerto Rico and not in violation with the laws of the 
Commonwealth of Puerto Rico. <SUP>19</SUP> It would appear that--under 
this proposal--the federal court in Puerto Rico would be divested of 
diversity jurisdiction. In addition, it appears that--under this 
proposal--the federal court would lack jurisdiction over statutory 
challenges to Commonwealth law, such as actions under the 1964 Civil 
Rights Act. Further, under this proposal, any laws that the 
Commonwealth might enact in the future would strip the federal court of 
its jurisdiction under the Constitution and federal laws of the United 
States.
---------------------------------------------------------------------------
    \19\ Governor Acevedo Vila, the proponent of H.R. 1230, has 
recently stated that the new ``Commonwealth status'' he proposes is 
that adopted by his party's governing board on October 18, 1998, and 
included in his party's platforms of 2000 and 2004. The President's 
Task Force and the Department of Justice called this proposal's 
constitutionality into question because, among other reasons, it would 
empower Puerto Rico to limit the jurisdiction of federal courts and 
nullify the application of federal laws in many areas.
---------------------------------------------------------------------------
    Despite a history of constant attempts to limit the jurisdiction of 
the federal court in Puerto Rico, it currently holds a privileged place 
among the federal district courts in the United States' territories or 
commonwealth in affiliated unions with the United States. The territory 
of American Samoa has no federal district court. On the other hand, 
while the territories of the Commonwealth of the Northern Mariana 
Islands, Guam and the U.S. Virgin Islands do have federal district 
courts, they are territorial courts in every sense of the word. 
Although they enjoy the same jurisdiction as all other United States 
district courts, they are also courts of general jurisdiction for all 
causes which jurisdiction is not otherwise vested in the local courts 
and their judges are appointed to ten-year terms. <SUP>20</SUP> In 
contrast, the District Court for the District of Puerto Rico is an 
Article III court, with all the benefits and limitations appurtenant 
thereto.
---------------------------------------------------------------------------
    \20\ 48 U.S.C. Sec. 1821 et seq. (District for the Northern Mariana 
Islands); 48 U.S.C. Sec. 1612 et seq. (District for the Virgin 
Islands); 48 U.S.C. Sec. 1424 (District of Guam).
---------------------------------------------------------------------------
    The very differences which have been used in support of the 
integration of federal jurisdiction to the local court system, have 
placed the federal forum in a privileged place within the life of the 
citizens of Puerto Rico. The federal right to a jury trial in civil 
cases--unavailable in local court--has made the federal court the forum 
of choice for plaintiffs in diversity cases, in light of the inadequate 
damage determinations made by local courts. This notwithstanding, the 
federal court continues to be the preferred forum for American and 
foreign corporations, whose language and practice are usually more 
familiar than that in local courts. Moreover, the fact that 
Commonwealth judges are appointed for terms--as opposed to lifetime 
tenure--has led to a perception of politization of the local judiciary 
since they depend on the favor of the Executive to be reappointed and 
of the Legislative Assembly to be confirmed.
Conclusion
    Puerto Rico remains subject to federal powers under the Territory 
Clause of the United States according to the Supreme Court, Justice and 
State Departments, Congressional Research Service, Government 
Accountability Office, and successive presidents. The government 
initially established pursuant the Foraker Act, and continued by the 
Puerto Rican Federal Relations Act, left many questions unanswered 
regarding the relationship between Puerto Rico and the United States. 
Professor Guillermo A. Baralt summarizes some of these questions as 
follows:
        Does the Constitution of the United States follow the flag? 
        What is the nature and scope of Congress in governing Puerto 
        Rico? Do constitutional amendments apply to the territory of 
        Puerto Rico? What is the constitutionality of this new 
        territorial status, or of the limitations on the rights of the 
        citizens of Puerto Rico? <SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ Baralt, op. cit., at 125-126.
---------------------------------------------------------------------------
    More than 100 years later and substantial changes to the law, we 
are still grappling with these questions.
    However, we do know what role that the federal court plays in this 
relationship. The federal system interacts and coexists with local law. 
It has become the preferred forum for the people of Puerto Rico to 
obtain relief for their grievances. It has become an integral part of 
the system of justice of Puerto Rico--despite all attempts at limiting 
or abolishing it. More than in any State, it has come to represent the 
liberties guaranteed by the United States Constitution and the federal 
laws.
    For this reason, the FBA cannot support H.R. 1230. We cannot 
support a bill which, unlike H.R. 900, fails to guarantees the 
continued existence of a federal court system in Puerto Rico with 
jurisdiction consistent with that of all States so long as Puerto 
Ricans continue to be United States citizens.
    I thank you for your time.
                                 ______
                                 
    Ms. Christensen. Thank you. I now recognize Ms. Celina 
Romany for five minutes.

         STATEMENT OF CELINA ROMANY-SIACA, PRESIDENT, 
                  PUERTO RICO BAR ASSOCIATION

    Ms. Romany-Siaca. Good afternoon, Madame Chairwoman and 
Members of the committee. My name is Celina Romany, and I 
appear before you as President of the Puerto Rico Bar 
Association, an organization founded in 1840. It is one of the 
oldest professional associations in the Americas, approximately 
groups 14,000 lawyers of diverse political and ideological 
preferences. And notwithstanding this reality, the Colegio de 
Abogados, as we call it, has historically been an advocate of 
the decolonization of Puerto Rico, and has advocated for a 
solution that emerges from Puerto Rico, from its people, the 
ultimate depository of political sovereignty.
    It has consistently supported the need to seriously address 
this issue with the political will required for correcting the 
democratic deficit inherent in the denial of a people's 
fundamental human right to sovereignty and self-determination.
    Our Bar Association has provided a constitutional and 
democratic theoretical and practical perspective, as well as an 
international law dimension, to a passionate debate that often 
ends up stationed in parties and political allies.
    The long trail that precedes today's Congressional effort 
speaks for itself, and reflects the U.S. officials' inability 
to grasp the essential components of a colonial relationship. 
But more importantly, it also reflects the dangerous paths of 
the control exercised by partisan politics. The Puerto Rican 
people have not been able to enter the stage on the political 
status question, and H.R. 1230, the Puerto Rico Self-
Determination Act, constitutes a first entrance. It lays out a 
significant foundation toward the eradication of a colonial 
relationship, out of sync with democratic values, and which 
give voice to all Puerto Ricans, from here and there, in the 
design and elaboration of their political destiny.
    H.R. 1230 additionally provides a first opportunity to 
build a mechanism for the democratic deliberations of all 
political sectors. It also represents the first Congressional 
acknowledgment of a people's natural right to self-
determination, the contours of which have been amply refined by 
an international society much different to the one existing at 
the U.N. of the fifties, the time when Puerto Rico was removed 
from the list of non-self-governing territories.
    This is the first time in more than 100 years, and this 
Congress, increasingly representative of a diverse Latino 
population, increasingly learning to walk the tightrope of 
national and cultural identities, of plurality and difference, 
increasingly aware of Latin-American neighbors watching the 
inconsistencies in our backyard, must rise to the occasion.
    A first scenario, that by granting our people the status 
convention assembly option provided in H.R. 1230, offers a 
remedy for a whole century witnessing the egregious violations 
of basic political human rights.
    H.R. 1230 acknowledges the fairness and legitimacy of said 
convention assembly as a vehicle of expression which allows the 
articulation of non-colonial alternatives not bound by the 
straitjacket of the territorial clause and its plenary powers.
    In light of this morning's discussion, I might add that the 
issue before you and before your consideration is how to 
channel that expression, and avoid destructing historical 
discussions about the specific contours of substantive status 
options that stirs passions and misinformation. We should be 
here today talking about implementing a consensus, as 
Commissioner Fortuno pointed out, toward the decolonialization, 
and must underscore as well that the constitutional analysis 
that has been discussed here today has missed a central point 
of our constitutional law: specifically, the recognition of a 
dynamic constitution that distances itself from a strict 
constructionist approach in dissonance with basic international 
human rights principles, and which imprisons in an invalid box 
a territorial clause that, as Professor Pildes suggested, has 
correctly characterized as one demanding the pragmatism, the 
flexibility long recognized in foreign policy relations.
    I think that the deliberative mechanism proposed by H.R. 
1230 proposes the unleashing of a political and negotiation 
process that guarantees a non-colonial outcome. That is why the 
Puerto Rico Bar Association has its Board of Governors approve 
such bill, and has also supported a similar bill in the Puerto 
Rico Legislature. Puerto Rico is our nation, a Latin-American 
and Caribbean nation, which has been denied its right to self-
determination, notwithstanding several U.N. decolonialization 
resolutions translating recognized international principles. 
Regardless of the systematic and prolonged violations of basic 
and universal human rights, the Executive Branch of this 
government insists that Puerto Rico is a U.S. commodity, which 
can indeed be freely trafficked and ceded in any international 
exchange.
    The President's Task Force report, presented to Congress in 
December 2005, constitutes an unfortunate reminder of the 
stagnation of the colonial relationship. That task force 
discourse is not far removed from Senator Joseph Foraker's 
words of 105 years ago, when he stated that we have a right to 
legislate with respect to them as we may see fit. Nor is it far 
removed from the Supreme Court of 106 years ago that justified 
the territorial clause on the basis of alien races.
    Madame Chairwoman, to privilege a constitutional clause 
that clashes against the wall of basic universal principles and 
of the political lessons brought about by the convulsions of 
the 20th Century, amounts to nothing else but to the 
privileging of imperial periods, an empire camouflaged in self-
serving interpretations of the rule of law.
    And to conclude, there is no more time to waste. No more 
detours or delays are acceptable. For the first time this 
Congress has the opportunity to legitimize the entrance of the 
Puerto Rican people to the deliberative stage and the outcome 
of its self-determination deliberation as an equal sovereign.
    Thank you.
    [The prepared statement of Ms. Romany-Siaca follows:]

             Statement of Celina Romany-Siaca, President, 
           Puerto Rico Bar Association (Colegio de Abogados)

    My name is Celina Romany and I appear before you as President of 
the Puerto Rico Bar Association. Our organization, founded in 1840, and 
one of the oldest professional associations in the Americas, 
approximately groups on a compulsory basis, 14,000 lawyers of diverse 
political and ideological preferences. Notwithstanding this reality, 
the Colegio de Abogados has historically been an advocate of the 
decolonization of Puerto Rico, both under the Spanish and United States 
regimes. It has advocated for a solution that emerges from Puerto Rico, 
from its people, the ultimate repository of political sovereignty. It 
has consistently supported the need to seriously address this issue 
with the political will required for correcting the democratic deficit 
inherent in the denial of a people's fundamental human right to 
sovereignty and self-determination.
    Our Bar Association has played a key advocacy and educational role 
in the public debate. Through its Constitutional Development Commission 
has provided a constitutional and democratic theoretical and practical 
perspective as well as an international law dimension to a passionate 
debate that often ends up stationed in partisan political alleys.
    The long trail that precedes today's congressional effort speaks 
for itself and reflects the United States officials' inability to grasp 
the essential components of a colonial relationship. But more 
importantly, it also reflects the dangerous paths of the control 
exercised by partisan politics. The Puerto Rican people have not been 
able to enter the stage on the political status question and H.R. 1230, 
the Puerto Rico Self Determination Act, constitutes a first entrance. 
It lays out a significant foundation towards the eradication of a 
colonial relationship, out of sync with democratic values which give 
voice to all Puerto Ricans--from here and there--in the design and 
elaboration of their political destiny.
    H.R. 1230 additionally provides a first opportunity to build a 
mechanism for the democratic deliberations of all political sectors. It 
also represents the first congressional acknowledgement of a people's 
natural right to self-determination, the contours of which have been 
amply refined by an international society much different to the one 
existing at the United Nations of the 50's, the time when Puerto Rico 
was removed from the list of non-self-governing territories.
    This is a first in more than a hundred years, and this Congress, 
increasingly representative of a diverse Latino population; 
increasingly learning to walk the tightrope of national and cultural 
identities--of plurality and difference; increasingly aware of Latin 
American neighbors watching the inconsistencies in our backyard, must 
rise to the occasion. A first scenario that, by granting our people the 
Status Convention/Assembly option provided in H.R. 1230, offers a 
remedy for a whole century witnessing the egregious violations of basic 
political human rights.
    H.R. 1230 acknowledges the fairness and legitimacy of said 
Convention/Assembly as a vehicle of expression which allows the 
articulation of non-colonial alternatives--not bound by the straight-
jacket of the territorial clause and its plenary powers. Section 2 of 
the bill correctly emphasizes that any ``self-determination option'' 
agreed by the Puerto Rican Convention ``must be based on the 
sovereignty of the People of Puerto Rico and not be subject to the 
plenary powers of the territorial clause of the Constitution of the 
United States.'' Another essential provision of the bill is included in 
its Section 4(a)(2), which establishes that, if Congress rejects a 
self-determination proposal submitted to it by the People of Puerto 
Rico, the Convention may reconvene ``to adopt another Self-
Determination Option;'' while Section 5 adds that the Convention ``may 
remain in session until a Self-Determination Proposal is enacted by 
Federal law.'' Hence, H.R. 1230 proposes the unleashing of a political, 
deliberative and negotiation process that must guarantee a non-colonial 
outcome. Thus, the Puerto Rico Bar Association in a Resolution approved 
by its Board of Governors, commends and supports bill H.R. 1230. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ H.R. 900 is silent as to what Congress should do in case either 
the ``statehood'' or the ``sovereign nation'' option wins; is silent as 
to the implementation of the winning alternative; and thus it does not 
map out the direction that the relations between the two nations would 
follow. In contrast, H.R. 1230 requires Congress to respond to the 
options previously approved by the People of Puerto Rico and for the 
expiration of the Convention only when one non colonial status is 
finally approved by both the People of Puerto Rico and Congress.
---------------------------------------------------------------------------
    Puerto Rico is our nation, a Latin-American and Caribbean nation 
which has been denied its right to self-determination notwithstanding 
several UN Decolonization Committee resolutions, translating recognized 
international law principles. Regardless of the systematic and 
prolonged violations of basic and universal human rights, the Executive 
Branch of the current government insists that Puerto Rico is a U.S. 
commodity which can indeed be freely trafficked and ceded in any 
international exchange. The President's Task Force Report, presented to 
Congress in December 2005, constitutes an unfortunate reminder of the 
stagnation of a colonial relationship. The Task Force essential 
discourse is not far removed from Senator Joseph Foraker's words of a 
hundred and five (105) years ago when he stated that ``we have a right 
to legislate with respect to them as we may see fit.'' <SUP>2</SUP> Nor 
is it far removed from the Supreme Court of a hundred six( 106) years 
ago that justified the territorial clause on the basis of alien races. 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ Congressional Record, Senate, March 2, 1900, pag. 2475; cited 
in Ronald Fernandez, The Disenchanted Island: Puerto Rico and the 
United States in the Twentieth Century 9 (1992).
    \3\ Downes v Bidwell 182 U.S. 244 (1901), at 286-87
---------------------------------------------------------------------------
    Madame Chair, to privilege a constitutional clause that crashes 
against the wall of basic universal principles and of the political 
lessons brought about by the convulsions of the 20th century, amounts 
to nothing else but to the privileging of imperial periods, an empire 
camouflaged in self-serving interpretations of the rule of law.
    There is no more time to waste; no more detours or delays are 
acceptable. H.R. 1230, for the first time, legitimizes the entrance of 
the Puerto Rican people to the deliberative stage and thus the outcome 
of its self-determination deliberation, as an equal sovereign.
    Thank you.
                                 ______
                                 
    Ms. Christensen. Thank you very much. Our last panelist, 
last but not least, is Ms. Aida Diaz. You will be recognized 
for five minutes.

              STATEMENT OF AIDA DIAZ, PRESIDENT, 
                PUERTO RICO TEACHERS ASSOCIATION

    Ms. Diaz. Good afternoon, Honorable Donna M. Christensen, 
Chair of the Subcommittee, and honorable Members of this 
committee.
    My name is Aida Diaz, President of the Puerto Rico Teachers 
Association, a non-partisan, voluntary membership organization 
of 26,000 teachers, which advocates for the welfare of the 
Puerto Rican teacher since its foundation in 1911. As an 
organization we have members who belong to the three main 
political parties, and we do not advocate or endorse any 
particular statutes.
    The teachers appreciate the opportunity to share our 
thoughts on the two bills introduced in the Congress to provide 
a process to move Puerto Rico to a new political status, H.R. 
900 and H.R. 1230. As educators, we have to take a critical 
look as to which process promotes a better educational 
opportunity for the people of Puerto Rico to learn about the 
political options available to our future.
    Objectively, after viewing both bills we firmly believe 
that H.R. 1230 provides for a better educational experience and 
a simpler process. We are prepared to endorse H.R. 1230 only if 
the matters below described are included in the bill. H.R. 1230 
promotes a constitutional convention in which elected delegates 
would debate the full extent of the political options 
available, would choose one, and have its acceptance put to a 
vote of the people of Puerto Rico.
    The format of a constitutional convention constitutes a 
process which is less complicated, and thus better suited to 
reach a definite result within a shorter period of time. It 
also seems less prone to manipulations of politicians in their 
characterizations of the options as presented to the people; 
vis-a-vis, a simple plebiscite with the three status options.
    H.R. 1230 offers a balanced approach, confers our people 
ample opportunity to analyze and learn in a detailed manner 
about the self-determination options.
    It could further specify delegates need not to be the 
exclusive representatives of political parties. Gender 
representation should be addressed in order to guarantee a 
balanced representation, since women are a majority of the 
electorate in Puerto Rico. Congress needs to appropriate funds 
to share in the financing of this option. Congress needs to put 
a date certain by which the constitutional convention is 
constituted.
    H.R. 1230 calls for a process of a superior quality. The 
definition of the political status option shall be the product 
of the Puerto Rican delegates elected by the people of Puerto 
Rico. The chosen option should be later ratified by the Puerto 
Rican electorate.
    Under H.R. 900, the political options are defined by the 
Congress, not by the people of Puerto Rico. H.R. 900 offers a 
very complicated process with multiple electoral events. 
Furthermore, the second plebiscite proposal of H.R. 900 is 
flawed. It pretends to limit the status options available to 
only two.
    There is now consensus in Puerto Rico the present political 
relationship with the United States is unacceptable. Free 
association is a recognized international status option which 
needs to be included. The United States has ample experience in 
this field with three relationships of free association 
presently in existence: Federated States of Micronesia, 
Republic of Marshall Islands, and Palau.
    So if the committee prefers H.R. 900 as the vehicle for 
Puerto Rico to adopt a new political status, then it needs to 
amend it to eliminate the first plebiscite and legislate on the 
plebiscite with the three options as recognized by the 
resolution 1541 of the General Assembly of the United Nations, 
as approved in 1960.
    One, emergency as a sovereign independent state. Two, free 
association with independent state. Three, integration with an 
independent state. Also, Congress has to recognize the 
jurisdiction of the local courts over any plebiscite. Congress 
also needs to consider the development of an objective 
educational campaign.
    The State Election Commission with an advisory committee 
constituted of institutions such as ours would implement a 
campaign to address the political options and the peculiarities 
of each one objectively. This campaign could serve to clarify 
concepts debated by the delegates which may need further 
explanation. Again, this goes further our concern to have an 
educated electorate.
    We urge you to adopt, with amendments, H.R. 1230. Thank 
you.
    [The prepared statement of Ms. Diaz follows:]

                  Statement of Aida Diaz, President, 
                Puerto Rico Teacher's Association (PRTA)

    Honorable Donna M. Christensen, Chair of the Sub-Committee and 
honorable members of this committee.
    My name is Aida Diaz, President of the Puerto Rico Teachers 
Association (PRTA), a non-partisan voluntary membership organization of 
26,000 teachers which advocates for the welfare of the Puerto Rican 
teacher since its foundation in 1911.
    The teachers appreciate the opportunity to share our thoughts on 
the two bills introduced in Congress to provide a process to move 
Puerto Rico to a new political status, H.R. 900 and H.R. 1230. As 
educators we have to take a critical look as to which process promotes 
a better educational opportunity for the People of Puerto Rico to learn 
about the political options available to our future. Objectively, after 
reviewing H.R. 900 and H.R. 1230, we firmly believe H.R. 1230 provides 
for a better educational experience and a simpler process. Educating 
the electorate about the options are key to our future, since as 
Epictetus, the Greek philosopher said: ``Only the educated are free.'' 
And, since this process is to set the Puerto Rican people totally free, 
they must be well educated as to the political options available and, 
most importantly, as to how these options promote a better Puerto Rico.
    We are prepared to endorse H.R. 1230 if the matters below described 
are included in the bill. H.R. 1230 promotes a Constitutional 
Convention in which elected delegates would debate the full extent of 
the political options available; choose one and have its acceptance put 
to a vote of the People of Puerto Rico. The format of a Constitutional 
Convention constitutes a process which is less complicated and thus 
better suited to reach a definite result within a shorter period of 
time. It also seems less prone to the manipulations of politicians in 
their characterizations of the options as presented to the people vis a 
vis a simple plebiscite with the three (3) status options. H.R. 1230 
offers a balance approach, confers our people ample opportunity to 
analyze and learn in a detailed manner about the self determination 
options.
    H.R. 1230 could further specified: 1. Delegates need no to be the 
exclusive representatives of political parties; 2. Gender 
representation should be addressed in order to guarantee a balance 
representation, since women are a majority of the electorate; 3. 
Congress needs to appropriate funds to share in the financing of this 
option; and, 4. Congress needs to put a date certain by which the 
Constitutional Convention is constituted.
    H.R. 1230 calls for a process of a superior quality. The definition 
of the political status option shall be the product of the Puerto Rican 
delegates elected by the People of Puerto Rico. The chosen option would 
be later ratified by the Puerto Rican electorate. Under H.R. 900, the 
political options are defined by Congress not the People of Puerto 
Rico. It must be up to our people to decide the political formula or 
status under which they will be governed in the future ``not Congress.
    H.R. 900 offers a very complicated process with multiple electoral 
events. It pretends to limit the status options available to only two 
(2). There is now consensus in Puerto Rico ``the present political 
relationship with the U.S. is unacceptable. Free Association is a 
recognized international status option which needs to be included. The 
U.S. has ample experience in this field with three relationships of 
Free Association presently in existence: Federated States of 
Micronesia; Republic of Marshall Islands; and, Palau.
    So, if this Committee prefers H.R. 900 as the vehicle for Puerto 
Rico to adopt a new political status, then its needs to amend it to 
eliminate the first plebiscite and legislate one plebiscite with the 
three (3) options as recognized by Resolution 1541 (XV) of the General 
Assembly of the United Nations as approved in 1960: 1. Emergence as a 
sovereign independent state; 2. Free Association with and independent 
state; or 3. Integration with an independent state. Also Congress has 
to recognize the jurisdiction of the local courts over any plebiscite.
    The remarks on H.R. 900 are simply to respond to the request by the 
Committee to comment on said bill since the Teachers Association is not 
endorsing said bill.
    Congress also needs to consider the development of an objective 
educational campaign. The State Elections Commission with an advisory 
committee constituted of institutions such as ours would implement a 
campaign to address the political options and the peculiarities of each 
of the options objectively. This campaign could serve to clarify 
concepts debated by the delegates which may need further explanation. 
Again, this goes to further our concern to have an educated electorate.
    We urge you to adopt with amendments H.R. 1230. Thank you.
                                 ______
                                 
    Ms. Christensen. Thank you very much. Thank you, panelists, 
for your testimony.
    I am going to recognize myself for five minutes. My first 
question would be to the historian, Mr. Gonzalez.
    How do you respond to the concern of some that by 
prescribing the choices for the people of Puerto Rico, H.R. 900 
dictates a process that doesn't come from the people; and that 
such a process then would be the denial of the fundamental 
right of self-determination?
    Mr. Gonzalez Vales. In my estimation, Madame Chairman, one 
of the basic flaws of all the previous status referendums is 
that the definition of the various alternatives have been left 
up to the political parties on the island to prescribe. And 
therefore, you may engage in wishful thinking by providing 
formulas which will not be acceptable.
    The way that the H.R. 900 states it, these are acceptable 
solutions, constitutionally viable, so the people know exactly 
what they are voting for at the time of exercising their vote.
    Ms. Christensen. So your issue is that the definitions need 
to be clear and accurate, so that people, regardless of the 
process, but the definitions ought to be clear and accurate.
    Mr. Gonzalez Vales. That is clear, Madame.
    Ms. Christensen. You talk about the fear of a deadlock 
under the convention process. Would you be more inclined to 
support 1230 if there were specific parameters included, as you 
say? You make the reference to 1950.
    Mr. Gonzalez Vales. Right.
    Ms. Christensen. Would you be more inclined to support H.R. 
1230 if there were specific parameters?
    Mr. Gonzalez Vales. If the process of selecting the 
delegates is not based on the political affiliations of the 
delegates, then that could be avoided. But right now, under the 
political situation in Puerto Rico, the political forces of the 
two main parties, the PVP and the PNP, are basically pretty 
much the same. So they would tend to offset one another.
    And I would think that a constitutional convention which 
delegates are chosen on the basis of their political 
affiliation may end up in a deadlock, and not have a consensus 
that we did have in the 1950 Constitutional Convention, because 
there was really a consensus as to the fact that we needed to 
do something to organize the local government.
    And therefore, when you look at the results of the 
Constitutional Convention and the vote, it was nearly unanimity 
finally at the end. And that was one of the really fundamental 
differences that I see from a historical perspective between 
one offered choice or the other.
    Ms. Christensen. Thank you. Ms. Diaz, I will ask you this 
question, because as I understand it, for most referenda it is 
recommended that the language be at eighth-grade comprehension 
level so that it is clear, and that the majority of people or 
everyone can really understand it.
    As you look at H.R. 900, do you think that it is, the way 
the two choices are stated, do you think that it is written at 
a level that is clear and understandable to most people?
    Ms. Diaz. Most of the people have to know, we have to get 
into deep discussion of the both, uh----
    Ms. Christensen. Both bills?
    Ms. Diaz. Yes. Because the people know that there is the 
independence and statehood. But what are the advantages? What 
are the disadvantages of each form? What are we going to gain? 
What are we going to lose? How is the future of Puerto Rico 
going to be, through each formula? That is what they need to 
know before that.
    I am not clear. I am not sure that all Puerto Ricans are 
ready to vote to choose from both options, because they need to 
know more. The implications of that decision. And that is what 
I am advocating for that, for a process to educate our people 
what are they going to do, and where it is going to--how it is 
going to be their future after they vote.
    Ms. Christensen. But if Puerto Rico should continue the 
existing form of territorial status, as defined by the 
Constitution, basic laws and policies of the United States, is 
that----
    Ms. Diaz. No, that is not clear.
    Ms. Christensen. Thank you. I now recognize Mr. Fortuno for 
five minutes.
    Mr. Fortuno. Thank you. And I thank again the third panel 
this afternoon; thank you for coming up here.
    We have been very fortunate to have everyone who came 
before us, for all three panels. With all due respect to 
everyone, however, only one member of the three panels earned 
his way here. That is Mr. Pedroza.
    He and the people he represents earned their way here, 
because they have been in the line of battle to defend our 
nation. And I salute you, the veterans that you represent, and 
the men and women of uniform also of the world that are 
defending our nation and our values.
    And that brings me to my point. How is it that in the 21st 
Century, we have men and women in uniform that are defending 
democracy, you know, half around the world, and they could not 
elect their Commander in Chief?
    As far as I am concerned, that is unconscionable, and that 
has to end as soon as possible.
    Mr. Pedroza, do you have a position on that
    Mr. Pedroza. Well, as a combat veteran, as a Puerto Rican 
combat veteran, American citizen, I see it as an immoral part 
from the United States toward the Puerto Rican veterans.
    Why do I say this? Because when I was in Vietnam, there 
were many Puerto Ricans who were sick being in Vietnam. They 
had nobody to write to in Congress who would help them get out 
of Vietnam.
    When I have seen a lot of soldiers from the 50 states of 
the Nation who would write to their Congressmen, and they were 
pulled out of Vietnam because of the pull that they had with 
these Congressmen. So I seen that in my own eyes in Vietnam, 
when we could not get out of the field, and soldiers from the 
United States could. So I could see the discrimination right 
there in Vietnam.
    And I am seeing it today in Puerto Rico. At this moment 
there is thousands of Puerto Rican veterans who are trying to 
get in the system of the VA, and we don't have a system in 
Puerto Rico in place. We have a cemetery that has got one year 
left, national cemetery. And when we come to Congress, when we 
come to looking for our rights, we have no rights. We have no 
such rights in Puerto Rico, not like the 50 states in the 
nation.
    So I think that Congress has been dishonest with us. And I 
think that we Puerto Rican veterans resent this very much. 
Until we get the moment to vote for the President who sends us 
to battle, I think that this Congress has to look into that 
very, very seriously.
    Because here we have 20,000 Puerto Ricans at this moment in 
Afghanistan and Iraq fighting the war, and they can't vote for 
their Commander in Chief. And to me, that is immoral.
    Mr. Fortuno. Thank you. And again, I salute you and the 
many heroes from Puerto Rico that have defended or are 
defending this very moment our democracy.
    Ms. Ferraiuoli, you mentioned correctly, as I see it, that 
to this day, oftentimes the court of choice of a lot of people 
in Puerto Rico to seek redress and protection from commonwealth 
actions having to do with civil rights, discrimination, and 
many other cases, is the Federal Court.
    Have you looked at the proposal that has been made under, 
that is viable or feasible under H.R. 1230, that would actually 
eliminate Federal Court jurisdiction in Puerto Rico? And what 
is your opinion on that?
    Ms. Ferraiuoli. I am sorry, Congressman, are you asking me 
if I believe it is viable?
    Mr. Fortuno. If you believe it is viable or not.
    Ms. Ferraiuoli. OK. Well, in my opinion, as long as the 
Constitution of the United States is supposed to be the 
governing law, it would not be a viable alternative. You cannot 
have a state, without a capital S, subject to the Constitution 
of the United States, and have that state be above the 
Constitution and the laws of the United States.
    One of the first things that you learn when you go to law 
school is that the sovereign law of the land is the 
Constitution, and right below that are the statutes of the, the 
Federal statutes. Below that the Constitution of the states, 
and last, the statutes and regulations of the states.
    What the proposal--and I say veiled in the new 
commonwealth, because the fact is that H.R. 1230 talks about it 
in the commonwealth, but doesn't tell you guys what it is that 
you are allowing the people of Puerto Rico to choose.
    The proposal that has been made effectively puts the 
commonwealth above all Federal law, and would allow the 
commonwealth to determine which Federal law applies or doesn't 
apply in Puerto Rico. And would not give the Federal Court 
jurisdiction over any issue in which commonwealth law is 
inconsistent with Federal law, which would basically put our 
constitutional groundwork upside-down.
    So in my opinion, it would not be constitutional so long as 
Puerto Rico is supposed to be part of the United States.
    Mr. Fortuno. Thank you again. And actually, as you 
mentioned, it is veiled in H.R. 1230, but it is very clear in 
the Governor's platform. Thank you again. And I yield back, 
Madame Chair.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Serrano for five minutes.
    Mr. Serrano. Thank you so much. Ms. Romany and Ms. Diaz, 
unless I misread what you said, you confused me.
    You say that El Coredo do Gatos [ph] has always been for 
ending the colonial status, but you support H.R. 1230, which 
includes a colonial status as an option.
    Would you be in favor, say, of a first step to get rid of 
the colony before we move to a constitutional convention?
    Ms. Romany-Siaca. I think, Congressman, that one of the 
issues that we have to discuss here is to trust the ability of 
the people of Puerto Rico in the liberation process, that that 
is what constitutes that convention and the subsequent 
assembly, to come up with solutions that are non-colonial and 
non-territorial.
    I think we are putting the cart before the horse. I think 
that the discussion here is about what is the mechanism to 
actually facilitate that expression. What comes up and comes 
out of that discussion, I trust that the people of Puerto Rico 
and those delegates, which are going to have the ability to 
deliberate, negotiate, expand, study constitutional laws----
    Mr. Serrano. I don't doubt that for a minute, that they 
have the ability to do that. In fact, if I can jump to Ms. Diaz 
a second and I will be back to you, this education process you 
talk about is necessary, of course. But from what I know, 
Puerto Ricans discuss the status issue more than they discuss 
baseball. So I think we may be the most educated people in the 
world on what it is we want and don't want. But you are right, 
there are still certain adjustments that have to be made as to 
the information.
    But my question to you, Ms. Romany, is, you trust, and I 
do, too. But if we are truly for ending the colonial status, 
and that is my position--that is not Ms. Velazquez's position 
perhaps, it is not Mr. Gutierrez'--my position is cualquier 
cosa pero al colonia. So how can you offer the colonial status 
as a, how can you even allow the people to trust them to come 
back and ask for the colony? Then we are in the same place 
again.
    Ms. Romany-Siaca. I think I have a lot of trust in the 
ability of the constitutional convention to really come out 
with an outcome that is non-colonial. I think that, you know, 
the frustration of the status debate throughout the 20th 
Century is precisely because we haven't been able to exercise a 
real democratic process. And I think that that democratic 
process has to take place.
    Mr. Serrano. And I respect that. I just know how formidable 
the Popular Democratic Party is, and they may get a convention 
that says no lo digo que somo colonia, porque no somo colonia. 
But that is OK. I mean, I am not cutting you off; I respect 
that.
    Ms. Romany-Siaca. Remember also that this is a convention 
that is supposed to have a starring role for civil society. And 
I think we should not underplay that, too. Proprieties and 
politics also is something that has----
    Mr. Serrano. Well, but that is true, but you know, that is 
not the reality. The fact of life is that if you have a 
plebiscite or a constitutional convention, the people running 
the delegates or the people running the direct vote are the 
parties. That is what we have going on.
    I would love to tell you that, you know, pro se Joey, 
McClinto, de Ruen, Iarotto are not going to be involved. Of 
course they are going to be involved, and I insist that they be 
involved. After all, they have been fighting that fight for 
1,000 years.
    In fact, there was a way to bring back both Don Luis, they 
should be able to be involved, you know, politically. Of course 
that is going to happen.
    Now, just a correction, Ms. Diaz. You started off by saying 
that 1230 was the bill you prefer.
    Ms. Diaz. Yes.
    Mr. Serrano. Then you end up supporting my bill. And I will 
explain what I mean by that.
    You say that the fair bill has to have free association. I 
refer you to H.R. Section [c], which says if a majority in the 
first initial plebiscite favors permanent non-territorial 
status, then a plebiscite will be held only between the two 
following options: statehood, one, on equal footing with other 
states; two, sovereign nation, either fully independent or in 
free association with the U.S. I have included free association 
as an option for separating from the Union, if you want to call 
it that. We were never in the Union.
    And I have always said that free association has to be 
there, because I am no fool. That is where I think ilela should 
come. You know, la comina asion de lela el libre associacion, 
that is my belief. Most leaders don't believe that, but that is 
my belief.
    So it is there, it is written there. I can get you another 
copy.
    Ms. Diaz. OK, no. You say that there are going to be more 
than one plebiscites. And I say we don't need more than one 
plebiscite. With only one, we can decide. And that is why----
    Mr. Serrano. Oh, if that was up to----
    Ms. Diaz.--that with equal process----
    Mr. Serrano. If that was up to me, you are right. That was 
my original bill a few years ago, that people in this audience 
read and reread. But you know something? We are having a heck 
of a time getting the commonwealthers to go along with anything 
like this.
    If we cut them out totally, it would be the uproar that you 
could never get two votes around here.
    Ms. Diaz. No, I think the people, it varies the process. 
That is what I am advocating for, where people would be 
educated in the different formulas, the results will be 
different right now.
    Mr. Serrano. She supports H.R. 901, my next----
    [Laughter.]
    Ms. Romany-Siaca. No, no. I told you what I believe.
    Ms. Christensen. Thank you, Mr. Serrano. The Chair now 
recognizes Mr. Flake for five minutes.
    Mr. Flake. Mrs. Diaz, you mentioned that you thought that 
H.R. 1230 would be less prone to manipulations of politicians.
    Ms. Diaz. Yes.
    Mr. Flake. How so?
    Ms. Diaz. Because you are going to have delegates from 
different organizations, and you must be sure that we, as 
teachers, are going to endorse and promote that teachers will 
be in that assembly; and not politicians, but teachers.
    I am not telling you, I am not saying that the politicians 
shouldn't be members of the assembly, but there should be a 
balance between politicians and the rest of the people of the 
country of Puerto Rico. Do you understand me?
    Mr. Flake. I guess I understand what you are trying to say. 
But it seems to me that when you have a situation where some 
have said that they feel that H.R. 1230 may not be 
constitutional, it certainly might be unenforceable; I just 
fail to see how it is less prone.
    I mean, politics is going to be involved no matter what.
    Ms. Diaz. Maybe. But they won't be deciding.
    Mr. Flake. Even to make the case that it would be less 
prone would seem to be, I don't know, I don't see what you have 
behind that, that claim.
    Ms. Diaz. OK. Right now we have had several plebiscites. 
Those who educate the people, those who deliver the campaigns 
are politicians, and they confuse. Everyone is saying or 
telling what they believe.
    What we are saying is, let us have an assembly where we 
have politicians, but the majority are not politicians. And 
people who the people trust, leaders of our country who have 
contributed to our country, but who believe in the capacity of 
our people to decide after they are educated.
    Mr. Flake. Right. But just so I understand, you believe 
that that is less prone to political manipulation than a 
plebiscite?
    Ms. Diaz. Yes, yes.
    Mr. Flake. You mentioned in your testimony that you want 
gender equality.
    Ms. Diaz. Yes.
    Mr. Flake. And that females represent more. How do you set 
about achieving that? Is it just through education? Or is it 
through set-asides? Or what?
    Ms. Diaz. How to achieve that? It might be through 
education, education of the public, but we have to establish a 
formula. I don't know how we are going to achieve that, but the 
reality is that more than 50 percent of our voters are women.
    Mr. Flake. Right. And so you----
    Ms. Diaz. It is 54 percent.
    Mr. Flake. But you would have some kind of formula then 
that would guarantee a certain number of slots for----
    Ms. Diaz. A formula.
    Mr. Flake. All right, thank you.
    Ms. Christensen. Is he gone already? Yes, OK. So we are on 
our last round. I am going to recognize myself for five 
minutes.
    I just wanted to, on the issue of gender equality, as we 
prepare for the National Presidential Conventions, it is 
designed to achieve gender equality. And so there are formulas, 
there are examples that can be used.
    I basically have two questions. The first one is for Ms. 
Ferraiuoli, because your concern about H.R. 1230 is that there 
is no guarantee that the Federal Court would continue to exist. 
But H.R. 1230 does not specify any outcome. It doesn't say that 
the outcome must not have a Federal Court.
    So my understanding is that, as the people decide what that 
particular status proposal might be, it is very possible that 
the Federal Court system could be in there. And then while in 
H.R. 900, if free association or independence were chosen, 
definitely the Federal Court system would cease to exist.
    So can you explain your position?
    Ms. Ferraiuoli. Yes, Madame Chairman. Our concern is having 
the population of Puerto Rico continue to be U.S. citizens 
protected by the Constitution of the United States, and 
presumably by the Federal laws, and not have an adequate forum 
to seek out those protections.
    While you are correct that if independence or free 
association is chosen, there will not be a Federal Court, we do 
know that if statehood is chosen, there will be a Federal 
Court.
    The gray area that we are talking about here is the new 
commonwealth. H.R. 1230 completely throws away the commonwealth 
that we have right now, and it will only permit a new 
commonwealth. The only proposal we have seen for a new 
commonwealth right now is the PDP's 1998 proposal for the new 
commonwealth, which specifically would limit the Federal 
Court's jurisdiction.
    It is even more radical than the 1976 proposal that was 
presented to this Congress, and was rejected. That 1976 
proposal would continue the Federal Court's jurisdiction as it 
is right now.
    So our concern is that Congress will allow an option in 
which the United States citizens, residents in Puerto Rico, 
would be left without a forum to seek out their constitutional 
claims.
    Ms. Christensen. So the Federal Court will have 
jurisdiction over matters that arise from provisions of the 
Constitution of the United States? And all of the Federal laws 
that apply to Puerto Rico, consistent with the covenant that 
has not been negotiated yet, and not in violation with the laws 
of the Constitution of Puerto Rico, that is not satisfactory to 
you?
    Ms. Ferraiuoli. No, Madame Chairman. The problem is there 
is another section in that proposal which allows Puerto Rico to 
veto the application of Federal law within the commonwealth.
    Ms. Christensen. I know.
    Ms. Ferraiuoli. And basically what Puerto Rico, what the 
commonwealth can say is, well, that Federal law doesn't apply.
    The jurisdiction granted by that one section, if you see, 
it only says the U.S. Constitution. It doesn't talk about 
Federal law.
    Ms. Christensen. It does, it does. But I need to get to 
my--it says the Constitution and Federal laws applicable to 
Puerto Rico. I understand that there may be some veto power 
inherent in the proposal.
    Attorney Romany, can I ask you, you were here for the 
previous panels. What is your reaction to the statement of 
Attorney Goldstein that a Federal Court would allow Congress to 
possibly remove even the Governor of Puerto Rico or some other 
elected official?
    Ms. Romany-Siaca. I definitely disagree with that 
statement. I think that again, Professor Pildes' analysis opens 
a door, an interesting door, for an expansive interpretation of 
the Constitution and the plenary powers of the territorial 
clause.
    I think that the Supreme Court at the beginning of the 20th 
Century is not the Supreme Court of today. And I think we have 
to deal with a dynamic interpretation of the Constitution. For 
example, for many years, separate but equal was valid under the 
constitutional analysis. And there has been a lot of examples 
in which the Court has really risen to the occasion and 
interpreted the Constitution in a much more expansive way.
    It seems to me that the territorial clause allows for that 
opportunity in light of the recognition that Congress, in 
matters of foreign policy, should have flexibility and 
pragmatism. So I don't think it is going to be, we are going to 
have that end result. That sounds more like the interpretation 
of the President's Task Force, which is a very rigid reading 
and construction of the Constitution, which is actually 
inconsistent with many of the expansive constitutional analyses 
that we have witnesses in this past century, too.
    Ms. Christensen. Thank you. Mr. Fortuno, you are recognized 
again for five minutes.
    Mr. Fortuno. Thank you. Thank you again, and certainly I am 
puzzled by Ms. Diaz's interpretation of, number one, how does 
one bill provide for a better educational experience?
    I can't see how one bill may provide for a better process, 
legal process, political process, educational experience. I 
really don't understand it. And certainly I could not agree 
more with Mr. Flake's statements as to how can this be, the 
Constitutional Commission be less prone to manipulation by 
politicians?
    What we will be doing--and I will ask the Official 
Historian of Puerto Rico to see when was the last time we had a 
constitutional convention in Puerto Rico, and what happened. 
But as I see it, we will have politicians running for these 
positions, and they will get into a smoke-filled room and 
decide for us that is a better educational experience, and that 
is less prone to handling by politicians.
    So I ask Mr. Gonzalez Vales, who is the Official Historian 
of Puerto Rico, what happened in the fifties, early fifties, 
when we had a constitutional convention, after we were 
authorized to have one by the master, the U.S. Congress? What 
happened? Who were elected, and what kind of process we had.
    Mr. Gonzalez Vales. The delegates to the Constitutional 
Convention were selected pretty much on the basis of the 
political parties then. They were representatives of the two 
main political parties at that time, which were the PVP and the 
Partigos Directa Republicano, the Republican Party.
    Nevertheless, I think, and you could probably get that from 
the reading of the minutes of the Constitutional Convention, 
that there was a sense, a consensus as to the way that we 
should go about organizing the local government of Puerto Rico. 
And at the end, when the time for voting the proposals that 
constituted the various articles of our commonwealth's 
constitution, they reached almost unanimity. There were very 
few, I think, I can't recall exactly, but I don't think there 
were more than three abstentions, and possibly one vote against 
the Constitution.
    So that there was consensus among the people there, that 
even though they represented different political views, there 
was consensus on that particular issue.
    Now, on a constitutional convention today, unless the 
makeup of the constitutional convention is predetermined to 
ensure that there is a balance between the political parties 
and the other forces in the civil society, we stand the fact 
that we may end up in a deadlock, because the political forces 
of the island are pretty much even.
    Mr. Fortuno. And does H.R. 1230 provide for that 
``balance'' between the political parties and the different 
groups out there, to guarantee that we will not experience 
again what we indeed experienced the last time we had one, 
which is when we were authorized to draft our local governing 
rules that we call our Constitution at the state level?
    Mr. Gonzalez Vales. I think as I read it, and if I 
understood it correctly, the project, H.R. 1230, doesn't spell 
out how is the constitutional convention going to be assembled, 
and on what basis is the representation to that convention be 
made. So that would be something that would have to be very 
clearly stated in whatever project is approved if we want to go 
that way, the way of a constitutional convention.
    Mr. Fortuno. But certainly it is not. I have read the bill.
    Mr. Gonzalez Vales. That is right.
    Mr. Fortuno. And as you were saying, that is not what it 
says.
    Mr. Gonzalez Vales. That is correct.
    Mr. Fortuno. The problem that I have, and this happens all 
the time, is that when we are dealing with commonwealth, it is 
better to have as the least possible information and the least 
possible details, because it is the best of both worlds. And 
that is exactly what I feel that is the flaw here, that we 
cannot embark in a process and have our people embark in a 
process, and then not, and telling each one what they want to 
hear.
    People must know what they are going to be voting on. And 
that is why Mr. Serrano and I have filed H.R. 900, so that 
people know up front what to expect. What are they voting for. 
What are the pros and cons.
    There is no perfect world. There are pros and cons in every 
option. I favor one certainly, but there are pros and cons in 
every one, and people should come in with their eyes wide open, 
understanding what is it that they are going to be voting on. 
And that is why I favor, and I hope all my colleagues will 
support, H.R. 900.
    Again, thank you very much.
    Ms. Christensen. Mr. Fortuno----
    [Laughter.)
    Ms. Christensen. Mr. Serrano, do you wish to be recognized 
for five minutes?
    Mr. Serrano. Yes. Thank you for the Fortuno thing, but I am 
not running for Governor any time soon. I am trying to figure 
out if I can run for President, but that is another issue.
    Let me just use my time to first of all thank you for 
holding this hearing. This is again a historic moment. I don't 
think it is yet another exercise; I really think that there is 
a will to reach a conclusion on all sides of this issue. And I 
thank you for that.
    I would also like, I know we are being heard live in Puerto 
Rico, for people in Puerto Rico to understand that my desire to 
end the present status is in no way a disrespectful statement 
about those who have given so much to maintain the present 
status. I understand the historical significance of it. I 
understand that at one time it served a major purpose.
    But I am a Member of the U.S. Congress, and I have a dual 
responsibility. One is to wish for the best for my birthplace, 
and the place that, who knows if I may retire there some day, 
or be taken there after all of this is over. And also to do the 
best job that I can, so that the country whose Congress I serve 
in, where my parents are buried, where my children were born, 
where I grew up, is the best country that it can be.
    And my country has held my birthplace, mi patria, for 109 
years in an improper political position. So perhaps I, more 
than a lot of other people, have the ability not to wear two 
hats, but to think with a heart that at times feels divided, 
not in allegiance, but certainly in fully understanding 
everything.
    I want this country not to ever be accused again of holding 
a colony anywhere, especially a colony called Puerto Rico. And 
I want that to end.
    I also think that it would be improper to believe that 
there wouldn't be political involvement. You can't have had 109 
years of involvement with the United States, and then think you 
are going to hold a process to pick a constitutional convention 
that would not have political involvement in it.
    The State Department, much to my dismay, criticized the 
Constitutional Convention that took place in Venezuela right 
after President Chavez's victory. They said well, he controlled 
the convention. Well, of course. The 30-odd party coalition 
that got him elected, with the same fervor elected his 
delegates, and they changed the constitution to deal with the 
issues of the poor and the injustice that Venezuela had been 
facing. And that was a direct result of that.
    So to suggest that the same parties who for all these years 
have been discussing the status issue would have great 
influence over who gets elected is not facing reality. I doubt 
that Dona Juan Eron Pepe would be elected to this convention. I 
doubt it.
    You could set some parameters, like we do for the 
Democratic party, when you say from the 16th Congressional 
District you must elect three women and two men, according to 
what the--you can do that. But I assure you, those three women 
and two men will be picked by the parties, because the parties 
have the resources to campaign for them and to get them 
elected.
    We wish it was another system. I would support that. But we 
don't have it.
    Then there is my last concern. If a constitutional 
convention says to Congress we want statehood, and it is only a 
matter of a yes or no from Congress, there is no negotiating 
what statehood is. We already know that. If a constitutional 
convention says give us free association or give us 
independence outright, there is no negotiating, other than when 
or shall we grant it, if we decide to be arrogant about it and 
not grant the wish, which is always a possibility. But there is 
no negotiating as to what it is.
    But this new commonwealth, this best of two worlds, is not 
a final statement. It is, I am asking you to consider giving me 
this laundry list of items that I would like for a new 
covenant. That will never happen. That will take years to 
negotiate. That would leave the issue off the table, so we 
would have gone through that whole process only to have 
something en gavitado because you can't get 218 votes to pass 
it in one House, and 51 votes to pass it in the Senate.
    We must come back with clear options. We must offer clear 
options, and the people of Puerto Rico can come back from clear 
options. Il mejor de lovo mundo. And this thing about a dream 
that could be a new commonwealth is not practical, does not 
exist, will not resolve the problem.
    If we go that route, then Jose Carlos Serrano, my grandson, 
and my son, Jose Marcos Serrano, the State Senator, will be 
sitting here years from now discussing the issue of Puerto 
Rico.
    Thank you.
    Ms. Christensen. Thank you, Mr. Serrano. I would like to 
thank my colleagues; in particular, my colleague Mr. Fortuno, 
the Ranking Member of this Subcommittee.
    I want to thank the witnesses for their valuable testimony, 
and the Members for their questions. Members of the 
Subcommittee may have some additional questions for the 
witnesses, and we will ask you to respond to these in writing.
    The hearing record will be open for 10 days for these 
responses, as well as for testimony, written testimony, from 
other people in Puerto Rico or of Puerto Rico descent who would 
want to have their opinions heard.
    Certainly we are very sensitive, as a person coming from 
another territory, to the issue of not being fully represented 
or having the full rights of the Constitution extended to us. 
But we are also very sensitive to the need for the people of 
Puerto Rico to freely decide what their future political status 
might be, and we are extremely sensitive to that of our 
veterans who put their lives on the line for this country. And 
so I thank you for your service. And my husband was also a 
Vietnam veteran, and now resides in the U.S. Virgin Islands, 
where he cannot vote, either. So I understand your issue, I 
understand your passion.
    I hope that this hearing has not only been informative to 
Congress, but that it has also served as part of the 
educational process for the people in Puerto Rico who have been 
listening. So once again, I want to thank our witnesses. And 
would you like to say something?
    Mr. Fortuno. If I may, yes. I just want to thank you.
    Ms. Christensen. I want to recognize my Ranking Member.
    Mr. Fortuno. If I may, I want to thank you for your 
leadership, and commend you for having this hearing today.
    I want to thank Mr. Rahall and Mr. Young, as well. I want 
to thank the staff of the committee really, for the phenomenal 
job they are doing. And if I may, mi mano, Jose Serrano, thank 
you for everything you are doing for tu patria.
    Ms. Christensen. Thank you. If there is no further business 
before the Subcommittee, the Chair again thanks the Members of 
the Subcommittee and our witnesses. And the Subcommittee stands 
adjourned.
    [Whereupon, at 2:36 p.m, the Subcommittee was adjourned.]

                               * * * * *



LEGISLATIVE HEARING ON H.R. 900, TO PROVIDE FOR A FEDERALLY SANCTIONED 
 SELF-DETERMINATION PROCESS FOR THE PEOPLE OF PUERTO RICO (PUERTO RICO 
 DEMOCRACY ACT OF 2007); AND H.R. 1230, TO RECOGNIZE THE RIGHT OF THE 
PEOPLE OF PUERTO RICO TO CALL A CONSTITUTIONAL CONVENTION THROUGH WHICH 
 THE PEOPLE WOULD EXERCISE THEIR NATURAL RIGHT TO SELF-DETERMINATION, 
 AND TO ESTABLISH A MECHANISM FOR CONGRESSIONAL CONSIDERATION OF SUCH 
         DECISION (PUERTO RICO SELF-DETERMINATION ACT OF 2007).

                              ----------                              


                       Wednesday, April 25, 2007

                     U.S. House of Representatives

                    Subcommittee on Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 3:28 p.m. in 
Room 1324, Longworth House Office Building, Hon. Donna M. 
Christensen [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Christensen, Fortuno, 
Faleomavaega, Grijalva, and Bordallo.
    Ms. Christensen. The legislative hearing by the 
Subcommittee on Insular Affairs will come to order.
    I thank everyone for your patience. There was sort of an 
emergency meeting called at the White House very late in our 
planning, and my Ranking Member, the Resident Commissioner, 
will be here shortly.
    I ask unanimous consent that Members of the full committee 
wishing to participate in the proceedings of the Subcommittee 
be allowed to sit on the dais. And hearing no objection, so 
ordered.
    I also ask unanimous consent that the gentleman from New 
York, Mr. Serrano, the gentlewoman from New York, Ms. 
Velazquez, the gentlewoman from California, Ms. Sanchez, the 
gentleman from Illinois, Mr. Gutierrez, the gentleman from 
Indiana, Mr. Burton, the gentleman from Florida, Mr. Wexler, 
the gentleman from Idaho, Mr. Sali, and the gentleman from 
Mississippi, Mr. Wicker, be allowed to sit on the dais and 
participate in the hearing. Hearing no objection, so ordered.
    Under Committee Rule 4[g], the Chairman and Ranking 
Minority Member can make opening statements. If any other 
Members have statements, they can be included in the hearing 
record under unanimous consent. Hearing no objection, so 
ordered.
    The Subcommittee is convened to conduct its second of two 
legislative hearings on H.R. 900 and H.R. 1230. H.R. 900, 
sponsored by Mr. Serrano, will provide for a Federally 
sanctioned self-determination process for the people of Puerto 
Rico. HR. 1230, sponsored by Ms. Velazquez, will recognize the 
right of the people of Puerto Rico to call a constitutional 
convention, through which the people would exercise their 
natural right to self-determination, and to establish a 
mechanism for Congressional consideration of such a decision.
    I want to say at the outset, I am going to recognize myself 
for my opening statement.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. And good afternoon, once again. It is a 
pleasure and honor to welcome all of the Puerto Rican elected 
and past-elected officials, and all the other political 
leaders, opinion-makers, representatives from the Department of 
Justice to the House today. And it is a special honor and 
pleasure to welcome the distinguished Governor of La Isla del 
Encanto, The Honorable Anibal Acevedo-Vila, and Mrs. Acevedo-
Vila.
    And while all of you are distinguished in your own right, I 
also want to recognize our former colleague, The Honorable 
Carlos Romero Barcelo.
    We are pleased that the Administration is able to be here 
this afternoon. You are an important part of this process. So 
welcome, Governor. Welcome to everyone.
    The two bills before us take very different paths to a 
decision on the future status of Puerto Rico. One provides for 
a series of two referenda with straight up or down votes, and 
the other is a constitutional assembly. I have been assiduously 
reading not only your prepared testimonies, but various 
newspaper articles and editorials from Puerto Rico, and they 
have raised certain questions and concerns.
    For example, the White House Task Force suggested H.R. 900 
is designed to get a clear outcome. But I am more concerned 
that the people of Puerto Rico have a clear choice, clear in 
the definitions of the options and in the pros and cons of 
each, so that they can decide for themselves which more closely 
addresses their hopes and aspirations for their home, and would 
make the most positive difference in their lives. For me, that 
kind of transparency is even more important than the process 
itself.
    I also want to reiterate, because it remains important 
today, as it was two years ago at a hearing and last month, I 
want to reiterate my concern that this process and the debate 
has the potential to confuse, I think, the satisfaction of the 
people of Puerto Rico with the economic, educational, health, 
safety and other concerns with the status question. And while I 
know many of you who will testify today will disagree with me, 
in my opinion these important issues can be resolved under any 
one of the status options.
    I would even be concerned that these very serious 
circumstances, all of which are longstanding, inherited by this 
and prior Administrations, and recounted in every newspaper 
daily because they are so predominant in the minds and the 
lives of the people, that these circumstances may even be an 
impediment to the ability of the people of Puerto Rico to 
freely, to freely make a status decision.
    At the last hearing, in a few commentaries the question of 
who would be allowed to vote has been raised. It is a question 
that is being debated right now in my own Congressional 
district, your neighbors to the south, the U.S. Virgin Islands, 
with regard to our own Constitution.
    It is my hope that you will also help us understand not 
only why an almost equal number of native Puerto Ricans who 
have chosen to make their lives elsewhere would be able to vote 
in the referendum, but what you understand to be the position 
of those who live on Puerto Rico now, on this provision.
    It is also an often-recanted complaint that the failure of 
a status decision in Puerto Rico lies with the Congress of the 
United States. I understand very well that unincorporated 
territories were not intended to live on in that state forever. 
But given the fact that Congress has long ceded the right to 
the people of Puerto Rico to decide their status, does that 
failure to successfully change this lie with the Congress and 
the White House, as some may suggest, or with the people's 
satisfaction with the present political arrangement, if not the 
socioeconomic one?
    The issue of the status of Puerto Rico has always been a 
very divisive one. But today, given the sense of urgency that 
the status question be decided, I am hopeful that although we 
are starting with two very different bills and two very 
different processes, that we will reach consensus in the end.
    This is slated to be our last hearing, so your testimony 
today and your answers, building on that of the first hearing, 
is very important to informing and guiding the Subcommittee in 
its work. So I want to thank everyone who is here to testify, 
and those who are here to listen, and the media as well, for 
taking the time to accommodate the Subcommittee today.
    [The prepared statement of Mrs. Christensen follows:]

           Statement of The Honorable Donna M. Christensen, 
              Chairwoman, Subcommittee on Insular Affairs

    Good afternoon.
    It is a pleasure and an honor to welcome all of the Puerto Rican 
elected and past elected officials and other political leaders and 
opinion makers to your House today. And it is a special honor and 
pleasure to welcome the distinguished Governor of La Isla de la 
Encanta--The Honorable Anibal Acevedo Vila. And while all of you are 
distinguished I your own right, I want to also recognize our former 
colleague, The Honorable Carlos Romero Barcelo.
    We are also pleased that the administration is able to be here. You 
are an important part of this process.
    Welcome governor. Welcome all!
    The two bills before us take very different paths to a decision on 
the future status of Puerto Rico. One provides for a series of two 
referenda with straight up or down votes, and the other is a 
constitutional assembly.
    I have been assiduously reading not only your prepared testimonies 
but various newspaper articles and editorials from Puerto Rico and they 
have raised certain questions and concerns.
    For example, the White House Task Force suggests that H.R. 900 is 
designed to get a clear outcome. But I am more concerned that the 
people of Puerto Rico have a clear choice. Clear in the definitions of 
the options and in the pros and cons of each so that they can decide 
for themselves which more closely addresses their hopes and aspirations 
for their home and would make the most positive difference in their 
lives. For me, that kind of transparency is even more important than 
the process itself.
    I also want to reiterate--because it remains as important today as 
it was 2 years ago and last month--my grave concern that this process 
and debate has the potential to confuse the dissatisfaction of the 
people of Puerto Rico with the economic, educational, health and other 
concerns with the status question. While I know that many of you who 
will testify here today will disagree with me, in my opinion these 
important issues can be resolved under any status.
    I would even be concerned that these very serious circumstances--of 
long standing, inherited by this and prior administrations--and 
recounted in every newspaper daily because they are so predominant in 
their minds and lives, may be an impediment to the ability of the 
people of Puerto Rico to ``freely'' make a status decision.
    At the last hearing and in a few commentaries, the question of who 
should be allowed to vote was raised. It is a question that is being 
debated right now in my own Congressional District--your neighbor--with 
regard to writing our constitution.
    It is my hope that you will also help us understand not only why an 
almost much equal number of native Puerto Ricans who have chosen to 
make their lives elsewhere should be able to vote in the referenda, but 
what you understand to be the position of those who live there on this 
provision.
    It is also an often recanted complaint that the failure of a status 
decision in Puerto Rico lies with the Congress of the United States. I 
understand that unincorporated territories were not intended to live on 
in that state forever. But given the fact that Congress has long ceded 
the right to the people of Puerto Rico to decide their status, does the 
failure to successfully change this lie with the Congress and the White 
House as many suggest, but with the people's satisfaction with the 
present political arrangement, if not the socio-economic one.
    The issue of the status of Puerto Rico has always been a very 
divisive one. Given the sense of urgency that the status question be 
decided, I am hopeful that although we are starting with two very 
different bills and processes, we will reach consensus in the end.
    This is slated to be our last hearing so your testimony and 
answers--building on that of the first hearing is important to 
informing and guiding the Subcommittee in its work.
    Thank you for making the time to accommodate the subcommittee.
                                 ______
                                 
    Ms. Christensen. I would like to now thank those 
individuals and organizations specifically who were not able to 
appear before the Subcommittee, but have submitted statements 
for our hearing record.
    If there are no objections, I would like to take this 
opportunity to enter into the record the statements of Philip 
Arroyo, the New Progressive Party Youth; The Honorable Eudaldo 
Baez Galib of the Puerto Rican Senate; Mr. Noel Colon Martinez; 
Lt. Col. Dennis Freytes; Mr. Gregorio Igartua; Ms. Irmgard 
Pagan, the National Federation of Democratic Women, Puerto Rico 
Chapter; Mr. Manuel Rodriguez-Orellana, Puerto Rican 
Independence Party; Mr. Walter Rodrigue; The Honorable Maria de 
Lourdes Santiago-Negron, Puerto Rican Independence Party Senate 
Minority Leader; The Honorable Victor Garcia San Inocencio, 
Puerto Rican Independence Party's House Minority Leader; The 
Honorable Walter Torres-Maldonado, Mayor of Penuelas and 
President of the Mayors Association of Puerto Rico; and The 
Honorable Luis Vega Ramos of the Puerto Rican House of 
Representatives.
    Hearing no objections, so ordered.
    [NOTE: The statements submitted for the record referenced 
above have been retained in the Committee's official files.]
    Ms. Christensen. OK. When Mr. Fortuno arrives, we will 
recognize him at an appropriate time for his opening statement.
    At this time I would like to recognize the first panel. The 
Honorable Kevin C. Marshall, Co-Chair of the President's Task 
Force on Puerto Rico's Political Status, and Deputy Assistant 
Attorney General, Office of the Legal Counsel, U.S. Department 
of Justice.
    The Chair now recognizes Mr. Marshall to testify for five 
minutes. The timing lights on the table indicate when your time 
has concluded. And your entire statement will be included for 
the hearing record.

   STATEMENT OF THE HON. C. KEVIN MARSHALL, CO-CHAIR OF THE 
   PRESIDENT'S TASK FORCE ON PUERTO RICO'S POLITICAL STATUS, 
  DEPUTY ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL COUNSEL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Marshall. Thank you for this opportunity for the 
Administration to discuss pending legislation concerning the 
future political status of Puerto Rico.
    The work and report of the President's Task Force on Puerto 
Rico's Status have contributed to renewed attention to this 
question recently, including a hearing in April 2006 before the 
full committee, in which I participated.
    As you mentioned, I am a Deputy Assistant Attorney General 
in the Justice Department's Office of Legal Counsel. As the 
Attorney General's designee on the task force, I have served as 
its co-chair. Today, I appear because of that work, but also as 
a representative of the Administration.
    President Clinton, in establishing the task force in 2000, 
made it the policy of the Executive Branch to help answer the 
questions that the people of Puerto Rico have asked for years 
regarding the options for the island's future status and the 
process of realizing an option. The task force was required to 
consider and develop positions on proposals without preference 
among the options for the Commonwealth's future status.
    Its recommendations were limited, however, to those options 
permitted by the Constitution. In establishing the task force, 
President Clinton also expressly recognized that Puerto Rico's 
ultimate status has not been determined, and noted the 
different visions for that status within Puerto Rico. Although 
Puerto Rico held a plebiscite in 1998, none of the proposed 
status options received a majority. Indeed, none of the above 
prevailed, because of objection of the ballot definition of the 
commonwealth option.
    Seeking to determine the constitutionally permissible 
options and recommended process for realizing an option, the 
task force considered all status options objectively, without 
prejudice. It sought input from all interested parties, and met 
with anyone who requested a meeting.
    The task force issued its report in December 2005, and 
concluded that there were three general options under the 
Constitution for Puerto Rico's status.
    One. Continue its current status as a largely self-
governing territory.
    Two. Admit Puerto Rico as a state.
    Three. Make Puerto Rico independent.
    The primary question regarding options was whether the 
Constitution allows a new commonwealth status that could not be 
altered without the mutual consent of Puerto Rico and the 
Federal government. Since 1991, the Justice Department has 
consistently held that the Constitution does not. The Task 
Force report reached that conclusion, as well. The report is, 
of course, not a legal brief, but it does outline the 
reasoning, and it includes as appendices two extended analyses 
by the Clinton Justice Department, one of which was sent to the 
full committee in 2001.
    Puerto Rico may remain in its current status indefinitely, 
but it would remain subject to Congress's authority under the 
Constitution to regulate U.S. territories.
    The report provides additional detail on the other two 
permissible options: statehood and independence. Regarding 
independence, the report explains that there are several 
possible ways of structuring it, including freely associated 
status. With regard to process, the task force sought to 
ascertain the will of the people of Puerto Rico in a way that, 
as we put it, provides clear guidance for future action by 
Congress. Keys to providing clear guidance are, first, to speak 
unambiguously about the Constitutional options; and second, to 
structure the process so that popular majorities are likely.
    The task force therefore recommended a two-step process. 
The first is simply to determine whether the people of Puerto 
Rico wish to remain as they are.
    The task force recommended that Congress provided for a 
Federally sanctioned plebiscite on this question. If the vote 
is to remain as a territory, then the second step would be 
periodic plebiscites to inform Congress of any change in views. 
If the first vote is to change Puerto Rico's status, than the 
second step would be another plebiscite in which the people 
would choose between statehood and independence.
    Three points about this process merit explanation in 
connection with the two bills that the Subcommittee is 
considering. First, consistent with the Presidential mandate to 
the task force, the recommended process does not seek to 
prejudice the outcome, even though it is structured to produce 
a clear outcome.
    Puerto Ricans have before voted by a majority to remain as 
a commonwealth. They may do so again. But it is critical to be 
clear about what commonwealth status is and may be. H.R. 1230, 
in referring to a new or modified commonwealth status as among 
the status options that are not subject to the plenary powers 
of the territorial clause of the Constitution, does not further 
the necessary clarity.
    Second, the process does not preclude action by Puerto Rico 
itself to express its views. H.R. 900, without something like 
the approach of the task force in allowing the Puerto Rico 
Elections Commission, until the end of 2009, to hold the first 
plebiscite.
    Finally, the Administration supports the task force report. 
The report correctly identified the Constitutional options and 
sets out a process so Puerto Ricans are heard on the critical 
question of Puerto Rico's status. The Administration therefore 
also supports legislation consistent with the report, and 
recognizes that H.R. 900 sets out a process closely resembling 
that which the report recommends.
    We will work with Congress to ensure that any process to 
solicit the views of the people of Puerto Rico is transparent, 
understandable, and fair.
    Thank you for this opportunity to share the views of the 
Administration. I have submitted my written statement for the 
record. I look forward to taking your questions.
    [The prepared statement of Mr. Marshall follows:]

  Statement of C. Kevin Marshall, Deputy Assistant Attorney General, 
          Office of Legal Counsel, U.S. Department of Justice

    Thank you, Madame Chairman and Ranking Member Fortuno, for inviting 
the Administration to discuss pending legislation concerning the future 
political status of Puerto Rico. The work and report of the President's 
Task Force on Puerto Rico's Status have contributed to renewed 
attention to this question in the last few years, including a hearing 
in April 2006 before the full Committee, in which I participated. 
President Clinton established the Task Force in December 2000, and 
President Bush has continued it through amendments of President 
Clinton's Executive Order. The Executive Order as amended provides for 
the Task Force to consist of designees of each member of the 
President's Cabinet, and the Deputy Assistant to the President and 
Director for Intergovernmental Affairs. I am a Deputy Assistant 
Attorney General in the Justice Department's Office of Legal Counsel. 
As the Attorney General's designee on the Task Force, I have served as 
its Co-Chair. Today I appear because of that work but also as a 
representative of the Administration.
    The status of Puerto Rico, and the options regarding that status, 
have been issues for many years. In 1992, for example, President George 
H.W. Bush issued a Memorandum that recognized Puerto Rico's popularly 
approved Commonwealth structure as ``provid[ing] for self-government in 
respect of internal affairs and administration,'' described Puerto Rico 
as ``a territory,'' and directed the Executive Branch to treat Puerto 
Rico as much as legally possible ``as if it were a State.'' He also 
called for periodically ascertaining ``the will of its people regarding 
their political status'' through referenda.
    President Clinton, in his order establishing the Task Force, made 
it the policy of the Executive Branch ``to help answer the questions 
that the people of Puerto Rico have asked for years regarding the 
options for the islands'' future status and the process of realizing an 
option.'' He charged the Task Force with seeking to implement that 
policy. The Task Force was required to ``consider and develop positions 
on proposals, without preference among the options, for the 
Commonwealth's future status.'' Its recommendations are limited, 
however, to options ``that are not incompatible with the Constitution 
and basic laws and policies of the United States.''
    On the same day that he issued his Executive Order, President 
Clinton also issued a Memorandum for the Heads of Executive Departments 
and Agencies regarding the Resolution of Puerto Rico's status. That 
memorandum added that ``Puerto Rico's ultimate status has not been 
determined'' and noted that the three major political parties in Puerto 
Rico were each ``based on different visions'' for that status. Although 
Puerto Rico held a plebiscite in 1998, none of the proposed status 
options received a majority. Indeed, ``None of the Above'' prevailed, 
because of objection to the ballot definition of the commonwealth 
option.
    Some in Puerto Rico have proposed a ``New Commonwealth'' status, 
under which Puerto Rico would become an autonomous, non-territorial, 
non-State entity in permanent union with the United States under a 
covenant that could not be altered without the ``mutual consent'' of 
Puerto Rico and the federal Government. In October 2000, a few months 
before President Clinton established the Task Force, the House 
Committee on Resources held a hearing on a bill (H.R. 4751) 
incorporating a version of the ``New Commonwealth'' proposal. William 
Treanor, who held the same position in the Office of Legal Counsel that 
I now hold, testified that this proposal was not constitutional.
    Thus, the Task Force's duties were to determine the 
constitutionally permissible options for Puerto Rico's status and to 
provide recommendations for a process for realizing an option. We had 
no duty or authority to take sides among the permissible options.
    The Task Force considered all status options, including the current 
status and the New Commonwealth option, objectively and without 
prejudice. It also attempted to develop a process for Congress to 
ascertain which of the constitutional options the people of Puerto Rico 
prefer. It sought input from all interested parties, including Governor 
Acevedo-Vila. The members met with anyone who requested a meeting. I 
myself had several meetings with representatives of various positions, 
and also received and benefited from extensive written materials.
    The Task Force issued its report in December 2005 and concluded 
that there were three general options under the Constitution for Puerto 
Rico's status: (1) continue Puerto Rico's current status as a largely 
self-governing territory of the United States; (2) admit Puerto Rico as 
a State, on an equal footing with the existing 50 States; or (3) make 
Puerto Rico independent of the United States.
    As indicated in my discussion of the 1998 plebiscite and the 
origins of the Task Force, the primary question regarding options was 
whether the Constitution currently allows a ``Commonwealth'' status 
that could be altered only by ``mutual consent,'' such that Puerto Rico 
could block Congress from altering its status. Since 1991, the Justice 
Department has, under administrations of both parties, consistently 
taken the position that the Constitution does not allow such an 
arrangement. The Task Force report reiterates that position, noting 
that the Justice Department conducted a thorough review of the question 
in connection with the work of the Task Force. The report is of course 
not a legal brief. But it does outline the reasoning, and it includes 
as appendices two extended analyses by the Clinton Justice Department. 
The second of these is a January 2001 letter to the Senate Committee on 
Energy and Natural Resources, a copy of which was sent to the House 
Committee on Resources on the same date. The report also cites 
additional materials such as Mr. Treanor's testimony and the 1991 
testimony of the Attorney General.
    The effect of this legal conclusion is that the ``New 
Commonwealth'' option, as the Task Force understood it, is not 
consistent with the Constitution. Any promises that the United States 
might make regarding Puerto Rico's status as a commonwealth would not 
be binding. Puerto Rico would remain subject to Congress's authority 
under the Territory Clause of the Constitution ``to dispose of and make 
all needful Rules and Regulations respecting the Territory...belonging 
to the United States.'' Puerto Rico receives a number of benefits from 
this status, such as favorable tax treatment. And Puerto Rico may 
remain in its current Commonwealth, or territorial, status 
indefinitely, but always subject to Congress's ultimate authority to 
alter the terms of that status, as the Constitution provides that 
Congress may do with any U.S. territory.
    The other two options, which are explained in the report, merit 
only brief mention here. If Puerto Rico were admitted as a State, it 
would be fully subject to the U.S. Constitution, including the Tax 
Uniformity Clause. Puerto Rico's favorable tax treatment would 
generally no longer be allowed. Puerto Rico also would be entitled to 
vote for presidential electors, Senators, and full voting Members of 
Congress. Puerto Rico's population would determine the size of its 
congressional delegation.
    As for the third option of independence, there are several possible 
ways of structuring it, so long as it is made clear that Puerto Rico is 
no longer under United States sovereignty. When the United States made 
the Philippines independent in 1946, the two nations entered into a 
Treaty of General Relations. Congress might also provide for a closer 
relationship along the lines of the ``freely associated states'' of 
Micronesia, the Marshall Islands, and Palau. The report explains, with 
a few qualifications, that, ``[a]mong the constitutionally available 
options, freely associated status may come closest to providing for the 
relationship between Puerto Rico and the United States that advocates 
for `New Commonwealth' status appear to desire.''
    With regard to process, the Task Force focused on ascertaining the 
will of the people of Puerto Rico. In particular, it sought to 
ascertain that will in a way that, as the report puts it, ``provides 
clear guidance for future action by Congress.'' The keys to providing 
clear guidance are, first, to speak unambiguously about the options the 
Constitution allows and, second, to structure the process so that 
popular majorities are likely. The inconclusive results of the 1998 
plebiscite, as well as an earlier one in 1993, did not strike the Task 
Force as providing much guidance to Congress.
    The Task Force therefore recommended a two-step process. The first 
step is simply to determine whether the people of Puerto Rico wish to 
remain as they are. The Task Force recommended that Congress provide 
for a federally sanctioned plebiscite in which the choice will be 
whether to continue territorial status. If the vote is to remain as a 
territory, then the second step, one suggested by the first President 
Bush's 1992 memorandum, would be to have periodic plebiscites to inform 
Congress of any change in the will of the people. If the first vote is 
to change Puerto Rico's status, then the second step would be for 
Congress to provide for another plebiscite in which the people would 
choose between statehood and independence, and then to begin a 
transition toward the selected option. Ultimate authority of course 
remains with Congress.
    Three points about this recommended process merit specific 
explanation in connection with the two bills the Subcommittee is 
considering. First, consistent with the presidential mandate to the 
Task Force, its recommended process does not seek to prejudice the 
outcome, even though it is structured to produce a clear outcome. At 
least once before, Puerto Ricans have voted by a majority to retain 
their current Commonwealth status. They may do so again. But it is 
critical to be clear about that status. H.R. 1230, in referring to ``a 
new or modified Commonwealth status'' as among the status options that 
are ``not subject to the plenary powers of the territorial clause of 
the Constitution of the United States,'' does not further the necessary 
clarity.
    Second, the Task Force's recommended process does not preclude 
action by Puerto Rico itself to express its views to Congress. At the 
first step, the report recommended that Congress provide for the 
plebiscite ``to occur on a date certain.'' The Task Force did not, of 
course, specify that date. But if Congress wished to ensure that some 
action occurred but not preclude the people of Puerto Rico from taking 
the initiative, it could allow a sufficient period for local action 
before that ``date certain.'' If such action occurred and produced a 
clear result, there might be no need to proceed with the federal 
plebiscite. H.R. 900 adopts a similar approach in leaving the Puerto 
Rico Elections Commission discretion to set the date of the first 
plebiscite but requiring that it occur by December 31, 2009.
    Finally, I am authorized to state that the Administration supports 
the Task Force report. The report correctly identifies the limited 
options available under the U.S. Constitution for permanent status and 
sets out a process so Puerto Ricans are heard on the critical question 
of Puerto Rico's status. The Administration therefore also supports 
legislation consistent with the report and recognizes that H.R. 900 
sets out a process closely resembling that which the report recommends. 
We will work with Congress to be sure that any process to solicit the 
views of the people of Puerto Rico is transparent, understandable, and 
fair.
    The Administration knows well the importance of the status question 
to the loyal citizens of Puerto Rico and to the nation as a whole. We 
appreciate the Subcommittee's commitment to this matter and the 
opportunity to share our views.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Marshall.
    The Chair now recognizes myself for five minutes of 
questioning. I would ask that we could try to keep the answers 
concise, so that we could get as many questions in as possible. 
And I know you are anticipating this one, Mr. Marshall.
    Why did it take 16 months for the Administration to say it 
supports a task force report?
    Mr. Marshall. You may be anticipating the answer, as well, 
which is that the internal deliberations that the Executive 
Branch saw on that question; others are not the sort of thing 
that I am free to disclose.
    Ms. Christensen. OK. Well, now, my second question. You 
specifically cite in your testimony that H.R. 900 is being 
consistent with the report. Does that mean that the White House 
would not support a Constitutional assembly to decide on the 
future status? Couldn't that just as easily come up with a 
Constitutionally compatible option?
    Mr. Marshall. The Administration recognized that H.R. 900 
is similar to the approach the Task Force recommends, but that 
doesn't mean the Administration isn't open to other approaches 
that fairly seek out the views of the people of Puerto Rico.
    One requirement I would note, mentioned in my testimony, is 
that alternatives would need to be limited to the 
Constitutionally available options. In addition, it is 
desirable, as the task force set out, to have a process that is 
going to produce some sort of result that would provide 
guidance that Congress might use.
    Ms. Christensen. OK. I would like to talk a little bit 
about the enhanced Commonwealth, the new Commonwealth option, 
and whether or not it is Constitutional or unconstitutional.
    Just taking mutual consent for a moment, if the 
Commonwealth were able to negotiate through a compact or a 
covenant that Puerto Rico would be excluded from certain 
Federal laws, it would seem to me that, given the case of the 
Northern Marianas, which negotiated a covenant with the United 
States which exempted them from certain Federal laws, that this 
would be within the realm of possibility. So I am asking why is 
this something that would be considered not constitutional, or 
not possible to be accepted as a constitutionally recognized 
status option?
    I know that is kind of a convoluted way of asking the 
question. Do you understand the question?
    Mr. Marshall. I think so. I guess we will find out. I think 
there are two distinct issues there. One is whether Congress 
could exempt Puerto Rico from some Federal laws, and there the 
answer is yes. In fact, that is already being done. So I don't 
think the constitutional question precludes that.
    As to mutual consent provision, the Constitution doesn't 
allow that for the reasons set out in the task force report. 
The report does discuss the Northern Mariana Islands some, and 
the short answer is that that compact was entered into at a 
time when the Executive Branch had a different understanding of 
the Constitution.
    Ms. Christensen. So maybe in another Administration, an 
agreement could be reached that would be able to include, I 
mean, compacts--I would have to go back and check whether the 
compact or the covenant that the Northern Marianas developed 
with the U.S. Government can be changed by mutual consent. But 
wouldn't that be possible?
    Mr. Marshall. It would be----
    Ms. Christensen. It is negotiated by mutual consent.
    Mr. Marshall. It would be possible to have mutual consent, 
of course. The constitutional question is whether a Congress 
could bind itself in future Congresses not to act without 
mutual consent. But certainly, some sort of consent would 
presumably be desirable as a matter of policy.
    Ms. Christensen. Let us see. You have been very good at 
answering the questions concisely. Let us see.
    The task force and several of the other testimonies suggest 
that the Puerto Rican people should seek some permanent status, 
either independence or statehood. Isn't it possible that at 
this time the people of Puerto Rico are not ready to pursue 
either independence or statehood?
    And the other assertion is that Congress has somehow stood 
in the way of Puerto Rico deciding on a change of status. Do 
you think that we have stood in the way? Have we prevented 
Puerto Rico from choosing a status? Well, answer that one 
first.
    Mr. Marshall. And so that one, rather than the first one?
    Ms. Christensen. Go ahead and answer both, if you can.
    Mr. Marshall. It is certainly possible that the people of 
Puerto Rico would prefer to stay as they are. The report 
contemplates that, and I have discussed it again in my prepared 
statement.
    In terms of Congress, I wouldn't begin to impugn the 
Congress. And in addition, as the report notes, and again as in 
my prepared statement, I am not aware of any impediment to 
Puerto Rico itself taking action to express its views to 
Congress. And the task force report actually contemplated that 
Congress might want to structure any plebiscites in a way to 
allow time for that to happen.
    Ms. Christensen. Thank you. My time is up. I would 
recognize Mr. Wicker for five minutes of questions.
    Mr. Wicker. Well, Madame Chair, your questions are so 
pertinent and excellent that I am tempted simply to yield my 
five minutes to you. But I will not do that.
    It is frustrating. We are about to have a series of votes 
which I am told may take some 45 to 50 minutes, and I will not 
be able to come back and hear the rest of the testimony.
    Let me just sort of associate myself with the observation 
of the Chair with regard to the possibility--indeed, the strong 
likelihood--that the people of Puerto Rico do not see the 
necessity of moving toward a permanent status, as defined by 
the Commission; that is, choosing between absolute independence 
and statehood. And so to the extent that the question suggested 
that, I would agree with her.
    If I were to ask every witness that will come before this 
Subcommittee today, Madame Chair, the level of support in the 
polling for the idea of independence, I suspect the answer 
would be that the level of support is certainly less than 5 
percent; maybe 2 percent to 4 percent of the island inhabitants 
support independence.
    Secretary Marshall, would that be about correct? Did you do 
polling by the Commission?
    Mr. Marshall. We did not do any polling, and I wouldn't 
begin to speculate on that.
    Mr. Wicker. So you didn't take testimony to that effect.
    Mr. Marshall. No.
    Mr. Wicker. OK, well, that is fine if you don't know the 
answer. But I think it is fairly clear that there is a very 
small amount of support.
    Let us say it is 5 percent. My problem with the 
Commission's recommendation is that if you move toward what the 
Commission suggests is a permanent solution, either statehood 
or independence, I think this Congress and the people of Puerto 
Rico deserve to know that there is a broad consensus for that 
position. And I would suggest that there is neither a broad 
consensus for independence nor for statehood among the people 
of Puerto Rico at this point.
    Always before when we have brought a state into the Union, 
there has been overwhelming support among the people of that 
territory to come in and be a state. And certainly we know, 
from the polling and from the previous votes, that we do not 
have such a broad consensus at this point. And I don't think 
you get there by H.R. 900, which is the legislative result of 
the Commission's report.
    Essentially, what H.R. 900 does is take two polar 
opposites, statehood on the one hand and independence on the 
other hand, and combine them as option A on the ballot. And 
against those two combined options, then a commonwealth would 
have to compete.
    Although the Commission said that it was attempting to come 
forward without preferences among the options, I think the 
logical consequence of this suggestion would be to pool two 
polar opposites, combine the votes of those, and then achieve a 
runoff between what have always in the past been the number two 
and number three choices among the people of Puerto Rico.
    So I do not see any way that we can get to a consensus, get 
to the sort of overwhelming broad support that we need by this 
method. And I would also just reject the notion, Madame Chair, 
that somehow commonwealth is some form of suspended animation 
that must be quickly done away with. That having that as a more 
or less permanent option is somehow untenable. Just because 
someone says it is so doesn't make it true.
    The people of Puerto Rico probably want a different kind 
of, some sort of enhancements and tweaking of the commonwealth 
position. But I would submit to the Members of this Congress 
and the Members of this Subcommittee that if you look around 
the Caribbean, the best economy in the Caribbean is on the 
Island of Puerto Rico. And to say that the wheels are off of 
the situation, and that absolutely we must move to something 
else, I don't think leaps from the facts.
    So I realize I have made more of a statement than asking a 
question, but I do appreciate the Chair's indulgence, and the 
Subcommittee's indulgence, Madame Chair.
    Ms. Christensen. Thank you, Mr. Wicker. The Resident 
Commissioner has agreed to allow Ms. Velazquez to take her five 
minutes' time of questioning now.
    Ms. Velazquez. How sweet that is.
    Ms. Christensen. Because we know that you will be busy on 
the Floor for the rest of the afternoon.
    Ms. Velazquez. Thank you very much, Chairlady, and to my 
great friend and colleague, Mr. Fortuno. Thank you for allowing 
me to take this opportunity now to question the witness here. I 
have a bill on the Floor, so I will have to excuse myself, and 
that will be good for Mr. Marshall. Because I intended not only 
to use five minutes, but ask for more, since I have so much 
troublings with your testimony.
    Let me start by saying that when you came here last year to 
talk to us about the findings of your report, I questioned the 
lack of substance of the report in terms of the economic, 
social, and cultural considerations. I even compared it to the 
massive and responsible report, reports that were done in the 
late sixties and the late eighties, and it seemed superficial 
in both length and analysis.
    Today you come here and you state that the report is not 
even to be considered a legal brief. Mr. Marshall, what is this 
document? If it is not good as a legal brief, if it is not good 
as a research referral document, it is not even good, adequate 
to illustrate the historical and cultural reality of Puerto 
Rico, then what good is it?
    Mr. Marshall. The document is written with its audience in 
mind, which is to mean written without jargon, written not at 
great length. We were not paid by the word. And I don't think 
it was necessary for us to go on at great length. We have laid 
out the options clearly, and I think we have hit the major 
points. There are details we haven't addressed.
    Ms. Velazquez. Thank you for your answer. The President's 
Task Force on Puerto Rico Status was comprised of a dozen 
Executive Branch officials chosen to study the issue of Puerto 
Rico's status and prepare a report and recommendations to the 
President and the Congress on the sensitive issues of Puerto 
Rico's political status.
    How many Puerto Ricans, in such an important issue to the 
people of Puerto Rico, I ask you, how many Puerto Ricans were 
part of this task force on Puerto Rico?
    Mr. Marshall. I am not sure, I didn't poll the numbers.
    Ms. Velazquez. I am sorry?
    Mr. Marshall. I don't know.
    Ms. Velazquez. The members from your task force, who were 
they?
    Mr. Marshall. I don't know whether any members were from 
Puerto Rico. I don't think they were, but it is possible.
    Ms. Velazquez. And you don't think that in such an 
important issue on Puerto Rico?
    Mr. Marshall. The task force visited Puerto Rico, 
particularly Mr. Barrales.
    Ms. Velazquez. I am going to deal with Mr. Barrales later. 
How many public hearings did the task force hold in Puerto Rico 
during the five-plus years since it was established? How many?
    Mr. Marshall. The co-chairman of the task force went to 
Puerto Rico and had several meetings, including with political 
leaders in Puerto Rico. I don't know whether those would 
qualify as----
    Ms. Velazquez. Public hearings.
    Mr. Marshall.--these hearings you are talking about.
    Ms. Velazquez. Public hearings, public hearings. Not a 
meeting with the Governor of Puerto Rico or a meeting with 
individual elected officials, I am saying public hearings, to 
listen to the people of Puerto Rico.
    Mr. Marshall. I am not aware of any, as I indicated last 
year at the hearing.
    Ms. Velazquez. How many meetings took place with all, or at 
least a majority, of the task force members present?
    Mr. Marshall. I believe that is information concerning the 
internal workings of the Executive Branch, so I am not free to 
disclose.
    Ms. Velazquez. Why is it that it is such a secret? That is 
the problem, you know? That is the problem, sir. You come here, 
and in your testimony you say that we will work with Congress--
I am Congress here, I am a Member of Congress--to be sure that 
any process to solicit the views of the people of Puerto Rico 
is transparent, understandable, and fair. And you come in here 
and say that you can't share how many meetings, because those 
are Executive Branch privilege?
    Sir, let me ask you another question. How many official 
visits to Puerto Rico did the task force, as a task force, make 
to Puerto Rico in order to get an in-person assessment of the 
issue the task force members were supposed to study and 
evaluate?
    Mr. Marshall. There were at least two.
    Ms. Velazquez. With the members. Who were the members who 
went to Puerto Rico?
    Mr. Marshall. Mr. Barrales and Mr. Francisco, who is my 
predecessor.
    Ms. Velazquez. Mr. Barrales has been co-chair of the task 
force from the start, and you became co-chair with him after 
your predecessor, Noel Francisco of the U.S. Department of 
Justice, left. Is that right?
    Mr. Marshall. That is correct.
    Ms. Velazquez. It is also well known that he is not 
testifying before us today, and he recently left the White 
House. Through all these years, Mr. Barrales has been the 
public face of the task force, in terms of trips he took to 
Puerto Rico, meetings he may have had with elected officials 
and party representatives, interviews, and comments to the 
media. Isn't that the case?
    Mr. Marshall. I am sorry, is what the case?
    Ms. Velazquez. Isn't that the case that Mr. Barrales was 
basically the public face of the task force? That he was the 
one who gave statements and made comments about the task force, 
either here or in Puerto Rico?
    Mr. Marshall. Mr. Barrales did speak publicly about the 
work of the task force.
    Ms. Velazquez. So my question, then, is the following. Are 
you aware--I have my last question, since I am not coming back.
    Mr. Faleomavaega. Madame Chair, will the Chair----
    Ms. Velazquez. Are you aware--if you will allow me.
    Mr. Faleomavaega. Will the Chair yield? Will the Chair 
yield?
    Ms. Christensen. To allow her to finish?
    Mr. Faleomavaega. I would love to give a portion of my 
time, even though I haven't yet, to the gentlelady from New 
York to continue the question.
    Ms. Christensen. Thank you.
    Ms. Velazquez. Are you aware, Mr. Marshall, that Mr. Ruben 
Barrales, co-chair of the task force until recently, went to 
Puerto Rico in July 2004, and publicly expressed his support 
for Puerto Rico becoming the 51st state? Were you aware of 
that?
    Mr. Marshall. When I testified to the Senate last November 
I was asked that question, and it was based on a newspaper 
article. And I don't know whether that newspaper article's 
quotation was correct.
    Ms. Velazquez. So all the papers in Puerto Rico were wrong?
    Mr. Marshall. Sometimes papers do get things wrong, and I 
wasn't going to----
    Ms. Velazquez. Well, it happens a lot with----
    Mr. Marshall.--testify to what that one said.
    Ms. Velazquez. Yes, mm-hmm. Sir, he went, representing the 
White House, on events in Puerto Rico, and even political 
events in Puerto Rico, and he makes such a statement.
    So you were charged in the Executive Order, signed by the 
President, to create this task force. They say, and the 
President clearly stated, that they will not interfere with the 
political dynamics that should take place in Puerto Rico. That 
they will not, the task force, be charged to express what 
political preference regarding any political status for Puerto 
Rico. And here you have got your co-chair coming to Puerto 
Rico.
    So do you know how the people of Puerto Rico feel about 
this process? They are cynical. It lacks transparency. And it 
is totally unfair and undemocratic. That is what your task 
force report means for half of the people in Puerto Rico, and 
for this Member of Congress. We should be more serious, and 
there should be more honesty when we are dealing with such an 
important issue that is going to affect 8 million Puerto 
Ricans.
    And I invite you to revisit your task force, and come to 
the United States and visit the people of Puerto Rican descent, 
and talk to them, since you didn't do it either here or in 
Puerto Rico.
    Thank you, Madame Chair.
    Ms. Christensen. Thank you, Ms. Velazquez. The Chair now 
recognizes the Resident Commissioner, the Ranking Member of the 
Subcommittee, Mr. Fortuno, for his opening statement.

      STATEMENT OF THE HON. LUIS G. FORTUNO, THE RESIDENT 
       COMMISSIONER FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Fortuno. Thank you, Madame Chair. And I ask unanimous 
consent that my full opening statement be introduced into the 
record. Thank you.
    And I apologize, but I was in a meeting with the President. 
We discussed this issue, and I will get into that further in 
this hearing. We have plenty of time. In the meantime, I want 
to make sure that I make some statements.
    Madame Chair, thank you again for calling this hearing. Let 
me begin by welcoming our distinguished witnesses. While some 
of us may differ on what Puerto Rico's relationship with the 
United States should be, we all agree that the current 
territorial status does not serve Puerto Rico or the United 
States well.
    Rather than restating my position on the two bills before 
us today, which I have made clear time and again, I will use my 
time to focus on some fundamental truths Congress should bear 
in mind.
    First, Congress has a constitutional and moral 
responsibility to act seriously to resolve this century-old 
colonial issue. As one former Governor of another local party 
who will testify, or was supposed to testify, today said, it 
would be, and I quote, ``morally unacceptable, unfair, and 
harmful to Puerto Rico and the United States to simply play 
with the status issue, because it undermines Puerto Rico's 
capacity for self-government, inflicts considerable hardship on 
its society, and drains the U.S. Treasury.'' And I end quote.
    Congress has a responsibility to enable Puerto Rico and its 
4 million U.S. citizens to obtain democracy at the national 
government level. As the former Governor also wrote, and I 
quote again, ``All factions do agree on the need to end the 
present undemocratic arrangement whereby Puerto Rico is subject 
to the laws of Congress, but cannot vote in it.'' And I end 
quote.
    The United States took the island, through war, 109 years 
ago. Congress is responsible for the territory status under the 
Treaty of Paris and the Territory Clause of the U.S. 
Constitution. We Puerto Ricans have repeatedly asked Congress 
to clarify our options.
    Presidents have spoken, and one spoke today, and I will get 
into that later.
    It is now time for Congress to act. It is Federal laws and 
policies that are the question in Puerto Rico's status debate, 
not questions of our local aspirations. Puerto Ricans have 
already proposed what they want. The question is what we can 
realistically achieve.
    Madame Chair, you asked at the last hearing whether the 
territory's economic problems couldn't be solve without a 
status change. Reports last year by the Brookings Institution 
and the GAO provide the answer. After decades of closing the 
income gap with the States, it has been widening once again. 
That is why on average 3,000 Puerto Ricans are moving to the 
mainland every month.
    The status issue is not just about democracy for nearly 4 
million U.S. citizens. It is also about our quality of life. 
The desperate proposal of the Governor for an impossible non-
territory status that is neither a nation nor statehood, but 
combined features of both, is aimed at economic opportunity, as 
well as political power. The problem is that statehood is 
possible, and nationhood is possible; but the attempt to have 
both at the same time is not.
    Our current territory status is failing, with increasingly 
severe consequences. That uncertainty, unpredictability, and 
inherent regulatory and political instability of territory 
status prevents Puerto Rico's full potential and contribution 
to the Nation from being realized. That is why double-digit 
unemployment and a labor participation rate 50 percent less 
than the national average persistently plague our people. That 
is why less than half of us are productively creating the 
wealth that supports the more than half who are under-employed, 
unemployed, and frustrated by the lack of work opportunity.
    Madame Chair, the present territory status took Puerto Rico 
as far as it could, and is now a serious deterrent, banning us 
from attaining our aspirations and dreams. A resolution of this 
matter is badly needed now.
    However, the idea that Puerto Rico can hold a convention 
and define the status it wants is a recipe for continued 
stagnation on the issue. After more than half a century of 
repeated commonwealth proposals rejected in Washington, and 
three local votes confused and made inconclusive by such 
proposals, it would only make things worse to have a convention 
intended and gained to ratify yet another such proposal by a 
coalition of minority faction politicians.
    Puerto Rico can be treated like a state, named a 
commonwealth, as four states are and another territory is in 
English; named a free-associated state in Spanish, and as 100 
other legal, economic, and social policies can be applied by 
Congress and the Courts. But none of this changes the status to 
real nationhood or real democracy or real sovereignty or real 
statehood.
    Puerto Rico remains today a territory. We want every child 
in Puerto Rico to achieve the American Dream: to have the same 
opportunities their counterparts have in the States. To be able 
to go all the way to the top, and to end up better off in life 
than if they did not get that fair shot, playing by the same 
rules as every other child living under the American flag.
    We know Puerto Rican culture is strong enough to continue 
and strive under statehood, and through nationhood it is 
possible. But the steady decline into a failed society because 
of our unincorporated territory status and a local party's 
impossible status ideology make our colonial status destructive 
and intolerable.
    We all want the people to decide on the solution, but only 
Congress can make that happen. H.R. 900 is the only feasible 
way proposed so far for Congress to so empower our people.
    Thank you again.
    [The prepared statement of Mr. Fortuno follows:]

               Statement of The Honorable Luis Fortuno, 
         the Resident Commissioner in Congress from Puerto Rico

    Madame Chair, thank you, again, for calling this important hearing.
    Instead of repeating my previous specific comments on the bills, I 
will focus on some fundamental truths Congress should bear in mind as 
it addresses this issue.
    The first is that Congress has a responsibility to act seriously to 
resolve this issue--and it would be wrong for it to, in the words of a 
former governor of my territory of another local party who will testify 
today, ``play with it for a while''. As he wrote, ``It is morally 
unacceptable, unfair, and harmful to Puerto Rico and the United 
States--Such insensitivity undermines Puerto Rico's capacity for self-
government, inflicts considerable hardship on its society, and drains 
the U.S. Treasury.''
    Congress' basic responsibility is to enable Puerto Rico to obtain 
democracy at the national government level--something our country 
stands for around the world. As the former governor also wrote, ``All 
factions do agree on the need to end the present undemocratic 
arrangement, whereby Puerto Rico is subject to the laws of Congress but 
cannot vote in it.''
    The United States took the islands in war 109 years ago. Congress 
is responsible for the territory's status under the Treaty of Paris and 
the Territory Clause of the U.S. Constitution. We Puerto Ricans have 
repeatedly asked Congress to clarify our options. Presidents have 
spoken. It is now time for Congress to act.
    The status issue is not just about democracy for nearly four 
million U.S. citizens; it also is about our quality of life.
    Madame Chair, you asked at the last hearing whether the territory's 
economic problems couldn't be solved without a status change. Every 
leader in Puerto Rico knows it can't be. That was the conclusion of 
hearings our full committee held 22 years ago at the request of the 
former governor that led to the effort to seek federal status choice 
legislation he initiated 18 years ago.
    It is federal laws and policies that are the question in Puerto 
Rico's status debate, not questions of our local aspirations. Puerto 
Ricans have already proposed what they want. The question is what we 
can realistically achieve.
    We all know that the current regime stopped working for us long 
ago--two or three decades ago as indicated by reports issued last year 
by the Brookings Institution and the GAO in fact, after decades of 
closing the income gap with the States, it has been widening. That is 
why 3,000 Puerto Ricans are moving to the mainland monthly. Economic 
need is the primary reason that there are now more people of Puerto 
Rican origin in the States than in the island.
    And that is why our current governor wants his impossible 
``Development of the Commonwealth.'' It's not just political power, for 
power's sake. Yes, he wants to make Puerto Rico's situation democratic 
by being able to enter into foreign agreements and nullify federal law 
and court jurisdiction. But he also wants the power to enter into 
foreign agreements to establish a different trade situation for Puerto 
Rico than for the fifty States. And there would be economic benefit 
from that. The problem is that he wants the benefits of being American 
at the same time, for example access as a State to the U.S. market. 
There are constitutional problems with this--a U.S. area conducting its 
own foreign policy--as well as policy problems--it would create a giant 
loophole in U.S. trade barriers.
    He wants the power to determine the application of federal laws to, 
for example, exempt Puerto Rico from the application of the laws 
requiring the use of American-crewed, built, and owned vessels for 
cargo between U.S. ports. And that would be economically beneficial 
``but the federal government is not going to grant it under a U.S. 
status. It will only happen if Puerto Rico becomes a sovereign nation.
    Here the problem is not constitutional, but practical. Puerto Rico 
is too big and represents too much U.S. vessel shipping for an 
exemption. You know, Madame Chair, the challenges to the exemption for 
your much smaller territory that dates to early in the last century. 
Our colleague from Guam knows how impossible it has been for Guam, 
which is also much smaller than Puerto Rico and is even much more 
distant from the States, to get an exemption despite tens of millions 
of dollars of lobbying and decades of effort.
    And a main reason is the size of Puerto Rico.
    You spoke, Madame Chair, about the precedents that Puerto Rico sets 
for the other territories. The main precedents are that the size and 
potential economic impact of Puerto Rico prevents exemptions and 
equality for the much smaller territories.
    The truth is Puerto Rico needs to become a State or a nation to 
substantially improve its economic situation. Both courses offer 
advantages and opportunities we cannot access now.
    So some leaders want nationhood, whether independent from the U.S. 
or in a free association with it. Others of us want the equality of 
statehood within this greatest of nations. The Governor and his bill 
want a ``best of both worlds'' that has never been accepted by the 
federal government and never will be and that would continue to consign 
us to this limbo status of not only a lack of democracy but further 
economic deterioration and social despair.
    Our current territory status is failing with increasingly severe 
consequences. The uncertainty, unpredictability and inherent regulatory 
and political instability of territory status prevent Puerto Rico's 
full potential--and contribution to the nation--from being realized.
    That is why double-digit unemployment and a labor participation 
rate 50% less than the national average persistently plagues our 
people. That is why less than half the residents of Puerto Rico are 
productively creating the wealth that sustains and supports more than 
half the population that is under-employed, unemployed, and frustrated 
by the lack of opportunity. Madame Chair, the present territory status 
took Puerto Rico as far as it could, and is now a serious deterrent 
banning us from attaining our aspirations and dreams. A resolution of 
this matter is badly needed now.
    These are not aliens or immigrants, this is not a debate about 
letting them in or giving them amnesty or guest worker status. These 
are our fellow Americans, fourth generation U.S. citizens, living under 
the American flag within the same national borders as the rest of the 
United States, just like Americans in the non-contiguous states of 
Hawaii and Alaska. Many of them are veterans who served in mortal 
combat alongside the constituents of my colleagues on the Subcommittee, 
from every State in the Union. Unlike Americans from States, my 
constituents come home to an economy that is chronically 
underperforming, in an American colony where they do not even have a 
right to vote in federal elections or voting representation in 
Congress.
    However, the idea that Puerto Rico can hold a convention and define 
the status it wants is a recipe for continued stagnation on the issue. 
After more than half a century of repeated ``commonwealth'' proposals 
rejected in Washington and three local votes confused and made 
inconclusive by such proposals, it would only make things worse to have 
a convention intended to ratify a proposal such as the already-reject 
``Development of the Commonwealth'' by a coalition of minority faction 
politicians.
    The notion that such a strategy can force the federal government to 
subvert its objections to the ``self-determination will'' of Puerto 
Ricans is folly, if not deception. The example of Guam, where the 
``commonwealth'' proposal was more moderate and where the stakes were 
much smaller for the U.S., demonstrated this.
    Before concluding, let me say I have read the so-called legal 
analyses that have been submitted in House and Senate hearings on 
Puerto Rico over the last year. The submissions by local party leaders 
and their lawyers claim----
    <bullet>  Statutory territorial status policy can be made 
permanent, and somehow morph into a non-territory status.
    <bullet>  Statutory status policy can be placed beyond the reach of 
Congress by borrowing irrelevant precedents from federal contract and 
property law.
    <bullet>  Puerto Rico is already in free association with the 
U.S.--as the Governor astoundingly suggested to the Senate committee a 
few months ago.
    Enough is enough. What does it take to end this absurd debate--
other than clarification from Congress? Just this year, in the 
Guantanomo detainee cases, the federal courts have ruled yet again that 
Puerto Rico is subject to federal powers under the Territory Clause.
    We all know Puerto Rico can be treated ``like a State'', named the 
``Commonwealth''--as are four States and another territory--in English, 
named a ``free associated state'' in Spanish, and a hundred other 
legal, economic, social policies can be applied by Congress and the 
courts, but none of this changes the status to real nationhood or real 
democracy, or real sovereignty, or real statehood, because Puerto Rico 
remains a territory.
    I will conclude today by telling my colleagues what I believe all 
Puerto Ricans really want. We want our children to grow up without 
being obsessed by an esoteric debate about our identity and status 
under the supreme law of the nation in which we live.
    We want every child in Puerto Rico to achieve the American dream, 
to have the same opportunities that their counterparts have in the 
states, to be able to go all the way to the top, and even if they fall 
short of their biggest dream, end up having more of that dream come 
true, and end up better off in life, than if they did not get that fair 
shot, playing by the same rules as every other child living under the 
American flag.
    We want to know that no child in Puerto Rico missed out on a shot 
at the American Dream because the political status of Puerto Rico was 
not resolved.
    We want our economy to thrive not stagnate, so that the God-given 
creativity of our people can find expression in productive 
participation in our society.
    We do not want to bequeath an under-developed and under-performing 
economy and a political, cultural, social identity crisis to our 
children and grandchildren.
    We believe Puerto Rican culture and heritage is strong enough to 
survive a transition to statehood or separate sovereign nationhood, but 
not the slow, twilight decline into a failed society that now threatens 
us under the federal government's unincorporated territory status 
doctrine, and local party doctrines that attempt but fail to make this 
colonial status tolerable.
    We all want the people to decide on the solution, but only Congress 
can make that happen. H.R. 900 is the only feasible way proposed so far 
for Congress to so empower our people.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Fortuno. I now recognize 
Mr. Faleomavaega for five minutes of questions.
    Mr. Faleomavaega. I thank the gentlelady, the Chairwoman of 
this Subcommittee. And in fairness to the process, I noted that 
I actually had one minute left, after giving four minutes of my 
time previously to Ms. Velazquez. But I do thank the 
gentlelady, and I sincerely hope that our Ranking Member will 
accept that slight change of period of time for me to ask 
questions. Is that all right? I just want to be fair to the 
process.
    Mr. Fortuno. Yes.
    Ms. Christensen. Yes.
    Mr. Faleomavaega. Thank you very much. Madame Chairwoman, 
this is the second phase now in the process that we have 
conducted these hearings, and I do want to thank my colleague 
and dear friend, the Resident Commissioner of Puerto Rico, Mr. 
Fortuno, for his eloquent statement, the positions that he has 
taken, and certainly he has my utmost respect for his deep 
understanding of the politics in the situation developing in 
Puerto Rico.
    I do want to say that we have in our presence former 
colleagues and Members of this committee and Members of 
Congress, the former Resident Commissioner of Puerto Rico, The 
Honorable Anibal Vila, my dear friend who is now the duly 
elected Governor of Puerto Rico, and also my good friend, the 
former Governor, as well as Resident Commissioner, of Puerto 
Rico, who I see there, and that is Mr. Carlos Romero, who is 
also here with us. Certainly we also note the presence of our 
former Governor of Puerto Rico, Mr. Rossello, and other 
distinguished dignitaries coming from Puerto Rico.
    Madame Chairwoman, I probably consider myself as a deputy 
expert or whatever for 18 years now that I have been a Member 
of this committee, and I consider myself a semi-expert about 
Puerto Rico by this time, with all the hearings, the committee 
meetings, and so much that we have undertaken in trying to 
resolve the problem and trying to resolve the issue of what is 
best for the people and for the leaders of Puerto Rico.
    Mr. Marshall, I have listened closely to your testimony. 
And, as you may have noted, Ms. Velazquez has asked you some 
initial questions about how the task force came about, and the 
recommendations the task force has made.
    In order to give any sense of credibility to any task force 
report or recommendations, I cite the 9/11 Commission and the 
Iraq Study Group as examples of commissions or task forces, 
however you want to call it. And as you may have noted, a lot 
of credibility is given to the substance and recommendations of 
the Iraq Study Group because they were composed of both 
Democrats and Republican leaders, especially the national 
caliber of former Secretary of State Jim Baker. Former 
Congressman Lee Hamilton has the utmost respect of our 
colleagues here in the Congress.
    My point here is that recommendations offered by the Iraq 
Study Group was unanimously accepted, and it was made because 
it had the substance of clear expert advice from the best on 
both sides of the aisle, so to speak.
    Now, as I listen to your testimony and the position that 
the Administration and the White House has given, that your 
task force supports H.R. 900. And I just wanted to share with 
you my concern to the effect that if there is anything that it 
is my sincere hope that this committee, as well as the 
Congress, would hope to achieve is that we have to provide a 
process unfettered by any leanings or any tiltings, if you 
will, so that the process is truly democratic in scope; so that 
the people of Puerto Rico truly are given that choice free, and 
without any encumbrances to suggesting that I am for statehood, 
I am for commonwealth, or I am for independence.
    And I just wanted to ask you, in the process of selecting 
the members of this task force, was there any consideration 
given to asking maybe people from another political persuasion 
to be members of this task force? How were the members of the 
commission or the task force selected?
    Mr. Marshall. The composition of the task force is set out 
in the Executive Order that President Clinton established, and 
then it was not substantially changed on this point by 
President Bush when he continued the task force. And the way it 
is created is each cabinet head designates one member for the 
task force.
    Mr. Faleomavaega. And I think Ms. Velazquez asked 
previously, were there any hearings held, public hearings held 
in Puerto Rico concerning the activities of this task force?
    Mr. Marshall. With the understanding that Ms. Velazquez 
seems to have for that term, the answer would be no.
    Mr. Faleomavaega. So the task force just met among 
themselves, and deliberated on the legal aspects, everything 
that relates to the status of Puerto Rico? Is this how you 
conducted your hearings or meetings?
    Mr. Marshall. Members of the task force went to Puerto 
Rico. And when they were down there, my understanding is they 
primarily met with political leaders there, and this was 
covered in the press.
    Mr. Faleomavaega. So there were no public hearings held or 
anything.
    Mr. Marshall. I believe that is correct.
    Mr. Faleomavaega. And of the members, how many members in 
the task force again? For the record.
    Mr. Marshall. Well, for the record----
    Mr. Faleomavaega. You are co-chair of the task force. Was 
it 20 members? Thirty?
    Mr. Marshall. Well, I would say about 12.
    Mr. Faleomavaega. Twelve members of the task force.
    Mr. Marshall. The front of the task force report lists all 
the members.
    Mr. Faleomavaega. Would you say that all the members are 
from the Republican-oriented Administration?
    Mr. Marshall. I don't know.
    Ms. Christensen. Well, I mean, you are co-chair.
    Mr. Marshall. I had no hand in selecting the members of the 
task force. I was selected by the Attorney General. I don't 
know how other cabinet heads went about selecting their 
members.
    Mr. Faleomavaega. So when you say other cabinet heads, 
meaning this Administration.
    Mr. Marshall. Yes.
    Mr. Faleomavaega. For the recommendation?
    Mr. Marshall. An approach under President Clinton to the 
Executive Order, President Bush followed the procedure that 
President Clinton set up for composing the task force.
    Mr. Faleomavaega. My last question. I am just trying to, 
let us see if I can make the question better.
    Ms. Christensen. Please make it brief, because you have 
already exceeded your time. Quickly.
    Mr. Faleomavaega. The members of the task force, they are 
all members of the Administration, were they not?
    Mr. Marshall. Yes.
    Mr. Faleomavaega. Thank you.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Fortuno for questions.
    Mr. Fortuno. Thank you. First of all, just to clarify one 
matter brought up by my colleague from Mississippi, majority 
rule and not consensus is the standard in self-determination. 
And actually, there are a number of examples in the case of 
Wisconsin. In the beginning there was only 25 percent, 30 
percent in favor of statehood. Once Congress clarified the 
options for the voters, that number went up significantly. That 
is exactly what this Administration is trying to do. The same 
thing happened to Washington State, and there are many other 
examples.
    However, I want to say something before I ask any 
questions, Madame Chairwoman. I must recognize for the record 
that it makes a material contribution to the deliberations of 
this body and the record upon which Congress must act in this 
matter when the Administration participates in our hearings, as 
it has today. To some, this is not perceived to be arrogant in 
the short term, because there are many other issues. But I 
truly believe that the manner in which our nation addresses the 
issues of Puerto Rico's status will have a much greater impact 
on the future of our nation than many other issues that we are 
taking care of today.
    What is at stake here is whether the years ahead, we have a 
free, democratic, and prosperous Puerto Rico that can pay its 
own way, or a dependent colonial state which people must leave 
if they want a better life, if they still can under whatever 
positions prevail.
    Today's Administration witness, I want to thank him for 
being available, and for being forthcoming on this legislation 
on behalf of the Administration. We all know that there were 
many powerful forces and pressures to stop the progress and 
impede a solution on this issue, because there is always 
someone with a vested interest in the status quo no matter how 
many people, or if the Nation itself, would be better served by 
a real solution.
    And as I told the President today, the Administration 
should make no apologies whatsoever to anyone for standing up 
by a task force report and supporting legislation consistent 
with the findings and recommendations adopted by the 
departments and agencies of the Administration responsible for 
Puerto Rico affairs.
    Full engagement in this debate, based on the principles 
confirmed in this report, is the only way to align the 
Administration with a policy of full, informed, honest, and 
legitimate democratic self-determination. That is what is best 
for Puerto Rico and America. So I thank the Administration for 
coming today and doing what is right for the nation, and what 
is right for Puerto Rico.
    I want to ask you, first of all, in order to be here on 
behalf of the Administration, there was a process that you had 
to go through, is that right?
    Mr. Marshall. Yes.
    Mr. Fortuno. And your statements had to be cleared probably 
with OMB, the Office of Management and Budget, and the office, 
the White House?
    Mr. Marshall. Our testimony is cleared through the White 
House.
    Mr. Fortuno. OK. So when you come here, and you talk, and 
you speak on behalf of the Administration, you are fully 
authorized to do that on this issue.
    Mr. Marshall. Everything I have said in my statement is 
fully authorized, yes.
    Mr. Fortuno. And what you said today is the official 
position of the Bush Administration?
    Mr. Marshall. Yes.
    Mr. Fortuno. Can there be a commonwealth status that is not 
subject to Federal territory clause powers? Is there such a 
thing as a commonwealth as described by H.R. 1230, a supersized 
commonwealth, or enhanced commonwealth, as they are trying to 
portray?
    Mr. Marshall. No. I should qualify that. The task force 
report does say that Congress has flexibility in determining 
what exactly commonwealth status means, and what powers of 
self-government Puerto Rico has.
    Mr. Fortuno. But can that bind future Congresses?
    Mr. Marshall. No.
    Mr. Fortuno. And is that permanent in nature?
    Mr. Marshall. Congress's power is permanent, under the 
territorial clause.
    Mr. Fortuno. No, but the status, that supersized or 
enhanced commonwealth, is that permanent in nature?
    Mr. Marshall. No.
    Mr. Fortuno. Congress could take away whatever it gives. 
The next Congress could do that any time, unilaterally.
    Mr. Marshall. Yes, it could.
    Mr. Fortuno. And is it your position, and the 
Administration's position certainly, that this supersized or 
enhanced commonwealth proposal cannot be a status option, to 
solve this once and for all, for constitutional and other 
reasons? Is that what you have said today?
    Mr. Marshall. It is the Administration's position that a 
commonwealth provision, including a mutual consent clause, 
would not be constitutional.
    Mr. Fortuno. And what happens, then, if a convention, 
constitutional convention in Puerto Rico says that yes, that 
supersized or enhanced commonwealth is what we want? Does that 
solve the problem? Does that provide for a permanent status for 
Puerto Rico that is non-territorial in nature?
    Mr. Marshall. I guess the precise answer would be that that 
convention would think of itself as so providing, but that 
wouldn't be lawful under the Constitution.
    Mr. Fortuno. So would it be misleading to Puerto Ricans to 
enact legislation, including a status proposal, that the 
Federal government cannot, and will not, implement?
    Mr. Marshall. I wouldn't want to impugn motives, but it 
would be unclear.
    Mr. Fortuno. At the very least, certainly. So essentially 
what you are telling me, and I assume you are--and actually, 
you must be, because I certainly read your statement this 
morning, and I certainly have read several times the task force 
report and the recommendations.
    So essentially, you went over what these supersized or 
enhanced commonwealth proposals are. And when you state, very 
clearly in your report, that actually that is not doable, that 
those options are not encompassed under the U.S. Constitution, 
I assume that you looked back at what the Justice Department 
has stated, under at least three consecutive Administrations--
Bush 41, Clinton, and Bush 43--and that you certainly looked 
back at that. And that you still stand by that, by what you 
stated in the report, regarding that enhanced or supersized 
commonwealth status option.
    Mr. Marshall. On the constitutional question, we did look 
at the views of the Clinton Administration and the first Bush 
Administration; considered the matter further for ourselves; 
stand by it. The task force report also does recognize that the 
Justice Department had a different view dating from the 1960s.
    Mr. Fortuno. Of the two bills that are before the 
Subcommittee, is there one bill that is actually closer 
resembles the recommendations that actually presents to the 
Puerto Rican voters clear options that are doable under the 
U.S. Constitution?
    Mr. Marshall. I believe closely resembles would be an 
accurate description of H.R. 900.
    Mr. Fortuno. Thank you very much. I guess we will have 
another round. Thank you.
    Ms. Christensen. Thank you, Mr. Fortuno. The Chair now 
recognizes Mrs. Bordallo for five minutes.
    Ms. Bordallo. Thank you, Madame Chairman, and thank you for 
calling this hearing. We have been hearing about a status issue 
for Puerto Rico for many, many years.
    I represent the Territory of Guam, Mr. Marshall, and we 
have gone through a similar process. And believe it or not, we 
still do not have our future status. The bill came before 
Congress for over 10 years; we spent millions of dollars, and 
we just couldn't agree here in the U.S. Congress.
    Now, just for clarification, and I think some of the 
Members have already answered this, but I wanted to go on 
record very clearly. Does the report of the task force 
represent the Administration's official position? And I think 
Mr. Fortuno asked you that.
    Mr. Marshall. It does, now.
    Ms. Bordallo. Was this report vetted through the OMB 
process?
    Mr. Marshall. This report?
    Ms. Bordallo. Yes.
    Mr. Marshall. The report was prepared by the task force on 
its own.
    Ms. Bordallo. Did it go through the OMB? Did they look at 
it? Was there somebody representing OMB on the task force?
    Mr. Marshall. No.
    Ms. Bordallo. Did it receive unanimous approval of the task 
force members?
    Mr. Marshall. Yes.
    Ms. Bordallo. What is the Administration's position on both 
bills? And I think you did answer that earlier. H.R. 900, you 
said, was that compatible to their views?
    Mr. Marshall. What I said is that the Administration 
supports legislation on this question, and believes that the 
task force report is a good place to start. And recognizes that 
H.R. 900 is very similar to what the task force----
    Ms. Bordallo. Closely resembles their views, all right.
    Mr. Marshall. And I would just add, and then on H.R. 1230, 
it takes the view of the Constitution with which we disagree.
    Ms. Bordallo. Are there any particular aspects of the task 
force report or recommendations which were cause for serious 
deliberation, or which are the product of consensus?
    Mr. Marshall. All of the task force report is the product 
of consensus, because all members of the task force agreed with 
the final report.
    Ms. Bordallo. If so, in other words, were these conclusions 
easily reached? Or did they take some compromise?
    Mr. Marshall. I don't think I am free to get into that 
question in terms of deliberations. I will just say it is 
evident from the timeframe that we did take a while to reach 
the final report.
    Ms. Bordallo. So what you are saying to the committee, 
then, is many aspects of the task force are not public? Is 
that----
    Mr. Marshall. The final product is a public document. The 
deliberations that went into getting into it, to developing 
that final report, are not. Or at least I don't have the 
authority to make them public.
    Ms. Bordallo. Mr. Marshall, did the task force consider an 
enhanced commonwealth as an option for the plebiscite?
    Mr. Marshall. The task force considered enhanced 
commonwealth as an option generally, concluded that it wasn't 
allowed under the Constitution, and therefore, did not include 
it in the recommended plebiscites.
    Ms. Bordallo. Can you tell us what the deliberations of the 
task force were with respect to this option?
    Mr. Marshall. Again, I am not authorized to get into that.
    Ms. Bordallo. My comment before closing here is, I can't 
imagine a task force without representatives from Puerto Rico, 
the people of Puerto Rico. I just can't imagine that. I mean, 
certainly this is going to be a status or an option that will 
be with the people for the entire future, and they don't have 
any voice in this? You just took representatives from different 
Federal agencies, and put them together, and this was the task 
force to consider the status or to recommend what type of 
status for the Puerto Rico people? Is this what you are saying?
    Mr. Marshall. As I indicated in response to the prior 
question, the composition of the task force was determined by 
an Executive Order set up by President Clinton. And I would 
refer you to him for more details on why it was created that 
way.
    Ms. Bordallo. Well, thank you, Mr. Marshall. I don't think 
I am going to go up to the former President and ask him. In 
your own personal opinion, do you think this is fair?
    Mr. Marshall. I stand by the task force report, and think 
it is a good product.
    Ms. Bordallo. I didn't ask that question. I said do you 
think this is fair, without any representative, direct 
representation from the people of Puerto Rico on the task 
force?
    Mr. Marshall. Sorry to be picky, but could you explain what 
you mean by this?
    Ms. Bordallo. Yes. Well, I said, do you feel personally. I 
mean, if they were to consider your future, wouldn't you think 
that your state or your territory would be represented in a 
task force that is going to discuss the future status?
    Mr. Marshall. It would depend on the purpose of the task 
force. The purpose of the task force set out by President 
Clinton, continued by President Bush, was to be an internal 
Executive Branch advisory body to give a recommendation to the 
President.
    Ms. Bordallo. So you feel it was fair.
    Mr. Marshall. Given that purpose, I believe it was fair.
    Ms. Bordallo. All right. Thank you, Madame Chairman.
    Ms. Christensen. Thank you, Ms. Bordallo. I will now 
recognize myself for some questions in a second round.
    I want to ask you a question about something that gives me 
a great deal of concern. The task force stated that Congress 
can cede a territory to another nation. Now, you can understand 
why I would be concerned about that, right? If it so desired. 
To me, that is a pre-Civil War view of territories as property 
that really shouldn't have any place in this century.
    Do you think it is credible for a task force of this 
nature, coming out of the White House, to suggest that our 
Courts would allow Congress to cede territory where U.S. 
citizens reside without their saying so? Or agreeing to it?
    Mr. Marshall. Well, in this area in particular, Madame 
Chairman, there is probably a large gap between what the law 
would technically allow, and what would be desirable. I have 
addressed this in some questions for the record I have answered 
in response to the prior hearings.
    The fact of the matter is that under the Territorial 
Clause, Congress has powers to dispose of its territories, 
which would include relinquishing them. It does not at all 
argue that that would be a good thing, nor does it appear to be 
something that is likely to happen without the territory being 
consulted.
    Ms. Christensen. I am not a lawyer, and my father, who was 
one, always reminded me of that. But in the same vein, you said 
the law can technically provide, but that doesn't mean it is 
allowable. Wouldn't that also apply to the Congress changing a 
status that was decided by the people of the territory? Because 
we keep coming back to if the people of Puerto Rico decided to 
stay a commonwealth, Congress can change it. Wouldn't that same 
principle that you just stated to me apply there?
    Mr. Marshall. I take it you mean the principle that it is 
desirable not to make changes in the way people are governed 
without consulting them.
    Ms. Christensen. Yes. The law may provide, we are provided 
with the authority to do so, but it is not likely to happen. 
That is basically how you answered Ms. Bordallo in her 
question.
    Mr. Marshall. I can't remember the precise phrasing of your 
question, but I think it is certainly the Administration's 
view--and the President has said this before--that any change 
in Puerto Rico's status, which would include changing the 
details of the commonwealth within the limits of the 
Constitution should ultimately be up to the people of Puerto 
Rico.
    Ms. Christensen. Thank you. The question really was, even 
though Congress has the authority, the President in likelihood 
would not suggest that they would step in and change something 
that the people of Puerto Rico decided arbitrarily, without 
consulting the people of Puerto Rico. OK.
    Mr. Marshall. OK.
    Ms. Christensen. You also said something to the effect, and 
I know I may not be quoting you exactly, that the new 
commonwealth--in the response to that answer, no, there is 
nothing like the new commonwealth as proposed that exists now, 
or you may have even said likely to exist. But I think you said 
at least that it doesn't exist now.
    Now, no less a legal scholar than Felix Frankfurter once 
stated that in deciding the form of the relationship between 
the United States and its unincorporated territories, the 
Constitution has left the field wide open to inventive 
statesmanship that can help evolve new kinds of relationship, 
so as to combine the advantages of local self-government with 
those of a confederated union.
    Why should Congress pay more attention to the drafters of 
this report than exercising that that inventive statesmanship 
defines solutions to relationships that were not contemplated 
at the time of the Constitution? Do you disagree with Justice 
Frankfurter?
    Mr. Marshall. The Administration is all for inventiveness, 
as I indicated in stating the Administration's view on this 
question. But it needs to be done within the limits that the 
Constitution sets. All powers under the Constitution have 
limits. And I believe we have presented a good argument, as 
before as to the Clinton Administration, for where those limits 
are in this area.
    Ms. Christensen. OK. The report also recommends a two-step 
process that would put the votes for the two extreme options of 
statehood and independence competing together against the votes 
for commonwealth. If this combined vote of statehood and 
independence defeats commonwealth, we would then have a runoff 
between statehood and independence.
    How can that be fair, to have a process that excludes the 
option that most of the people, that has the most support in 
Puerto Rico, by having two other options gang up against that 
option? Why not have an independence yes-or-no vote, or a 
statehood yes-or-no vote? And I have other things that I would 
suggest maybe in asking the question.
    Mr. Marshall. There may well be other ways to structure 
this. The constraints that the task force looked to were first 
the limits of the Constitution, but also taking into account 
the inconclusive results of prior votes; trying to create a 
structure that would produce clear results that would provide 
some sort of guidance that Congress could use in enacting or 
not.
    Ms. Christensen. What would be a clear result, to you?
    Mr. Marshall. A majority vote in favor of an outcome.
    Ms. Christensen. Does a 50 percent plus one, voting for one 
status or another? I mean, what is a clear----
    Mr. Marshall. That would be clear. Whether it would be 
sufficient as a policy matter to justify Congress in taking 
some action I can't speak to. There was earlier reference to 
consensus, and prior admission of states. And it would 
certainly be prudent to consult that before acting based on a 
vote of 50-plus-one.
    Ms. Christensen. Thank you. And I recognize Mr. Fortuno for 
further questions.
    Mr. Fortuno. Thank you. I ask the question, does H.R. 900 
include all the real status options which have been discussed 
in the context of Puerto Rico? That is, continuing the current 
territory status, independence, nationhood and free association 
with the U.S., and U.S. statehood.
    Mr. Marshall. I believe so. I am hesitating on whether free 
association is separately in there as a flavor of independence. 
I think so.
    Mr. Fortuno. But it is included there. So would you say 
that H.R. 900 states clearly to the voters of Puerto Rico what 
the real options are, under the U.S. Constitution?
    Mr. Marshall. Yes.
    Mr. Fortuno. The Governor has proposed an enhanced 
commonwealth, or supersized commonwealth, under which the 
United States would be permanently bound to Puerto Rico, a 
Puerto Rico that could enter into international agreements, 
honorary sanctions, and that states that it cannot--sorry--it 
would be bound to granting a substitute to the insular 
government additional to what is presently granted. It would be 
replacing, repealing incentives for U.S. investments, and 
continue to grant free entry to the U.S. market of any goods 
shipped from Puerto Rico. All current assistance programs 
would, actually will continue, and U.S. citizenship will 
continue to apply.
    Is all that possible under a non-territorial enhanced 
commonwealth status? Is that doable under the U.S. 
Constitution?
    Mr. Marshall. It may be that some of those possibilities 
are allowed through Congress's power under the Territorial 
Clause, and I wouldn't want to guess on that right now.
    Mr. Fortuno. But can't they be taken away by a future 
Congress?
    Mr. Marshall. Yes.
    Mr. Fortuno. So it would not be permanent.
    Mr. Marshall. Correct.
    Mr. Fortuno. Actually, in addition to that, they have 
proposed that Puerto Rico would have veto power over Federal 
legislation, and would be able to curtail Federal court 
jurisdiction. Is that something that is doable and permanent in 
a new enhanced commonwealth, under the U.S. Constitution? If it 
is going to be permanent?
    Mr. Marshall. It is not something that could be made 
permanent, assuming that it could be done.
    Mr. Fortuno. Is it still your position, and the position of 
the Administration, that this supersized or enhanced 
commonwealth proposal cannot be a status option, for 
constitutional and other reasons, if we want to solve this once 
and for all? To make it permanent?
    Mr. Marshall. It is still the Administration's position 
that a commonwealth provision with a mutual consent clause 
would not be constitutional.
    Mr. Fortuno. Having a Puerto Rican convention, would that 
change your opinion?
    Mr. Marshall. No.
    Mr. Fortuno. How do you respond to the constitutional flaws 
of H.R. 1230, as outlined in the testimony that actually Ken 
Thomas from the Congressional Research Service stated in our 
last hearing here on March 22? Have you read that statement?
    Mr. Marshall. I have not.
    Mr. Fortuno. You have not? OK. Could you provide to us, to 
the committee, an answer to, once you have analyzed and studied 
that statement, if there are any responses on your behalf 
regarding the constitutional flaws that were underlined and 
underscored by Ken Thomas?
    Mr. Marshall. We will look at Mr. Thomas's statement.
    Mr. Fortuno. Can we make sure that the full committee 
receives that?
    Ms. Christensen. Without objection.
    Mr. Fortuno. OK, thank you. Thank you very much.
    Mr. Marshall, in Governor Acevedo's statement of today, he 
cites Professor Aleinikoff. And he states a number of things 
about how sovereignty can be actually enhanced or develop into 
something that you have already stated that at least the 
position of the Administration is that it cannot. Can you 
enlighten us, and answer whether the Administration, does the 
Administration, including the Department of Justice and State, 
agree with the Governor and the professor, that Puerto Rico 
should have its own foreign policy and legal capacity to enter 
treaties, and lead to obligations of laws and treaties as to 
the U.S.? Treaties that the U.S. enters into, under an enhanced 
commonwealth status, would you be able to actually enlighten us 
with that?
    And if you need more time, could you submit in writing to 
this committee the Administration's position on this?
    Mr. Marshall. I am sorry, can I unpack that question a 
little bit?
    Mr. Fortuno. Sure. The idea really is for you to put this 
in writing, to be very honest. But certainly, if you were to 
read Governor Acevedo's statement of today, he is stating that 
indeed, Puerto Rico could enter into foreign treaties. And, 
under that theory, that this professor states, citing a 19th 
century concept of sovereignty. And I would like for you to 
look at Governor Acevedo's statement of today, and provide us 
with your reaction and the Administration's reaction to those 
statements, as to whether Puerto Rico could enter into this 
international treaties under an enhanced commonwealth status, 
as he is suggesting that we can enter into. And actually 
suggesting, as well, that that could be a permanent solution to 
our status problem.
    Mr. Marshall. I am happy to entertain questions for the 
record, which I assumed I would be receiving.
    Mr. Fortuno. Exactly, as well. I know my time is up. 
Certainly with those two requests, I yield back the balance of 
my time.
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Faleomavaega for five minutes.
    Mr. Faleomavaega. Thank you, Madame Chair. And I appreciate 
Mr. Marshall's patience.
    Mr. Marshall, not wanting to put any words in your mouth, 
but also to take it out of context, but I would like to, if you 
could restate, if I heard it correctly, you did say that 
commonwealth status is not constitutional?
    Mr. Marshall. What is often referred to as enhanced or new 
commonwealth status----
    Mr. Faleomavaega. No, no, no. The current commonwealth 
status of Puerto Rico. Did I hear it correctly, you saying that 
it is not constitutional?
    Mr. Marshall. I did not say that. The current status is 
constitutional.
    Mr. Faleomavaega. Can you state that again? Let me ask the 
question again.
    Mr. Marshall. The current commonwealth status is 
constitutional. It is also subject to revision by Congress.
    Mr. Faleomavaega. OK. Well, as I noted here clearly, you 
did say, verbatim, commonwealth is not constitutional. that is 
why I am trying to ask you to follow up on this. If this is 
what you----
    Mr. Marshall. If I said that, I misspoke.
    Mr. Faleomavaega. OK. So you didn't mean that. Because my 
next question was, if commonwealth is not constitutional, why 
hasn't the Department of Justice issued an opinion clearly 
saying that commonwealth status is not constitutional. But you 
say that that is not the case.
    Mr. Marshall. No. I may have misspoken. I refer you to the 
report, which may be clearer on that.
    Mr. Faleomavaega. What is your understanding of a territory 
being an unincorporated territory?
    Mr. Marshall. That generally means a territory that isn't 
on the road to statehood.
    Mr. Faleomavaega. A territory on the road to statehood? An 
unincorporated territory?
    Mr. Marshall. That is the meaning that the Supreme Court 
developed after the Spanish-American War.
    Mr. Faleomavaega. I beg to differ with you, Mr. Marshall. 
My understanding is that a territory that has an unincorporated 
status, it means that it will never see the day of ever 
becoming a state. That was the result of the Supreme Court 
decisions on the insular cases, one being Downes v. Bidwell.
    Mr. Marshall. I have stated--sorry, go ahead.
    Mr. Faleomavaega. No, I just wanted to ask you if that is 
your understanding of what an unincorporated territory means.
    Mr. Marshall. My understanding of the concept of 
unincorporated territory is not that an unincorporated 
territory can never become a state. Congress is free to admit 
an unincorporated territory. It is rather an assessment that, 
given all the circumstances to date, it doesn't appear that the 
territory is on the way to statehood.
    Mr. Faleomavaega. So my concern for this is because Puerto 
Rico is an unincorporated territory, according to the legal 
definitions that I have read.
    Mr. Marshall. That is correct. And the report also says 
that.
    Mr. Faleomavaega. And the irony of this is that one of the 
given options for Puerto Rico's future is that it can become a 
state, even though it is an unincorporated state. Territory, 
rather. Do you see my problem?
    Mr. Marshall. I see your point, but again, I don't think 
there is anything in the Supreme Court's cases, including 
Downes, that says Congress cannot later change its mind and 
decide that an unincorporated territory should be incorporated, 
including as a state.
    Mr. Faleomavaega. My understanding of the Doctrine of 
Incorporation was by judicial legislation. It was a series of 
cases that were decided by the U.S. Supreme Court, which led to 
the Doctrine of Incorporation. And one of the concerns here, 
like the territories of Alaska and Hawaii, they were both 
incorporated territories, which meant that at some future time 
in these territories' future, that they would eventually become 
states. And that is what they have become now; they are both 
states.
    And one of the questions that I raise is, if I am correct--
and my reading is limited, it really is an understanding--is 
that historically, Puerto Rico has always been known as an 
unincorporated territory. And that is why I raise the question, 
if it is an unincorporated territory, then how does that square 
with the idea that if that is the case of the status, then 
where does statehood come into it? Because that is not being, 
that hasn't been the tradition or the practice of the Doctrine 
of Incorporation.
    Mr. Marshall. Again, I agree that Puerto Rico is now 
unincorporated, but Congress can change that.
    Mr. Faleomavaega. So am I correct? And I don't want to put 
words in your mouth, sir. What you are saying now, a territory 
can be unincorporated, and can also be a state if Congress 
rules it?
    Mr. Marshall. Yes.
    Mr. Faleomavaega. OK, thank you. In essence, Mr. Marshall, 
could it be fair to say that, as the official representative of 
the President of this Administration, the Administration does 
support statehood as an option?
    Mr. Marshall. The President himself has said publicly, and 
I think this goes back at least to 1999, that his personal 
preference is for statehood. But he has also been quick to say 
that the ultimate decision is for the people of Puerto Rico.
    So in the task force, the Executive Order didn't say please 
implement the personal preference of the President; it was 
please figure out what options the Constitution allows, and 
find a way to ascertain the will of the people on that 
question.
    Mr. Faleomavaega. Thank you, Mr. Marshall. Thank you, 
Madame Chair.
    Ms. Christensen. Thank you, Mr. Faleomavaega. The Chair now 
recognizes Mr. Burton for--I welcome you to the hearing, and 
recognize you for five minutes.
    Mr. Burton. Well, thank you very much. I have been for 
Puerto Rican statehood for a long time, and I believe this bill 
provides a mechanism through which we can ascertain what the 
people of Puerto Rico want. And then it also provides a 
mechanism to get us to a vote in the Congress regarding 
statehood.
    So I don't have a long statement, other than to say I would 
like to see the next generation of children in Puerto Rico grow 
up to be United States citizens, and Puerto Rico to be the 51st 
state. And with that, I will shut up.
    Ms. Christensen. The Chair now recognizes Ms. Bordallo for 
five minutes.
    Ms. Bordallo. I have no further questions. If I could, I 
would like to yield my time to Mr. Serrano. Can I do that?
    Ms. Christensen. Certainly.
    Mr. Serrano. Thank you so much. Thank you. First of all, 
Madame Chairwoman, and to the Members of the committee, I thank 
you for the opportunity to participate, and I thank you for the 
opportunity that you have given us by having this hearing.
    This indeed is a very important hearing, because you can't 
discuss this subject enough. In fact, we have been discussing 
it for over 100 years. And one of these days we are going to 
come to a conclusion.
    I want to, from the onset, be very clear, as I was at the 
last hearing. When I introduced H.R. 900, I did it because H.R. 
900 brings about the solution in the way that I think is right, 
not only for the people of Puerto Rico, but also for this 
Congress and the people of the United States. For you see, I 
find myself in a unique situation.
    I was born in the Commonwealth, but I am a Member of the 
Congress of the United States. And so, at any given moment, I 
see Puerto Rico, its political status, as a Puerto Rican. But 
at the same time, I can see its political status as a Member of 
the U.S. Congress.
    And as a Puerto Rican, I think it is not proper that 108 
years later we are still a colony of the United States, a 
territory. But I can also tell you that, as an American 
Congressman, I think it is pretty embarrassing that my country 
still has a territory in the Caribbean in 2007.
    And so to me, this bill resolves those needs that I have, 
both as a Puerto Rican and as a Member of Congress, to deal 
with this issue.
    Interestingly enough, what the bill does is something that 
speaks to what Mr. Wicker, who is not here, spoke to before. 
The bill asked the public very clearly, do you wish to remain 
as you are, or change your relationship to the United States. 
Those who say that my bill opposes commonwealth have not given 
me credit for having to compromise my beliefs in the first part 
of the bill by allowing the question, do you wish to remain a 
colony of the United States. That is what it says.
    If they vote to change, then I think the only logical, 
sensible, and legislatively moral question should be, do you 
want to integrate into the Union, or do you wish to separate 
from the Union. Again, those who oppose our legislation say 
that I give no break, no opportunity for an enhanced 
commonwealth status.
    Well, I answer in two ways. I will support any option that 
ends the colonial status of Puerto Rico. An enhanced 
commonwealth, as presented in my sister's, Ms. Velazquez's, 
bill does not accomplish that.
    But there is an enhanced commonwealth. It exists already, 
and it is in my bill. It is called free association. It is one 
of the independence options, to negotiate a new status which 
will allow Puerto Rico and the U.S. at any moment to pull out 
of the relationship, but which could give the people of Puerto 
Rico sovereignty within a relationship with the United States.
    Now, this is not something I made up. Statehood is 
recognized internationally as giving people sovereignty. 
Independence is recognized internationally as giving people 
sovereignty. And as associated, or free association, is 
internationally recognized as sovereignty.
    You cannot, at this stage of the game, come back to the 
people of Puerto Rico, after a process, and say I offer you to 
remain a colony. I offer you the opportunity not to vote for a 
President. I offer you the opportunity not to elect your own 
President. I offer you the opportunity not to have Members of 
Congress with a vote representative of your island, and I don't 
give you the opportunity to elect your own Congress on the 
island. That is morally improper to come back.
    It also attacks everything we stand for. How can we 
continue to promote our brand of democracy through the 
Caribbean and through Latin America, and indeed throughout the 
world, and hold a colony for 108 years?
    Mr. Wicker spoke to a very interesting point. He said my 
bill is unfair because the final decision will be made by the 
two options that are so opposed to each other: statehood and 
independence. Not true. It is possible that statehood and 
independence are totally in agreement, because they are the 
only two options that end the colonial status of Puerto Rico. 
Either way, statehood or independence ends that colonial 
status.
    And so, as we sit here today, in recognition of something I 
said before, I am the leader of a movement that has one member: 
me. Which is statehood or independence. For years Puerto Ricans 
I think have made the mistake on the island of being for 
something; for independence, for statehood, for this, for that. 
That is a mistake. I think what Puerto Ricans should do is be 
against something, jointly, together be against the colonial 
status.
    But interestingly enough, even those who support the 
commonwealth are against the commonwealth, because they don't 
support this commonwealth. They support a letter to Santa 
Claus, guaro ferere llamado, saying give me all of these things 
which will make me look like a state, without the 
responsibilities of a state. Give me all of these things that 
will make me look like an independent nation, without really 
being independent.
    My friends, it is time to just reach a conclusion. And my 
conclusion is that what is good for the people of Puerto Rico 
is good for the people of the United States. The United States 
cannot hold a colony in 2007. Puerto Rico cannot be a colony in 
2007.
    And in concluding, my bill agrees with the other bill in 
only one way. I am very happy that they accepted the well known 
Serrano Amendment, which would allow those of us born on the 
island who reside in the 50 states to be able to vote in this 
vote.
    And I know that that is a controversial issue, but here is 
my issue, here is my point. Puerto Ricans moved out of Puerto 
Rico not because they bothered them or because the palm trees 
were a problem, or because the beaches were too hot, or because 
the sand bothered their feet. They left because there was an 
economic condition that created a problem, and that is why they 
left.
    That condition was a direct result of the relationship 
between the U.S. and Puerto Rico. When that relationship is 
settled once and for all, and my bill settles it once and for 
all, then all the children of the colony should be able to 
vote.
    I am not proposing later that I vote for Governor of Puerto 
Rico if it is a state, or that I vote for President of Puerto 
Rico if it is a republic. But I am proposing that this one 
time, in this process, all the children of the colony 
participate.
    Mr. Faleomavaega. Will the gentleman yield?
    Ms. Christensen. The gentleman's time has expired.
    Mr. Faleomavaega. Madame Chair, I believe the gentlelady 
from Guam gave five minutes to the gentleman from New York.
    Ms. Christensen. We have two more panels, and we have other 
people who have to ask questions. So Mr. Serrano was wrapping 
up.
    Mr. Faleomavaega. I do have a very important question that 
I want to ask the gentleman.
    Ms. Christensen. I need to move to the, I do need to move 
to the next Member.
    Mr. Serrano. Thank you, Madame Chairwoman.
    Ms. Christensen. Thank you. And we did give him almost 
eight minutes. I ask unanimous consent that the gentleman from 
Florida, Mr. Diaz-Balart, be allowed to sit on the dais and 
participate in the hearing. And if there are no objections, so 
ordered. And I now recognize Mr. Diaz-Balart for five minutes.
    Mr. Diaz-Balart. Thank you, Madame Chair, and all 
distinguished colleagues, for the ability to address you today 
as though I were a member of this distinguished committee. This 
is a subject not only of great interest, but close to my heart.
    I think that one thing that strikes me in analyzing the 
Puerto Rican reality is how there is a longing for, change is 
the word, because of dissatisfaction with the status quo, even 
from my friends who support the talalio de social over 
commonwealth.
    In other words, what I am trying to say is that I sense, I 
sense a longing for a final solution, if you will; a permanent 
solution from the entire spectrum in Puerto Rico. And that is 
one thing that strikes me as unavoidable.
    And so I think that we in Congress should do what we can to 
allow the final status, the voice of the Puerto Rican people to 
be heard with regard to the issue of the final status, of a 
final status.
    And that is why I support H.R. 900. It is, I think, a very 
well-thought-through, amended piece of legislation that is 
seeking to listen to the people of Puerto Rico with a 
Congressionally designed framework, so that obviously there is 
a chance of Congressional action once the people of Puerto Rico 
speak. Because that is one thing to keep in mind. What we want 
to avoid is debate here for the sake of debate.
    If we want to resolve this issue, then let us try to devise 
a structure where, when the Puerto Rican people speak, Congress 
accepts. And I have said--and my approach is somewhat different 
from prior speakers, both Mr. Burton and Mr. Serrano, who have 
very strong opinions with regard to the final decision of the 
Puerto Rican people. My point is I support self-determination. 
I support the decision of the Puerto Rican people, whatever the 
Puerto Rican people decide.
    And as I have said, once the Puerto Rican people speak, 
there will be no one in this Congress who will be more adamant, 
stronger in defense of their decision, than me. But I don't 
think it is proper for me, as a non-Puerto Rican, to have an 
opinion with regard to how the people of Puerto Rico should 
speak, should decide this issue.
    I do think this is a fair, Congressionally designed 
framework for their decision, though. And it says are you for 
status quo? And it is very respectable. In my view, it is a 
very respectable option, status quo.
    But if not, if you are for a permanent, non-territorial 
solution, then you have the option of expressing so, and ending 
the territorial reality, which is the status quo. In other 
words, this is realistic, in my view. In addition to realistic, 
a well-thought-through, appropriate, Congressionally designed 
vehicle framework for a final decision by the people of Puerto 
Rico with regard to their status.
    Congressman Fortuno has worked as I have seen few Members 
in my 15 years here ever work an issue. In my 15 years here, I 
don't remember ever meeting a Congressman, a representative, 
who has worked an issue so diligently, so intensely, so 
passionately, with arguments that are persuasive; logical, 
respectable arguments that respect all his colleagues, and have 
the effect of persuading them, as Mr. Fortuno has done and 
continues to do.
    And I know that Congressman Serrano and I often don't 
agree. But on H.R. 900, we agree. And I simply want to 
reiterate, Madame Chair, my respect for the people of Puerto 
Rico. My best wishes for them. And that I think that this 
Congress should provide them the respect and the deference of 
this Congressionally designed framework to let them decide on a 
final status decision. That is why I support H.R. 900. Thank 
you very much.
    Ms. Christensen. Thank you, Mr. Diaz-Balart. The Chair now 
recognizes Mr. Kennedy for five minutes.
    Mr. Kennedy. Thank you, Madame Chair. I think the greatest 
evidence to where we are today, as to where Puerto Rico is 
politically, is the fact that Puerto Rico cannot decide to even 
decide what to do, without coming to Congress first.
    The proof is in the pudding. You are here before us. If you 
were so sovereign, why not just go and do this? Why bother with 
us?
    The fact is, you can't. Because you are under the United 
States of America's jurisdiction, so far as the Constitution is 
involved in the Territorial Clause. And you can put as many 
plebiscites of your own on the ballot, but they are not worth 
the paper they are written on if the U.S. Congress doesn't 
sanction them.
    Now, I don't like that any more than you do. And that is 
why I am behind the Serrano bill. Because I think it is about 
time that the U.S. Congress actually sanctioned an election 
where the people of Puerto Rico finally have a choice about 
their future; where they do not have to wonder whether this 
plebiscite is going to mean anything, because it is just a 
mockery of the political process, because everybody knows that 
it will have no real effect because it isn't sanctioned by 
Congress. And Puerto Ricans can do whatever they want, but it 
is not going to mean anything if the U.S. Congress doesn't OK 
it.
    That is why we are here today. Because the U.S. Congress 
has to give a Federal acknowledgment and OK to this plebiscite 
for it to be a constitutionally recognized process, by which 
Puerto Rico then takes the next step for it to choose among 
those constitutionally recognized options of free association, 
independence, or statehood.
    So people can argue whatever position they would like to 
argue about Puerto Rico's political status of being a co-equal 
here, but it seems to me they do not have co-equal footing if 
they are really at the mercy, if you will, of a Congress where 
they only have one vote as a Member, where they should have six 
others if they were a state, for example. Where they do not 
have the representation that they would otherwise have. And 
where, frankly, they will not have any say over whether they 
have the choice or not until Congress says they have the 
choice. That is pretty insulting.
    I find it offensive that they have to wait on us to give 
them the choice to decide themselves as to whether they have a 
future or not. So I would like to ask Mr. Marshall to explain, 
because I think there has been some question here as to how the 
whole process was arrived at, at which commonwealth was 
determined to be unconstitutional. Could you take us through 
that process, as to how, you know, what the legal process is by 
which you determined that commonwealth was unconstitutional?
    Mr. Marshall. Let me first start by clarifying in response 
to some earlier questions that our view is not that 
commonwealth is unconstitutional; our view is that a provision 
that couldn't be changed without the mutual consent of Puerto 
Rico and the United States, commonly known as new commonwealth 
or enhanced commonwealth, is unconstitutional.
    With regard to that status, the report lays out in some 
detail what that status means, what the prior view of the 
Justice Department is, and what the current view is. And then 
it outlines the reasons for that view. There are also several 
appendices to the task force report that include much more 
extended analyses by the Clinton Justice Department.
    The short answer is that one Congress is generally not able 
to bind a future Congress, and that general rule applies to 
Congress's regulation of territories under the Territory 
Clause.
    Mr. Kennedy. So that if Puerto Rico wants to have any 
sovereignty, permanent sovereignty, it could not bank on a 
commonwealth status, because that status would change in any 
given Congress if that future Congress decided to change the 
status.
    Mr. Marshall. Correct.
    Mr. Kennedy. That is a pretty telling reason why 
commonwealth does not work as a permanent status. Thank you.
    Ms. Christensen. The gentleman's time has expired. Thank 
you, Mr. Kennedy.
    The Chair now recognizes Ms. Sanchez for five minutes.
    Ms. Sanchez. Thank you, Madame Chair. And first let me 
thank you for allowing me to sit up here with this committee 
today.
    My interest in Puerto Rico, aside from the fact that of 
course I am Latina, and so I love everybody south of here, but 
in particular because sitting as one of the Ranking Senior 
Members of the Armed Services Committee, it just always amazes 
me what Puerto Ricans are doing for our country.
    I just went in March, the beginning of March, to Iraq. And 
there was a group, large group, led by a woman, Puerto Rican, 
but all of them were from Puerto Rico, who were going out every 
night and finding the IEDs on the roadways, clearing the 
roadways in Iraq so that our troops could travel the next day. 
I mean, really difficult and dangerous work. And there were the 
Puerto Ricans.
    And I remember the Vieques challenge that we had a few 
years ago, and the fact that our colleague at the time didn't 
even have a vote of what was going on, and what we were trying 
to do. And the Navy pulling out, and the devastation of the 
economy, the local economy for Puerto Rico.
    And do you know, there wasn't anything that could be done 
here, in a sense. Because really, it is, in a sense, Mr. 
Serrano, a colony, as you have said before.
    So we have this great group of people who are U.S. 
citizens, but really don't have a say. And, you know, I am born 
and raised and have grown up in California, so I am a 
statehooder in that sense. That is what I come from, that is 
the background I have. I know myself as the rights we have as 
the great State of California. But at the same time, I would be 
remiss to tell Puerto Ricans what they should look like. And I 
understand that.
    So I want you to have that vote to decide what you want to 
be, with respect to the United States. And I hope, because I 
know that the Congress has to do it, I hope that we can get 
that done. Because this issue has been here in the 11 years 
that I have been in the Congress, and still no resolution to 
it.
    I have just one question for Mr. Marshall, if you will. Can 
there be a commonwealth status not subject to Federal Territory 
Clause powers? I am trying to understand why we would put up a 
vote on something that can be impacted by the Federal 
government, where even this island doesn't have a vote.
    So can there be a commonwealth status not subject to 
Federal Territory Clause powers?
    Mr. Marshall. No, unless Puerto Rico were made a state and 
decided to call itself a commonwealth, like Virginia has.
    Ms. Sanchez. So is commonwealth status, as described in my 
good colleague's bill at H.R. 1230, a real possibility? Is that 
a real possibility? Or are we just putting out something to the 
people of Puerto Rico that really is not going to work?
    Mr. Marshall. Your description is correct as to what that 
bill calls new commonwealth status. New or modified, sorry.
    Ms. Sanchez. New modified?
    Mr. Marshall. The bill's language is new or modified 
commonwealth status. And your description is correct as to 
that.
    Ms. Sanchez. So would you consider that to be misleading? I 
mean, I want the Puerto Ricans to have a vote. I just would 
feel badly if we, as a Congress, sanctioned something, and had 
them vote on something; or they thought they could vote on 
something that then they would turn around and we would do 
nothing with, or we would say it is unconstitutional, we are 
not going to do that, or you can't have unilateral power on 
this.
    Is something like H.R. 1230 then misleading, if one would 
take a vote on that?
    Mr. Marshall. It is inaccurate and unclear, and it could 
cause confusion.
    Ms. Sanchez. OK. Just trying to figure out the differences 
and what it means for us.
    I would like to thank you, Mr. Marshall. I missed your 
testimony earlier, but I, for myself, am trying to figure out 
how we get this done and find some common ground. Thank you.
    Thank you, Madame Chair, for the time.
    Ms. Christensen. Thank you, Ms. Sanchez. I ask unanimous 
consent to include the written opening statement of Mr. Serrano 
for the record. OK. You have other statements, OK. I recognize 
you to enter the statements.
    Mr. Serrano. Madame Chairwoman, I have a statement from my 
colleague from the Bronx, New York, Representative Eliot Engel, 
in support of H.R. 900 that I would like to turn over to you.
    Ms. Christensen. Without objection?
    Ms. Sanchez. Madame Chair?
    Ms. Christensen. Ms. Sanchez?
    Ms. Sanchez. May I also submit an opening statement for the 
record?
    Ms. Christensen. Yes, without objection. For Fortuno?
    Mr. Fortuno. Yes. Mr. Don Young from Alaska will not be 
able to join us, but he asked me to ask for unanimous consent 
to introduce his written statement into the record.
    Ms. Christensen. Without objection, so ordered.
    Mr. Fortuno. It is in support of H.R. 900, as well.
    Ms. Christensen. Thank you. Without objection, so ordered.
    [The prepared statement of Mr. Young follows:]

         Statement of The Honorable Don Young, Ranking Member, 
                     Committee on Natural Resources

    First off, I welcome my many friends and the distinguished leaders 
from Puerto Rico who have traveled so far to be here with us today.
    Thank you all for coming:
    <bullet>  The Honorable and current Governor Anibal Acevedo-Vila, 
also a former Member of Congress;
    The distinguished former Governors:
    <bullet>  The Honorable Pedro Rossello;
    <bullet>  The Honorable Rafael Hernandez-Colon; and
    <bullet>  The Honorable Carlos Romero-Barcelo, also a former Member 
of Congress.
    I also warmly welcome my fellow legislators:
    <bullet>  The Honorable Kenneth McClintock, President of the Puerto 
Rican Senate;
    <bullet>  The Honorable Jose Aponte-Hernandez, Speaker of the 
Puerto Rican House of Representatives;
    And their distinguished counterparts:
    <bullet>  The Honorable Jose Dalmau-Santiago, Senate Minority 
Leader; and
    <bullet>  The Honorable Hector Ferrer Rios, the House Minority 
Leader.
    Finally, I welcome all of our other distinguished witnesses, 
including from President Bush's Administration, The Honorable Kevin 
Marshall, Co-Chair of the President's Task Force on Puerto Rico's 
Political Status and Deputy Assistant Attorney General.
    Thank you all for making a very important day in Puerto Rico's and 
the United States' history.
    Madame Chairwoman, thank you for holding this second hearing on the 
political status of Puerto Rico and to consider H.R. 900, ``The Puerto 
Rico Democracy Act of 2007'' of which I am a proud co-sponsor, a bill 
authored by my good friend, Mr. Fortuno, the Ranking Republican of this 
Subcommittee on Insular Affairs, and Congressman Jose Serrano (D-NY).
    Now there is an alternative bill, H.R.. 1230; but I believe it is 
not a realistic alternative.
    As I stated at the previous hearing on March 22, I believe H.R. 
1230 is ``DOA-Dead on Arrival'' in this Congress.
    It is constitutionally flawed and it is politically flawed.
    H.R. 1230 would give Puerto Rico a chance to have a ``new 
Commonwealth'' status that gives it all the benefits of statehood but 
without the same application of federal law as all other states must 
bear.
    As my good friend from across the aisle Mr. Serrano pointed out at 
the last hearing, there are 435 Members of Congress who would want the 
same deal.
    It's just not possible to move that bill thru this House and the 
Senate.
    I have been a strong supporter of Puerto Rico for a long, long 
time.
    In the 105th Congress, I sponsored a bill, H.R. 856, to resolve the 
political status of Puerto Rico.
    After three Committee hearings, including two in Puerto Rico, the 
Committee passed the bill, and so did the House.
    While H.R. 900 is somewhat different from the bill I sponsored in 
1997, it conforms to my basic goal, which is to enable the people of 
Puerto Rico to determine their status in a manner that is democratic 
and consistent with historic, legal, and constitutional precedents.
    The opportunity for Puerto Rico to move forward, however its 
citizens may choose, is here now and is embodied in H.R. 900.
    If Puerto Ricans wish to seize democracy today, and exercise their 
rights to choose their destination, whatever that might be, then 
embrace and support a bill that can move the self-determination process 
forward for all Puerto Ricans.
    And win, lose, or draw; or rather, commonwealth, statehood, 
independence, or free association, Puerto Rico will have the best 
democratic process available for everyone to participate in-and not one 
for just a handful of convention delegates.
    Thank you Madame Chairwoman.
                                 ______
                                 
    Ms. Christensen. I would like to thank the witness for his 
valuable testimony, and the Members for your questions and you 
for your answers, Mr. Marshall. Members of the Subcommittee may 
have some additional questions, as you have heard, and we will 
submit them to you in writing, and we would ask for you to 
respond in writing.
    You are now excused, Mr. Marshall, and I would like to 
recognize the second panel of witnesses.
    On the next panel will be The Honorable Anibal Acevedo-
Vila, the Governor of the Commonwealth of Puerto Rico, and also 
the President of the Popular Democratic Party. Also, Mr. Ruben 
Berrios-Martinez, President of the Puerto Rican Independence 
Party. And finally, The Honorable Pedro Rossello, former 
Governor and current Senator, as well as the President of the 
New Progressive Party.
    The Chair, if we are settled, the Chair would now recognize 
our former colleague, The Honorable Governor Anibal Acevedo-
Vila, to testify. The timing lights will indicate when your 
time is concluded. And your formal, full statement will be 
submitted for the hearing record.

     STATEMENT OF THE HON. ANIBAL ACEVEDO-VILA, GOVERNOR, 
 COMMONWEALTH OF PUERTO RICO AND PRESIDENT, POPULAR DEMOCRATIC 
                             PARTY

    Mr. Acevedo-Vila. Thank you, Madame Chairman. Thank you for 
this kind opportunity, and it is really a pleasure to be back 
in Congress and now testifying on these important issues as 
Governor of Puerto Rico, and also as the President of the 
Popular Democratic Party.
    As you just mentioned, my written statement is already part 
of the record, and I will make reference to some part of it. 
And now, in my written statement I wasn't addressing too much 
about the White House Task Force report, because that was an 
issue that has been discussed a lot in the past. But I have to 
say that after what I have heard just today, I have to make 
some expressions about that report.
    Number one, it is a report that nobody knows how many 
meetings they had, if they ever met as a group, what kind of 
internal discussions they had. It didn't go through OMB or any 
other agency.
    Number two, no public hearings nowhere. Just some private 
meetings in Puerto Rico. And then, when Mr. Marshall was asked 
by Congresswoman Velazquez why the report was so simplistic, so 
shallow, his answer was because we were thinking about the 
audience. And I can only imagine two audiences of that report: 
this Congress and the people of Puerto Rico. So I take that, as 
a former Member of Congress, as an insult, and as the Governor 
of Puerto Rico, as an insult to the people of Puerto Rico. The 
report was simplistic because apparently we cannot read and 
understand complex issues with legal arguments.
    But then, when he was asked by Congressman Faleomavaega, 
now we discover that he doesn't know the difference between an 
unincorporated territory and incorporated territory. So in 
terms of that report, which is the basis of H.R. 900, I will 
use an expression we use in Puerto Rico, in Spanish. [Spanish 
phrase.] That is the seed of this process. A report that had to 
be written simplistic because apparently maybe Congress or the 
people of Puerto Rico would not have understood it if it was 
more complicated or more elaborated.
    So I think that in terms of what you have heard today 
really, really--and then we go to H.R. 900. And the way the 
votes are counted, every plebiscite has been held in Puerto 
Rico has been won by commonwealth. You might think that that is 
a mistake that the people of Puerto Rico voted for that. So 
now, since there is no way that can statehood win, what they 
are proposing is let us add the second and the third place 
jammed in together, so we can defend the first place, and then 
we will have a runoff election between the second and third 
place. That is not only undemocratic; that is un-American. I 
have never heard of a runoff election between the second and 
third place.
    And then, in terms of all those legal arguments about 
commonwealth, whether it is constitutional or not 
constitutional, mutual consent, let me first say that until 
1991, the position of the Department of Justice was that it was 
constitutional; that you could agree mutual consent clause. And 
then that changed. Did the Constitution change? Do we have a 
different Constitution now than the one we had in 1990, 1989, 
1987, 1970? So that just points out that this is basically an 
issue of political will.
    And I have quoted, and I am going to take some time to 
quote some, some of them, some important callers. And yes, they 
have written, and I invite all of you to read them, because I 
believe you can understand them, and you can have a good 
discussion about what those callers says.
    Professor Alexander Aleinikoff, Dean of Georgetown Law 
School, actual Dean today, published this book in 2002. And he 
says, ``The commonwealth opponent reasoning seems to be this. 
The United States Constitution knows only the mutually 
exclusive categories of state and territory. States and full 
and equal members of the Union, but territories are subject to 
plenary Federal power. Such plenary power may be surrendered 
only by moving outside the territory clause by granting 
statehood or independence.''
    And then he says, to me what is a challenge to this 
Congress, ``The infamous insular cases recognize the need for 
Congressional flexibility in handling the unanticipated 
situation of empire. When flexibility is now by mutual consent 
of Capitol and former colony exercised to restore dignity and 
self-government, why should Congressional power suddenly be 
read narrowly?''
    And more specifically, he asked Congress, ``The question is 
whether we can think of solving two notions of sovereignty that 
permit overlapping and flexible arrangements attuned to complex 
demands of enhanced autonomy with a broader regulative system 
of generally applicable constitutional and human rights and 
norms.''
    Responding that, if both Congress and the people of Puerto 
Rico seek to establish a new relationship that recognizes space 
within the American constitutional system for autonomous, it 
will behoove either the Executive Branch or the Judiciary to 
set such efforts aside in the name of 19th century conceptions 
of sovereignty.
    The Constitution should not be read out of fear and 
loathing of new understandings of sovereignty, to prevent 
promising power-sharing arrangement that provide space for 
political and cultural autonomy.
    And Professor Michael Weisman from Yale University says, 
``The barriers to enhanced commonwealth status are more 
political than legal.'' It is said also by Professor Pildes 
from NYU that testified before this committee, I think it was 
last month. So this is basically a political argument, not a 
legal argument.
    If you want, if Congress wants to force the people of 
Puerto Rico to vote for statehood, even though you are not 
making a compromise to grant it, just say so. That is H.R. 900. 
It will force the people of Puerto Rico to vote for statehood. 
But don't use the Constitution as an excuse for that.
    But if you are going to do that, then tell the people of 
Puerto Rico whether we can have a state in which Spanish is the 
main language in public schools. I learned that Puerto Rico was 
discovered by Christobal Colon, not Christopher Columbus.
    A judicial system that is in Spanish, if one Member of this 
Congress has an accident in Puerto Rico on the roads, and for 
some reason have to go to court, that case is going to be in 
Spanish. We will give you a translator.
    So if you are going to force the people of Puerto Rico to 
vote for statehood, then you have to respond to those questions 
before the people of Puerto Rico exercise their right of self-
determination.
    Thank you.
    [The prepared statement of Mr. Acevedo-Vila follows:]

            Statement of The Honorable Anibal Acevedo-Vila, 
              Governor of the Commonwealth of Puerto Rico

    Good afternoon, Madam Chairwoman and members of the Committee. Once 
again, I come before you to talk about the political and constitutional 
relationship between Puerto Rico and the United States. Very briefly, I 
want to put into perspective the concrete proposals and recommendations 
I will make today regarding the two bills pending before this Congress: 
H.R. 900 and H.R. 1230. As Governor of Puerto Rico, it is my obligation 
to place the current debate in the right context, to help the Committee 
overcome the temptation of rushing to conclusions that may bring bigger 
problems to Puerto Rico and the United States in the long run.
    For more than a century, Puerto Ricans have lived through a 
challenging and emotional debate about our political relationship with 
the United States. However, outside of the 1950-52 process which led to 
the adoption of Commonwealth status, the relationship between Puerto 
Rico and the United States has largely been absent from the U.S. 
national debate, and has produced no movement here in Congress.
    For this, Puerto Ricans have paid a high price. Some political 
parties on the Island have taken full advantage of the situation, 
basing their existence almost exclusively on their stance regarding 
status. They have gone so far as to manipulate the process toward their 
preferred option or to halt progress when they feared the final outcome 
would not favor them. Now, as the statehood party moves aggressively to 
re-open this debate in Washington, Congress is placed in a difficult 
position. Should you repeat the same mistakes of the past, the result 
is clear: the full array of tricks will be played to reach that party's 
preferred outcome.
    So, after many years of discussion about the right to self-
determination of the people of Puerto Rico, there are some principles 
that we should respect. Every citizen should have an equal say. The 
system for determining Puerto Rico's political status should be fair 
and unbiased. Each political status option must be considered on the 
same footing. And the clear choice of the people should win. That, 
Madam Chairwoman, is the true definition of democracy.
    Today this Congress has before it two fundamentally different 
approaches. One repeats the same mistakes of the past, allowing and 
even encouraging the same Puerto Rican political parties to play trick 
politics with Congress and the people of Puerto Rico. The other brings 
to the table a new and totally fair process, open equally to all 
options, putting power in the hands of the people themselves, as 
opposed to the local political parties.
    Let me first discuss H.R. 900, the pro-statehood bill that is 
``more of the same.''
    In previous plebiscites to determine the Island's future, 
participation from our citizens has been high. And for more than five 
decades, the winner in each referendum has been Commonwealth. Now, the 
same people who could not convince the citizens of the Island to vote 
for statehood, are trying--again--to change the rules of the game, 
crafting a system to force statehood upon Puerto Rico. Rather than give 
every Puerto Rican an equal opportunity to have his or her voice heard, 
these statehood advocates have designed a series of referendums that 
would distort the will of the people.
    Supporters of Commonwealth have held a narrow but notable edge over 
the second-place finisher, statehood, for decades, with the smaller 
independence movement finishing third. H.R. 900 proposes a two-stage 
vote. In the first round, our citizens would select either a 
continuation of an ill-defined Commonwealth or a category that combines 
statehood and independence.
    That would create a merger between those two fundamentally opposite 
parties and options, with the goal of building a tiny majority over 
Commonwealth. Once Commonwealth has been knocked out, voters would then 
choose between only statehood and independence, with statehood 
assuredly winning. The math is very simple. If you add the second 
place--statehood--to the third place--independence--then you can 
fabricate an artificial majority. And that helps eliminate the true 
popular choice of the people, Commonwealth.
    This is the first time I have seen a process in which the run-off 
election would be held between the second and third place! To support 
that plan would be destructive and anti-democratic.
    It is time for a new, and better, approach. An approach that is 
fair to everyone and removes the total responsibility and control from 
the hands of the political parties. This is why I recommend that we 
entrust the people of Puerto Rico to organize a Constitutional 
Convention, as proposed by H.R. 1230. This gathering would represent 
the true will of our citizens, not the political parties determined to 
promote their own factional interests, even at the expense of fairness 
or respect. The delegates would be free to consider proposals, 
eventually proposing an ideal solution to our citizens and then to 
Congress.
    Congress would retain the right to approve, negotiate, modify, or 
simply reject the proposal coming from the Constitutional Convention. 
But it would also have the obligation to do the right thing--to assure 
that it respectfully considers the option presented, and recognizes the 
Convention's right to propose such an alternative.
    In contrast, if Congress decides to define the status options for 
Puerto Rico, then it has no choice but to follow principles of honest 
statesmanship and fair play. It would be senseless to do otherwise. If 
you yield to the tricky games proposed by some politicians, the process 
will lose credibility, or worse, die stagnated.
    As you know, one of the first tricks to come out of the bag in the 
partisan-driven debates on Puerto Rico's political status is typically 
camouflaged in legal wrappings. The argument is that that Commonwealth, 
which historically has been preferred by Puerto Ricans, has no place in 
the American constitutional framework; that the Constitution is so 
rigid and formalistic that, just as we if we were living back in the 
late eighteenth century, it can deal with nothing but states and 
traditional colonies; that, accordingly, the United States cannot 
constitutionally produce new arrangements to meet the country's 
emerging needs. That is the basic premise of the White House Task Force 
report and of H.R. 900.
    I feel a particular need to address this issue today, since it 
collides head-on with many years of opinions from the best legal minds 
in the United States. From Judge Magruder in Mora v Mejia, to Justice 
Breyer in Cordova & Simonpietri, to Justice Brennan in Calero Toledo to 
so many other landmark decisions. And now, as the new century unfolds, 
top modern thinkers and scholars are following that same line or 
analysis. For example, Dean Alexander Aleinikoff from Georgetown Law 
School, in his 2002 book, Semblances of Sovereignty, devoted an entire 
chapter to the Commonwealth of Puerto Rico. He wrote:
    The (Commonwealth Opponents') reasoning seems to be this: the 
United States Constitution knows only the mutually exclusive categories 
of ``State'' and ``Territory.'' States are full and equal members of 
the Union, but territories are subject to plenary federal power. Such 
plenary power may be surrendered only by moving outside the territory 
clause by granting statehood or independence. To recognize 
congressional power to create new categories--such as ``enhanced 
commonwealth''--violates the structure of the Constitution and 
potentially weakens the position of the states...''
    Rejecting that approach and making an implicit challenge to 
Congress, Aleinikoff states: ``The infamous Insular Cases recognized 
the need for congressional flexibility in handling the unanticipated 
situation of Empire. When flexibility is now, by mutual consent of 
capital and former colony, exercised to restore dignity and self-
government, why should congressional power suddenly be read narrowly?''
    And more specifically he asks Congress: ``the question is whether 
we can think ourselves into notions of sovereignty that permit 
overlapping and flexible arrangements attuned to complex demands of 
enhanced autonomy with a broader regulative system of generally 
applicable constitutional and human rights norms,'' responding that 
``if both Congress and the people of Puerto Rico seek to establish a 
new relationship that recognizes space within the American 
constitutional system for ``autonomous'' entities, it ill behooves 
either the executive branch or the judiciary to set such efforts aside 
in the name of nineteenth-century conceptions of sovereignty...The 
Constitution should not be read--out of fear and loathing of new 
understandings of sovereignty--to prevent promising power-sharing 
arrangements that provide a space for political and cultural 
autonomy.''
    Similarly, in a recent memorandum, Professor W. Michael Reisman, 
Professor of International Law at Yale (2006), states:
    ``Yet in the late twentieth and early twenty-first century, all 
three branches of the U.S. federal government maintain legal positions 
on Puerto Rico rooted firmly in a nineteenth-century paradigm of 
international law....This binary division (between states and 
territories),...is in fact, anachronistic: It neither accurately 
reflects nor properly accommodates the diverse political arrangements 
embodied in the freely associated state of Puerto Rico, the CNMI, and 
the FAS. Legally created at a later date, those arrangements better 
represent current law.''
    And Reisman further concludes: ``Should Puerto Rico decide that an 
``enhanced'' commonwealth status best serves its long term interests, 
U.S. constitutional law, to our view would likely be able to 
accommodate that arrangement...; the barriers to enhance commonwealth 
status are more political than legal.''
    Another scholar, Constitutional Law Professor Richard Pildes from 
NYU testified recently before this same committee that ``were the 
United States Congress and the people of Puerto Rico to prefer 
expanding the existing Commonwealth relationship, in a way that 
provides greater autonomy for Puerto Rico on the basis of mutual 
consent, it would be unfortunate, even tragic, for that option to 
disappear due to confusion or error about whether the Constitution 
permits Congress to adopt such an option.''
    And he clearly concludes: ``Congress does have the power, should it 
choose to use it, to enter into a mutual-consent agreement that would 
create and respect more autonomous form of Commonwealth status for 
Puerto Rico, in which Congress would pledge not to alter the 
relationship unilaterally.''
    Finally, Charles Cooper, a former head of the Office of Legal 
Counsel of the U.S. Department of Justice, in a recent memorandum 
stated that ``there is no support for a reading of the Constitution 
that unnecessarily restricts the political arrangements available to 
the President and Congress in fashioning binding consensual solutions 
to the Nation's relations with the people of its territories,'' and 
that ``the relevant Supreme Court cases confirm that Puerto Rico's 
commonwealth status is predicated upon a binding compact, created 
through the mutual consent of the sovereign parties and revocable, only 
by mutual consent of the parties.''
    As you can see, in the last five years, many distinguished 
constitutional law scholars have rejected the basic assumptions of H.R. 
900. Each of them has re-validated the 1914 vision of later Justice 
Felix Frankfurter that ``the form of relationship between the United 
States and unincorporated territory is solely a problem of 
statesmanship.... Luckily, our Constitution has left this field of 
invention open.''
    Members of Congress, with that in mind, if you want to impose upon 
the people of Puerto Rico a petition for statehood, without any 
commitment to grant it, H.R. 900 accomplishes that. And if you seek to 
deprive the people of Puerto Rico of a valid Commonwealth option, H.R. 
900 does that as well. But please do not use the Constitution as an 
excuse. Be straightforward, and just say that you support imposing 
statehood on my people of Puerto Rico, even against the expressed will 
of our four million citizens, as H.R. 900 pre-determined outcome 
intends. But if you want to be fair and creative, discard anachronisms, 
offer our residents a true process for self-determination and deal with 
this issue with statesmanship, I recommend H.R. 1230 is right 
alternative.
    In any case, if the future of the Commonwealth is to be subjected 
to a legalistic, why-not scrutiny, what shall we expect regarding 
statehood? Many issues come to mind: Are we planning to entitle the 
fifty-first state to keep forever the Spanish language as its principal 
language in public schools, in the local courts and in everyday 
business? Would it be kept immune from the English-only movement? Is 
the United States ready and willing to accept into the union a distinct 
society with all the sociological characteristics of a nation like 
Puerto Rico? What about federal income taxation? How will the federal 
income taxation system apply in Puerto Rico? Is the local system to be 
dismantled? If so, how is the government of the fifty-first state to be 
financed? If you choose to support the statehood bill, H.R. 900, the 
people of Puerto Rico will deserve, and demand, clear answers to these 
and many other questions.
    Madam Chairwoman, the tricks of H.R. 900 are more than tricks: they 
are the poison pills that, in the past, account for the death of 
processes like this one. Our people have rejected statehood over and 
over, but statehood supporters have returned again and again--adjusting 
their approach, rephrasing their rhetoric or making minor changes to 
their proposal, with hopes of obscuring the flaws of their intentions.
    It's time for something better, for Congress to decisively help 
Puerto Rico overcome the status dilemma through a fair and unbiased 
process. If you are serious about meeting that goal, I urge you to 
approve H.R. 1230.
                                 ______
                                 
    Ms. Christensen. Thank you, Governor. It is an honor to 
have you before us again this afternoon.
    The next person that we would recognize for five minutes is 
Mr. Berrios-Martinez of the Puerto Rican Independence Party.

 STATEMENT OF RUBEN BERRIOS-MARTINEZ, PRESIDENT, PUERTO RICAN 
                       INDEPENDENCE PARTY

    Mr. Berrios-Martinez. Madame Chairwoman and Members of the 
Subcommittee and other Members of Congress, today I speak 
before you not only as President of the Puerto Rican 
Independence Party, but as a member of the Latin-American 
Committee for Puerto Rican Independence, representing 33 living 
political parties of the region, 15 of which are in government, 
as is the case, for example, of Chile, Argentina, and Brazil.
    I quote The Honorable Martin Torrijos, President of Panama, 
in his address to the Latin-American Congress in support of 
Puerto Rican independence held last November, and which elected 
the Latin-American Committee.
    I quote. ``Puerto Rico is the only Hispanic-American nation 
that remains under colonial regime. For Latin-Americans, 
correcting this anomaly must be a matter of principle and a 
priority of continental proportions. What remains is to agree 
on whatever is necessary to concrete the Puerto Rican right to 
constitute an independent republic; to agree as soon as 
possible on a transition schedule that will, once and for all, 
solve the problem in a dignified and efficient manner for all 
involved. Latin America can offer its good offices, promote 
that agreement, and guarantee compliance for that schedule.'' I 
end quote.
    Puerto Rico's colonial status constitutes a problem of 
hemispheric dimensions. Congress is now considering H.R. 900 
and H.R. 1230. Any bill that, like H.R. 900, proposes a 
referendum that includes statehood is doomed to failure. 
Statehood is a poison pill. Even though you may not publicly 
admit it, you know that Congress, and particularly the Senate, 
will not approve a law that implicitly promises statehood for 
Puerto Rico.
    H.R. 1230, on the other hand, is fatally ambiguous as to 
the nature of existing relationship. How can you decolonize if 
you are not willing to recognize the existence of the colony?
    The Puerto Rican Independence Party proposes a consensus 
alternative to both bills. First, a yes-or-no referendum on the 
following question: Do you want Puerto Rico to have a non-
colonial, non-territorial, fully democratic sovereign political 
status, instead of the present or any other territorial status? 
This first step, contemplated in H.R. 900, is absolutely 
necessary.
    Commonwealth is the problem, and thus, it cannot be the 
solution. We must unambiguously put an end to ambiguity.
    Second. Congress should express its commitment that once 
the territorial option is discarded, it will respond promptly 
to the status option that is chosen by the people of Puerto 
Rico through a sovereign constitutional convention, convened 
under the laws of Puerto Rico, among alternatives recognized by 
international law. By definition, such alternatives exclude not 
only the present status, but also any form of modified 
territorial commonwealth status.
    Needless to say, the Puerto Rican people have an inherent 
right to convene a constitutional convention at any time, 
without the prior approval of Congress. And if the choice were 
for independence, Congress must not only respond, but it is 
obligated to grant such a request.
    Third. If within a period of six months after the 
referendum, a sovereign constitutional convention is not 
convened, is not convened, the President of the United States, 
in consultation with representatives of the Puerto Rican 
people, shall, within an additional six-month period, recommend 
fast-track legislation to Congress. In this legislation 
Congress would be required to discharge its obligation so that 
the people of Puerto Rico can exercise their inalienable right 
to self-determination and independence. The Presidential 
recommendation could include, among others, one or several 
referenda in which one or various alternatives would be 
presented.
    In 1950 to 1952, the United States engineered the process 
of consent to colonialism through a yes-or-no referendum in 
order to justify and legitimize territorial status. Now, as 
then, your interests dictate your policies; but now, U.S. 
interests in Puerto Rico have changed, and commonwealth, an 
undemocratic, bankrupt status, serves no useful purpose to 
anyone.
    Moreover, commonwealth breeds dependency and statehooders, 
and Congressional inaction regarding Puerto Rico will 
inevitably lead to an unwanted statehood petition, sooner 
rather than later. Now you must undo your own deed. Now it is 
time to dispose of the territory. Now you need a process to end 
colonialism.
    To summarize, the first referendum proposed in H.R. 900 is 
a critical step in the right direction. It is the essential 
element contained in both the Serrano bill and in the White 
House Task Force recommendations. After all, the White House 
also knows that a bill that promises statehood has no future.
    Approval of a consensus bill along the lines we have 
proposed will do justice to the Puerto Rican people, and 
constitute a gesture of good will toward Latin America that 
could contribute to bring about an era of mutual understanding 
to our hemisphere.
    I have presented before you, for the record, the Panama 
Proclamation of Latin-American and Caribbean Countries for the 
Independence of Puerto Rico, and it is before you for your 
consideration, also.
    Thank you very much.
    [The prepared statement of Mr. Berrios-Martinez follows:]

  Statement of Ruben Berrios-Martinez, Former Minority Leader in the 
     Puerto Rico Senate, President, Puerto Rican Independence Party

    Madam Chairwoman, Members of the Subcommittee and other Members of 
Congress:
    Today I speak before you, not only as president of the PIP, but 
also as member of the Latin American Committee for Puerto Rican 
Independence representing 33 leading political parties of the region, 
fifteen of which are in government, as is the case, for example, of 
Chile, Argentina and Brasil.
    I quote The Honorable Martin Torrijos, President of Panama and 
Secretary General of the governing party in his keynote address to the 
Latin American Congress in support of Puerto Rican Independence held 
last November and which elected the Latin American Committee.
        Puerto Rico is the only Hispanic American nation that remains 
        under a colonial regime. For Latin Americans, correcting this 
        anomaly must be a matter of principle and a priority of 
        continental proportions. What remains is to agree on whatever 
        is necessary to concrete the Puerto Rican right to constitute 
        an independent republic...to agree as soon as possible on a 
        transition schedule that will ``once and for all--solve the 
        problem in a dignified and efficient manner for all involved. 
        Latin America can offer its good offices, promote that 
        agreement, and guarantee compliance and the durability of that 
        schedule.
    Puerto Rico's colonial status constitutes a problem of hemispheric 
dimensions that must be confronted and overcome.
    Congress is presently considering H.R 900 and H.R 1230.
    Any bill that, like H.R.900, proposes a referendum that includes 
statehood is doomed to failure. Statehood is a poison pill. Even though 
you may not publicly admit it, you know that Congress--and 
particularly, the Senate--will not approve a law that implicitly 
promises statehood to Puerto Rico.
    H.R 1230, on the other hand, is fatally ambiguous as to the nature 
of the existing relationship. How can you decolonize if you are not 
willing to recognize the existence of the colony? Moreover, the 
potential efficacy of H.R. 1230 hinges on the uncertain outcome of the 
next general election of the Puerto Rico.
    The Puerto Rican Independence Party proposes a consensus 
alternative.
    First: A yes or no referendum on the following question:
    Do you want Puerto Rico to have a non colonial, non territorial, 
fully democratic sovereign political status instead of the present or 
any other territorial status?
    This first step--contemplated H.R 900--is absolutely necessary, 
since territorial commonwealth is the problem that must be discarded in 
order to arrive at a solution. Commonwealth is the problem and thus it 
cannot be the solution. We must unambiguously put an end to ambiguity.
    Second: Congress should express its commitment that once the 
territorial option is discarded, it will respond promptly to the status 
option that is chosen by the people of Puerto Rico through a sovereign 
constitutional convention convened under the laws of Puerto Rico among 
alternatives recognized by international law. By definition, such 
alternatives exclude not only the present status but also any form of 
modified territorial status. Needless to say, the Puerto Rican people 
have an inherent right to convene a constitutional convention without 
the prior approval of Congress; and if the choice were independence, 
Congress must not only respond but is obligated to grant such a 
request.
    Third, if within a period of six months after the referendum a 
sovereign constitutional convention is not convened in Puerto Rico, the 
President of the US, in consultation with representatives of the Puerto 
Rican people shall, within an additional six month period recommend 
fast-track legislation to Congress. In this legislation Congress would 
be required to discharge its obligation so that the people of Puerto 
Rico can exercise their inalienable right to self determination and 
independence. The presidential recommendation could include, among 
others, one or several referenda in which one or various alternatives 
would be presented.
    In 1950-52, the United States engineered a process of consent to 
colonialism through a yes-or-no referendum in order to justify and 
legitimize territorial status. Now, as then, your interests dictate 
your policies; but now U.S. interests in Puerto Rico have changed and 
``Commonwealth,'' an undemocratic, bankrupt status, serves no useful 
purpose to anyone. Moreover, Commonwealth breeds dependency and 
statehooders; and congressional inaction regarding Puerto Rico's 
territorial status will inevitably lead to an unwanted statehood 
petition, sooner rather than later. Now you must undo your own deed. 
Now is the time to dispose of the territory. Now you need a process to 
end colonialism.
    To summarize: the first referendum proposed in H.R. 900 is a 
critical step in the right direction. It is the essential element 
contained in both the Serrano bill and in the White House Task Force 
recommendations; after all, the White House also knows that a bill that 
promises statehood has no future.
    Approval of a consensus bill along the lines we have proposed will 
do justice to the Puerto Rican people and constitute a gesture of good 
will towards Latin America that could contribute to bring about an era 
of mutual understanding in our Hemisphere.
    Appendix: The Unanimous Official Pronouncement, or 
``Proclamation,'' of the Latin American and Caribbean Congress in 
Solidarity with Puerto Rico's Independence (November 18-19, 2006,Panama 
City, Panama) is appended here to, and made part hereof.
                                 ______
                                 

            Appendix to Statement by Ruben Berrios-Martinez

            Former Minority Leader in the Puerto Rico Senate

               President, Puerto Rican Independence Party

        Latin American and Caribbean Congress in Solidarity with

                       Puerto Rico's Independence

                          November 18-19, 2006

                          Panama City, Panama

                       Proclamation <SUP>1</SUP>
---------------------------------------------------------------------------

    \1\ Unanimously approved by 33 political parties from 22 nations 
attending the Congress.
---------------------------------------------------------------------------
    Commemorating 180 years of the Peoples' Associative Congress of 
Panama called by the Liberator, Simon Bolivar, to finalize and secure 
our America's Independence, the Latin American and Caribbean political 
parties gathered in Panama City in support of Puerto Rico's 
Independence, and in harmony with the convocation for this event hereby
Resolve:
    To reiterate to the World our solidarity and support for the cause 
of Puerto Rico's independence, an historic and principled claim of our 
America. Latin America and the Caribbean will not be truly independent 
until all its nations are.
    To create a Permanent Working Committee for Puerto Rico's 
Independence <SUP>2</SUP> to coordinate and implement this Congress' 
resolutions.
---------------------------------------------------------------------------
    \2\ The Committee was constituted by senator Ricardo Nunez, of 
Chile's Socialist Party; The Honorable Raul Alfonsin, former President 
of Argentina; The Honorable Ricardo Alarcon, President of the National 
Assembly of Cuba; Horacio Serpa, of Colombia's Liberal Party; Rolando 
Araya, President of the Socialist International for Latin America; 
Gustavo Carvajal, Founding President of the Permanent Conference of 
Latin American Political Parties (COPPPAL); senator Hugo Rodriguez 
Filippi, of Uruguay's Socialist Party; Ruben Giustiniani, President of 
the Socialist Party of Argentina; Tomas Borges, of the Sandinista Front 
of National Liberation of Nicaragua; Nils Castro, Secretary for 
International Affairs of Panama's Revolutionary Democratic Party (PRD); 
Cuauhtemoc Cardenas, of Mexico's Foundation for Democracy, Alternatives 
and Debates; senator Antonio Cafiero, of Argenitna's Justicialista 
Party and President of COPPPAL; and Ruben Berrios Martinez and Fernando 
Martin, President and Executive President, respectively, of the Puerto 
Rican Independence Party. Subsequently, an additional and final member 
from Brazil's Workers Party (PT) will be selected by that party and 
join the Committee.
---------------------------------------------------------------------------
    To establish Solidarity and Support Committees in each of our 
nations to educate and create awareness regarding the need to integrate 
Puerto Rico, through its full sovereignty and independence, to the 
concert of free nations and thereby promote the best relations among 
the nations of this Hemisphere.
    To offer to both the Puerto Rican nation as well as the Government 
of the United States, our cooperation and good offices, including the 
role of interlocutors and the tasks to lay the groundwork that may be 
necessary at the several levels of the Government of the United States, 
leading to a Hemispheric dialogue to resolve Puerto Rico's colonial 
problem.
    To urge our respective governments that the Latin American and 
Caribbean community of nations promotes, as a region, the General 
Assembly of the United Nations Organization's urgent re-examination of 
the case of Puerto Rico in light of new international and regional 
conditions.
    To espouse by all possible means the cause of Puerto Rico's 
independence.
    To support the liberation of Puerto Rican political prisoners, a 
claim already made by the most diverse ideological sectors of the 
people of Puerto Rico.
    To express to the Puerto Rican Independence Party our support, 
solidarity, and recognition, upon its 60th anniversary, for its 
constant and selfless struggle for Puerto Rico's freedom.

Panama City
November 19, 2006

Translated by the Secretariat for North American Relations of the 
Puerto Rican Independence Party.
                                 ______
                                 
    Ms. Christensen. Thank you. And the Chair now recognizes 
the former Governor and current Senator, Pedro Rossello, to 
testify for five minutes.

   STATEMENT OF THE HON. PEDRO ROSSELLO, FORMER GOVERNOR AND 
CURRENT SENATOR, COMMONWEALTH OF PUERTO RICO AND PRESIDENT, NEW 
                       PROGRESSIVE PARTY

    Mr. Rossello. Chairwoman Christensen, Members of the 
Insular Affairs Committee, Members of Congress, for the record, 
my name is Pedro Rossello. I have come here today to express my 
support for H.R. 900.
    And in so doing, I have likewise come to exercise my right, 
under the United States Constitution First Amendment, ``to 
petition the government for a redress of grievances.''
    As some of you know, perhaps all too well, my grievances 
are many, and in that regard I must acknowledge that I have 
grown a bit weary of petitioning the government for a redress 
of grievances. Because I have now been obliged to do it for 
pretty close to two decades.
    Still, others have been doing it for much longer. Going 
back for 106 years--that is five generations of Puerto Ricans--
have been petitioning Congress. And even after 106 years, we 
have yet to see our principal grievance redressed.
    For the record, together with my testimony I have submitted 
a chronology of constitutional actions on Puerto Rico's status. 
The chronology's earliest entries pertain to the 57th Congress, 
which convened during 1901 to 1902. With respect to this issue, 
Congressional action may be a misnomer, because no final action 
on Puerto Rico's status has ever been taken by Congress.
    Nevertheless, the topic has been broached in no fewer than 
66 bills or resolutions on the House side, while in the Senate 
a total of 27 legislative measures have been filed.
    The Constitution empowers the people of the several states 
that govern our nation through elected officials. But that same 
Constitution grants you and the other Members of Congress 
unilateral power to govern every resident of Puerto Rico and 
every other territory.
    We, the people of Puerto Rico and the other territories, 
have absolutely no tangible authority at the Federal level, 
direct or indirect. Never once since 1989 has Congress deigned 
to inquire of the people of Puerto Rico whether they are 
content with this arrangement.
    Congress has listened. Congress has tinkered. And Congress 
has tried at times to be supportive. And Congress has 
frequently been generous with public monies. Yet never once, 
since 1989, has Congress deigned to seek the consent of the 
governed.
    The Puerto Rico Democracy Act of 2007 is only a small, 
single step in that direction. If enacted, though it will be an 
historic step because it will mark a long-overdue first step, a 
first step in the direction of converting a colonial empire 
back into a democratic republic. And let us not forget that the 
founders of that democratic republic committed their lives, 
their fortunes, and their sacred honor to a protracted 
revolution against the inherent inequities of colonial empire.
    It has been alleged that I have occasionally waxed a little 
testy, a little bit testy on Capitol Hill. Perhaps that is 
true, and perhaps today is such a day.
    For example, how, one may ask, can I justify brazenly 
brandishing a term so provocative as colonial empire. Well, 
here is how. Nowhere does the Constitution so much as imply, 
let alone proclaim, that the United States shall ever have the 
authority to betray its own revolutionary origins by acquiring 
and indefinitely possessing colonies.
    So how is it possible that 53 years after Brown v. Board of 
Education we live in a land whose Supreme Court continues to 
hold that the civil rights of U.S. citizens can be capriciously 
curtailed by means of geographic segregation, just as it once 
shamefully embraced the validity of separate but equal as a 
racial segregation doctrine?
    The Plessy v. Ferguson doctrine that legalized racial 
segregation has been dead and buried since 1954. Yet its sister 
doctrine of geographic segregation, promulgated by the Supreme 
Court in Downes v. Bidwell, incredibly to this day lives on. 
Somehow that judicial atrocity has survived no fewer than 106 
years of steady progress on virtually every other front in 
America's never-ending struggle to form a more perfect union.
    The exclusionary mindset manifested in Downes v. Bidwell 
explains how Puerto Rico has acquired the dubious distinction 
of being the jurisdiction that holds the all-time record for 
most years as an American territory.
    And the questions are, what do we, the people of Puerto 
Rico, want. What do we, the people of the United States, want? 
Do we, the people, support the perpetuation of a policy of 
colonial imperialism? Or do we favor having our nation 
rediscovery its roots as a democratic republic?
    Geographical discrimination is no less insidious and no 
less odious than any other type of arbitrary injustice. But in 
one important respect, geographical discrimination, what I call 
the American territorial ghetto, is downright bizarre.
    A U.S. citizen of any ancestry, including Puerto Rican, 
retains the right to vote for President if he or she moves from 
any state to any foreign country. A U.S. citizen of any 
ancestry, including Puerto Rican, acquires the right to vote in 
local and Federal elections if he or she establishes residence 
in one of the 50 states, even if the person in question was 
born and raised in a territory or in a foreign country.
    Nevertheless, there exists one grotesque corollary to these 
rules. Any American citizens who relocate from a state to a 
U.S. territory is immediately stripped of all political rights 
at the Federal level. This person automatically loses the right 
to vote for President, loses the right to voting representation 
in Congress, and loses the protection of the full panoply of 
civil rights that the Constitution guarantees to citizens 
residing anywhere else.
    Even though the stars and stripes flies over Puerto Rico, 
an American citizen's full constitutional rights are summarily 
denied entry there. It was this outrageous catch-22 that 
prompted me, six months ago, to deliver a petition to the 
Inter-American Commission on Human Rights, a body that was 
created by, and which reports to, the Organization of American 
States.
    That petition articulates a grievance; namely, that by 
denying full democratic participation in national affairs to 
its Puerto Rico-domiciled citizens, the Government of the 
United States is clearly violating the civil and human rights 
of those citizens. For the record, I have submitted a copy of 
our grievance to the Subcommittee.
    All across the globe, perennially subjugated people are 
today either breathing free or advancing hopefully in that 
direction. The United States is applauding and promoting this 
inspiring trend. Brave Americans, including thousands of Puerto 
Ricans, are putting their lives on the line to support this 
cause in Iraq, in Afghanistan, and elsewhere. Well, over 50 
Puerto Ricans have died in those conflicts since 2001. Numerous 
others have been wounded and/or decorated for their valor.
    However, there is a powerful irony in all of this, because 
the Pentagon is sending Puerto Rican military personnel----
    Ms. Christensen. Gov. Rossello.
    Mr. Rossello.--the Middle East for the purpose of defending 
liberties that are denied to those very same Puerto Ricans in 
their own----
    Ms. Christensen. Governor, could I ask you to wrap up, 
please?
    Mr. Rossello. I would be glad to do so. I understand that 
after 106 years of testimony, you need no more than five 
minutes of my testimony. Therefore, I would also take my leave 
at this point, if I cannot finish my statement.
    Ms. Christensen. Well, to be perfectly honest, and for the 
record, I gave the Governor just short of eight minutes. Mr. 
Berrios finished his in about six, and you are now a little 
over eight minutes. And so I think I have been very fair. So I 
am asking you to wrap up, not to--you have a few seconds to 
wrap up your testimony.
    And please remember also that your full testimony is a part 
of the official record of the committee.
    Mr. Rossello. Madame Chairwoman, I will conclude, and I 
will take my leave at this point. I submit the rest of my 
remarks for the record. Thank you.
    [The prepared statement of Mr. Rossello follows:]

 Statement of Pedro Rossello, MD, MPH., Governor of Puerto Rico, 1993-
2001, Member of the Senate of Puerto Rico, 2005-, President of the New 
           Progressive Party of Puerto Rico, 1991-1999; 2003-

    Chairwoman Christensen: good day to you, as well as to Ranking 
Member Fortuno and to each of the other members of the Insular Affairs 
Subcommittee of the House Committee on Natural Resources.
    For the record, my name is Pedro Rossello. I am President of the 
New Progressive Party of Puerto Rico. From 1993 until 2001, I was 
Governor of Puerto Rico and I am currently a Senator in the Puerto Rico 
Legislative Assembly.
    I have come here today to express my support for H.R. 900, the 
Puerto Rico Democracy Act of 2007; in so doing, I have likewise come to 
exercise my right--under the United States Constitution's First 
Amendment--``to petition the Government for a redress of grievances.''
    As some of you know--perhaps all too well--my grievances are many; 
and in that regard, I must acknowledge that I have grown a bit weary of 
petitioning the Government for a redress of grievances, because I have 
now been obliged to do it for pretty close to two decades.
    Still, others have been doing it for much longer: going back 106 
years--that's five generations, Puerto Ricans have been petitioning 
Congress; and even after 106 years, we have yet to see our principal 
grievance redressed.
    For the record, together with my testimony, I have submitted a 
chronology of Congressional actions on Puerto Rico's status. The 
chronology's earliest entries pertain to the 57th Congress, which 
convened during 1901 and 1902. Its most recent entries pertain to the 
109th Congress, which adjourned at the end of 2006.
    With respect to this issue, ``Congressional actions'' may be a 
misnomer, because no final action on Puerto Rico's status has ever been 
taken by Congress. Nevertheless, the topic has been broached in no 
fewer than 66 bills or resolutions on the House side, while the total 
number of Senate measures filed is 27.
    The Constitution empowers the people of the several states to 
govern our Nation through elected officials; the people of those states 
have democratically delegated the task of governance to you and to the 
other members of the Congress, as well as to our President.
    But that same Constitution grants you and the other members of the 
Congress unilateral power to govern me, along with every other resident 
of Puerto Rico and every other U.S. territory!
    We the People of Puerto Rico and the other territories have 
absolutely no tangible authority at the federal level--direct or 
indirect.
    Never once, since 1898, has Congress deigned to inquire of the 
Puerto Rican people whether they are content with this arrangement.
    Congress has listened; and Congress has tinkered; and Congress has 
tried, at times, to be supportive; and Congress has frequently been 
generous with public monies.
    Yet never once, since 1898, has Congress deigned to seek ``the 
consent of the governed'': never once has Congress inquired of the 
Puerto Rican people whether they are satisfied with an arrangement 
under which Congress ultimately holds all of the cards, and under which 
Puerto Ricans perennially possess zero votes on how those cards will be 
played.
    The Puerto Rico Democracy Act of 2007 is only a single, small step. 
If enacted, though, it will be an historic step because it will mark a 
long-overdue first step--a first step in the direction of converting a 
colonial empire back into a democratic republic; and let us not forget 
that the Founders of that democratic republic committed their lives, 
their fortunes and their sacred honor to a protracted revolution 
against the inherent inequities of colonial empire.
    It has been alleged that I have occasionally waxed a bit testy on 
Capitol Hill. Perhaps that is true, and perhaps today is such a day. 
For example: how, one might ask, can I justify brazenly brandishing a 
term so provocative as ``colonial empire''?
    Well, here's how...
    The Constitution clearly envisions territories as being prospective 
states. That's why the Constitution's ``territorial clause'' appears in 
the same two-paragraph Section that sets forth the process for 
admitting new states.
    Nowhere does the Constitution so much as imply--let alone 
proclaim--that the United States shall ever have the authority to 
betray its own revolutionary origins by acquiring and indefinitely 
possessing colonies.
    So how is it possible that--53 years after Brown versus Board of 
Education--we live in a land whose Supreme Court continues to hold that 
the civil rights of U.S. citizens can be capriciously curtailed by 
means of geographic segregation, just as it once shamefully embraced 
the validity of ``separate but equal'' as a racial segregation 
doctrine?
    The Plessy versus Ferguson doctrine, that legalized racial 
segregation, has been dead and buried since 1954. Yet its sister 
doctrine of geographic segregation, promulgated by the Supreme Court in 
Downes versus Bidwell, incredibly lives on. Somehow, that judicial 
atrocity has survived no fewer than 106 years of steady progress--on 
virtually every other front--in America's never-ending struggle to form 
a more perfect Union!
    The exclusionary mindset manifested in Downes versus Bidwell 
explains how Puerto Rico has acquired the dubious distinction of being 
the jurisdiction that holds the all-time record for most consecutive 
years as an American territory; Oklahoma held the record, at 104 years, 
until we broke it in 2003; and since then, of course, we have been 
setting a new record every year.
    What do We the People of Puerto Rico want?
    What do We the People of the United States want?
    Do We the People support the perpetuation of a policy of colonial 
imperialism? Or do we favor having our nation rediscover its roots as a 
democratic republic?
    Filed on February 7, 2007 and sponsored by--among scores of 
others--a majority of the members of this Subcommittee, H.R. 900 will 
at last pose those questions; and if I may say so, it's about time--
better late than never!
    Geographical discrimination is no less insidious, and no less 
odious, than any other type of arbitrary injustice. But in one 
important respect, geographical discrimination--what I call ``the 
American territorial ghetto''--is downright bizarre.
    <bullet>  A U.S. citizen of any ancestry, including Puerto Rican, 
retains the right to vote for President if he or she moves from any 
state to any foreign country.
    <bullet>  A U.S. citizen of any ancestry, including Puerto Rican, 
acquires the right to vote in local and federal elections if he or she 
establishes residence in one of the 50 states--even if the person in 
question was born and raised in a territory or a foreign country.
    That's all well and good.
    Nevertheless, there exists one grotesque corollary to those rules.
    Any American citizen who relocates from a state to a U.S. territory 
is immediately stripped of all political rights at the federal level!
    This person may never ever have set foot outside U.S. soil--yet he 
or she automatically loses the right to vote for President; loses the 
right to voting representation in Congress; and loses the protection of 
the full panoply of civil rights that the Constitution guarantees to 
citizens residing elsewhere.
    Even though the Stars and Stripes flies over Puerto Rico, an 
American citizen's full constitutional rights are summarily denied 
entry there--and it is Uncle Sam himself who mans the barricades!
    It was this outrageous ``Catch 22'' that prompted me, six months 
ago, to deliver a petition to the Inter-American Commission on Human 
Rights--a body that was created by, and which reports to, the 
Organization of American States [OAS].
    That petition articulates a grievance: namely, that--by denying 
full democratic participation in national affairs to its Puerto Rico-
domiciled citizens--the government of the United States is clearly 
violating the civil and human rights of those citizens. For the record, 
I have submitted a copy of our grievance to the Subcommittee.
    In addressing the Human Rights Commission, my fellow petitioners 
and I contend that the United States stands in clear violation of 
commitments contained in two unequivocal documents that the entire 
membership of the OAS has adopted--both collectively and individually. 
Those documents are the American Declaration of the Rights and Duties 
of Man and the Inter-American Democratic Charter.
    All across the globe, perennially subjugated peoples are today 
either breathing free or advancing hopefully in that direction.
    The United States is applauding and promoting this inspiring trend.
    Brave Americans, including thousands of Puerto Ricans, are putting 
their lives on the line to support this cause--in Iraq, in Afghanistan, 
and elsewhere. Well over 50 Puerto Ricans have died in those conflicts 
since 2001; numerous others have been wounded and/or decorated for 
their valor.
    However, there is a powerful irony in all of this--because the 
Pentagon is sending Puerto Rican military personnel to the Middle East 
for the purpose of defending liberties that are denied to those very 
same Puerto Ricans in their own homeland!
    As I mentioned a moment ago, all across the planet, perennially 
subjugated peoples are today either breathing free or advancing 
hopefully in that direction; and the United States is applauding and 
promoting that ongoing phenomenon.
    Nevertheless--incongruous though it be--the law of our own land 
persists in contradicting this inspiring global trend.
    Where the United States is concerned, it seems that democracy does 
not begin at home; instead, the law of our own land persists in 
mandating geographical discrimination against certain communities of 
American citizens who reside on American soil; in other words, American 
law gives its blessing to the indefinite existence of an American 
constitutional-rights ghetto.
    Herein lies a truly national conundrum; herein lies the unfinished 
business of American democracy.
    Colonialism, on planet Earth, is nearly extinct. Nobody, anywhere, 
has a kind thing to say about it.
    Imperialism is a dirty word. Nobody, anywhere, has a kind thing to 
say about it.
    So how on Earth can the United States of America conceivably 
countenance its retention of a colonial empire, without at least asking 
its subject peoples for their consent on the supremely sensitive matter 
of their inferior civic status?
    The answer is that it cannot; and that is why passage of the Puerto 
Rico Democracy Act of 2007 is long overdue.
    I plead guilty to waxing testy at times. But I plead innocent to 
any accusations of wanton hyperbole.
    So when I say ``long overdue,'' I mean exactly that.
    In my defense, I offer a quotation. Its source is a person with 
whom some of you may be personally acquainted. Here are his words:
    ``Puerto Rico has a long history of petitioning the Congress. They 
have had elections down there. They have had petitions. They have had 
ad hoc commissions. They have had petitions signed by a third of their 
voters''.
    ``What the problem has been is not a problem with Puerto Rico. The 
problem has been with the Congress. We have had over 30 bills 
introduced. We have had statehood bills, 16 of them; independence 
bills, seven of them; enhanced commonwealth bills, three of them. We 
have had combination bills. And they never get anywhere.''
    The person who said that was The Honorable J. Bennett Johnston.
    As the then-Chairman of the U.S. Senate panel that is responsible 
for territorial affairs, J. Bennett Johnston uttered those words during 
an executive session of his Senate Committee on Energy and Natural 
Resources more than 16 years ago--on February 27, 1991.
    Before the 20th century expired, additional Puerto Rico status 
bills were filed. They never got anywhere, either.
    In the autumn of 2005, I published a book wherein the preceding 
quotation appears. For your perusal, I am herewith submitting a copy of 
that book--which is appropriately entitled, The Unfinished Business of 
American Democracy.
    Immediately after quoting Senator Johnston, my book contains a 
paragraph wherein I make the following statement:
    ``Glib souls that they tend to be, Members of Congress customarily 
are able to concoct reasonable-sounding explanations for their failure 
to accomplish anything on this front. Yet there is no escaping the fact 
that their collective lack of political will is the principal cause of 
the inertia in which Puerto Rico's status dilemma has been mired for a 
full century. Congressional foot-dragging has undercut, undermined, 
eroded and ultimately doomed a whole succession of Puerto Rico-
originated initiatives aimed at eradicating the territory's colonial 
limbo.''
    Since I wrote that paragraph, several more Puerto Rico status bills 
have been tossed into the Congressional hopper. One of those bills is 
H.R. 900.
    Distinguished members of the Insular Affairs Subcommittee, you know 
better than I that significant legislative action is rarely easy to 
achieve.
    H.R. 900 is unquestionably significant, because it would begin to 
address the legitimate grievances of the American citizens of Puerto 
Rico.
    However, H.R. 900 has the uncommon virtues of also being simple and 
straightforward and eminently meritorious. The enactment of this 
significant piece of legislation should be easy to achieve.
    On behalf of a century-plus of Congressional witnesses from Puerto 
Rico, I respectfully ask that you succeed where more than 50 previous 
Congresses have failed. I ask that you resoundingly recommend approval 
of the Puerto Rico Democracy Act of 2007, and I respectfully request 
that you adopt the following amendment that will expedite the self-
determination process: in Section 3(a) of H.R. 900, I ask that you 
replace the phrase, ``December 31, 2009,'' with the phrase, ``December 
31, 2008.''
    Thank you very much.
                                 ______
                                 
    Ms. Christensen. Thank you. And as all written testimony, 
it is accepted for the record. I would hope that you would stay 
for questions. Anyway, thank you for your testimony.
    I will now recognize myself for five minutes for questions, 
maybe not even five minutes. As a matter of fact, let me revise 
that. Mr. Serrano is here; he will have to go and vote. Let me 
recognize Mr. Serrano for his questions.
    Mr. Serrano. Thank you so much. Let me just say how honored 
I am to have these distinguished leaders, including the one 
that just left, in front of me. We Puerto Ricans do have a 
temper at times, and I think after 108 years it is possible 
that the behavior can be different in different ways.
    Mr. Berrios, just a quick question for you, because I do 
have a vote pending. You may not be wrong. There are days when 
I wake up and realize or feel that statehood is never a 
possibility in this Congress. Are you suggesting that there is 
a way we can address this issue without including statehood in 
a bill? Obviously the easiest way would be to have a bill that 
says get rid of the territory, you know, dispose of it. That is 
not being presented right now.
    Do you think we could do this without including statehood? 
In other words, the two options.
    Mr. Berrios-Martinez. I will answer shortly. I only want to 
say I am very sorry Gov. Rossello is not here, but I just hope 
that when Congress slams the door on statehood, he walks out 
also with me, because that is the way to do it. I cannot 
understand neither him nor any other leader that--and I must 
say this--talks as clearly as he has done today, and 
nevertheless insists on wanting to marry that person that 
doesn't want to marry him. That falls under the political 
Stockholm Syndrome. You don't ally yourself with the oppressor 
and with the empire. You struggle against the empire. I am 
sorry he is not here, but I was going to say it before him.
    Yes, I think there is a way. If you insist on including 
statehood, no bill will be approved here. You all know that, 
basically. Privately, most of you have told me that--and I am 
not referring to you. Everybody knows that.
    A nation that is building a wall on its southern frontier 
with Mexico will never accept 4 million Latin-Americans as a 
state of the Union, with 4 million more inside the United 
States. That will not happen in the foreseeable future.
    Therefore, I think you must find a way to get around this 
if you want to approve a bill. And the way I have proposed I 
think is the way out.
    I must be completely frank regarding my proposal. The first 
part obviously does not include statehood, my first point, my 
first step. The second step regarding the constitutional 
convention includes, indirectly, very indirectly, statehood, 
because statehood can participate, and I hope they do, in the 
constitutional convention in Puerto Rico. But that is very 
indirectly.
    Now, if the constitutional convention is not convened in 
six months, then in the other step, the third step, you don't 
have to include statehood. You didn't include statehood in 1950 
to 1952. You didn't include anything except the territorial 
colonial government. And then you argued before the U.N. that 
Puerto Rico had self-determined itself. And it was false. You 
gave Puerto Ricans only one choice: either this bad system, or 
this bad system. And Puerto Rico chose the ones, the system 
they thought was not as bad as the other one.
    But why don't you do it again? Why don't you make a good 
offer? Like other colonial powers have done. A good offer of 
independence. If there is no, if the Puerto Rican people in a 
constitutional convention do not opt for another alternative, 
sovereign alternative, why not? Your obligation is to dispose 
of the territory. You didn't ask anybody in Puerto Rico whether 
you come in, in 1898. You came in through the force of arms. So 
why not fully exercise your obligation to expose of the 
territory, and make an offer to the Puerto Rican people? An 
offer we cannot resist.
    Mr. Serrano. Thank you. I wanted to clarify that, thank 
you.
    Gov. Acevedo-Vila, with all due respect, I think you made 
quite a bit of news here today. You said that my bill forces 
people in Puerto Rico to vote for statehood.
    Now, if they are given a choice in the second round, 
assuming they reject commonwealth in the first round, between 
statehood and independence, then you must know something I 
don't know; that most people who vote for commonwealth now will 
vote for statehood. So I guess your statement today, and the 
big news in the Puerto Rican press tomorrow, will be that 
Governor Acevedo-Vila said that given a choice between 
statehood and independence, most populares will vote for 
statehood.
    And I tell you, it is my bill, but I am not sure that will 
happen. It might be that you are so autonomous, your party, 
that you will vote for independence.
    Mr. Acevedo-Vila. You know me better than that, but I 
describe what your bill does. It sums the second and third 
place in order to defeat the first place.
    Mr. Serrano. No. It brings the non-colonial second and 
third options, and it----
    Mr. Acevedo-Vila. We have discussed this many times.
    Mr. Serrano. That is right. But you have never clarified 
the first point.
    Mr. Acevedo-Vila. We don't agree. What I see is that on 
every opportunity, since you are so intelligent and so smart, 
you come up with a different way of summing up the votes just 
to eliminate commonwealth.
    Mr. Serrano. You know, that got Joe Biden into a lot of 
trouble, that comment you just made. But that is OK, I accept 
it as a compliment, because I am from Puerto Rico.
    Now, listen to me again. Listen to my----
    Mr. Acevedo-Vila. And, and----
    Mr. Serrano. I can ask you in Spanish or I can ask you in 
English. It is up to you. How do you know what we don't know? 
How do you know the outcome of the second vote? Are you telling 
us that you know----
    Mr. Acevedo-Vila. Because you are making the second----
    Mr. Serrano. No. How do you know that populares are 
secretly statehooders? How do you know that? I don't know that.
    Mr. Acevedo-Vila. No. Maybe, maybe, you know what? Maybe 
populares and commonwealth are one vote. One vote. Remember, we 
want a plebiscite with none of the above, precisely because 
they were trying to impose tricks on the people of Puerto Rico. 
We want with none of the above.
    Mr. Serrano. Let me conclude----
    Mr. Acevedo-Vila. So in that sense, in that sense, and I 
say this with due respect, if H.R. 900 is approved, and that is 
the process that is given to the people of Puerto Rico, what 
you are going to have is really uncertainty. What you are going 
to have is the people of Puerto Rico getting the feeling that--
it is two theories. Either you are imposing statehood, or, 
after Mr. Berrios just explained, you are imposing 
independence.
    Mr. Serrano. Well, no, my----
    Mr. Acevedo-Vila. So that is the process that the people of 
Puerto Rico are rejecting today, and will reject tomorrow. So 
that is not the way of addressing this important issue.
    Mr. Serrano. OK, my time is up. So let me just conclude by 
saying that I agree with you; I am pretty smart and 
intelligent.
    [Laughter.]
    Mr. Serrano. And I can see a colonial status in any way, 
shape, or form. And your so-called enhanced commonwealth may be 
a good deal, but it is a colonial status. Give me a non-
colonial status, and I will support it, because I am 
intelligent and smart.
    Mr. Acevedo-Vila. That conclusion is based on legal 
interpretations that I firmly believe are wrong. And in that 
sense, I think that the challenge that you have, as Members of 
Congress, is to come up with new, with new schemes, legal 
schemes, that will give dignity, sovereignty to the people of 
Puerto Rico, and that will allow improve the current 
relationship. And that is possible. You have that power, we 
have that power. It is a matter of political will.
    Mr. Serrano. Thank you.
    Mr. Acevedo-Vila. Not of using the Constitution----
    Mr. Serrano. Madame Chairwoman, thank you for your time and 
for your patience with me. And let me just for the record say 
that dignity and respect is either joining the family or 
declaring your independence. There is no other colonial status 
that can be dignified.
    Ms. Christensen. Thank you, Mr. Serrano. And the Chair now 
recognizes Mr. Fortuno for questions.
    Mr. Fortuno. Thank you. Thank you, Madame Chair. Governor, 
I am reading your platform, 2004 platform. And it states very 
clearly that you and your party adopt as the supersized or 
enhanced commonwealth proposal the one that was approved by the 
governing board of your party on October 15, 1998. Is that 
correct or wrong?
    Mr. Acevedo-Vila. Yes.
    Mr. Fortuno. So I have it here, and that is exactly what 
you all said that would be your proposal. If we may look at 
your proposal, I am trying to make this easier for everyone, 
you are saying that Puerto Rico will be a sovereign nation, but 
in permanent union with the United States; that the covenant 
will permanently bind the U.S. to its terms, when we have heard 
not just one, not two, but three Administrations, from two 
Republicans and one Democrat, telling you no, that is not 
doable.
    Puerto Rico will be able to veto most Federal laws. I am 
just reading what you all put together. That Puerto Rico will 
be able to invalidate Federal court jurisdiction. It will be 
able to enter into trade and other agreements with foreign 
nations and join international organizations separate from the 
U.S. The U.S. will provide new incentives for investment 
without paying any Federal taxes. The U.S. will continue all 
current assistance programs without paying Federal taxes, plus 
an annual block grant. The U.S. will continue to grant free 
entry to any goods from Puerto Rico, and the U.S. will continue 
to grant U.S. citizenship to Puerto Ricans, to people born in 
Puerto Rico.
    Three Administrations have told you that what you are 
proposing is not doable. What part of no don't you understand? 
What is un-American is to try to deny the 4 million U.S. 
citizens an opportunity to select an option.
    And actually, the option is there. A third option is there, 
and actually we are more than willing, and I am telling you up 
front that I am more willing, and I know my friend Jose Serrano 
is willing as well, to work on that third option. It is free 
association.
    Do you have the pantalones to move on and work on free 
association as a third option, so that we can solve this once 
and for all, and allow the people of Puerto Rico to decide this 
once and for all? That is my concern here. We want something 
solved, and for the time being, as long as your lobbyists don't 
try to block this process from moving along, then it makes it 
more and more and more difficult.
    Is this----
    Mr. Acevedo-Vila. Are you meeting failure?
    Mr. Fortuno. I am sorry?
    Mr. Acevedo-Vila. Are you meeting failure already?
    Mr. Fortuno. No. Today we won a big round. And you were 
trying, through Charlie Black, to try not to have the 
Administration actually put forth anything in writing, or come 
here. Not only did they come here, but they said it very 
clearly: that they stand behind the recommendations of the task 
force.
    I was with the President a few hours ago. I can tell you 
that the President is fully behind this. His senior staff is 
fully behind this. He reconfirmed that today, as we were 
talking at the White House.
    I only hope that you will stop these delaying tactics, and 
allow for the people of Puerto Rico to have the opportunity to 
select one option. And if you want to work really--I am talking 
seriously--from here we go up to my office, and we work on that 
free association option.
    But you have to understand that not one, not two, three 
Administrations have told you that this is not doable, and have 
told you what is doable. I urge you, are you willing to sit 
down and really work on a free association option that is 
doable under the U.S. Constitution, so that we can allow the 
people of Puerto Rico to decide directly? Are you willing to do 
that?
    Mr. Acevedo-Vila. Let me react to your additional 
statement. Beyond the fact that you are summarizing the 
proposal and not using the actual language, but that is not 
important.
    Mr. Fortuno. That is OK. We will submit for the record 
exactly what you have in your proposal so we can allow the 
committee to understand. Can we submit that for the record, so 
that the committee understands what is in it?
    Mr. Acevedo-Vila. It has been submitted many times.
    Mr. Fortuno. I know. But I just want to submit it again so 
that everyone understands that I am telling the truth here.
    Ms. Christensen. Without objection.
    Mr. Fortuno. Thank you.
    [NOTE: The information submitted for the record by Mr. 
Acevedo-Vila has been retained in the Committee's official 
files.]
    Mr. Acevedo-Vila. Can I react and respond?
    Ms. Christensen. Yes.
    Mr. Acevedo-Vila. OK. First let me talk a little bit about 
the President's endorsement. Now, let us first go to the three 
Administrations. Is this Congress? Don't we have separation of 
powers? Or do you guys only do what the Administration tells 
you?
    Laws require that----
    Mr. Fortuno. I and the President agree----
    Mr. Acevedo-Vila.--the Senate, the House, and with all due 
respect----
    Mr. Fortuno.--and that is what we are trying to do.
    Mr. Acevedo-Vila. I haven't finished. You are mentioning 
three Administrations, and my question to you is, this is 
Congress. This is Congress. For how many Administrations did 
African-Americans were denied their rights? And that was a good 
argument, to tell them you shouldn't go back to Congress and 
try to get legislation that is fair? Because you know, five 
Administrations, 10 Administrations have denied that to you.
    Mr. Fortuno. But are you willing to work on a third option 
of free association?
    Mr. Acevedo-Vila. I am responding to all your points. I am 
responding to all your points.
    Mr. Fortuno. Except we are running out of time here.
    Mr. Acevedo-Vila. I am responding to all your points. And 
in terms of the importance of the endorsement of President Bush 
to your bill, and this Congress, isn't he endorsing the surge 
in Iraq? And this Congress----
    Mr. Fortuno. Madame Chair, we are trying to--I reclaim my 
time.
    Mr. Acevedo-Vila. No, my point is----
    Mr. Fortuno. I reclaim my time immediately.
    Mr. Acevedo-Vila. My point is that we come to Congress to 
deliberate. And you are telling Congress you shouldn't 
deliberate and discuss anything, because the President has 
already spoken. And that is not the way the system works.
    Mr. Fortuno. If you want to talk about something else, that 
is fine.
    Mr. Acevedo-Vila. That is not the way the system works.
    Mr. Fortuno. The door is open to work on a free association 
option as a third option.
    Mr. Acevedo-Vila. In terms of the future of Puerto Rico and 
the future development of commonwealth, I will discuss that 
with the people of Puerto Rico. And eventually, with the whole 
Congress. And I will spend as much time as I have to make this 
or the next Congress to understand that the best option for the 
people of Puerto Rico, and the best option for the United 
States, is to work to enhance commonwealth.
    Mr. Fortuno. The door is open. It is free association. 
Three Administrations have told you, and what part of no don't 
you understand?
    Mr. Acevedo-Vila. Mr. Fortuno, Mr. Fortuno, you guys are so 
afraid of commonwealth, that you are not willing even to put 
the name commonwealth on the ballot. Because in your bill, not 
even the name commonwealth is on the ballot. You know why? 
Because whenever statehood has been on the ballot, and 
commonwealth has been on the ballot, you know what has been the 
result. The people of Puerto Rico has rejected statehood. They 
reject statehood today, they reject statehood tomorrow.
    Mr. Fortuno. Madame Chair, the witness isn't answering the 
question.
    Ms. Christensen. Thank you. The time of the gentleman has 
expired. I now recognize Mr. Faleomavaega for five minutes.
    Mr. Berrios-Martinez. Madame Chair, can I comment on Mr. 
Fortuno's question?
    Ms. Christensen. Mr. Faleomavaega.
    Mr. Faleomavaega. I gladly yield.
    Mr. Berrios-Martinez. I want to be as candid and as clear 
as possible. I have been, I think, today to see if we--we have 
to stop beating around the bush.
    The leaders of the PDP today, of the Commonwealth Party, 
are willing to accept work for less than the minimum wage. That 
is what it is all about. That is commonwealth. It is all right 
that they do that.
    But the question Congress has to ask itself is whether, at 
this juncture in time, one can work for less than the minimum 
wage. The history of slavery should be clear enough. There are 
stages you surpass, and once you pass that stage, you don't go 
back.
    And colonialism is one of those things humanity has 
progressed beyond. And therefore, it is an insult, it is an 
insult for people to be told that the only option they should 
have is colonialism or slavery or working for less than the 
minimum wage. Even though that is true, Congress is giving them 
the chance to ask the Puerto Rican people. But why say the two 
polar opposites will unite against the center?
    No. It is the people who don't believe in the colony and 
the people who believe in the colony. There are many 
commonwealthers who don't believe in the colony, and they will 
vote against the colony, together with the statehooders and the 
independentistas. And then we will sort things out among 
alternatives which are not colonial.
    Don't beat around the bush any more. They don't believe in 
going away from colonialism. They believe in permanent union. 
You have been told today, they have a right to espouse that. 
But they have been told, they have told you once and over 
again, and the Governor has repeated today, they don't believe 
in going out of colonialism. They want to live in that mudhole 
forever.
    Mr. Faleomavaega. Reclaiming my time, Madame Chair. I do 
want to thank Mr. Martinez for his statements.
    I just want to ask Gov. Vila a couple of questions. And 
basically, as I have tried to outline the provisions of both 
bills--and I want to see if I am correct in this, Gov. Vila--on 
the specific provisions of H.R. 900 there are three options. 
One for independence, one for free association or statehood. Is 
that your----
    Mr. Acevedo-Vila. It is not clear on the second one.
    Mr. Faleomavaega. H.R. 900.
    Mr. Acevedo-Vila. I know, but on the second round, when 
commonwealth is out of the question. Because in that bill, 
which I again--and the people of Puerto Rico, the majority of 
the people of Puerto Rico reject that bill--even if the people 
vote for statehood, for commonwealth, define commonwealth.
    Mr. Faleomavaega. Governor, may I----
    Mr. Acevedo-Vila. No, no. Then it says that well, you guys 
had it wrong, you know. You have to vote again. Eight years 
from now you will vote again. So, you know, that is the way to 
force the vote.
    Then on the second round they talk about statehood, they 
talk about independence, and then they talk about free 
association, but defined as independence.
    Mr. Faleomavaega. But, Governor, again I am trying to get 
to my point here. The three options outlined in H.R. 900 are 
this: independence, free association, and statehood. Am I 
correct in this, in your reading of the bill?
    Mr. Acevedo-Vila. Yes. But if they are finishing a free 
association as----
    Mr. Faleomavaega. That has not been defined.
    Mr. Acevedo-Vila.--part of independence, yes.
    Mr. Faleomavaega. But it has not been defined under H.R. 
900.
    Mr. Acevedo-Vila. No, you are right.
    Mr. Faleomavaega. The reason for my asking is because there 
is a distinction between free association and one of 
independence.
    Now, free association in terms of how the Micronesian 
States have taken their relationship with the United States, 
you know it is every 15 years they renegotiate the status of 
the unique political relationship between the United States and 
Palau, the Marshall Islands, and the Federated States of 
Micronesia.
    Now, what they have done is simply taken free association 
from the definition of commonwealth from Puerto Rico, which is 
friestado or something, I am sorry----
    Mr. Acevedo-Vila. Balot libre social.
    Mr. Faleomavaega. Yes, OK. They took that definition of 
commonwealth in Spanish and adopted it, but defining it in a 
different fashion.
    So what I am suggesting, I am asking you, Governor, as was 
Mr. Martinez, there is a definite distinction here. The fact 
that free association, is this essentially what you have in 
mind for enhanced commonwealth as an option you have in H.R. 
1230?
    Mr. Acevedo-Vila. The thrust of the argument is, and that 
is what the problem with the White House report is, number one, 
whether you can reach an agreement based on mutual consent, 
which is a recognition of sovereignty. Because if you recognize 
mutual consent, you are recognizing the power of the other side 
to reach the agreement.
    And you have heard here, they say that is impossible. But 
in that sense--and the second one is U.S. citizenship for 
people born in Puerto Rico. The way this Administration and 
this report and H.R. 900 defines free association is without no 
mutual consent possibility, and without no possibility of U.S. 
citizenship. And in that sense, that is something that is 
rejected by the people of Puerto Rico.
    Mr. Faleomavaega. I might also add, Governor, there is a 
fourth option that has not been discussed here. And that is a 
covenant relationship with the United States, which currently 
the Commonwealth of Northern Mariana Islands have, in a very 
unique fashion, which is based on mutual consent.
    Mr. Acevedo-Vila. I agree with you. But if you accept H.R. 
900 and the White House Task Force report, that one is 
unconstitutional, also. So that is the problem.
    The problem is that they are using legal arguments to leave 
the people of Puerto Rico, and I will add Guam, American Samoa, 
without options. Using the Constitution. They are using the 
Constitution to deprive our people of new options, of new 
alternatives. And to deprive Congress of alternatives, of new 
options.
    Mr. Faleomavaega. I am so sorry that Gov. Rossello had to 
leave. But again, for you, Mr. Martinez, I know my time is up, 
and I am at the mercy of Madame Chair here.
    Mr. Fortuno. I will be very short. Madame Chair, if I may, 
let the record be straight that I am more than willing to work 
on that third option. It is free association as has been 
defined by the Justice Department over and over again.
    Mr. Berrios-Martinez. Of course, there are three, four, and 
10 options besides those accepted by international law, which 
are free association, independence, and statehood or 
integration. They are all territorial options. You can be a 
territory like the Northern Marianas, you can be a territory 
like the Virgin Islands, you can be a territory like Puerto 
Rico. And Congress will itself have the prerogative to rule 
over that territory. So of course you have many types of 
territories. We are seeing of them sitting right here. And you 
can improve them.
    But not, not as permanent political status recognized by 
international law. Neither by U.S. Constitutional law. That is 
the issue here. So why don't we face it, and talk it like it 
is?
    Ms. Christensen. The gentleman's time is expired. I now 
recognize Ms. Bordallo for five minutes.
    Ms. Bordallo. Thank you, Madame Chair. I am not going to 
take my five minutes, but I know there are two panels that are 
still to be heard. But I do want to thank the very 
distinguished leaders of Puerto Rico who traveled all the way 
here to Washington. Of course, I travel a little bit further to 
Washington, from Guam.
    But I do want to thank them very much for participating. 
And thank you very much, gentlemen, for your time. Thank you, 
Madame Chair.
    Ms. Christensen. Thank you, Ms. Bordallo. I recognize 
myself now for five minutes.
    I will start with Mr. Berrios. In your statement you say 
that the political efficacy of H.R. 1230 depends on the outcome 
of next year's election. Could you explain what you mean by 
that? I mean, if I remember correctly, no matter which process 
has occurred in the past, the party in power has always had 
some more influence over the outcome.
    Mr. Berrios-Martinez. Yes, of course. It is not only 
ambiguous, but it depends on the efficacy. That means if the 
PDP wins, if Mr. Acevedo-Vila wins, he has already announced 
what he will propose in the next session. Then he promises a 
constitutional convention, with the colonial commonwealth or 
one of the colonial modified versions of the colony.
    So if he wins, then we have in Puerto Rico a constitutional 
convention which will solve nothing, because commonwealth is 
the problem; and thus, it cannot be the solution. That is what 
I mean by the fact that it depends on the outcome.
    The one I am proposing does not depend on the outcome of 
the next election. First, because the first step is mandated 
from here. Second, because a real constitutional convention has 
to be called in Puerto Rico with international options. And if 
it is not called, then Congress must dispose of the territory. 
That doesn't depend on who wins the next election.
    I must warn you, also, that Mr. Acevedo's party has won 
several times, with several promises, and we are still in the 
unincorporated territory of Puerto Rico, for 50 years. So you 
know, have that in mind.
    Ms. Christensen. Thank you. Governor, would you also 
respond to that question? And in the process, could you answer 
for me, does the H.R. 1230 process have, is it geared toward 
one specific outcome? Or can that constitutional assembly just 
as easily come up with a status that could be statehood or 
independence?
    Mr. Berrios-Martinez. It is a different approach. It is a 
new approach. And as I said in my written statement, I invite 
this Congress not to make the same mistakes that were made in 
the past.
    I think this hearing is a good example of why the 
constitutional convention should be the alternative. First, you 
have seen our divisions. Even one is missing now.
    [Laughter.]
    Mr. Berrios-Martinez. And what H.R. 900 is doing is 
bringing those divisions here. Through a constitutional 
convention you create a mechanism for the people of Puerto Rico 
to internally go through our divisions and try to find common 
grounds. So that is number one.
    Number two--and I say this with all due respect, and I know 
there have been votes--but you are discussing the most 
important issue in terms of the future of Puerto Rico. You are 
trying to tell the people of Puerto Rico that this Congress is 
going to decide and make clear what are the options. And this 
room has been empty the whole day. I think that is a good 
example why we shouldn't repeat the same mistakes.
    H.R. 1230 basically says we recognize that the people of 
Puerto Rico have the power to call a constitutional convention, 
and we will respond, we will hear them. We will hear them. That 
way the people of Puerto Rico will vote for delegates. I don't 
know what is going to be the outcome of that; maybe the 
majority of the delegates will be for statehood, maybe not. 
Maybe when they sit down as a group, they change their opinion.
    And once they have a proposal, which has to be validated by 
the people of Puerto Rico, they will come to Congress. And 
Congress, if it is statehood, the alternative, will say well, 
it has to be statehood in Spanish, it has to be in English what 
judicial system, taxes and all that. Maybe the people of Puerto 
Rico will say wait, we don't want that offer. Maybe Congress 
will say forget about statehood. Maybe there won't be any 
response from Congress. Then the constitutional convention and 
the people of Puerto Rico will know where we stand.
    The same thing with new commonwealth. What I am asking for 
new commonwealth is to give the same opportunity that you are 
willing to grant to statehood. Because, again, the issue, you 
know, what kind of statehood are we talking? Those are very 
important issues.
    Some of you have been in Puerto Rico and seen the 
campaigns. The Statehood Party is telling my party that we can 
become the 51st state and still have our national Olympic team. 
They put T.V. ads with that.
    They have said to my people, don't worry about Spanish in 
the schools; the school system will be in Spanish. The judicial 
system will be in Spanish. So why, you know--H.R. 900 says we 
don't have to respond to those questions in order to offer 
statehood. Ah, but in order to offer commonwealth, we will 
respond to all the questions beforehand.
    The constitutional convention will allow the people of 
Puerto Rico to have those internal discussions, and then come 
here and make a proposal in which Congress will react.
    Mr. Faleomavaega. Madame Chairwoman----
    Ms. Christensen. I am sorry, but maybe you can answer. I 
just want to get one question in before my time is totally up. 
And I am going to ask it to the Governor, but I will also let 
you respond.
    In your opinion, Governor, is the current economic 
situation in Puerto Rico related to its status? I have this 
article here that--I know I am still learning, and I may have 
missed some of the words in Spanish, because it is in Spanish. 
But you have four leading economists, I think they are very 
well-respected economists, who talk about the economy. And 
their recommendation is a restructuring.
    And in all of the things that they list, they don't list 
anything about changing status.
    Mr. Acevedo-Vila. I am going to ask you a question, not for 
you to answer, just as my initial answer.
    Is the economic situation in Mississippi, who is the 
poorest state and has been the poorest state for the last 50 or 
100 years--and I read in the New York Times the other day that 
in Mississippi and the South, the birth rates are coming down 
instead of going up--is that a consequence of statehood? Is the 
economic situation of Mississippi a consequence of statehood?
    In terms of developing commonwealth, we can sit down with 
Congress and reach agreements that will empower the people of 
Puerto Rico in areas that will be beneficial economically for 
Puerto Rico and for the United States. But in terms of dealing 
short term with our situation is the same challenges that any 
independent country or any other jurisdiction in the United 
States has.
    And again, I have heard a lot about this issue in terms of 
statehood, and how is statehood an economic boom. And my answer 
is what happened to Mississippi? The per capita income of 
Mississippi is not the same as California, or Texas.
    Mr. Berrios-Martinez. Madame Chairwoman, regarding this 
question let me tell you that of course it has a direct 
influence on the economic problems of Puerto Rico. The only way 
to put Puerto Rico on its own two feet is to internationalize 
its market and its investment opportunities, and that can only 
be done through the full powers of sovereignty.
    But I must, to end my words, say something. As you know, I 
referred to the fact that I don't understand how some people 
will refer to the United States as an empire, and yet want to 
marry that empire.
    On the other hand, I don't understand how somebody can say 
that things have to be resolved in Puerto Rico, and agrees with 
the political system, where everything is so from here. Because 
that is what commonwealth is all about. It is not with we here 
that you command Puerto Rico, it is without anybody here. You 
have been commanding Puerto Rico since 1898. You are still 
commanding Puerto Rico, because you make all rules, 
regulations, and laws that apply to all basic facets of Puerto 
Rican life.
    And those people that say we have to solve things in Puerto 
Rico are those who agree that you command your destiny from the 
United States. I can't understand that contradiction, either.
    Ms. Christensen. Thank you. My time has long expired, and I 
want to thank the witnesses for their very informative 
testimony, and again, the Members for their questions and for 
your answers to our questions.
    We may have more questions for you, which we will send in 
writing, and we ask you to respond in writing.
    Mr. Berrios-Martinez. Thank you.
    Ms. Christensen. Thank you again. I would now like to 
recognize the third panel of witnesses, and they are The 
Honorable Kenneth D. McClintock, President of the Puerto Rican 
Senate; The Honorable Jose Aponte, Speaker of the Puerto Rican 
House of Representatives; The Honorable Jose Dalmau, Senate 
Minority Leader of the PDP; The Honorable Hector Ferrer, House 
Minority Leader, Popular Democratic Party; and The Honorable 
Carlos Romero Barcelo, former Governor and former Member of 
Congress.
    [Pause.]
    Ms. Christensen. The Chair now recognizes Senator 
McClintock for five minutes.

         STATEMENT OF THE HON. KENNETH D. McCLINTOCK, 
                 PRESIDENT, PUERTO RICAN SENATE

    Mr. McClintock. Thank you very much. In the 31 years since 
I first appeared before this Subcommittee, two things have 
happened with complete certainty.
    First, I haven't gotten any younger. And second, the 
argument that I have heard the most to excuse 108 years of 
Congressional inaction is that American citizens in Puerto Rico 
have to speak with one voice to resolve its status, a standard 
that hasn't kept you from dealing with racial segregation, oil 
drilling in the ANWR, protection of the Everglades, or 
immigration reform, for example.
    As President of the Senate, may I remind you that two years 
ago, Puerto Rico did speak with one voice when a historic tri-
partisan unanimous majority in the Senate and in the House 
supported a bill asking you to allow Puerto Ricans to choose 
among non-territorial and non-colonial options, exactly what 
H.R. 900 proposes. While the Governor unexpectedly vetoed the 
bill he promised to sign, fully two thirds of our Senate 
continued supporting what H.R. 900 proposes.
    H.R. 900 provides a reality check, for Puerto Ricans to 
choose among the real options: continuing the current territory 
status, or moving to statehood, independence, or nationhood in 
a true free association with the U.S. The Governor has wrongly 
insisted that the majority supports so-called commonwealth, but 
no one can be sure until there is a vote among real options, 
which H.R. 900 would provide.
    The current status, without any doubt, is subject to the 
Territories Clause of the Constitution. Some so-called 
commonwealth supporters defend it, stating that it just needs 
some development toward a non-territorial commonwealth status. 
Since what they call commonwealth is a territorial status, a 
non-territory commonwealth status is, by definition, an 
oxymoron.
    The fatal flaw in H.R. 1230 is that it includes an 
impossible proposal as an option, while it excludes a real 
status alternative. The excluded real status is free 
association. The impossible proposal is what Congressman 
Fortuno has called the supersized commonwealth that the 
Governor espouses, and that CRS made clear isn't possible, for 
constitutional and basic policy reasons.
    Enacting a Federal law listing a non-territory commonwealth 
status as an option, as the Governor proposes, would invite 
Puerto Rico to choose an alternative that Congress cannot, and 
would not, grant, which would be a cruel hoax.
    H.R. 1230 is less democratic than H.R. 900. Under H.R. 900, 
the people would choose their preferred status. Under H.R. 
1230, a convention, likely to be comprised of politicians who 
would speak among each other, as well as we speak among each 
other here, would choose, and the people would ultimately only 
be able to accept or reject the selected proposal; thus 
cornering the people into accepting a proposal that they would 
otherwise not have chosen by a majority.
    The purpose of the constitutional convention in H.R. 1230 
is different from that of the constitutional conventions held 
by the 50 states, held by Puerto Rico in 1951, authorized under 
the Constitution of Puerto Rico, held by the U.S., and held by 
all four other populated current territories. The purpose of 
those constitutional conventions was to organize governments 
under an already determined political status. The purpose of 
this constitutional convention would be to choose a political 
status.
    Finally, have you given any thought as to how much longer 
Congress is empowered to keep us as a territory? The 
segregationist majority of the Supreme Court that resolved 
Plessy v. Ferguson in 1896, and the first of the Insular cases, 
believed that Congress could keep colonies forever. Justice 
Harlan, whose dissent in Plessy became the unanimous opinion of 
the Court in Brown v. Board of Education, stated in his Insular 
case dissent his belief that the Territories Clause was never 
intended by its anti-colonial drafters to justify Congress 
keeping territories forever.
    Which interpretation do you support? The segregationist 
view that separate but equal forever, be it racial or 
geographical, is constitutional? Or do you support Justice 
Harlan's view? If you reject the segregationist view, inaction 
is no longer an alternative. The only alternative is to 
establish a process that will allow you to dispose of the 
territory of Puerto Rico or admit us into the Union. H.R. 900 
clearly sends Puerto Rico on that path.
    On a personal note, may I say, if you look at every coin in 
your pocket, you will see the phrase e. pluribus unum--among 
many, one. H.R. 900 would allow us someday to become of the 
many, one. We are not part of that one today.
    Thank you.
    [The prepared statement of Mr. McClintock follows:]

     Statement of The Honorable Kenneth D. McClintock, <SUP>1</SUP>
---------------------------------------------------------------------------

    \1\ I have been an at-large Senator from the New Progressive Party 
since 1993. I'm currently in my fourth term. From 1993 to 2000, I 
chaired the Committee on Federal and Economic Affairs and from 1994 to 
2000 I also chaired the Government Affairs Committee. I served as the 
first Hispanic Chairman of the Council of State Governments during 1999 
and as the second President of the Parliamentary Conference of the 
Americas in 2000. From 2001 to 2004 I was the Senate Minority Leader 
and in 2005 became the thirteenth President of the Senate.
---------------------------------------------------------------------------

                    President, Senate of Puerto Rico

    I appeared before this Subcommittee for the first time 31 years 
ago, on January 20th, 1976, at the age of 18. <SUP>2</SUP> Since then, 
two things have happened with complete certainty; first, I haven't 
gotten any younger, and secondly, the argument that I've heard the most 
to excuse 108 years of Congressional inaction is that the American 
citizens in Puerto Rico have to speak with one voice to resolve the 
status dilemma, a standard that hasn't kept you from dealing with other 
highly divisive domestic issues, such as racial segregation 
<SUP>3</SUP> ``in the past--and, more recently, oil drilling in the 
ANWR, <SUP>4</SUP> the protection of the Everglades <SUP>5</SUP> and 
the very delicate issue of immigration reform.
---------------------------------------------------------------------------
    \2\ Hearings by the Territorial and Insular Affairs Subcommittee of 
the Committee on Interior and Insular Affairs, January 20, 1976, San 
Juan, Puerto Rico. Among numerous other appearances before 
Congressional committees, I also appeared before the full Committee on 
Resources of the United States House of Representatives on April 19, 
1997 in San Juan, Puerto Rico regarding H.R. 856, known as the Young 
Bill.
    \3\ It's a well-known historical fact that when President Lyndon 
Johnson signed the 1964 Civil Rights Act, he would tell aide Bill 
Moyers that with a stroke of a pen he had just delivered the South to 
the Grand Old Party for the foreseeable future. As Senator Barack Obama 
has noted, President Johnson chose the ``right side of the battle'', 
notwithstanding the fact this was, and has been, the most divisive 
issue our Country has ever faced. Obama, Barack, The Audacity of Hope: 
Thoughts on Reclaiming the American Dream. Crown Publishers. p. 27, 
2006.
    \4\ See CRS-Issue Brief IB10111, Arctic National Wildlife Refuge 
(ANWR): Controversies for the 108th Congress, September 29th, 2004.
    \5\ See http://www.americanparknetwork.com/parkinfo/
content.asp?catid=85&contenttypeid=14
---------------------------------------------------------------------------
    As President of the Senate, may I remind you that two years ago, 
Puerto Rico spoke with one voice when a historic tri-partisan unanimous 
vote in the Senate was followed by a unanimous vote in the House in 
favor of a measure <SUP>6</SUP>, in which every one of Puerto Rico's 
elected senators and representatives voted for a referendum in which 
the People of Puerto Rico would ask the Congress to commit to resolve 
Puerto Rico's status dilemma. Unexpectedly, Governor Acevedo vetoed the 
bill, after having made the commitment that he would sign it as it was 
approved.
---------------------------------------------------------------------------
    \6\ Substitutive of House Bills 1014, 1054 and 1058
---------------------------------------------------------------------------
    Since then, the White House issued its report, and, in spite of the 
Governor's inexplicable veto of the bill, two-thirds of Puerto Rico's 
Senate supports H.R. 900 and opposes H.R. 1230.
    H.R. 900 would provide a ``reality check'' for Puerto Ricans to 
choose among the real status options that have support in the 
territory--continuing the current territory status, U.S. Statehood, 
independence, and nationhood in a true free association with the U.S.
    The bill is based upon the findings and recommendations of the 
President's Task Force on Puerto Rico's Status established by President 
Clinton and comprised of senior appointees of President Bush who 
consulted with Puerto Rico's leaders and studied the issue anew. They 
generally agreed with the Clinton Administration on the options.
    From the past Co-Chairman of the President's Task Force, Mr. Ruben 
Barrales, I know that the two step-choice process was proposed in 
deference to Gov. Acevedo, who wrongly insisted that the majority of 
Puerto Ricans had always supported ``commonwealth'', and who opposed 
the Puerto Rican people choosing among all the options.
    ``Commonwealth'' is understood in Washington to refer to Puerto 
Rico's territory status. The evidence is that Puerto Ricans do not 
support it, but no one can be sure until there is a vote among real 
options. The only time that the status as it exists was on the ballot--
in 1998--it received less than one-tenth of one percent of the vote. 
Many commonwealthers voted for ``None of the Above'' along with many 
``independentistas'' <SUP>7</SUP>. Commonwealthers did so because they 
were told by the current Governor that was the way to vote for the 
``Development of the Commonwealth'' proposal. (See the article 
incorporated into my full statement. <SUP>8</SUP>) This demonstrated 
why federal action is needed to clarify the real status options and was 
the reason that President Clinton agreed to establish the Task Force 
during a meeting with leaders of all three local parties. In the 1952 
referendum, there was no ``commonwealth'' status option on the ballot. 
A proposal for a ``commonwealth''--different than the present--won the 
1967 referendum, but it was rejected by this subcommittee's 
predecessor. Another proposal for a ``commonwealth'' different than the 
present obtained a slight plurality over statehood in 1993, but it was 
not accepted by the Clinton Administration or congressional leaders. As 
former Governor Hernandez Colon has written, ``all factions do agree on 
the need to end the present undemocratic arrangement'' <SUP>9</SUP>--
and this is illustrated by the status proposals of the three parties 
and of the faction of the ``commonwealth'' party that supports free 
association.
---------------------------------------------------------------------------
    \7\ Spanish for Pro-Independence voters.
    \8\ ``PDP unveils commonwealth definition'', San Juan Star, October 
17, 1998.
    \9\ ``Doing Right by Puerto Rico: Congress Must Act'', Foreign 
Affairs, August 1998.
---------------------------------------------------------------------------
    The current political status of Puerto Rico is, without any doubt, 
subject to the Territorial Clause of the Constitution of the United 
States. Some ``commonwealth'' supporters defend the current political 
status stating that it just needs some development, in the direction to 
a non-territorial Commonwealth status. Since what they call 
``commonwealth'' is a territorial status, a non-territory 
``commonwealth'' status is by definition an oxymoron.
    The fatal flaw of Governor Acevedo's H.R. 1230 is that it includes 
an impossible proposal as an option and excludes a real status. The 
excluded real status is free association, which Acevedo opposes but is 
supported by a growing faction within his party. The impossible 
proposal is the ``commonwealth Status'', as the testimony of the 
Congressional Research Services constitutional expert made clear at the 
last hearing and was not rebutted by Acevedo's constitutional expert at 
the hearing.
    Repeated statements of Acevedo and his representatives and 
statements in the ``Development of the Commonwealth'' proposal itself, 
as to the purpose of the convention that H.R. 1230 would support, make 
clear that the non-territory ``commonwealth status'' is intended to be 
Governor Acevedo's ``Development of the Commonwealth''. This proposal 
has been rejected as impossible--for constitutional and basic policy 
reasons--by the Clinton Administration and every Congressional leader 
who has commented on it, as well as by President Bush's Task Force. 
Under the proposal, Puerto Rico would be a nation to which the U.S. is 
permanently bound, with the power to enter into international 
agreements; but the U.S. would also be permanently obligated to grant a 
subsidy, in addition to the present one, new incentives for U.S. 
investment, all current assistance to Puerto Ricans, free entry to any 
goods shipped from Puerto Rico, and U.S. citizenship. Federal laws 
would apply and the federal courts would rule but only to the extent 
agreed to by the local government <SUP>10</SUP>.
---------------------------------------------------------------------------
    \10\ See Exhibit 1, ``Popular Democratic Party Development of the 
Commonwealth'' approved by the Governing Board of the Popular 
Democratic Party On October 15, 1998.
---------------------------------------------------------------------------
    Enacting a federal law listing a non-territory ``commonwealth 
status'' as an option, when the intent of the proponents is the 
``Development of the Commonwealth'' proposal, would be to invite Puerto 
Rico to choose as its status preference a proposal that Congress 
cannot, and would not grant--a cruel hoax.
    Another fundamental flaw of H.R. 1230 is that it is designed to 
result in a ``stacked deck'' against one of the real options, 
statehood, and produce an artificial majority for the ``commonwealth'' 
nationhood proposal. As stated by local senators who support Gov. 
Acevedo's proposal, <SUP>11</SUP> the plan is to form a coalition with 
Pro-independence voters and other nationalists in a convention to 
outvote statehood delegates. ``Independentistas'' and other 
nationalists would probably agree, also knowing that the 
``commonwealth'' proposal would be rejected in Washington, leaving true 
nationhood as the only option.
---------------------------------------------------------------------------
    \11\ 
---------------------------------------------------------------------------
    H.R. 1230 is also less democratic than H.R. 900. Under H.R. 900, 
the people would pick Puerto Rico's proposed status. Under H.R. 1230 a 
convention, likely to be comprised of politicians, would select among 
the status proposals for the people and the people would only be able 
to accept or reject the selected proposal. This is intended to corner 
the people into accepting a proposal that they would otherwise not 
choose by majority.
    The purpose of the ``constitutional convention'' in H.R.1230 is 
different from that of the constitutional conventions Puerto Rico held 
in the early 1950s, authorized under the Constitution of Puerto Rico, 
held by the United States, held by the 50 States, and held by all four 
other populated current territories. The purpose of those 
constitutional conventions was to organize governments under an already 
determined political status; the purpose of this ``constitutional 
convention'' would be to choose a status.
    Finally, as the Congress decides whether to act to dispose of the 
territory or admit it as a new state, you should ask yourselves for how 
much longer do you believe that Congress should be empowered to make 
needful rules and regulations, and keep us as the territory we've been 
for over a century.
    The segregationist vision that permeated the U.S. Supreme Court 
majority opinion in Plessy versus Ferguson in 1896 <SUP>12</SUP> 
spilled over into the first of the Insular Cases which suggests that 
Congress could keep colonies forever. <SUP>13</SUP> Justice Harlan, 
whose dissent in Plessy <SUP>14</SUP> became the unanimous opinion of 
the Court in Brown <SUP>15</SUP>, stated in his Insular Case dissent 
his belief that the Territories Clause of the Constitution was never 
intended by its anti-colonial drafters to justify 108 years of 
colonialism <SUP>16</SUP>
---------------------------------------------------------------------------
    \12\ 163 U.S. 537 (1896). Plessy, is the 1896 case in which the 
United States Supreme Court declared constitutional the separate and 
unequal treatment of Afro-American citizens, a case which was later 
struck down in several contemporary cases, notably Brown v. Board of 
Education of Topeka, 347 U.S. 483 (1953), which held that separate is 
inherently unequal.
    \13\ The following are known as the Insular Cases: De Lima v. 
Bidwell, 182 U.S. 1 (1901); Goetze v. United States, 182 U.S. 221 
(1901); Dooley v. United States, 182 U.S. 222 (1901); Armstrong v. 
United States, 182 U.S. 243 (1901); Downes v. Bidwell, 182 U.S. 244 
(1901); Huus v. New York & Porto Rico Steamship Co., 182 U.S. 392 
(1901). For a critical discussion of the colonialist doctrine set forth 
in the Insular Cases, see Justice Torruella's dissent in Igartua-de la 
Rosa v. U.S., 417 F.3d. 145, 158-166 (2005).
    \14\ In Plessy v. Ferguson, supra, p. 559, Harlan's dissent stated 
that ``[b]ut in view of the Constitution, in the eye of the law, there 
is in this country no superior, dominant, ruling class of citizens. 
There is no caste here. Our Constitution is color-blind, and neither 
knows nor tolerates classes among citizens. In respect of civil rights, 
all citizens are equal before the law.''
    \15\ Supra Footnote 12.
    \16\ In Downes v. Bidwell, supra, p. 380, Harlan's dissent stated 
that ``[t]he idea that this country may acquire territories anywhere 
upon the earth, by conquest or treaty, and hold them as mere colonies 
or provinces,--the people inhabiting them to enjoy only such rights as 
Congress chooses to accord to them,--is wholly inconsistent with the 
spirit and genius, as well as with the words, of the Constitution.''
---------------------------------------------------------------------------
    Which constitutional interpretation do you support today; the 
segregationists' view that separate-but-equal forever, be it racial or 
geographical, is constitutional, or Justice Harlan's view that Puerto 
Rico cannot be treated differently forever?
    As Justice Harlan, I believe that the Clause's drafters, who only 
five years before had won a war against colonialism, never intended for 
you to continue ruling indefinitely over Puerto Rico as a territory. If 
you share our belief, inaction is no longer an alternative. The only 
alternative is to establish a process that will allow you to dispose of 
the territory of Puerto Rico or admit us into the Union. H.R. 900 
clearly sends Puerto Rico on that path.
    Thank you.
                               Exhibit 1

                        POPULAR DEMOCRATIC PARTY

                    DEVELOPMENT OF THE COMMONWEALTH

    The people of Puerto Rico, in the exercise of their sovereignty, 
their natural right to self government and their free will as ultimate 
sources of their political power, hereby reaffirm the validity of the 
Commonwealth established as an autonomous political body, that is 
neither colonial or territorial, in permanent union with the United 
States under a covenant that cannot be invalidated or altered 
unilaterally and proposes its autonomic development. The relationship 
between Puerto Rico and the United States will continue to be based on 
common defense, market and currency and on the irrevocability of the 
U.S. citizenship, acquired by birth and protected by the U.S. 
Constitution.
    This relationship guarantees the autonomous development of Puerto 
Rico based on the democratic precept of government with the consent of 
the governed and the recognition that Puerto Rico is a nation with its 
own history, idiosyncracy, culture and Spanish language.
    To achieve its maximum economic progress and well-being, the people 
of Puerto Rico propose to develop Commonwealth retaining all the powers 
that are not delegated to the United States. Under Puerto Rico's fiscal 
autonomy, economic development areas will be identified in which joint 
action can produce jobs and other benefits for both parties, including 
the flexibility in the use of federal funds, providing that programs of 
direct aid to individuals will continue as they are present. The 
Commonwealth will be able to enter into commercial and tax agreements, 
among others, with other countries, and belong to regional and 
international entities, consistent with the common interests of defense 
and security between the United States and Puerto Rico, as agreed to in 
the covenant.
    Once the request for the development of the people of Puerto Rico 
is approved, a Constituent Assembly will be called to negotiate with 
the U.S. government the terms and conditions of the covenant, which 
will include a mechanism to approve the application of legislation 
approved by the U.S. Congress.
                    ARTICLE I--PUERTO RICAN IDENTITY
A. PUERTO RICAN NATIONALITY
    Puerto Ricans have a common history, idiosyncracy, culture and 
language that constitute a specific nationality separate from that of 
any other nation.
B. PUERTO RICAN CITIZENSHIP
    Persons born in Puerto Rico are Puerto Rican citizens by birth and 
their Puerto Rican citizenship is transmittable to their descendants as 
determined by the Commonwealth and would have the rights, privileges 
and obligations that derive from it.
                     ARTICLE II--BASIS OF THE UNION
    The union between Puerto Rico and the United States will continue 
to be based on the following fundamental elements determined by Puerto 
Rico freely and in agreement with the United States:
A. COMMON CITIZENSHIP
    People born in Puerto Rico will continue to be citizens of the 
United States by birth and this citizenship will continue to be 
protected by the Constitution of the United States and by this Covenant 
and will not be unilaterally revocable.
B. COMMON DEFENSE
    The United States will maintain authority and responsibility over 
defense matters. This will include: the same responsibility for the 
defense of Puerto Rico and its people as the United States and its 
people; denying and limiting military or strategic access to Puerto 
Rico to any foreign power, maintaining the bases or other military 
installations currently operating in Puerto Rico as well as the 
National Guard; stipulating that the case of the Municipality of 
Vieques will be the object of the highest attention in agreement with 
the legitimate call of its residents; and, any additional need would be 
considered and dealt with through specific and separate agreements.
C. COMMON CURRENCY
    The U.S. dollar is and will continue to be the currency in Puerto 
Rico.
D. COMMON MARKET
    A common market will continue to exist between Puerto Rico and the 
United States, by which the free flow of goods and services between the 
two countries will continue.
                  ARTICLE III--DISTRIBUTION OF POWERS
A. SELF GOVERNMENT
    The Commonwealth emanates from the power of the people to govern 
themselves, and for that reason, the people of Puerto Rico retain all 
the powers that have not been delegated to the United States.
B. DELEGATION OF POWERS
    The powers related to the Federal laws related to defense, 
currency, U.S. citizenship, Social Security, Medicare, unemployment 
insurance, banks and brokerage, Postal Service and the programs for 
providing social and educational assistance to citizens and veterans 
are delegated to the United States. In addition, international 
relations are delegated to the extent consisted with this Covenant.
C. SHARED POWERS
    Areas of special cooperation will be identified in which the United 
States and the Commonwealth will exercise shared powers for the benefit 
of both people through the process established in Article XII.
                     ARTICLE IV--RIGHTS OF CITIZENS
A. CONSTITUTIONAL RIGHTS
    The U.S. citizens residing in Puerto Rico will be protected by all 
the rights, privileges and immunities granted by the Constitution of 
the United States and the Commonwealth.
B. ECONOMIC BENEFITS
    The Federal programs that provide social and educational assistance 
directly to Puerto Rico's residents, such as the Nutritional Assistance 
Program, Pell Grants and educational loans, among others, will continue 
and be guided by the applicable Federal and State regulations.
    The United States recognizes as acquired rights Federal programs 
for veterans and Social Security, Medicare, and unemployment insurance 
benefits for which Puerto Rican workers and employers have made and 
will continue to make the corresponding Federal contributions.
                    ARTICLE V--ECONOMIC DEVELOPMENT
A. WITH THE UNITED STATES OF AMERICA
    To promote Puerto Rico's economic development, and considering the 
present and future relations between Puerto Rico and the United States, 
the U.S. commits to provide the Commonwealth an annual block grant 
adjusted for inflation, so the Government of Puerto Rico can continue 
to provide social assistance, develop public works and infrastructure, 
and provide incentives for the creation of jobs and socioeconomic 
development.
    The U.S. and Puerto Rico will identify and agree on areas of 
economic development in which joint action will produce jobs and other 
economic benefits for both parties, including the creation of special 
incentives programs for investment in the islands.
B. INTERNATIONAL
    The Commonwealth will have control over international trade and 
will establish a policy to promote its maximum economic development. To 
that effect, it will have the capacity to enter into commercial and tax 
agreements, among others, with other countries, consistent with the 
common interests of the defense and security of Puerto Rico and the 
United States.
    The Commonwealth will be able to enter into international 
agreements and belong to regional and international organizations 
consistent with the common interests of the defense and security of 
Puerto Rico and the United States.
    The United States commits to support the participation or 
membership of Puerto Rico in the agreements and organizations to which 
this article refers.

                       ARTICLE VI--FEDERAL LANDS

    The Government of the United States will transfer to Puerto Rico 
the lands that now it has in Puerto Rico with the exception of those 
lands that are used for common defense or that are necessary to 
exercise the powers delegated in this Covenant.

               ARTICLE VII--AREAS OF SPECIAL COOPERATION

    Puerto Rico and the United States will establish other areas of 
special cooperation intended to guarantee the quality of life of Puerto 
Ricans and to continue nourishing from the collective experiences of 
institutional and local development of both peoples.
    For the sake of an orderly and calm future and development in 
harmony with the cultural, spiritual, psychological, and economic 
nature of both peoples, Puerto Rico and the United States commit to 
jointly determine strategies to: control drug trafficking; regulate 
communications; protect the borders from illegal immigration; protect 
the environment and recognize guarantees of mutual benefit consistent 
with international rules; promote a new basis for cooperation between 
workers and management; deal with natural disasters; share 
technological advances in the sectors of agriculture, medicine, 
pharmacology, criminal justice, and other disciplines in the areas of 
Natural and Social Sciences and Humanities.

                      ARTICLE VIII--FEDERAL COURT

    The Federal Court will have jurisdiction over matters that arise 
from: provisions of the Constitution of the United States and of the 
Federal laws that apply to Puerto Rico consistent with this Covenant 
and not in violation with the laws of the Constitution of Puerto Rico. 
Spanish and English will be the official languages of that court.

                     ARTICLE IX--RESOLVING DISPUTES

A. NEGOTIATION COMMITTEE
    Any controversy about the interpretation of this Covenant will be 
resolved through negotiations between the parties to this Covenant that 
is the United States and the Commonwealth of Puerto Rico. In all 
negotiations, the Commonwealth of Puerto Rico will be represented by a 
negotiating committee of three (3) members appointed by the governor 
and confirmed by seventy-five percent (75%) of each of the two (2) 
legislative houses of Puerto Rico.
    At least, two (2) of the three (3) members of the committee should 
believe in the political philosophy described in this Covenant, that 
is, be Commonwealthers. In the same manner, the United States of 
America will be represented by a committee of three (3) members 
appointed by the President of the United States

B. COMMISSION TO RESOLVE DISPUTES
    If it is not possible to resolve a controversy through a 
negotiation between the parties, the controversy will be submitted to 
the Commission to Resolve Disputes. This commission will have five (5) 
members, two (2) appointed by the Commonwealth of Puerto Rico, two (2) 
appointed by the United States of America and a fifth member appointed 
by majority of these four (4). The five (5) members will select a 
chairman from their membership.
    Decisions of this Commission in disputes between the Governments of 
the Commonwealth of Puerto Rico and the United States of America 
regarding the interpretation of this Covenant will be final and firm.

                          ARTICLE X--LEGALITY

    The agreement between the people of Puerto Rico and the government 
of the United States of America will have the force recognized by the 
constitutional and international rights in force as a bilateral 
covenant that recognizes rights and delegates powers, based on mutual 
consent that cannot be unilaterally renounced or altered.

                          ARTICLE XI--SYMBOLS

    The symbols, flags and hymns of the Commonwealth of Puerto Rico 
will continue to be as at present.

                ARTICLE XII--OTHER INTERNATIONAL ASPECTS

    The Commonwealth of Puerto Rico will retain the authority to ratify 
cultural, educational, scientific and sports agreements.

                       ARTICLE XIII--NEGOTIATION

    a. Once this development proposal is approved by the people of 
Puerto Rico, a Constituent Assembly will be called that will negotiate 
with the Government of the United States the terms and conditions of 
the association between Puerto Rico and the United States and the 
specific drafting of such agreement on behalf of the people of Puerto 
Rico. This Constituent Assembly will not be able to adopt proposals 
that undermine or cancel the mandate expressed by the people of Puerto 
Rico or that undermines the precepts of common citizenship, market, 
currency and defense, or against the Puerto Rican national identity.
    b. The Constituent Assembly will design and propose to the 
Government of the United States a mechanism for a specific agreement 
regarding the application of legislation approved by the Congress of 
the United States after the adoption of the covenant and that the 
people of Puerto Rico wish to have extended to Puerto Rico.
    The people of Puerto Rico will elect a Resident Commissioner who 
will represent Puerto Rico before the Government of the United States 
and who will be considered a Member of the U.S. House of 
Representatives for purposes of all legislative matters that have to do 
with Puerto Rico, but whose role will also be extended to representing 
Puerto Rico before the Executive Branch of the United States.
    c. The main political parties of Puerto Rico will be represented in 
the Constituent Assembly and will be able to nominate candidates to be 
part of the assembly.
    d. The Covenant will take effect after it has been negotiated and 
approved by the Government of the United States and the Constituent 
Assembly, and it has been approved by the people of Puerto Rico in a 
referendum called for that purpose.
    e. Any change to the terms of this Covenant will have to be 
approved by the people of Puerto Rico in a special vote conducted 
consistent with its democratic processes and institutions.
    f. The Constituent Assembly will not have authority to alter, 
modify, amend, and/or change the Constitution of the Commonwealth of 
Puerto Rico.
Approved by the Governing Board of the Popular Democratic Party
On October 15, 1998
                                 ______
                                 
    Ms. Christensen. Thank you. The Chair now recognizes Mr. 
Aponte for five minutes.

  STATEMENT OF THE HON. JOSE APONTE-HERNANDEZ, SPEAKER OF THE 
             PUERTO RICAN HOUSE OF REPRESENTATIVES

    Mr. Aponte-Hernandez. Buenos tardes. I come before you not 
to press my personal position with regards to what I consider 
to be the most beneficial status option for the people of 
Puerto Rico--statehood. Rather, I take this opportunity to 
inform this committee of the main initiative undertaken by the 
House of Representatives with regards to the political status 
of Puerto Rico.
    The initiative to which I am referring was the truly 
historic achievement by the House of Representatives of Puerto 
Rico, referred to as the substitute to House Bills 1014, 1054, 
and 1058. This measure, approved unanimously, would have 
provided the people of Puerto Rico with the opportunity to vote 
yes or no, demanding the President and the Congress respond to 
their claim to reserve our political status among the fully 
democratic options of a non-colonial and non-territorial 
nation.
    Unfortunately, Governor Acevedo-Vila vetoed the measure, 
after all of his conditional amendments were included, and 
after his minority leaders had indicated that he would sign it. 
Eight and a half months later, the first recommendation 
proposed in the report by the person in task force was almost 
identical to what was proposed in our bill.
    Let me be clear. A minority of the members of the House of 
Representatives of Puerto Rico fully support approval of H.R. 
900, with the amendments presented in my written testimony.
    Madame Chairwoman, Puerto Rico is at a critical juncture. 
Your fellow citizens in Puerto Rico have waited far too long. 
Many have even become skeptical of the prospect of 
Congressional action on this issue.
    For example, this hearing brings back memories of one held 
almost 17 years ago, before the Committee of Insular and 
International Affairs. To those that remember that hearing, 
they may find a clear resemblance of this one.
    Some of the political leaders from our island who were 
witnesses that day are also here with us this afternoon. Just 
as today, that hearing was chaired by the delegate from the 
U.S. Virgin Islands. Unfortunately, nothing changed.
    Over 200 years ago, the citizens of the 13 original 
colonies had similar grievances against the British Government. 
In 1775, Patrick Henry eloquently declared, and I quote, 
``Shall we try argument, sir? We have been trying that for 
years. Have we anything new to offer upon the subject? Nothing. 
We have held the subject up in every light of which it is 
capable, but it has been all in vain. Shall we resort to 
entreaty and humble supplication? What terms shall we find 
which have not been already exhausted? We have petitioned, we 
have demonstrated, we have supplicated, we have prostrated 
ourselves before this wrong. Is life so dear and peace so sweet 
as to repurchase, at the price of chain and slavery? Forbid it, 
Almighty God. I know not what course others might take; but, as 
for me, give me liberty or give me death.'' End quote.
    These are truly ominous words that, in a way, I dread. As 
the Puerto Rican and proud American that I am, I still have a 
firm belief in my government, and in this Congress. It is 
important to heed the words of Congressman Serrano, from the 
previous hearing by this Subcommittee, when he expressed that 
my country has held my patria in bondage for more than a 
century, and I want it to end. I do, too.
    It is time to put an end to the discrimination and 
colonialism by my nation, and with regards to my people. And 
the time to act is now. We, the people, your fellow citizens 
from Puerto Rico, are ready to act. The ball is in your court.
    May God bless America, and in particular all my fellow 
Puerto Ricans who place their hopes for their future in your 
hands. Thank you very much.
    [The prepared statement of Mr. Aponte-Hernandez follows:]

         Statement of The Honorable Jose F. Aponte-Hernandez, 
         Speaker of the House of Representatives of Puerto Rico

    On behalf of the nearly 4 million U.S. citizens who reside in 
Puerto Rico, which my fellow 50 representatives and I proudly and 
responsibly represent in our House of Representatives, let me recognize 
the importance of this hearing and the significance of the legislative 
process which in earnest begins today. Thank you for responding to the 
petition brought forth to you by our Legislative Assembly.
    This morning, I come before you not to express my personal position 
and choice with regards to what I consider to be the most beneficial 
status option for the people of Puerto Rico; but rather, as an 
opportunity to inform the United States House of Representatives of the 
three main initiatives undertaken by the House of Representatives of 
Puerto Rico throughout the past two years with regards to the political 
status of Puerto Rico and the basis for these.
    First and foremost, I would like to share with you the historic 
achievement originated and spearheaded by the House of Representatives 
of Puerto Rico that resulted in the measure referred to as the 
Substitute to House Bills 1014, 1054 and 1058 (Enclosure 1). As per 
Section 7 of that substitute bill, the people of Puerto Rico would have 
been provided with the opportunity to vote yes/no on the following 
proposition:
        We, the People of Puerto Rico in the exercise of our right to 
        self-determination, demand from the President and the Congress 
        of the United States of America, before December 31, 2006, an 
        expression of their commitment to respond to the claim of the 
        People of Puerto Rico to solve our political status among fully 
        democratic options of a non-colonial and non-territorial 
        nature.
    As anyone involved may attest, that measure was a product of honest 
and frank negotiations with fellow representatives of the three 
delegations in the House (thus representing the traditional status 
options in Puerto Rico), as well as with the Governor of Puerto Rico by 
means of his party's minority leaders both in the House and Senate. The 
result was a status bill which garnered the UNANIMOUS APPROVAL in both 
chambers.
    That included not only the vote of members of the majority pro-
statehood New Progressive Party; but also, those of the minority pro-
independence Puerto Rican Independence Party and the pro-commonwealth 
Popular Democratic Party. Sadly in an unexpected move, Governor 
Acevedo-Vila vetoed the measure after all of his conditional amendments 
were included and after his minority leaders had indicated that the 
Governor would sign the aforementioned measure. History and the people 
of Puerto Rico will judge him for not being truly committed in 
addressing this issue and for having fear of the future and the 
inevitable consequences of change and self-determination.
    It is noteworthy to point out that eight and half months later, the 
first recommendation proposed in the Report by the President's Task 
Force on Puerto Rico's Status was almost identical to what was proposed 
in the Substitute to House Bills 1014, 1054 and 1058. Definitely, the 
historic consensus first achieved in our House of Representatives 
provided the President's Task Force with the keystone from which to 
begin an irreversible process that would result in Puerto Rico's self-
determination.
    Second, on April 21, 2005, the House of Representatives of Puerto 
Rico approved House Concurrent Resolution 25 (Enclosure 2), which 
petitioned
        Congress and the President of the United States of America to 
        respond to the democratic aspirations of the United States 
        citizens of Puerto Rico in order to ensure that with all 
        deliberate speed, they provide us with an electoral method 
        through which we, ourselves, may choose which shall be our 
        political relationship with the United States of America, if 
        any, from among fully democratic non-territorial and non-
        colonial alternatives.
    Third and finally, on February 12, 2007 the House of 
Representatives of Puerto Rico approved House Concurrent Resolution 102 
(Enclosure 3), which requests
        the 110th Congress to respond to the democratic aspirations of 
        the people of Puerto Rico with all deliberate speed, accepting 
        the recommendations contained in the Report of the President's 
        Task Force on Puerto Rico's Status, of December 22, 2005, 
        providing through legislation for the holding of a plebiscite 
        by virtue of which the people of Puerto Rico may express 
        themselves regarding if they desire to continue as a territory 
        of the United States of America, subject to the plenary powers 
        of Congress, or if they desire to undertake a constitutionally 
        viable course of action towards a permanent status that is 
        neither territorial, nor colonial and to order the 
        establishment of a Joint Committee, bestow it with its duties 
        and for other purposes.
    As you may see, this recent mandate of the House of Representatives 
of Puerto Rico is totally in line with H.R. 900, formally known as the 
``Puerto Rico Democracy Act of 2007.'' Furthermore, let me be as clear 
as possible when I state that a majority of the members of the House of 
Representatives of Puerto Rico fully support congressional approval of 
H.R. 900.
    Nonetheless, on behalf of a majority of the people of Puerto Rico, 
let me request that the celebration of any initial referenda be done 
within the timeframe of the 110th Congress, so as to avoid any conflict 
with any future Congress and also, because the U.S. citizens who reside 
in Puerto Rico have been denied with such an opportunity for much too 
long. Also, in order to conclude the long overdue problem of Puerto 
Rico's self-determination, you must make certain that the status 
options provided in any referendum to the U.S. citizens who reside in 
Puerto Rico be limited to those that are constitutional viable, non-
territorial, non-colonial and fully democratic in nature. In other 
words, they must be limited to options that guarantee full self-
government by the people of Puerto Rico.
    On February 28 of this year, Representative Nydia Velazquez filed 
H.R. 1230. This measure supported in Puerto Rico by Governor Acevedo-
Vila and his Popular Democratic Party proposes the recognition of ``the 
right of the People of Puerto Rico to call a Constitutional Convention 
through which the people would exercise their natural right to self-
determination, and to establish a mechanism for congressional 
consideration of such decision.'' I wish that this Subcommittee may 
have the time and opportunity to seriously consider what is proposed by 
this measure. Particularly, I would like for you to ponder--how 
democratic would it be for a select and limited group of individuals to 
decide the future of all Puerto Ricans as to our final status option? 
Moreover--wouldn't the calling of a constitutional convention run 
contrary to our entrenched concept of participatory democracy and the 
constitutional principle of one person, one vote?
    Therefore, I believe it would be extremely important to request 
legal opinions, from both the United States Department of Justice and 
the Congressional Research Service, as per the constitutionality of 
both measures.
    I commend Chairman Rahall, Ranking Republican Member Young and this 
Subcommittee in addressing the issue of Puerto Rico's self-
determination. To many people, Puerto Ricans seemingly do not get their 
act together as to what do they want to do--the kind of relationship 
that we would like to have with the United States. Then, among so many 
pressing issues facing our Nation--immigration--the war against 
terrorism--the fiscal deficit--budget priorities--just to name a few--
does it make sense to spend time and effort in dealing with such a 
controversial issue?
    Let me convey to you why it is the right thing to do.
    This Congress represents the citizens of the greatest Nation in the 
face of this Earth. Most nations around the World look upon us--the 
United States of America--to provide the political, economic and moral 
leadership as the undisputed leader of the Free World. As such, we are 
the beacon of freedom and democracy.
    Today this Nation has thousands of our brave men and women who 
serve in our Armed Services risking their lives in order to provide 
hope and guarantee freedom and democracy in Irak and Afghanistan. Among 
those everyday heroes, there are many Puerto Rican soldiers serving in 
the various branches of the U.S. Military who have responded to the 
call of duty and ably served in the military operations in this War 
against Terrorism; including several units and or detachments of our 
U.S. Army Reserves and National Guard. Sadly, many have also paid the 
ultimate sacrifice to our Nation by giving their lives in this war 
effort.
    Yet, this should come as no surprise to anybody, as Puerto Rico is 
the proud home of many of our Nation's military heroes, including four 
recipients of the Congressional Medal of Honor. Let me tell you the 
brief story of Captain Euripides Rubio, from Ponce, Puerto Rico, who 
was one of the four Congressional Medal of Honor recipients. His 
tremendous sacrifice occurred in November of 1966. Although he himself 
suffered three serious wounds as part of an intensive fire fight, he 
was helping to evacuate other wounded personnel when he discovered a 
smoke grenade had fallen too close to friendly lines. In preparation 
for friendly airstrikes, the smoke grenades were used to mark the Viet 
Cong position. Captain Rubio intended to avert an unnecessary tragedy 
and ran to reposition the grenade. He was immediately ``struck to his 
knees'' by enemy fire. Despite his many wounds, he grabbed the grenade, 
lumbering through the deadly onslaught of enemy gunfire, and made it to 
within 20 meters of the enemy position. Hurling the already smoking 
grenade into the midst of the enemy, he fell for the final time. His 
death made a difference. The hostile position was destroyed because the 
friendly air strikes were able to use the repositioned grenade as a 
marker.
    This moving anecdote is no different from that of Fernando Luis 
Garcia, Carlos James Lozada, Hector Santiago-Colon or many of the close 
to 1,300 Puerto Ricans who have given their lives in the service to our 
Nation. Probably, Gen. Douglas MacArthur put it best, when he said ``I 
wish we had more like them.''
    Regretfully, I have to remind everyone of the extreme irony of the 
service of so many of my fellow Puerto Ricans. Our Nation--the United 
States of America--has allowed for the sacrifice of so many of our men 
and women to be somewhat in vain.
    We have fought valiantly and without objection ever since we came 
under the American flag. Yet, this flag which stands for freedom, 
liberty and justice everywhere it flies does not protect my fellow 
Puerto Ricans from disparate and discriminatory treatment by my Nation. 
We fight for liberty and democracy all over the World--yet we have been 
denied one of the most basic of human and civil rights--the right to 
self determination.
    For example, how contrary to the values and principles that have 
always defined our Nation is it to have so many servicemen go to war 
and, sometimes even giving their lives, without having the basic 
fundamental right to vote for their Commander-in-Chief or for the 
Members of Congress who have the right to declare war. This 
discriminatory practice has been validated by Supreme Court decisions 
that incredibly are still valid today, such as Balzac v. People of 
Porto Rico and more recently in Harris v. Rosario.
    In the latter case, appellees claimed that the lower level of AFDC 
reimbursement provided to families with needy dependent children in 
Puerto Rico violated the equal protection guarantee of the Fifth 
Amendment of our Constitution. Surprisingly, the United States Supreme 
Court disagreed and found that Congress is empowered under the 
Territory Clause of the Constitution to ``...treat Puerto Rico 
differently from States so long as there is a rational basis for its 
actions.'' In other words...can there be a truly rational basis to 
discriminate with regards to the need of children who are U.S. citizens 
just because they happen to live in Puerto Rico? I guess none of you 
would feel comfortable with such decision making. Could there be 
something more un-American? After all, wasn't disparate and 
discriminatory treatment from the British Government what led our 
forefathers to independence and later establishing this more perfect 
union?
    Furthermore, the paradox and the inequity of living in the 
``Commonwealth'' of Puerto Rico--the ``unincorporated'' U.S. 
territory--the ``oldest colony in the World'' (as aptly described by 
former Chief Justice Jose Trias-Monge, who also happened to be the 
primary legal scholar involved in the forging of our current 
``commonwealth territorial arrangement'') ...is such that if any of you 
decide to move to Puerto Rico and maintain the desire to vote in 
federal elections as an absentee voter of your last state of residence, 
you would be denied the right to do so, as we are neither a state of 
the Union or the District of Columbia, nor a foreign or overseas 
jurisdiction under the Uniformed Overseas Citizens Absentee Voting Act 
of 1986. On the other hand, if you happened to be in Tehran, Iran, 
P'yongyang, North Korea, Havana, Cuba or any other rogue nation where 
there is no U.S. Embassy, you just need to go to the U.S. Interest 
Section of the appropriate foreign embassy in order to cast your ballot 
(assuming that you already filled out in advance a Federal Post Card 
Application for an absentee ballot). As a U.S. citizen, don't even 
think about moving to Puerto Rico if you wish to continue exercising 
the most fundamental of rights of our democracy--of any democracy--the 
right to vote for those who legislate and make decisions that may 
affect your daily lives in any way or manner. In other words, we do 
live in a land of unequal rights.
    Even though we may have been blessed with many of the benefits of 
our citizenship--America cannot tolerate--and our flag--defended by the 
blood of so many of our people--cannot be put to shame by further 
legitimization and a continuation of the misguided policy of separate 
and unequal.
    Do these policies make any sense to you? I guess they would only 
makes sense to those who feel comfortable with categorizations such as 
those that describe Puerto Rico--as foreign in a domestic sense--
belonging to, but not a part of the United States--separate and 
unequal. Is it possible to have colonialism by consent?...or slavery by 
consent for arguments sake? Was separate but equal valid and 
acceptable? Can there be consent to discrimination? Can there be true 
democracy in Puerto Rico with unequal rights under the law? That is the 
moral challenge before you today.
    To those of you who might be somewhat confused with our political 
reality, let me state for the record that Puerto Rico is not a 
sovereign state in association with the United States. There is no 
compact in our case, as opposed to the Republic of the Marshall 
Islands, the Federated States of Micronesia and the Freely Associated 
State of the Republic of Palau, all of whom negotiated compacts with 
the United States. Neither are we recognized by any other country as 
being a sovereign state.
    The United States is the only sovereign in Puerto Rico. In 
accordance with Article IV, Section 3, Clause 2 of the United States 
Constitution ``[t]he Congress shall have Power to dispose of and make 
all needful Rules and Regulations respecting the Territory or other 
Property belonging to the United States.'' That is why the people of 
Puerto Rico come before you time after time--because primary 
constitutional authority rests exclusively in the Congress.
    Thus, even though the official name of our government in Spanish is 
``Estado Libre Asociado'', we are not a free associated state (as the 
name of our Government in Spanish claims to be) with our Nation--but 
rather, we are just the U.S. territory with the largest degree of 
internal self-government by virtue of an act of Congress.
    As the proud American citizen that I am, I cannot possibly be 
satisfied or resign myself to being less than a full-fledged citizen of 
our Nation. To me it would be just like if African Americans would have 
remained satisfied with the untenable condition of segregation--as if 
separate but equal could ever be right.
    It is clear that your fellow citizens from Puerto Rico can no 
longer remain within the current arrangement. Change towards a final 
solution that needs to be fully democratic, non-territorial and non-
colonial has to take place. We cannot be denied the inalienable right 
to self-determination; whereby we would be able to achieve a status 
option that provides for full self-government, be it either under 
independence, free association or statehood.
    This human and civil right firmly entrenched in the constitutional 
principles of our Nation, as well as in International Law, requires 
that the people of Puerto Rico be given a true and fair exercise of 
their right to self determination. But in order to have a real and 
meaningful process of self-determination, we need to know what Congress 
and the President of the United States understand as constitutionally 
viable and politically acceptable from among the possible status 
options. If not, we would only have a futile process, just like our 
three locally sponsored status plebiscites that led to nothing, while 
further confusing our people as to what is really attainable under our 
three traditional status alternatives (regarding this last point I 
would respectfully refer you to H.R. 4751 from the 106th Congress, 
whereby this same committee had the opportunity to analyze the contents 
of the ``Enhanced Commonwealth'' alternative still proposed by the 
Popular Democratic Party).
    In other words, without an expression by Congress and the Executive 
Branch, as to what is constitutionally and politically viable, 
everything would be a charade. For example, periodic elections in the 
People's Republic of China or in Cuba do not make them bastions of 
democracy.
    That is why I commend our President, George W. Bush, for his vision 
and continued commitment in addressing this issue--in trying to put an 
end to this unfinished business of American democracy. He was firm and 
resolute in providing leadership on an issue that thirsts for a high 
moral ground.
    To that end, President Bush made sure that the directive begun by 
former President William Jefferson Clinton, whom I also should commend 
as per the establishment of the President's Task Force on Puerto Rico's 
Status, would be successful in achieving its stated objectives. Amidst 
all the efforts generated by people who do not want this issue to move 
forward, the President did not allow the members of his Task Force to 
stray from the course of clearly and correctly addressing this issue. 
Seldom has such leadership been exercised by a President with regards 
to the political aspirations of your fellow citizens who reside in 
Puerto Rico.
    On December 22, 2005, President George W. Bush's Task Force on 
Puerto Rico's Status made public its Report on the issue, which 
included a series of recommendations for the United States Congress to 
consider and act upon. That Report represents the final work product of 
a group of responsible and highly professional individuals which 
represented most of the important agencies of the Executive Branch. In 
earnest, they devoted more than a year in analyzing the issue, studying 
documents and meeting with members of Puerto Rico's three political 
parties on multiple occasions. The result was a surgically precise and 
legally correct document that is crystal clear as to what needs to be 
done to resolve this issue.
    As you may be fully aware, there are people, both in Puerto Rico 
and here in the mainland, who would rather not have this issue take 
center stage at the national level. One could easily denominate them as 
the powerful ``Forces of Inertia''. You may have heard them talk about 
self determination, but their track record in torpedoing any step that 
may lead to the exercise of full self-government befits Dr. Kevorkian.
    As all of you know, it is easier to kill an initiative than to 
convince others about its importance and merits. Therefore, since they 
are very able as to what they do in order to achieve their nefarious 
goal, there are three important myths that I want to dispel from your 
minds.
    First myth--that Puerto Ricans need to get their act together first 
and present the federal Government with the solution to this issue.
    I would begin my reply by formulating the following question--how 
could we get our act together if the people have been confused and 
misinformed for decades as to what is truly available under each of the 
traditional status options?
    The role of the Federal Government in providing for a final 
solution to our centuries old dilemma is essential to this process, not 
because we feel or act as subservient to anyone (as that would be 
totally un-American), but because we fully respect and adhere to the 
rule of law; and under the current Commonwealth territorial arrangement 
we do not have the power--nor the right--to change our current status 
or relationship with the United States in a unilateral manner. The 
recognition of this congressional power over those of us who reside in 
Puerto Rico is a legal and political reality over which we have no 
control. Nonetheless, that does not mean that any process undertaken by 
the Federal Government would preclude or inhibit continuous dialogue 
and negotiation by the people of Puerto Rico regarding the specifics 
and details of each option, the process or processes that need to be 
undertaken to finally enable this final choice by our people, as well 
as the implementation of the selected option.
    For the past thirty years, the political and ideological blocks in 
Puerto Rico have been bogged down in a political quagmire. No side 
commands a solid absolute majority. Misinformation and confusion as per 
the future and our real status options reigns supreme. That is the 
reason for the results of the three plebiscites of local initiative 
(1967, 1993 and 1998). None have led to anything, particularly those of 
1967 and 1993 where the option of ``Enhanced Commonwealth'' resulted as 
the winner (although that may also be the fault of proponents who 
really did not want Congress to take action with regards to their 
status options or to the issue in general). Why would a constitutional 
convention be any different?
    Therefore, it should become clear that, in order to resolve this 
issue once and for all, the Federal Government, and Congress in 
particular need to assume their constitutional prerogatives and 
responsibilities over the nearly four million U.S. citizens who reside 
in Puerto Rico. Failing to do so would only complicate the problem 
further.
    Second myth--that Puerto Ricans do not wish to change their 
status--why force something that they do not want?
    This myth is based on pure misinformation.
    Some people in the mainland may ask--haven't Puerto Ricans long 
favored Commonwealth in plebiscite after plebiscite? NO.
    Back in the early 1950's when the Commonwealth territorial 
arrangement came into life, no plebiscite or referenda among options 
was ever held. In strict accordance with Public Law 600, on June 4, 
1951 a referendum was held whereby the people of Puerto Rico were 
presented with the question whether we wanted to follow the path to 
have a Constitution of our own or remain subject to an Organic Act. 
Then, on March 3, 1952 the people of Puerto Rico voted overwhelmingly 
in favor of the Constitution as it was drafted by the Constitutional 
Convention whose members they had elected. As you see, neither process 
could ever be confused with a true process of self-determination--as 
there was never a ballot in which voters were provided with status 
choices.
    In the first plebiscite or status referenda ever conducted, held in 
1967, almost 60% of voters favored an ``Enhanced Commonwealth'' option. 
Statehood achieved close to 40%, as the Puerto Rican Independence Party 
boycotted the plebiscite accounting for almost no votes in favor of 
Independence. As I have indicated before, there was no concerted effort 
undertaken by commonwealth advocates for Congress to take action on the 
vote.
    The next plebiscite was held in 1993 and another version of 
``Enhanced Commonwealth'' won the electoral vote; this time though, 
with a plurality of less than 49% of the vote. Again, the pro-
commonwealth Popular Democratic Party took more than half a year to 
inform the House Subcommittee with jurisdiction over Puerto Rico 
regarding the results of the 1993 Plebiscite. The result was a 
subcommittee hearing on October 17, 1995.
    Then, in 1998, in a plebiscite in which the current Commonwealth 
(or status quo) was an option--that option failed to garner 1% of the 
vote. Therefore, as anyone may see--there is clearly NO mandate by the 
Puerto Rican electorate to maintain our current Commonwealth 
territorial arrangement as is.
    Befitting the level of confusion and misinformation that exists 
among Puerto Ricans with regards to true contour of the options that 
would be really available, the write-in column, titled ``None of the 
Above'', garnered over 51% of the vote. It is important to point out 
that voter participation in these plebiscites hovered around 75 to 85% 
and in poll after poll, people select this issue as either the most 
important one that needs to be addressed. or at the very least among 
their top 5. Obviously, this shows the existence of a clear consensus 
among Puerto Ricans, overlapping ideological and party lines, yearning 
for a resolution to this issue.
    Third myth--that the White House Report which is the basis for H.R. 
900 is skewed towards statehood and unfair in its treatment of 
Commonwealth.
    This myth has two different fronts.
    First, the procedural one, that the initial round was presented in 
order to corner the supporters of Commonwealth with the choice of 
rejecting ``to pursue a Constitutionally viable path toward a permanent 
non-territorial status with the United States,'' while sponsoring an 
``artificial majority'' of pro-statehood and pro-independence 
supporters who would obviously vote in favor of such a proposal.
    This argument is completely flawed for a couple of reasons. On the 
one hand, on what grounds would commonwealth supporters reject the 
aforementioned language proposed by the President's Task Force for the 
first round? Don't they want to establish and clarify once-and-for-all 
that their ``Enhanced Commonwealth'' is constitutional and a permanent 
non-territorial status? After all, pro-commonwealth Popular Democratic 
Party legislators voted unanimously in favor of language that was even 
stronger in its stance with regards to the issue in the Substitute to 
House Bills 1014, 1054 and 1058.
    On the other hand, any coalition of voters which might favor the 
aforementioned language proposed by the President's Task Force for the 
first round do not constitute an ``artificial'' grouping; but rather, a 
true measure of the consensus in Puerto Rico that transcends ideologies 
and party lines with regards to the need for a final resolution to this 
centuries old dilemma.
    Second, the substantive one, that the Report contains a biased and 
incorrect description of the current Commonwealth territorial 
arrangement; and furthermore, that it is incorrect as well in not 
recognizing Free Association as an option in the second round proposed 
in its second recommendation.
    With regards to the Report's description of our current 
Commonwealth territorial arrangement, I would just reiterate what I 
have stated earlier in this testimony, as well as the legally sound 
conclusions reached by the United States Department of Justice on this 
same issue as included in the Task Force's Report.
    As per the supposed intentional omission of Free Association, the 
reason for its non-inclusion is very simple. Free Association is a 
legitimate decolonizing option as recognized by International Law and 
by our own political experience with various strategic territories in 
the Pacific Ocean which we had previously held in ``trusteeship'' for 
several decades after the Second World War. The Report does not 
contradict this reality and our own experiences. On the contrary, the 
Report recognizes Free Association, albeit as an offshoot of separate 
sovereignty or independence. The reason for the position taken by the 
Task Force in its Report is based in constitutional, legal and 
political restraints of our Nation, as only Statehood and Independence 
can truly be permanent options. On the other hand, if Puerto Rico were 
to become a sovereign nation in free association with the United 
States, such a relationship would be based on a treaty--but everybody 
has to keep in mind that no treaty can unilaterally force the United 
States to relinquish its constitutional and political prerogatives to 
withdraw unilaterally whenever it may see fit.
    This shows the sound legal positions taken by the members of the 
Task Force and their commitment in making sure that the people of 
Puerto Rico may understand the implications of each option in the most 
clear and precise manner.
    Besides all the compelling arguments for Congress to address the 
issue of Puerto Rico's self-determination, for many of you there could 
be another very important reason for this issue to be resolved 
now...that is the cost of Puerto Rico to the American taxpayer. In a 
book titled ``Pay to the Order of Puerto Rico: The Cost of Dependence 
to the American Taxpayer'' Alexander Odishelidze and the renowned 
Arthur B. Laffer concluded that our current Commonwealth territorial 
arrangement ``is enormously costly to the American people'' over the 
past 20 years alone, it has been a $200 billion drain on the American 
taxpayer. From my perspective, the worst part of it all is that it has 
been equally, if not more costly for the Puerto Rican people, who are 
taxed in ways they cannot see...by growth that has not occurred...and 
sound policies that cannot develop and flourish in dependency.''
    Today, Puerto Rico receives over $20 billion a year in federal 
funds, although in essence, and particularly with the current misguided 
policies in place at the state level, we certainly need more. The 
failed economic policies of which Governor Acevedo-Vila has been part, 
demonstrate the total bankruptcy of the current Commonwealth 
territorial arrangement. There is no economic model for the future 
well-being of our people. The only manner in which they have masked the 
severe limitations and failure of their model is by bloating the 
government payrolls and forcing outward migration to the mainland.
    The economy is stagnant, if not close to becoming paralyzed. Even 
though our unemployment rate has been hovering between 10 and 12% for 
the past few years, the reality of our bleak situation can be further 
understood by looking at our employment participation rates. For 
example, according to the 2000 Census, Puerto Rico's employment 
participation rate was at 40.7%; well below the 63.9% of the U.S. 
mainland. Many of your fellow citizens who reside in Puerto Rico have 
just lost any hope for employment and have rather decided to live on 
welfare. That is why over 50% of all Puerto Ricans live below the 
federal poverty level.
    A primary solution of the past two pro-commonwealth administrations 
has been a sharp increase in the government payrolls. Puerto Rico's 
daily English newspaper, The San Juan Star, reported on September 6, 
2005 that the previous Calderon-Acevedo Vila Administration was 
responsible for increasing government payrolls by 14.37% between 2001 
and 2005.
    Under Commonwealth, and particularly in the last five years, 
migration to the mainland has increased dramatically. Researchers in 
Florida have indicated that every month, close to an average of 5,000 
Puerto Ricans move to the Greater Orlando area. With our social and 
economic situation worsening year after year--what could we expect 
next? If there were various real concerns that were discussed after the 
Katrina temporary displacement of many Gulf residents--what would an 
exponential increase in a permanent northward migration of our people 
cause here in the mainland?
    Worse of all, rather than being an agent of hope, the current 
Administration of Governor Acevedo-Vila has not provided a concrete and 
realistic plan for broad-based economic development. In addition to 
their ineptitude in dealing with the socio-economic needs of the 
majority of Puerto Ricans, the current Commonwealth territorial 
arrangement limits the effectiveness as to what could really be done to 
improve the quality of life for all our people.
    Madam Chairwoman, Puerto Rico is fast approaching one of its most 
critical moments in its history. Your fellow citizens from your 
neighboring islands have waited for far too long...many have even 
become skeptical of the prospects of congressional action on this 
issue. There is a growing feeling across ideological lines is that our 
current situation is totally untenable. Are you aware how many times we 
have come before Congress full of hope, only to return back to our 
Island empty handed and completely disappointed?
    For example, this hearing brings back bittersweet memories of 
another one held almost seventeen years ago; specifically on June 28, 
1990, when the then Subcommittee on Insular and International Affairs 
was considering H.R. 4765, also known as the ``Puerto Rico Self-
Determination Act.'' To those that remember that hearing they may find 
an eerie resemblance with this one. The arguments and the positions 
undertaken by the three political parties are practically the same. 
Some of the political leaders from our Island who were witnesses that 
day are also here with us this morning. Just as today, that hearing was 
chaired by the delegate from the United States Virgin Islands. 
Regretfully, what spurred so much optimism to us in Puerto Rico back 
then, led to utter disenchantment a few months later.
    Over 200 years ago the citizens of the thirteen original colonies 
had strikingly similar grievances against the British Government. On 
March 23, 1775 Patrick Henry eloquently declared
    Shall we try argument? Sir, we have been trying that for the last 
ten years. Have we anything new to offer upon the subject? Nothing. We 
have held the subject up in every light of which it is capable; but it 
has been all in vain. Shall we resort to entreaty and humble 
supplication? What terms shall we find which have not been already 
exhausted? Let us not, I beseech you, sir, deceive ourselves. Sir, we 
have done everything that could be done to avert the storm which is now 
coming on. We have petitioned; we have remonstrated; we have 
supplicated; we have prostrated ourselves before the throne, and have 
implored its interposition to arrest the tyrannical hands of the 
ministry and Parliament. Our petitions have been slighted; our 
remonstrances have produced additional violence and insult; our 
supplications have been disregarded; and we have been spurned, with 
contempt, from the foot of the throne! In vain, after these things, may 
we indulge the fond hope of peace and reconciliation. ``Is life so 
dear, or peace so sweet, as to be purchased at the price of chains and 
slavery? Forbid it, Almighty God! I know not what course others may 
take; but as for me, give me liberty or give me death!
    These are truly ominous words that, in a way, I dread and fear. As 
a Puerto Rican and proud American that I am, I still have a firm belief 
in my Government and in this Congress. Thus, I hope that my Nation pay 
close attention to its history and to the principles that led to the 
independence from the United Kingdom and the subsequent establishment 
of a more perfect union.
    To that end, it is important to heed the words of Congressman Jose 
E. Serrano from the previous hearing by this Subcommittee, when he 
expressed that ``[m]y country has held my patria in bondage for more 
than a century...I want it to end.''
    Congressman Serrano, we fully agree with you! It is time to put an 
end to blatant discrimination and to colonialism by my Nation with 
regards to my people...and the time to act is now!
    WE THE PEOPLE...your fellow citizens who reside in Puerto Rico are 
ready to act. The ball is in your court.
    May God enlighten you to act according to what may be best for your 
fellow citizens who reside in Puerto Rico.
    May God bless America...and in particular all my fellow Puerto 
Ricans who place their hopes for their future in your hands.
    Thank you very much.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Aponte. Next I would 
recognize The Honorable Carlos Romero Barcelo for five minutes.

 STATEMENT OF THE HON. CARLOS ROMERO BARCELO, FORMER GOVERNOR, 
  COMMONWEALTH OF PUERTO RICO AND FORMER MEMBER OF THE UNITED 
                        STATES CONGRESS

    Mr. Romero Barcelo. Thank you, Madame Chairman. I think I 
would like to approach my presentation, oral presentation from 
a distant perspective.
    All this afternoon I haven't heard anyone speak about U.S. 
citizenship, about the citizens' rights. And I would like to 
approach it from that aspect.
    Recently we had, in Washington, we had a voting rights 
march. It was April 12, based on the revolutionary cry of no 
taxation without representation. In Puerto Rico we have no 
representation without taxation.
    Now, since we are not taxed, they say you should be happy 
that you don't have representation, because you don't have to 
pay Federal income taxes. I have had some Members of Congress, 
some Members of the Senate, had some people in the industrial 
world, some businessmen, say why would you want to be a state? 
You don't have to pay Federal income taxes. My answer to that 
is, how much are you willing to sell your political rights for?
    Anyone that sells their political rights is not entitled to 
have them. And that is what we are talking about, political 
rights. We are talking about the rights of citizens.
    Let us forget about statehood. Let us forget about 
independence. Let us forget about commonwealth. Let us talk 
about the people of Puerto Rico, who are U.S. citizens, and 
have been natural-born U.S. citizens since 1917. That is 90 
years franchised U.S. citizens.
    Now, I ask you, Madame Chairman, and any Member of this 
committee, are you willing to support that a law be passed now 
in Congress taking the voting rights away from a part of a 
state or a full state, and say now we are going to take your 
voting rights away, but we are going to give you Federal tax 
exemption? Would you vote for such a bill?
    Now, let us go back to the time of slavery, when Abraham 
Lincoln issued the Proclamation. Did he say well, first let us 
have a referendum with all the slaves to see if they want 
freedom or not. No, there was not a matter of referendum. It 
was a matter of something that is wrong, that has to be 
corrected. And what is wrong? That there are 4 million U.S. 
citizens who are disenfranchised, and nothing is being done 
about it.
    Now, part of those 4 million U.S. citizens are right now in 
Iraq and Afghanistan, fighting to bring democracy to Iraq and 
Afghanistan, foreign nations. Some of them die, and those that 
have died, their mothers, their fathers, their wives, the 
children, are denied the voting rights that he is over there 
fighting for, for that alien country. But the Nation denies him 
those voting rights.
    We are talking about commonwealth. The commonwealth is the 
problem. If Puerto Rico were a state or we were a republic, we 
wouldn't be here talking about any referendum. We are talking 
about a referendum because we have 4 million U.S. citizens who 
are denied the right to vote and the right to representation.
    I was here in Congress for eight years, eight years without 
a vote. The first part, I had that vote, they would call in the 
committee as a whole to vote. You know, well, you vote, yes, 
you participate. But if a number of, the Resident Commissioner 
and the delegate votes are the ones that carry the vote, then 
there is a reconsideration, and then they don't vote in the 
reconsideration. The vote is all right as long as not the 
deciding vote. So that is not really a vote.
    But anyway, then when the Democratic party lost, then even 
that vote was taken away. So I was here for eight years; very, 
very frustrating. And we were entitled to six or seven 
representatives, and two senators.
    Now, we in Puerto Rico, we don't pay Federal income taxes. 
But because we don't pay Federal income taxes, the courts have 
decided also that we are not entitled to the same benefits that 
our poor people, those, the destitute, the needy, the single 
women with children that can't work, the elderly, are not 
entitled to the same benefits.
    I know, Madame Chairwoman, that you are fighting for to get 
Medicaid to Virgin Islands. We don't have it, either. But do 
you know what your big obstacle is? The fact that Puerto Rico 
is not entitled, the fact that we don't pay Federal income 
taxes. And we are not a state. If we were, you would get it, 
because the amount of money is not that significant compared to 
the amount of money in Puerto Rico.
    Do you know how much we get now? Two hundred million 
dollars. You know how much Puerto Rico would be getting for 
healthcare for the needy, for the poor? Two billion dollars a 
year. Now, what that would mean for healthcare in Puerto Rico. 
Are you going to support that? Is that fair? Is that what 
Congress stands for? Is that what this nation stands for? Don't 
we stand for rights, for voting rights? What is democracy?
    We don't have democracy in Puerto Rico. We have local 
democracy, but we don't have democracy in the Nation that we 
are citizens of, because we are denied the right to vote and 
the right to representation. That is what this is all about.
    How can you say, are we going to have a plebiscite or 
something? That is, somebody is going to object to the fact 
that we are going to decide whether we want the right to vote 
or not?
    I think it is time that the people of Puerto Rico were told 
by Congress, look, we are happy that you are U.S. citizens. But 
look, you have to make a decision. First of all, you don't need 
a free ride economically any more as far as taxes are 
concerned. You should assume all your full responsibilities. 
And you should decide whether you want to have the right to 
vote, or the right to representation, or not, because that is 
what U.S. citizenship means. That is what America is all about.
    And if you don't want that, say it, and then we will give 
you independence. That is what this Congress can do. And what 
is wrong with that?
    But the commonwealth supporters, oh, they like to, you 
know, mix this up and make it look complicated. Even the 
beginning, when they called the name commonwealth, Madame 
Chair, you know, in Spanish it is Estado Libre Social.
    But what happened? When we wanted to call it free 
associated state here, the lawyer for the commonwealth, here in 
Washington, what was his name; you are crazy. The associated 
state is not going to fly in Congress, let us look for another 
name in English. And that is the commonwealth. Commonwealth, 
what does it mean? Political entity.
    Commonwealth is not a status. The territorial status is 
called commonwealth, just like we have the Commonwealth of 
Pennsylvania, which is a state of the Union. We have a 
Commonwealth of Kentucky, which is a state of the Union. It is 
not a status. It means political entity. But they want to muddy 
the waters and confuse the issues. And the issue here is U.S. 
citizens of Puerto Rico, who have been 90 years without a vote, 
disenfranchised. Do you want to be enfranchised? Yes or no. 
There is only one way. There is only one way to be 
enfranchised, to be a state.
    And there is only, you don't want to be enfranchised, you 
want equality, you want democracy? Then you want democracy, you 
want to be for rights, a citizen, then be a Republican if you 
don't want to be enfranchised. And that is what I think this 
committee should really understand when we look at bill 900, 
which is a way to solve this problem.
    Thank you very much, Madame.
    [The prepared statement of Mr. Romero Barcelo follows:]

                  Statement of Carlos Romero Barcelo, 
                     Former Governor of Puerto Rico

    To end our territorial status we need to secure voting rights 
through an informed act of self-determination, leading to equal rights 
and obligations as citizens under our national constitution. As some 
Members of Congress so eloquently explained at the last hearing, it all 
comes down to voting rights. Either you have them, or you don't.
    Many Americans forget that the Constitution itself, originally did 
not include voting rights as a Constitutional right, which citizens in 
the states take for granted. It is, after all, citizens in the several 
states who elect the electors who actually chose the President, and 
citizens in the several states who elect senators and voting 
representatives to Congress. Voting rights have been guaranteed and 
regulated by state law since America became a nation.
    Originally, most states allowed only white males over 21 to vote, 
provided they owned real property with a specified value. White males 
who had no property were the first to demand and win equal voting 
rights. Then in 1870, racial discrimination in federal and state voting 
rights was put to rest by the 15th Amendment. Racial minorities were 
finally allowed to vote provided they were male and over 21, could pass 
literacy tests designed to prevent black men from voting, and could 
afford to pay poll taxes.
    It took another 50 years for women to win, in 1920, under the 19th 
Amendment, the same voting rights given to former male slaves a half 
century earlier. And it was another 44 years later that the 24th 
Amendment, ratified in 1964, ended denial of voting rights through the 
economic discrimination of poll taxes. The 26th Amendment gave the vote 
to 18 year olds, ending the last vestige of the original franchise, 
limited to white males over 21 who owned property.
    Residents of Puerto Rico are the last large class of completely 
disenfranchised Americans. Because of the sacrifices of those who went 
before us, we do not need to defy oppression under the color of law, at 
the risk of our lives. We do not need to stand in front of tanks, as 
our contemporaries around the world have had to do, from Tiananmen 
Square in Beijing, to Red Square in Moscow. All we need to do is summon 
the courage to choose between real options.
    At a time when the U.S. is spending hundreds of billions to try to 
give Afghanistan and Iraq the democracy which we are denied, we dither 
over definition of choices that are obvious.
    But, we have fallen into a trap. Too many of our people have 
supported an unacceptable trade-off of so-called special treatment for 
the territory, in exchange for our support of the disenfranchised 
territory called ``Commonwealth''. Too many of us have embraced a 
second class citizenship, that other Americans in the states, have 
given up their lives, to overcome. In exchange for partial income tax 
exemption, too many American citizens in Puerto Rico, have accepted and 
tolerated a less than equal status. One that our fellow American 
citizens in the states have rejected.
    We pay billions in federal taxes every year, yet we cling to the 
myth of fiscal autonomy. The partial exemption from some federal taxes, 
on some local income, is hardly a smart bargain in exchange for equal 
voting rights and real political power. If a person sincerely believes 
in democracy, would he sell his right to vote and to have equal 
representation? Whoever does so, cannot honestly believe in democracy.
    Instead of taxation without representation, we have ``no 
representation without taxation''. The President and Congress justify 
our lack of voting rights and representation, by saying that we 
shouldn't complain about the fact that we can't vote because we don't 
have to pay income taxes for the income we earn in Puerto Rico. Yet we 
pay more local income taxes than most Americans. Our partial tax 
exemptions come with a price that includes lack of voting rights, lack 
of representation and lack of right for our people to enjoy equal 
economic opportunity.
    The real tragedy is that we do not have equal rights, but we do 
have equal sacrifices. Those economically privileged few who thrive 
under the status quo, seem quite content to preserve their privileges 
under the current relationship, while our young people are sent off to 
fight and die, so people in foreign lands can have rights, they and 
their families are denied back home in the colony.
    We should not stand for this discrimination. And, neither should 
Congress. H.R. 900 provides for a process to at least make status 
resolution for Puerto Rico possible. It is the least we can do; the 
least we must do, to honor our brave soldiers and sailors, and to honor 
ourselves before our children.
    H.R. 900 is predicated on these fundamental principles, but 
accommodates the status quo, by allowing the voters to express their 
wish for things to remain as they are now.
    The H.R. 1230 proposal for a local constitutional convention on 
status is not a serious proposal, it is a cynical diversionary tactic, 
a waste of time, and should not be recognized under federal law.
    I urge Congress to approve H.R. 900.
                                 ______
                                 
    Ms. Christensen. Thank you. I now recognize The Honorable 
Jose L. Dalmau-Santiago for his testimony.

        STATEMENT OF THE HON. JOSE L. DALMAU-SANTIAGO, 
        SENATE MINORITY LEADER, POPULAR DEMOCRATIC PARTY

    Mr. Dalmau-Santiago. Thank you. Honorable Chairwoman and 
Members of this committee, I will testify before you today in 
my native language, Spanish, which is the native language of 
the people of Puerto Rico. I do this because, as is the case 
with almost all Puerto Ricans, I feel more comfortable in 
expressing myself in my native tongue than in English.
    However, for the benefit of those of you who don't speak or 
understand Spanish, I have provided an English translation of 
my remarks.
    [Translated from Spanish.] Honorable Christensen. As a 
fervent defender of the commonwealth status of Puerto Rico for 
over 50 years, I appear before this Subcommittee to present my 
views and recommendations toward H.R. 900 and H.R. 1230, two 
bills presented before the Congress regarding the status of 
Puerto Rico.
    However, our current relation with the United States 
requires amendments to allow our country to gain the full 
advantages of a global economy.
    Mentioning some of the issues that must be discussed in 
this current evaluation process, for example; the restrictions 
established under the Coastwise Laws. Currently, Puerto Rico is 
restricted to use only United States merchant vessels for its 
imports and exports, this restriction imposes an additional 
cost on an island that depends almost 100 percent on merchant 
vessels for its imports and exports.
    Obviously, this restriction is a competitive limitation for 
Puerto Rico. The commonwealth must possess the right to hire 
merchant vessels on a competitive and effective level. This 
would benefit customers, create new incentives for venture 
investors and business owners, and it would help stimulate the 
economy of the island.
    Exemption of the Coastwise Laws is nothing new to the 
Congress since the United States Virgin Islands, Mariana 
Islands, Guam, American Samoa, Wake, and Midway are exempt from 
such provision. This exclusion is indispensable for the 
development of strategic projects in Puerto Rico; for example, 
the Transport Port of the Americas Rafael Cordero Santiago in 
Ponce, Puerto Rico.
    Other important issues are related to fiscal matters, issue 
that can be expanded in a later written statement to the 
Subcommittee if the Members are interested. I have a serious 
concern that I must share with this Subcommittee.
    Puerto Rico has more than 100 years of relationship with 
the United States, the last 55 under the agreement of the 
commonwealth status. In the last 50 years we have celebrated 
multiple plebiscites for the people of Puerto Rico to choose 
their preferred status option. In all of those plebiscites both 
independence and statehood have been rejected by the voters in 
Puerto Rico. There have also been numerous Congressional 
efforts to promote a process of auto-determination of which I 
can mention the Bennett Johnston Bill, Young Bill, and the 
initiatives being evaluated today.
    The truly central aspect to this process is if the Congress 
has the will to respect and enforce the will of the Puerto 
Rican people. I ask you, Members of Congress, are you prepared 
to concede statehood to Puerto Rico, or the modifications under 
a new commonwealth compact, if that is the will of the Puerto 
Rican people? This is the most important issue to us as 
political leaders in the island, in Congress willing to the 
obey the majority will in the island.
    It is your obligation and your duty to answer this 
question. Are you willing to accept as a state to the Union a 
nation that local statehood supporters insist will permit state 
court proceedings in Spanish, international representation 
outside of the Federal government, separate Olympic delegation, 
and public education in Spanish?
    I can recommend a process that permits Puerto Ricans to 
reach a consensus freely and democratically about the real and 
viable status options that must be presented before the people. 
I am talking the constitutional convention. This alternative 
helps the development of an extensive dialogue, a clear debate, 
and permits reaching a consensus between the different status 
factions in the island.
    The constitutional assembly is not an unknown mechanism for 
the United States, nor Puerto Rico. The Constitution of the 
United States was adopted in 1787 in a constitutional 
convention celebrated in Philadelphia. The Constitution of the 
Commonwealth of Puerto Rico was enacted from a consensus in the 
Assembly celebrated between September of 1951 and July of 1952.
    Both Magna Cartas are documents that have created the 
backbone for democratic societies, as well as for governments 
that defend civil rights. These documents are the guiding 
principles of our democracies, respected by the people, of whom 
we feel proud, and that many citizens have paid the ultimate 
prize defending such values and principles.
    The constitutional assembly is also the mechanism most used 
by the different territories of the United States in their 
process to become a state of the Union. The constitutional 
assembly must be evaluated by this Subcommittee as the real and 
only viable alternative to solve the status issue in Puerto 
Rico.
    I recommend that any effort to attend the status of Puerto 
Rico has to recognize that the alternatives must come from 
Puerto Rico, and not the Congress, and that the best mechanism 
to reach the necessary consensus between all different 
ideologies in the island is the constitutional convention.
    Therefore, I strongly endorse H.R. 1230 for proposing a 
constitutional convention as the mechanism to solve the status 
issue. I ask this Subcommittee and the Congress to approve H.R. 
1230 for the well-being of the people of Puerto Rico.
    Thank you.
    [The prepared statement of Mr. Dalmau-Santiago follows:]

    Statement of Jose L. Dalmau-Santiago, Minority Leader, Popular 
      Democratic Party, Senate of the Commonwealth of Puerto Rico

    Honorable Christensen and Members of the Subcommittee:
    As a fervent defender of the Commonwealth status of Puerto Rico, 
which has greatly served the people of Puerto Rico for over fifty 
years, I appear before this subcommittee to present my views and 
recommendations toward H.R. 900 and H.R. 1230, two bills presented 
before the Congress regarding the status of Puerto Rico.
    However, our current relation with the United States requires 
amendments to allow our country gain the full advantages of a global 
economy.
    Mentioning some of the issues that must be discussed in this 
current evaluation process, for example; the restrictions established 
under the Coastwise Laws (Cabotage Laws). Currently, Puerto Rico is 
restricted to use only United States merchant vessels for its imports 
and exports, this restriction imposes and additional cost on an island 
that depends in an almost One Hundred Percent (100%) on merchant 
vessels for its imports and exports. Obviously, this restriction is a 
competitive limitation for Puerto Rico. The Commonwealth must posses 
the right to hire merchant vessels on a competitive and effective 
level, this would benefit consumers, create new incentives for venture 
investors and business owners, and it would help stimulate the economy 
of the island.
    Exemption of the Coastwise Laws is nothing new to the Congress 
since the United States Virgin Islands, Mariana Islands, Guam, American 
Samoa, Wake, and Midway are exempt from such provision. This exclusion 
is indispensable for the development of strategic projects in Puerto 
Rico, for example the Transport Port of the Americas Rafael Cordero 
Santiago in Ponce, Puerto Rico.
    Other important issues are related to fiscal matters, issue that 
can be expanded in a later written statement to the subcommittee if the 
members are interested. I have a serious concern that I must share with 
this subcommittee. Puerto Rico has more than a hundred years of 
relationship with the United States, the last Fifty Five (55) under the 
agreement of the Commonwealth status. In the last Fifty years (50) we 
have celebrated multiple plebiscites for the people of Puerto Rico to 
choose their preferred status option, in all of those plebiscites both 
independence and statehood have been rejected by the voters in Puerto 
Rico. There have also been numerous congressional efforts to promote a 
process of auto determination of which I can mention the Bennet 
Johnston Bill, Young Bill, and the initiatives being evaluated today.
    The truly central aspect to this process is if the Congress has the 
will to respect and enforce the will of the Puerto Rican people. I ask 
you, Members of Congress, are you prepared to concede statehood to 
Puerto Rico or the modifications under a new Commonwealth compact if 
that is the will of the Puerto Rican people? This is the must important 
issue to us as political leader in the island, in Congress willing to 
obey the majority will in the island. It is your obligation and your 
duty to answer this question. Are you willing to accept as a State to 
the Union a nation that local statehood supporters insist will permit 
state court proceedings in Spanish, international representation 
outside of the Federal Government, separate Olympic Delegation, and 
public education in Spanish?
    I can recommend a process that permits Puerto Ricans to reach a 
consensus freely and democratically about the real and viable status 
options that must be presented before the people. I am talking about 
the Constitutional Convention. This alternative helps the development 
of an extensive dialogue, a clear debate, and permits reaching a 
consensus between the different status factions in the island.
    The Constitutional Assembly is not an unknown mechanism for the 
United States nor Puerto Rico. The Constitution of the United States 
was adopted in 1787 in a Constitutional Convention celebrated in 
Philadelphia. The Constitution of the Commonwealth of Puerto Rico was 
enacted from a consensus in the Assembly celebrated between September 
of 1951 and July of 1952. Both Manga Cartas are documents that have 
created the backbone for democratic societies, as well as for 
governments that defend civil rights. These documents are the guiding 
principles of our democracies, respected by the people, of whom we feel 
proud and that many citizens have paid the ultimate prize defending 
such values and principles.
    The Constitutional Assembly is also the mechanism most used by the 
different territories of the United States in their process to become a 
State of the Union. The Constitutional Assembly must be evaluated by 
this subcommittee as the real and only viable alternative to solve the 
status issue in Puerto Rico.
    I recommend that any effort to attend the status of Puerto Rico has 
to recognize that the alternatives must come from Puerto Rico and not 
the Congress and that the best mechanism to reach the necessary 
consensus between all different ideologies in the island is the 
Constitutional Convention.
    Therefore I strongly endorse H.R. 1230 for proposing a 
Constitutional Convention as the mechanism to solve the status issue. I 
ask this subcommittee and the Congress to approve H.R. 1230 for the 
well-being of the people of Puerto Rico.
                                 ______
                                 
    Ms. Christensen. Thank you. And the last speaker on this 
panel would be The Honorable Hector Ferrer Rios.

   STATEMENT OF THE HON. HECTOR FERRER RIOS, HOUSE MINORITY 
                LEADER, POPULAR DEMOCRATIC PARTY

    Mr. Ferrer Rios. Madame Chairwoman, Commissioner Fortuno, 
and Members of the Subcommittee.
    My name is Hector Ferrer Rios. I am the Minority Leader of 
the House of Representatives of Puerto Rico for the Popular 
Democratic Party.
    I welcome the opportunity to present and share my views on 
behalf of over a million Puerto Ricans which believe not only 
in the commonwealth, but also in a process of true self-
determination, through a Puerto Rican constitutional 
convention.
    The status of Puerto Rico brings passion in the daily 
discussion of our collective lives. I believe the current 
status, commonwealth, has fulfilled its purpose. What started 
in 1952 between the U.S. and Puerto Rico, el Estado Libre 
Asociado, has been good for both nations.
    It is time to develop a new commonwealth status, which 
responds to the new global economy and political trends.
    House Bill 900 provides for a Federally sanctioned self-
determination process for the people of Puerto Rico. This 
proposed bill is based entirely on the report issued by the 
President's Task Force on December 22, 2005, which has not 
been, as a matter of fact, adopted by the President. Let me 
correct my statement. That has just been adopted. I wonder why. 
An outgoing present of an outgoing President.
    The report summarizes its finding by concluding that 
Congress can directly legislate and change the island's 
governmental structure unilaterally; that the Federal 
government may relinquish U.S. sovereignty by ceding Puerto 
Rico to another nation; that U.S. citizens born in Puerto Rico 
may be deprived of their citizenship at any time, because of 
the statutory nature of it, and that the Federal Constitution 
somehow prohibits the U.S. Government from entering into a 
relationship with Puerto Rico based on mutual consent.
    These outrageous and disturbing conclusions are the roots 
of our bill, which by itself also violates the principles of 
American democracy and Republicanism. Let me explain myself.
    House Bill 900 proposes a two-stage process for a 
plebiscite in where commonwealth, the option that has won every 
single plebiscite held in Puerto Rico, will be faced against 
statehood and independence, not on equal terms. The first stage 
will automatically unite statehooders and independent defenders 
in one options, against commonwealth, creating an artificial 
majority with the sole purpose of eliminating the only option 
that, like I said before, has won every plebiscite in the 
commonwealth.
    Moreover, stage two faces off statehood, that, as a matter 
of fact, for the purpose of this bill or any other bill, has 
never been fully explained of its definition, limitations, and 
consequences to the people of Puerto Rico, against independence 
and free association. In fact, these two options, independence 
and free association, in the last plebiscite only summed 7 
percent of the votes casted.
    Are these the principles of democracy and Republicanism the 
United States was founded? I don't think so. Neither should 
anyone.
    However, House Bill 1230, presented by Ms. Velazquez, truly 
embraces the principle under which the United States was 
conceived: the process of the constitutional convention has 
been used since the times of the founding fathers--for example, 
Annapolis Convention, 1786; Philadelphia Convention, 1787; 
which drafted the United States Constitution--and by individual 
states to create, replace, or revise their own constitution.
    As we can see, it is a proven mechanism within the United 
States history.
    It is a process of full representation by elected 
delegates, delegates of the people, just like you and me. It 
is, after all, the process through which this government was 
created. But there is a much important issue that should be 
addressed in these hearings, an issue that surpasses my support 
to the constitutional convention, and that only is recognized 
in House Bill 1230.
    The bill is not presented on the basis of four pages of 
immoral of illegal conclusions, like House Bill 900. It is 
presented on the principle of self-determination and 
sovereignty of the people of Puerto Rico.
    It is the universal and natural right of the people of 
Puerto Rico to exercise its supreme authority of sovereignty 
over ourselves by way of defending our moral and legal rights, 
the same as every nation is entitled to, to decide our destiny. 
In other words, to exercise our natural right to self-
determination.
    The United States was founded under a political value 
system that stresses liberty and rights as their central value. 
Where its people have natural rights and government has the 
responsibility of protecting these rights and liberties. These 
are the same principles and values adopted by the United 
Nations General Assembly in various resolutions about the 
peoples' right of self-determination by virtue of that right. 
They freely determine their political status, and freely pursue 
their economic, social, and cultural development.
    House Bill 1230 is, without a doubt, the right way of 
attending the political status of Puerto Rico. This bill 
represents the best of the United States and Puerto Rico.
    The people of Puerto Rico have the right to pursue its 
political, economic, and social development. These are my 
people's rights that I defend before you. It is your 
responsibility, Members of Congress, to embrace our will.
    Thanks for your time and the opportunity to address the 
Subcommittee.
    [The prepared statement of Mr. Ferrer Rios follows:]

   Statement of Honorable Hector Ferrer Rios, Minority Leader of the 
                House of Representatives of Puerto Rico

    Madam Chairwoman and Members of the Subcommittee. My name is Hector 
Ferrer Rios, I am the Minority Leader of the House of Representatives 
of Puerto Rico for the Popular Democratic Party.
    I welcome the opportunity to present and share my views on behalf 
of almost one million of Puerto Ricans, which believe, not only in the 
Commonwealth, but also, on a process of true self-determination through 
a Puerto Rican Constitutional Convention.
    I appreciate the interest that the Subcommittee has shown in 
dealing with this important matter in the lives of all Puerto Ricans.
    The status of Puerto Rico brings passion in the daily discussion of 
our collective lives. I belief the current status, Commonwealth, has 
fulfill its purpose. What started in 1952 between the U.S. and Puerto 
Rico, el Estado Libre Asociado, has been good for both nations.
    But the circumstances have changed. We don't live in the Cold War 
of the 50's, or in the underdeveloped nation that was Puerto Rico. It 
is time to develop a New Commonwealth Status, which responds to the new 
global economy and political trends.
    House Bill 900, provides ``for a federally sanctioned self-
determination process for the people of Puerto Rico''. This proposed 
bill, is based entirely on the report issued by the President's Task 
Force on December 22nd, 2005, which has not been, as a matter of fact, 
adopted by the President.
    The ``report'', summarizes its findings by concluding that Congress 
can directly legislate and change the island's governmental structure 
unilaterally; that the Federal Government may relinquish U.S. 
sovereignty by ceding Puerto Rico to another nation; that U.S. citizens 
born in Puerto Rico may be deprived of their citizenship at any time 
because of the statutory nature of it, and that the Federal 
Constitution, somehow, prohibits the U.S. Government from entering into 
a relationship with Puerto Rico base on mutual consent.
    These outrageous, disturbing and disrespectful conclusions are the 
roots of a bill, which by itself, also violates, the principles of 
American Democracy and Republicanism. Let me explain myself.
    House Bill 900 proposes a two stage process for a plebiscite in 
where Commonwealth, the option that has won every single plebiscite 
held in Puerto Rico, will be faced against Statehood and Independence, 
not in equal terms. The first stage will automatically unite 
statehooders and independence defenders in one option, against 
Commonwealth, creating an artificial majority, with the sole purpose of 
eliminating the only option that, like I said before, has won every 
plebiscite, Commonwealth.
    Moreover, stage two faces off statehood, that as a matter of fact, 
for the purpose of this bill or any other bill, has never been fully 
explained of its definition, limitations and consequences to the people 
of Puerto Rico, against independence and free-association. In fact, 
these two options, in the last plebiscite, only summed seven percent of 
the votes casted.
    Are these the principles of Democracy and Republicanism the United 
States was founded? I don't think so. Neither should anyone.
    However, House Bill 1230, presented by Ms. Velazquez, which 
``recognizes the right of the People of Puerto Rico to call a 
Constitutional Convention through which the people would exercise their 
natural right to self-determination, and to establish a mechanism for 
congressional consideration of such decision.'', truly embraces the 
principles under which the United States was conceived.
    The process of the Constitutional Convention has been used, since 
the times of the Founding Fathers, for example; Annapolis Convention 
(1786); Philadelphia Convention (1787), which drafted the Unites States 
Constitution; and by individual states to create, replace, or revise 
their own constitutions. As we can see, it is a proven mechanism within 
the United States history.
    It is a process of full representation by elected delegates, 
delegates of the people just like you and me. It is after all the 
process through which this government was created.
    But, there is a much important issue that should be addressed in 
these hearings. An issue that surpasses my support to the 
Constitutional Convention and that only is recognized on House Bill 
1230.
    The bill is not presented on the basis of four pages of immoral or 
illegal conclusions, like House Bill 900. It is presented on the 
principles of self-determination and sovereignty of the people of 
Puerto Rico. It is the universal and natural right of the people of 
Puerto Rico to exercise its supreme authority of sovereignty over 
ourselves, by way of defending our moral and legal rights, the same as 
every nation is entitled to, to decide our destiny. In other words, to 
exercise our natural right to self-determination.
    The United States was founded under a political values system, that 
stresses liberty and rights as their central values. Where its people 
have natural rights and government has the responsibility of protecting 
these rights and liberties.
    These are the same principles and values adopted by the United 
Nations General Assembly in various resolutions about the peoples' 
right ``of self-determination by virtue of that right they freely 
determine their political status and freely pursue their economic, 
social and cultural development.''
    House Bill 1230 is without a doubt, the right way of attending the 
political status of Puerto Rico. This bill represents the best of the 
United States and Puerto Rico.
    The people of Puerto Rico have the right to pursue its political, 
economic and social development.
    These are my peoples rights, that I defend before you.
    It is your responsibility, Members of Congress, to embrace our 
will.
    Thanks for your time, and the opportunity to address the 
subcommittee.
                                 ______
                                 
    Ms. Christensen. Thank you. I will recognize myself for 
five minutes for questions. And I want to begin with a question 
that I would ask to the entire panel, because it is an issue 
that has not been addressed, even though it is something, it is 
a provision that is found in both bills.
    Both of them envision participation of non-resident Puerto 
Ricans in any final plebiscite on status. Do you each support 
that? And have you been able to assess the sentiment of the 
people of Puerto Rico on that issue?
    Mr. McClintock. In our nation there have been varying 
degrees of allowing people to vote, depending on their nexus to 
the jurisdiction where they would be voting.
    In Puerto Rico, for example, we only allow people who are 
students or military personnel, or flight attendants and so 
forth, to vote absentee. In other states, many more people are 
allowed to vote absentee.
    The Federal government allows people who have not lived in 
a state for 30 years and live in Paris, an American in Paris, 
can vote for President 30 years after they left the U.S. So 
there is varying degrees regarding that issue.
    My only concern is that whoever is allowed to vote have 
enough of a nexus with Puerto Rico to at least know what is 
going on in Puerto Rico, and have some reasonable possibility 
of returning to Puerto Rico.
    If you ask a Puerto Rican living on the mainland how long 
does it take to go from San Juan to Ponce, and they tell you 
three and a half hours, that person should not be able to vote, 
because we have had an expressway that cuts that down to an 
hour for the past 30 years.
    Ms. Christensen. It would seem to me that that would be 
very difficult to determine, you know.
    Mr. McClintock. Yes. At the very least they should be 
required to have been, if they don't live in Puerto Rico, to 
have been born in Puerto Rico or born of a Puerto Rican parent. 
And the reason I say a Puerto Rican parent is because I wasn't 
born in Puerto Rico, I was born in London, England, from a 
Puerto Rican mother.
    Ms. Christensen. Mr. Aponte? Sorry.
    Mr. McClintock. But it is really a policy decision that 
you, as Congress, have to make.
    Ms. Christensen. But as the other panelists answer, I am 
very much interested in knowing what the people of Puerto Rico 
feel about, that those who live there feel about it.
    Mr. Aponte-Hernandez. It is difficult to establish a 
policy. What a people, what a Puerto Rican had the opportunity 
to vote in a referendum, because the foreigners of the people.
    I went to university in 2005, and many Puerto Ricans born 
in U.S. in mainland, not in the island, and never went to 
Puerto Rico, never goes to Puerto Rico. But they claim that 
they were Puerto Ricans. Have they the same benefits that, that 
is ours in the island? It is difficult. We have to pass over 
you in that way.
    Mr. Romero Barcelo. Madame Chairperson, it is a very hard 
question for me, and let me tell you why, for emotional, 
personal reasons.
    Serrano is a friend of mine. This issue is close to his 
heart.
    Ms. Christensen. I know.
    Mr. Romero Barcelo. But I have always disagreed on that. I 
feel that someone who is not going to receive either the 
benefits or the prejudices of his decision should not be 
allowed to vote. And, you know, how do you define it? It is 
very difficult to define.
    One bill says those born in Puerto Rico. Well, if somebody 
was born in the Puerto Rico. Let us say a couple moves from 
Missouri to Puerto Rico on a job, and they are there for five 
years, the last year they have a son. They move back to 
Missouri. And then he has never gone back to Puerto Rico. His 
parents were not Puerto Rican, but he was born in Puerto Rico. 
He lived there his first year of his life. All he knows about 
Puerto Rico is what he reads once in a while in the news or 
sees in the television. And he is entitled to vote?
    Ms. Christensen. Well----
    Mr. Romero Barcelo. Another case, where a couple moves to 
Puerto Rico, and they have children. Their son is five years 
old, and he goes to school in Puerto Rico. He goes to high 
school, he goes to college, gets a job in Puerto Rico, gets 
married, has children.
    And then in the job they say oh, we need you in Florida, so 
they send him to Florida. Now he is in Florida. And he is going 
to be there in Florida. But he would like to vote, but he 
can't, because he wasn't born in Puerto Rico. But his parents 
were Puerto Rican, and he was there in Puerto Rico living. Now, 
how do you----
    Ms. Christensen. I think the bill provides for people who 
are registered voters and are already in Puerto Rico. If he 
moves away, but still continues his residency and voting 
rights.
    Mr. Romero Barcelo. That is, if somebody is a registered 
voter in Puerto Rico and moves away, and is still registered, 
that means he is temporarily away. And those people definitely, 
they will have, they can vote, if they go to Puerto Rico.
    Now, whether they can be given absentee votes, those that 
are registered in Puerto Rico and are planning to return and 
have domiciled residence in Puerto Rico, that could be worked 
out, definitely.
    Ms. Christensen. Mr. Dalmau.
    Mr. Dalmau-Santiago. I think that every Puerto Rican that 
could be affected by this process or by this bill could be vote 
in the process.
    Ms. Christensen. That doesn't quite answer, but I will 
accept it.
    Mr. Ferrer Rios. If I recall correctly the question, it is 
if Puerto Ricans who live in the States or any other nation can 
vote on this process? That was the question, right?
    Ms. Christensen. Yes. The bill, both bills provide that 
persons who were born in Puerto Rico but live away can vote. 
And one provides that if you, one of your parents was born in 
Puerto Rico, you can vote.
    Mr. Ferrer Rios. Well, I do believe it is a correct 
amendment to the bills. I also think that Puerto Ricans, sons 
of Puerto Ricans that were born here in the States may vote on 
this issue. It all depends on whatever the hearing says, but I 
am in favor of it.
    Ms. Christensen. OK. Well, we want to be guided by people 
who live and know. I would just add, before I turn the mike to 
recognize Mr. Fortuno for questions, that you would be aware, I 
am sure, that many people, for reasons of health in the Virgin 
Islands, go to Puerto Rico to have their children. One of my 
siblings was born in Puerto Rico. And you have to take those 
kinds of things into consideration, as well.
    Mr. Fortuno. Thank you. I welcome Governor Romero and the 
leaders from Puerto Rico who made it here. We only have five 
minutes, so I will try to be quick.
    With all due respect to everyone, in this panel there is 
one person that has a lot more experience than anybody else, 
and that is Gov. Romero. And, Governor, I will ask you, my 
recollection is that since I can remember, one of the main 
issues used against statehood was that a sales tax would be 
imposed on the people of Puerto Rico if we became a state.
    And I asked you if that is true, and if it is also true 
that this Governor, who just left, imposed on us a 7 percent 
sales tax just recently.
    Mr. Romero Barcelo. Not only the sales tax, but in the 
campaigns the, particularly in the last month of every 
campaign, the popular party misled the people. Because they 
said not only the sales tax would be imposed, it would become a 
state, because we already had a sales tax, but it was a hidden 
sales tax. It was called an excise tax, which was very, very 
prejudicial, not only to the people, but also to the 
businessmen, because they had to pay the tax before they sold 
their products.
    But beyond that, they also told the people that if we 
became a state, the Federal government would be collecting 
property tax. And the Federal government does not collect 
property tax anywhere in the nation. It is the state government 
or the local county or the municipality, but not the Federal 
government.
    But they have always lied about the tax situation. And the 
tax benefits, the tax exemptions in Puerto Rico, for income tax 
earned in Puerto Rico are only for the wealthiest. Because the 
people in Puerto Rico, our local income taxes are higher than 
the Federal income tax and most state tax put together. So the 
middle class, the worker, the people in Puerto Rico pay more 
income taxes than they do in the nation. And the only ones that 
really benefit from the tax exemptions are the wealthiest of 
all corporations.
    Mr. Fortuno. Thank you. I also wanted to clarify something. 
Mississippi has been brought up several times, that the per 
capita income in Mississippi is more than twice the per capita 
income in Puerto Rico today. And that should be clarified in 
the record for everyone.
    Mr. Romero Barcelo. And not only that, Mr. Commissioner, 
also the fuel. About 20 years ago the difference between the 
per capita income between Mississippi and Puerto Rico was much 
less than it is now. The gap has widened.
    Mr. Fortuno. Exactly. The gap is widening as we speak.
    Mr. Romero Barcelo. And with all of the states. And part of 
the reason for that is because the poor people in Puerto Rico 
do not receive the same benefits. The needy people, the single 
women with children, the elderly, the people who have problems 
with mental problems, they don't receive the same benefits as 
they do in the mainland, in the rest of the states. So that 
creates an immediate difference at the lowest level of income.
    Mr. Fortuno. Gov. Acevedo-Vila actually published in 
today's roll call an article called Self-Determination is Key 
to Puerto Rico's Status Debate. I mean, his last paragraph--and 
I will quote from what he wrote--says, ``Puerto Ricans are 
excited by the island's progress in economic development, 
education, infrastructure growth, and fiscal stability, among 
others.''
    Without laughing while you are answering, Gov. Acevedo-Vila 
published this today in----
    Mr. Romero Barcelo. What is he talking about? Who is he 
talking about?
    Mr. Fortuno. Well, about Puerto Rico.
    Mr. Romero Barcelo. Oh, Puerto Rico?
    Mr. Fortuno. I know, for example, in terms of fiscal 
stability, isn't it true that we have had a deficit for the 
last three years while he has been Governor? And that Puerto 
Rico has the lowest credit rating of any jurisdiction under the 
U.S. flag?
    Mr. Romero Barcelo. Not only that, but the Banco Popular 
finished, they had their yearly report. And they said that the 
recession in Puerto Rico is not part of the nationwide economy; 
it is a locally created recession.
    Mr. Fortuno. For two years.
    Mr. Romero Barcelo. That is what the Banco Popular's 
report. And the Banco Popular is certainly not involved in the 
politics in that report. They are trying to inform the people 
about what the bank is doing, and what is happening in Puerto 
Rico.
    Mr. Fortuno. We will include, for the record, some economic 
data that will show, among other things, in the last five years 
Puerto Rico has experienced the slowest growth rates since the 
early eighties in Puerto Rico.
    Also has the lowest achievement test scores of a nation, in 
terms of the location, are in Puerto Rico. So that is 
clarified.
    I will close, Governor, with your opinion on the 
constitutional convention, and why do you oppose it.
    Mr. Romero Barcelo. The constitutional convention is a 
sham. I mean, first of all, what is a constitutional convention 
can vote for? A constitutional convention is called in to 
either amend a constitution, or to draft a new constitution; 
not to tell the people, or jurisdiction, what they should opt 
for their future. That is ridiculous.
    To put 20, 30 people elected to tell the people of Puerto 
Rico what their future is going to be, and submit it into a 
vote, that is ridiculous. After we decide where we want to go--
do we want to be a state, do we want to be a republic--then we 
can call a constitutional convention, to either amend our local 
Constitution as a state, or else have a new Constitution as a 
republic. That is what a constitutional convention is for. Not 
to tell the people what they should opt for in the future. That 
would be ridiculous.
    And then to say, the bill goes further--it is more 
ridiculous even. It says after the first constitutional 
convention, if the people don't vote for the option that is 
offered to them, then there will be another, that same 
constitutional convention can then draft another option to 
submit again to the people. This bill is not a serious bill. 
This bill has been filed just to create obstructions and to 
separate those people who want Puerto Rico to solve their 
status issue, to confuse them, and have something to perhaps 
prevent the H.R. 900 from getting a majority vote on the Floor.
    Mr. Fortuno. Very quickly, since we have the Governor here, 
Gov. Acevedo-Vila held this position in the last previous four 
years. He never filed that bill. Do you know why he never filed 
that bill? Could it be that now they are filing this bill just 
to stall and try to stop the process?
    Mr. Romero Barcelo. Because they are afraid of the 
referendum. The commonwealth hasn't won all the referenda; that 
is not true.
    The people of Puerto Rico have voted against commonwealth 
as a majority in the last three referendums. But the things is 
that the referendum has gotten more votes than other formulas 
individually, but the people have rejected the relationship 
between the Nation and Puerto Rico.
    The majority of the people reject the relationship. So we 
are now being governed without the consent of the governed. And 
that is also undemocratic.
    Mr. Fortuno. Thank you again, and thank you for the panel.
    Mr. Aponte-Hernandez. I want to make a correction, because 
in the last plebiscite, the commonwealth has not had the 
majority. None of the above, the people of Puerto Rico don't 
support the commonwealth, the active commonwealth. And vote in 
majority, none of the above.
    Ms. Christensen. Thank you. I now recognize Mr. 
Faleomavaega for five minutes.
    Mr. Faleomavaega. Thank you, Madame Chair. I want to again 
thank Gov. Romero for his most eloquent statement, as I have 
always known him over the years, and also still very consistent 
in terms of his strong views in the political future of Puerto 
Rico.
    I do want to note again and ask the members of the panel, 
my good friend, President McClintock, as I have tried to 
dissect or divide or some form of understanding of the two 
versions that we have before us of the bills. H.R. 900 provides 
these options: independence, free association, or statehood. 
And I hope my good friend, Mr. Fortuno, will correct me on 
that.
    Now, the provisions or options for H.R. 1230 is 
commonwealth for a new or modified commonwealth status, one 
option. Statehood or independence. What this boils down to, as 
much as I can--I welcome your comments--we have a problem here 
with definitions. How do you define free association? How do 
you define commonwealth, or enhanced commonwealth?
    There is no question about statehood or independence. I 
think that is pretty much understood throughout our dialogue 
here.
    And one of the ironies as I observed here, we have a 
Governor who is pro-commonwealth, elected by the people of 
Puerto Rico, and my good friend, Mr. Fortuno, the Resident 
Commissioner, elected, but for statehood. I am confused. And I 
know, because my good friend is good-looking, and I know that 
is probably the reason why he got elected Resident 
Commissioner. Not only is he intelligent, but I am smart, if I 
want to put that categorization again.
    But truly----
    Mr. Fortuno. They said that about Barack Obama the other 
day.
    Mr. Faleomavaega. But I do want to ask, especially----
    Mr. McClintock. I may add that you also have two attractive 
speakers and Senate Presidents who are also for statehood, just 
as Fortuno.
    Mr. Faleomavaega. OK, well taken.
    Mr. McClintock. Seriously, H.R. 900 provides a two-step 
process. The first step is where Congress asks a question that 
it has not dared ask in 108 years.
    Mr. Faleomavaega. Well, here is my problem. There is 
definitely a question of process. This is what we are getting 
fuzzy on, OK?
    Mr. McClintock. Yes.
    Mr. Faleomavaega. There is no question that this is one 
issue that I notice we are hung up on. And then the definition, 
as we have been taught, as I have tried exhorting, my 
understanding of free association and the classy examples of 
free association, if you want to talk, discuss that as a 
political status, are the Micronesian entities of Palau, 
probably the Marshall Islands, and the free Federated States of 
Micronesia.
    Mr. McClintock. Well, you provide sovereignty, and then you 
turn to a negotiation.
    Mr. Faleomavaega. Right. But there are some conditions, 
though, on how free association has evolved, and the way it is 
going to be applied by the Micronesian entity is quite 
different.
    Mr. Romero Barcelo. One of the things is that all the ones 
that have the free association, they are not U.S. citizens.
    Mr. Faleomavaega. That is true, but----
    Mr. Romero Barcelo. And that is what the commonwealth 
supporters are afraid of. They are afraid that then the 
people--we want a status without U.S. citizens.
    Mr. Faleomavaega. I am reclaiming my time. These entities 
also, the citizens are allowed to join the military. And they 
can also become U.S. citizens once they join the military. And 
that is a very unique situation, too.
    Mr. Romero Barcelo. Aliens are allowed to join the 
military.
    Mr. Faleomavaega. The citizens of the Republic of the 
Marshall Islands, Palau, and the Federated States of 
Micronesia, can join the military, and they can become U.S. 
citizens as an option once they are in the military. There is 
approximately five to six hundred Micronesians now serving in 
the armed services of the United States, some very, very, 
outstanding performers, just like our people from Puerto Rico 
or all the other entities, as well.
    My point is that, is there an agreement that we definitely 
have a problem with definitions? We definitely have a problem 
with process. Is there some way that we can formulate, or some 
way--I know my good friend, Mr. Fortuno, has a different 
definition of free association. I have a different definition 
of association, and I am sure Gov. Vila has a different 
definition of enhanced commonwealth, since that seems to be one 
of the options stated under provisions of H.R. 1230.
    I want to ask my good friends who are pro-commonwealth if, 
what is their understanding of how you are defining--I know it 
is there, but is there anything different from what has been 
stated earlier by my good friend, Mr. Fortuno, as to what 
enhanced commonwealth status does or proposes to do?
    Mr. Ferrer Rios. Let me answer a question with one, just 
one example. A new commonwealth or enhanced commonwealth would 
be in agreement with the United States that the Jones Act or 
the law don't apply to Puerto Rico. That may be a new 
commonwealth.
    Mr. Faleomavaega. You are only talking about one instance, 
because there could be several other factors that you 
negotiate.
    Mr. Ferrer Rios. I am just giving you one example.
    Mr. Faleomavaega. Right, right.
    Mr. Ferrer Rios. I am just giving you one example. That 
relation with the United States with Puerto Rico has to be 
drawn on the table. And that is one example of what we can have 
as a new commonwealth.
    Mr. Faleomavaega. I do want----
    Mr. Ferrer Rios. A new commonwealth, if I may, has to be 
based on the principle of developing economy of Puerto Rico. 
And I think that is the key here.
    Mr. Faleomavaega. Let me tell you, I know my time is up, I 
just want to say right now, in my humble opinion, we definitely 
have a problem with definitions. How free association and 
commonwealth are going to be properly defined, so that the 
people of Puerto Rico know exactly the differences of these two 
options. We know what independence is about, we know what 
statehood is about.
    Mr. Ferrer Rios. Not in Puerto Rico, though. Not in Puerto 
Rico. The people of Puerto Rico, they don't know what statehood 
is.
    Mr. Romero Barcelo. This is all by H.R. 900. This is all by 
H.R. 900. Because the first question on the referendum, the 
first referendum would be do you want to have a non-territorial 
status. And then if the people say they want to have a non-
territorial status, that means they don't want commonwealth. So 
that is solved, that problem is solved by the first question.
    But if they say yes, they do want a territorial status, 
then you have to go to----
    Mr. Faleomavaega. My time is up, Ms. Chairman. But I will 
say in closing, Madame Chair, I am a very proud grandfather. My 
grandson, his mother is Puerto Rican. Can she vote?
    Mr. Romero Barcelo. She doesn't live in Puerto Rico, she is 
not a resident in Puerto Rico, I don't think so.
    Mr. Faleomavaega. Thank you.
    Mr. Romero Barcelo. Anyway, the problem is, why should 
somebody that has the right to vote and the right to 
representation, in your case not because they are also a 
territory, but someone that has the right to vote and the right 
to representation tell me that I cannot have a right to vote or 
a right to representation?
    Mr. Ferrer Rios. I believe she can. I believe she can.
    Mr. Aponte-Hernandez. The problem is the definition. In 
1952, we have some definition for commonwealth. In 1977, 1967, 
we have another. In 1993, we have another one. In 1998, another 
one. And now, the proposal of commonwealth has another 
definition, and they don't know what he wants for commonwealth.
    Ms. Christensen. Thank you. Again, I want to thank the 
witnesses for their testimony and their answers. We may forward 
questions to you in writing, and would ask that you--oh, Mr. 
Dalmau, sorry.
    Mr. Dalmau-Santiago. Yes.
    Ms. Christensen. I will allow this last statement, because 
I think he was answering the question.
    Mr. Dalmau-Santiago. I want only to invite this committee 
to celebrate a hearing in Puerto Rico.
    Ms. Christensen. Thank you. Again, thank you for your 
testimony and for your answers to our questions.
    I would like to now recognize the fourth panel, the fourth 
and final panel. They include Mr. Fernando Martin, Executive 
President of the Puerto Rican Independence Party; Mr. Nestor 
Duprey, Spokesman for the Puerto Ricans for Free Association 
and Social Justice; and Mr. Juan Manuel Garcia Passalacqua, 
Writer and Columnist.
    We would like the final panel to take their seats. He is 
trying to get there, OK.
    Thank you, and thank you for your patience. It has been a 
long afternoon into the evening. I now recognize Mr. Martin for 
five minutes.

STATEMENT OF FERNANDO MARTIN, EXECUTIVE PRESIDENT, PUERTO RICAN 
                       INDEPENDENCE PARTY

    Mr. Martin. Good afternoon.
    Ms. Christensen. Could we keep the noise in the back down, 
please?
    Mr. Martin. Puerto Rico is the only nation of even remotely 
comparable population where the most fundamental and important 
laws regulating its collective life are made by the legislature 
of another country, and are administered and enforced by the 
government of this other country, without the participation of 
the subject people.
    This indefensible and unacceptable condition of 
subordination and servitude has existed for more than 100 
years, since the United States, having demanded and obtained 
Puerto Rico as booty of war from Spain, first organized a civil 
government for its newly acquired possession.
    That such an anachronistic and mutually demeaning state of 
affairs has persisted until the present requires explanation. 
Two fundamental policy considerations in the U.S. have 
sustained colonialism in Puerto Rico during the 20th century. 
The first has been the determination to exercise absolute 
control over Puerto Rico for military, strategic, and 
geopolitical reasons. The two World Wars reinforced this 
overarching motivation, while the subsequent Cold War made the 
need for such control even more acute.
    In other circumstances, such long-range national security 
considerations would have led to annexation as a territory 
followed by eventual statehood. Here is where the second 
bedrock explanation for the persistence of colonialism comes 
into play. For in contrast to Hawaii, where by 1898 the natives 
were already a small minority overwhelmed by an immigration 
process which rapidly Americanized the new arrivals, and with 
an Anglo-Saxon elite long in control of politics and the 
economy, Puerto Rico presented a totally different situation.
    Here was a full-blown Latin-American nation densely 
populated, Spanish-speaking, intensely proud of its cultural 
identity, and possessing its own indigenous and entrenched 
political and economic elite. It did not require William Howard 
Taft's colonial and political experience to recognize that it 
was inconceivable that Puerto Rico could ever be a state of the 
Union, because it was, in fact, a different nation.
    It was obvious then, as it is today, that Puerto Rico is a 
non-compatible donor to the historical project of American 
Federalism. After all, if Puerto Rico were a real candidate for 
statehood, why not Jamaica or Guatemala? Many desperately poor 
in these countries might perhaps support it, albeit, as in 
Puerto Rico, for the wrong reasons.
    This is why the imposition of U.S. citizenship in Puerto 
Rico in 1917, together with the reaffirmation that such a step 
did not incorporate Puerto Rico, was such a pragmatic 
manifestation of the underlying basis of U.S. policy toward 
Puerto Rico.
    U.S. citizenship was, at the same time, both an attempt to 
close off the path toward independence, while not opening the 
one that might lead to statehood. This left only the option of 
reforms within the statutes of non-incorporated territory.
    It no doubt remained as to what U.S. policy would be toward 
Puerto Rico thereafter. It was to be a colony indefinitely. And 
so it continued to be until the relationship has recently been 
brought sharply into question in the United States by the 
profound geopolitical and military consequences of the collapse 
of the Soviet Union and the end of the Cold War.
    The armed forces no longer have any significant presence in 
Puerto Rico. That other traditional lobbying ally for 
colonialism, the 936 companies, are now a mere memory of the 
time when any change in political status would have meant the 
end of their Federal tax privileges.
    The only reason remaining for the U.S. to support continued 
colonialism would be if this were the only way to ward off the 
possibility of an embarrassing statehood bid. Yet the truth is 
to the contrary; continued colonialism will only breed evermore 
statehooders.
    Furthermore, international opinion, particularly in Latin 
America and the Caribbean, is increasingly demanding that 
Puerto Rico be recognized its independence. The United Nations 
Committee on the Colonization, for example, has been approving 
resolutions unanimously during the past five years, recognizing 
Puerto Rico's inalienable right to independence, and our party 
is presently engaged, together with the most representative 
political forces in Latin America and the Caribbean, in a 
campaign that will culminate in a similar resolution by the 
General Assembly.
    The decolonization committee has consistently called for 
the U.S. Government to take the necessary steps that will 
promote the exercise of our right to self-determination, 
according to international law. Only a process that will lead 
to a serious and responsible offer of independence, that must 
begin by putting an end to the colonial option, and will 
inevitably require considerable straight talking on the part of 
Congress as to why statehood is not an alternative to be 
acceptable to the U.S. Only this will finally put an end to 
this failed and discredited colonial experiment that has gone 
on for far too long, to the detriment of both our nations.
    The proposal put forward earlier today by the President of 
the PIP, Ruben Berrios, if approved in its essential 
components, will undoubtedly put in motion a process that can 
only lead to decolonization and independence. For the first 
time in more than 100 years, there are no fundamental 
contradictions between your interests and ours, as far as 
political status is concerned. It is up to Congress to seize 
this opportunity without delay.
    Thank you very much.
    [The prepared statement of Mr. Martin follows:]

       Statement of Fernando Martin, Executive President of the 
                    Puerto Rican Independence Party

    Puerto Rico is the only nation of even remotely comparable 
population where the most fundamental and important laws regulating its 
collective life are made by the legislature of another country, and are 
administered and enforced by the government of the other country, 
without the participation of the people who are thus governed. Even 
local laws enacted by Puerto Rico's Legislative Assembly ``as well as 
municipal ordinances and administrative regulations'' must conform to 
the constitution and laws of another country, the United States.
    This indefensible and unacceptable condition of subordination and 
political servitude has existed for more than one hundred years since 
the United States, having demanded and obtained Puerto Rico as booty of 
war from Spain in 1898, first organized a civil government for its 
newly acquired possession through the Foraker Act of 1900.
    That such an anachronic and mutually demeaning state of affairs has 
persisted until the present requires explanation. Two fundamental 
policy considerations in the U.S. have sustained colonialism in Puerto 
Rico during the 20th century. The first has been the determination to 
exercise absolute control over Puerto Rico for military, strategic and 
geopolitical reasons. The first and second world wars reinforced this 
overarching motivation while the subsequent era of the Cold War made 
the need for such control even more acute.
    In other circumstances such long range national security 
considerations would have led to annexation as a territory followed by 
eventual statehood. Here is where the second bedrock explanation for 
the persistence of colonialism comes into play; for in contrast to 
Hawaii where by 1898 the native Hawaiians were already a small minority 
overwhelmed by an immigration process which rapidly Americanized the 
new arrivals, and with an Anglo-Saxon elite firmly in control of 
politics and the economy, Puerto Rico presented a totally different 
situation.
    Here was a full blown Latin American nation densely populated, 
Spanish speaking, intensively proud of its cultural identity, mature in 
its cultural manifestations ``not only in folklore but in high 
culture'' and possessing its own indigenous and entrenched political 
and economic elite. It did not take William Howard Taft's colonial, 
political and judicial experience to recognize (as he did in Balzac, 
the culmination of the Insular Cases) that it was inconceivable that 
Puerto Rico could ever be a state of the union because it was in fact, 
a different nation. It was obvious then, as it is today, that Puerto 
Rico is a non compatible donor to the historical project of American 
federalism. After all, if Puerto Rico were a real candidate for 
statehood, why not Jamaica or Guatemala? Many desperately poor in these 
countries might perhaps support it, as in Puerto Rico, for the wrong 
reasons.
    This is why the imposition of U.S. citizenship in 1917, together 
with the reaffirmation that such a step did not incorporate Puerto 
Rico, is such a paradigmatic manifestation of the underlying basis of 
the U.S. policy toward Puerto Rico. United States citizenship was at 
the same time, both an attempt to close off the path towards 
independence while not opening the one that might lead to statehood. 
This left only the option of reforms within the status of non 
incorporated territory. No doubt remained as to what U.S. policy would 
be towards Puerto Rico thereafter: it was to be a colony indefinitely. 
And so it continued to be until it has recently been brought into 
question in the United States by the profound geopolitical and military 
consequences of the collapse of the Soviet Union and the end of the 
Cold War.
    The armed forces of the United States no longer have any 
significant presence in Puerto Rico. That other traditional lobbying 
ally for colonialism, the 936 companies, are now a mere memory of the 
time when any change in political status would have meant the end of 
their federal tax privileges (which under 936 applied only if the 
profits were generated in a possession).
    The only reason remaining for the U.S. to support continued 
colonialism would be if this were the only way to ward off forever the 
possibility of an embarrassing statehood bid. Yet the truth is to the 
contrary; continued colonialism will only breed evermore statehooders.
    Furthermore, international opinion, particularly in Latin America 
and the Caribbean will increasingly demand that Puerto Rico be 
recognized its independence. The United Nations Committee on 
Decolonization, for example, has been approving resolutions unanimously 
during the past five years recognizing Puerto Rico's inalienable right 
to independence and our party is presently engaged--together with the 
most representative political forces in Latin America and the 
Caribbean--in a campaign that will culminate in similar resolution by 
the General Assembly. The Decolonization Committee has consistently 
called for the Government of the United States to take the necessary 
steps that will promote the exercise by the People of Puerto Rico of 
their right to self determination according to international law.
    Only a process that will lead to a serious and responsible offer of 
independence that must begin by putting an end to the colonial option, 
and will inevitably require considerable straight talking on the part 
of Congress as to why statehood is not an alternative that could be 
acceptable to the U.S. in the foreseeable future, will finally put an 
end to this failed and discredited colonial experiment that has gone on 
for far too long to the detriment of both our nations.
    The proposal put forward earlier today by the President of the PIP, 
Ruben Berrios, if approved in its essential components will undoubtedly 
put in motion a process that can only lead to decolonization and 
independence.
    For the first time in more than one hundred years there are no 
fundamental contradictions between your interests and ours as far as 
political status in concerned. It is up to Congress to seize this 
opportunity without delay.
                                 ______
                                 
    Ms. Christensen. Thank you. The next person we will hear 
from is Mr. Nestor Duprey Salgado. We recognize you for five 
minutes.

        STATEMENT OF NESTOR DUPREY SALGADO, SPOKESMAN, 
     PUERTO RICANS FOR FREE ASSOCIATION AND SOCIAL JUSTICE

    Mr. Salgado. Thank you, Madame Chair and Members of the 
Subcommittee.
    I appear before you as spokesperson of Movimiento 
Autonomista Socialdemocrata, also known in English as Puerto 
Ricans for Free Association and Social Justice. We advocate for 
the development of Puerto Rico's current relationship with the 
United States to a compact of free association.
    MAS follows in the tradition of more than 20 years, whereby 
supporters of free association have appeared before Congress. 
As MAS has previously addressed the substantive and procedural 
aspects of both H.R. 900 and H.R. 1230, I should underline at 
this time that MAS firmly believes that any bill passed by 
Congress must recognize three separate status options, 
presented to the Puerto Rican electors in a fair and balanced 
way. Statehood, independence, and free association. No more, no 
less.
    International law and U.S. constitutional practice have 
recognized free association as a valid, non-colonial and non-
territorial self-determination option.
    Free association is based on the sovereignty of the people 
of Puerto Rico. Puerto Rico would delegate or share several 
areas of authority with the United States. The existing 
compacts of free association between the U.S. and the 
Micronesian nations have been negotiated and executed under the 
treaty-making power of the U.S. Constitution.
    The compacts are clearly outside Congressional authority 
under the Territorial Clause of the Constitution.
    Some argue that Congress has the authority to partially or 
permanently cede some of its plenary powers over Puerto Rico 
under the Territorial Clause. MAS believes that it is a risky 
proposition that will ultimately leave the new form of 
association between Puerto Rico and the U.S. in substantially 
the same place that it is now: at the mercy of future actions 
and interpretations of Congress, the Justice Department, and 
the Federal Courts.
    Furthermore, the existing compacts of free association are 
a recognized model in U.S. constitutional practice that would 
accommodate all the political and economic authority desired by 
the majority of Puerto Ricans that do not believe in statehood 
or independence. When we are talking about the enhanced 
commonwealth, what we are really talking about is free 
association.
    MAS understands that the best way for an association 
agreement to work is to forgo altogether the Territorial 
Clause, and use the International Agreement Clause of the 
Constitution. Puerto Rico must become a sovereign nation, all 
while entering at the same time into a compact of free 
association with the United States. This was exactly the way in 
which the Micronesian Compacts were established since 1986.
    Contrary to what some have argued in the past, free 
association is not independence. Free association is bilateral 
by nature, and requires mutual consent. Contrary to 
independence, it is based on the concepts of association, 
mutual trust, and understanding.
    Most of those who have studied the process that concluded 
in the signing of the existing compacts of free association 
have agreed on some very important issues. First, U.S. 
citizenship possessed by Puerto Ricans by birth since 1917 
cannot be unilaterally revoked by Congress.
    Second. Dual U.S. and Puerto Rico citizenship is not only 
possible, but desirable. There are no constitutional or legal 
impediments for the permanence of U.S. citizenship in the case 
of sovereign free association. It is only a matter of political 
will.
    Third. Some argue that you have to become an independent 
nation first, and then enter into an association. That is 
wrong. The Freely Associated States of the Pacific went 
directly from trust territory status to political association 
with the U.S. Puerto Rico and the U.S. can commence negotiation 
toward free association without the need to change the current 
relationship.
    In conclusion, free association is the only viable 
alternative that harmonizes both United States and Puerto Rico 
interests. It would provide Puerto Rico economic tools to deal 
with our problems in a dignified relationship of security and 
trust with the U.S. The United States would acquire a most 
desired partner in Latin America, in a democratic friendship of 
mutual interests and values, all while promoting self-
sufficiency, economic growth with social justice.
    Madame Chair and Members of the Subcommittee, I came here 
as part of a new generation of Puerto Ricans who are tired of 
discussing the status issue. We want to solve it. And this 
afternoon, the Resident Commissioner, Mr. Fortuno, opens a door 
to propose amendments to H.R. 900 to separate free association 
as a distinct option, as it is recognized by international law 
and U.S. constitutional experience.
    I invite you, Commissioner, in representation not of your 
party, not of your ideal, but of the people of Puerto Rico, of 
all Puerto Ricans, to work out an inclusive process that 
includes the three alternatives that the people of Puerto Rico 
traditionally supports: statehood, independence, and 
association with the United States in a compact of free 
association.
    Thank you, Madame Chairwoman and Members of the 
Subcommittee.
    [The prepared statement of Mr. Duprey Salgado follows:]

           Statement of Nestor Duprey Salgado, Spokesperson, 
                 Movimiento Autonomista Socialdemocrata

    Madame Chair, members of the Subcommittee:
    My name is Nestor Duprey Salgado. I appear before this Subcommittee 
as spokesperson of the Movimiento Autonomista Socialdemocrata (MAS). 
MAS is a non-governmental organization that advocates for the 
development of Puerto Rico's current relationship with the United 
States to a Compact of Free Association, in compliance with U.S. and 
International law. MAS follows in the tradition of more than 20 years 
whereby supporters of Free Association have appeared before the 
Congress to advocate for this political status alternative.
    As MAS has previously addressed the substantive and procedural 
aspects of both H.R. 900 and H.R. 1230, I should underline at this time 
that MAS firmly believes that any bill passed by Congress must 
recognize three separate status options, presented to the Puerto Rican 
electors in a fair and balanced way: statehood, independence and free 
association. No more, no less.
    International Law and U.S. constitutional practice have recognized 
Free Association as a valid non-colonial and non-territorial self-
determination option. The Compacts of Free Association adopted since 
1986 between the Federated States of Micronesia, the Marshall Islands, 
Palau and the United States are recognized both as international 
agreements and U.S. domestic law.
    Free Association is based on the sovereignty of the People of 
Puerto Rico. In the exercise of said sovereignty, Puerto Rico would 
delegate or share several areas of authority with the United States. 
The existing Compacts of Free Association between the U.S. and the 
Micronesian nations have been negotiated and executed under the Treaty 
Making Power of the U.S. Constitution. The Compacts are clearly outside 
congressional authority under the Territorial Clause of the 
Constitution.
    Some argue that Congress has the authority to partially and 
permanently cede some of its plenary powers over Puerto Rico under the 
Territorial Clause. MAS believes that is a risky proposition that will 
ultimately leave the new form of association between Puerto Rico and 
the U.S. in substantially the same place that it is now: at the mercy 
of future actions and interpretations of Congress, the Justice 
Department and the Federal Courts. Furthermore, the existing Compacts 
of Free Association are a recognized model in U.S. constitutional 
practice that would accommodate all the political and economic 
authority desired by the majority of Puerto Ricans that do not believe 
in statehood or independence.
    MAS understands that the best way for an association agreement to 
work is to forgo altogether the Territorial Clause and use the 
International Agreements Clause of the Constitution. Puerto Rico must 
become a sovereign nation, all while entering at the same time into a 
Compact of Free Association with the United States. This was exactly 
the way in which the Micronesian Compacts were established since 1986.
    Contrary to what some have argued in the past, Free Association is 
not independence. Free Association is bilateral by nature and requires 
mutual consent. Contrary to independence, it is based on the concepts 
of association, mutual trust and understanding.
    Having said this, it is proper to clarify certain important issues 
regarding the viability and nature of a Compact of Free Association 
between Puerto Rico and the United States.
    Most of those who have studied the process that concluded in the 
signing of the existing Compacts of Free Association have agreed on 
some very important issues that I most highlight today:
    1.  U.S. citizenship possessed by Puerto Ricans by birth since 1917 
cannot be unilaterally revoked by the Congress. The overwhelming weight 
of legal authority is that citizenship is an individual right that 
cannot be taken away arbitrarily by Congress without violating 
fundamental constitutional principles.
    2.  Dual U.S. and Puerto Rico citizenship is not only possible, but 
desirable. Dual U.S. citizens now include persons from Israel and 
Mexico, and the list is growing. Even the Department of Justice has 
concluded that in the case of Puerto Rico, there are no constitutional 
or legal impediments for the permanence of U.S. citizenship in the case 
of sovereign free association. It is only a matter of political will.
    3.  Some argue that you have to become an independent nation first 
and then enter into an association. That is wrong. The Freely 
Associated States of the Pacific went directly from trust territory 
status to political association with the U.S. Puerto Rico and the U.S. 
can commence negotiations toward free association without the need to 
change the current relationship.
    4.  MAS also understand that economic self reliance must be a 
fundamental principle in a future relationship with the US. Economic 
dependence runs counter to the interests of the Puerto Rican nation and 
the U.S. government. As an essential part of a model of free 
association, we believe that both nations must agree on a new economic 
covenant. As happened in the Micronesian experience, both nations would 
agree on an economic arrangement that includes the strategic assignment 
of federal funds; the creative use of trust funds, as well as other 
economic incentives.
    Free Association is the only viable alternative that harmonizes 
both United States and Puerto Rico strategic interests. It would 
provide Puerto Rico the economic tools to deal with our problems in a 
dignified relationship of security and trust with the U.S. At the same 
time, the United States would acquire a must desired partner in Latin 
America and in the global community, in a democratic friendship of 
mutual interests and values, all while promoting self-sufficiency, 
economic growth with social justice.
    Congress has an obligation to fulfill. It is two-fold: to provide 
for a fair, inclusive and effective process of self determination and, 
secondly, to offer the complete array of non-territorial options 
recognized by International Law in the simplest and clearest way 
possible. Thus, you must offer Free Association as a distinct 
alternative to all others. Free association must be able to stand on 
its own feet as the people of Puerto Rico make their choice in the 
ballot box.
    After more than 109 years of U.S. rule, Puerto Rico is more than 
ready to take the next step forward in its process of self-
determination. While some forces in Puerto Rico insist on maintaining 
and preserving the status quo, Congress should assume its 
responsibility and promptly enact legislation providing the People of 
Puerto Rico with a much awaited federally sanctioned self-determination 
process. The People of Puerto Rico are ready. We wait for your response 
and action.
                                 ______
                                 
    Ms. Christensen. Thank you. Finally, our final panelist 
will be Mr. Juan Manuel Garcia Passalacqua, Lawyer, Writer, and 
Political Analyst.

         STATEMENT OF JUAN MANUEL GARCIA PASSALACQUA, 
               LAWYER, WRITER, POLITICAL ANALYST

    Mr. Passalacqua. Thank you, Madame Chairman. I appear 
before you hereby in support of H.R. 900 of Congressman Jose 
Serrano, without amendments.
    I do so as a student of constitutional law at Harvard 
University Law School; as a visiting professor of 
constitutional law at Yale University; as an advisor on 
constitutional issues in the Caribbean for the Council on 
Foreign Relations in New York; and as a member of the 
Ambassadors Circle of the Carter Center in Atlanta.
    I give you those qualifications only to support my 
endorsement of H.R. 900.
    I support H.R. 900 for 10 reasons that are in my written 
statement, and I will not use too much of my time for that 
purpose. But I want to make a point that has not been made this 
afternoon by anybody else.
    Your action now is necessary, in view of the decision of 
the Circuit Court of Appeals for the District of Columbia of 
February 7, that I recommend you read carefully, all of you.
    The case is Boumediene v. Bush. And in it, the Court 
unanimously insisted once again that since 1900, Puerto Rico is 
an unincorporated territory of the United States. That 
decision, in the cases of Intregua Guantanamo and Boumediene v. 
Bush, was affirmed without opinion by the Supreme Court of the 
United States of America. And that affirmative action by the 
Supreme Court, ladies and gentlemen of this commission, make it 
the law of the land as of this month.
    So there should be no question whatsoever that that is the 
issue that this 111th Congress has to address, this one and the 
next one.
    I must quote to you what the opinion says, because it is a 
fascinating aspect of this question. The detainees in the 
Guantanamo prison cite the Insular cases in which fundamental 
personal rights extended to U.S. territories like Puerto Rico. 
But in each of those cases, referring to the extension of 
constitutional rights to Puerto Ricans, Congress exercised its 
power under Article IV, Section 3 of the Constitution, to 
regulate territory or other property belonging to the United 
States of America.
    Those cases, says the Court, affirmed by the Supreme Court, 
do not establish anything regarding the sort of sovereignty 
that the detainees say exists at Guantanamo. Here, in the 
Guantanamo case, Congress and the President have specifically 
disclaimed the sort of territorial jurisdiction that they 
assert in Puerto Rico. That is the law of the land.
    Now, I am, of course, surprised that no one else has quoted 
that case to you, but I am more surprised still that the 
Governor of Puerto Rico thought of quoting to you one book by 
Aleksei Aleinikoff. And I must contribute to this hearing by 
suggesting that you read nine other books that say what the 
Governor has refused to say here.
    So let me use very quickly my time to cite the following. 
Amy Kaplan and Donald Pease, Cultures of U.S. Imperialism. 
Matthew Fry Jacobsen, the United States Encounters Foreign 
People at Home and Abroad. Amy Kaplan again, the Anarchy of 
Empire in the Making of U.S. Culture. Gary Lawson and Guy 
Seidman, the Constitution of Empire, Territorial Expansion in 
American Legal History. Robert Statham, Colonial 
Constitutionalism, the Tyranny of United States Off-Shore 
Territorial Policy and Relations. Bartholomew Sparrow, the 
Insular Cases and the Emergency of the American Empire. And 
most notably, Nancy Morris, Puerto Rico Culture, Politics, and 
Identity.
    If you want to read one book recommended by the Governor of 
Puerto Rico, I, as a professor, am recommending nine other 
books, so you can read them all.
    Finally, I am delivering to your staff here 10 exhibits, 
addendums of my statement, including, Madame Chairman and 
Members of the committee, one proposed bill that I have 
submitted already to the staffers in the Senate of the United 
States that would simplify matters absolutely. I again 
recommend the approval of H.R. 900 without amendments.
    But in the case that you are tempted to amend H.R. 900 in 
the markup session or on the Floor, I insist that you consider 
my bill that has a very simple title. It is only a one-page 
bill, whose title is to dispose of the territory of Puerto 
Rico, in light, of course, of Boumediene v. Bush.
    Thank you very much.
    [The prepared statement of Mr. Passalacqua follows:]

             Statement of Juan Manuel Garcia Passalacqua, 
                    Professor and Political Analyst

    Members of the Subcommittee on Insular Affairs of the House of 
Representatives:
    I appear before you hereby in support of H.R. 900 of Congressman 
Jose Serrano, without amendments. I do so, for ten reasons that I will 
enumerate. I am a graduate of Harvard University and have served as 
Visiting Professor of Political Science at Yale University. I am at 
present a member of the Council on Foreign Relations in New York and of 
the Ambassadors Circle of the Carter Center in Atlanta. It is with 
those qualifications that I appear before you in writing.
    I support H.R. 900 because: It recognizes our nation of8 million 
beings. It denounces our century old colonialism. It announces 
persistence in our anti-colonialism. It makes clear it is your 
responsibility to end it. It recognizes the right of all those born in 
Puerto Rico wherever they reside, to participate in deciding our 
country's future. It constructs that decision to demand that some 
option gets a clear majority. It challenges you to act. It forces the 
White House and the full Congress to respond to our people's demands. 
And, finally, it makes possible the end our consent to colonialism in 
Puerto Rico in the year 2009. Those ten reasons should be enough to 
move you.
    Furthermore, since this hearing has been called to include an 
academic analysis of the conundrum before you, I want to contribute to 
it, the intellectual analysis you have invited.
    Your action is necessary in view of the decision of the Circuit of 
Appeals Court for the District of Columbia of last February 7 in the 
case of Boumediene v. United States, in which it insisted Puerto Rico 
is, since 1900, an unincorporated territory of the United States. That 
is what this III the Congress has to end after more than a century of 
indecision and avoidance.
    For the sake of brevity, ] will just recommend instead of 
extensively citing, a series of published academic texts that by their 
reasoning would support the approval of H.R. 900: Amy Kaplan and Donald 
E. Pease, Cultures of US. Imperialism; Mathew Frye Jacobson, The United 
Stales Encounters Foreign Peoples at Home and Abroad; Amy Kaplan again, 
The Anarchy of Empire in the Making of US. Culture; Alexander 
Aleinikoff, Semblances of Sovereignty: The Constitution, the State and 
American Citizenship; Gary Lawson and Guy Seidman, The Constitution of 
Empire: Territorial Expansion and American Legal History; Robert 
Statham, Colonial Constitutionalism: The Tyranny of United States' 
Offshore Territorial Policy and Relations; Bartholomew H. Sparrow, The 
Insular Cases and the Emergence of American Empire; and most important 
of all Nancy Morris, Puerto Rico: Culture, Politics and Identity.
    Reading those eight texts will be enough to convince you to adopt 
H.R. 900. I am of course available to elaborate for you the relevance 
of these and other texts published in recent years, as well as the 
relevance of the cases of In re Guantanamo and Boumediene v. United 
States, and I request that these brief remarks be made part of the 
record of these hearings.
                                 ______
                                 
    Ms. Christensen. Thank you, Mr. Passalacqua. And thank you 
for giving us a little, some abstracts in one of your 
commentaries on April 22, so that I wouldn't have to try to 
read all of those books before today. So I have a little idea 
of what they say.
    Mr. Passalacqua. Thank you, Madame Chairman.
    Mr. Fortuno. By the way, Madame Chair, if I may say so, I 
also used this as a reference for today's hearing.
    [Laughter.]
    Ms. Christensen. Thank you. I am going to try to get three 
questions in, in my five minutes.
    Mr. Martin, in your testimony you said that the people in 
Jamaica or Guatemala, for the wrong reasons, for example, might 
also choose statehood. Might the same thing happen in Puerto 
Rico? People might choose statehood for the wrong reasons? And 
what would those, and what do you mean by wrong reasons?
    Mr. Martin. That is precisely what I say in my statement, 
that albeit, like in Puerto Rico, for the wrong reasons. 
Because I am convinced that in Puerto Rico, in the vast 
majority of support for statehood is simply a function of a 
sense of insecurity and dependence. That if Puerto Ricans are 
faced at some point with an option of independence that is seen 
as viable, and that is seen as a choice that it will not be 
penalized, as has been seen for the past 100 years, I have no 
doubt that the people of Puerto Rico, like any other people, 
will choose independence.
    So in that sense, the political preferences of the Puerto 
Ricans expressed in votes, as should be relatively obvious, is 
really a function of how they perceive the consequences of such 
a, of such a vote. And historically, Puerto Ricans have been 
conditioned to believe that a vote for independence is sort of 
like jumping off an eighth floor without a parachute. And 
therefore, it is not surprising that only around 5 percent of 
the people have enough faith to say I will do it anyway, 
because historically U.S. policy has been that if Puerto Rico 
were to become independent, it would mean the closing off of 
the U.S. market, the closing off of all substantial trade, once 
Puerto Rico had been turned into a dependent country 
economically.
    So it is not at all strange to me that independence is very 
much a minority faction. The day when independence is seen in 
another way, when a reasonable offer is made of independence, 
as should be made, you can be quite sure that independence 
will, in the end, be chosen by most people.
    If to that you add that colonialism is disrobed publicly 
for what it really is, and that statehood is presented with 
some political sincerity--that is to say, with the small print 
that would evidently be used by Congress--at some point, Puerto 
Ricans may choose statehood. At some point.
    This may happen, that the statehooders have been growing in 
Puerto Rico. Whenever that happens, or before it happens, at 
some point, Congress will have to say what are the terms and 
conditions under which statehood for Puerto Rico would be 
possible, if at all, and on what timetable. Whenever that day 
comes, we will also see that the vote for statehood will then 
become a function of that alternative, and not simply a 
function of an obstruction.
    Ms. Christensen. Thank you. Mr. Duprey, in your testimony 
you referred to U.S. citizenship and dual citizenship. When you 
talk about that in the free association, are you speaking of 
those who would already be citizens when, at the time of the 
compact or the agreement? Or are you talking about persons born 
in Puerto Rico after that?
    Mr. Duprey. Right. I am talking about U.S. citizens at the 
moment of the signing of the compact. In the negotiations 
between the people, the Government of Puerto Rico and the 
Government of the United States, we have to negotiate what we 
are going to do about citizenship in a future relationship.
    But there is a consensus in the legal community that there 
is, it is very difficult to take away the citizenship, the U.S. 
citizenship of the Puerto Ricans who have it now.
    Ms. Christensen. And I agree with that. I agree with that. 
But I have seen one definition, or one tenet, some of the 
tenets of free association that have been proposed, and they 
include American citizenship. That is why I ask that question.
    Mr. Duprey. Yes. I think that that is some other political 
will at the time of the negotiation. And it is something that, 
as you can know--I know that Mr. Fortuno knows--it is some 
other hotly political debate in Puerto Rico. But you need to 
separate what is the political debate and what is the legal 
reality of the issue of citizenship, U.S. citizenship, in the 
case of Puerto Rico.
    Ms. Christensen. Thank you. Mr. Passalacqua, one of the 
quotes that you have from Robert Statham, the University of 
Guam, ends with ``now either incorporate or release Puerto 
Rico.'' And you said that you agree with everything that you 
quoted in here.
    So my question is a simple one. Do you consider free 
association to be one of those that would be included in 
releasing Puerto Rico?
    Mr. Passalacqua. I agree with my friend, Nestor Duprey, 
that if the Resident Commissioner, as he offered, is willing to 
invite to his office the representatives of free association, 
they will be more than capable of proposing a treaty of free 
association that can be included as a separate alternative in 
the plebiscite. And then have a runoff between the two that 
garner more votes.
    Therefore, I very strongly urge the friends at this table 
to accept the invitation extended by the Resident Commissioner. 
Write up the Treaty of Free Association Proposal, and to the 
Resident Commissioner, to, in reciprocity for that gesture, 
accept a runoff after the first vote.
    Ms. Christensen. Thank you. I now recognize Mr. Fortuno for 
questions.
    Mr. Fortuno. Thank you. I again want to thank all the 
members of the panel for being here, for your contribution to 
this discussion. And I think it is very important, actually, 
what we are trying to do here.
    We are trying to legislate. And you may see us discussing 
different aspects as this is going on. We are trying to 
legislate here. And Mr. Duprey, Mr. Passalacqua, I will tell 
you something that I haven't said publicly.
    Last year, when we had, back in March we had hearing here, 
Mr. Acevedo-Vila did not show up, but he sent Mr. Dalmau. I 
offered Mr. Dalmau the offer I made public today. I have 
followed that up with other representatives from Acevedo-Vila.
    Today, openly, in open mic, I restated my statement. 
Obviously, Mr. Duprey, you have the pantalones he doesn't have. 
So I will take you up on that one, because it has been a year. 
I will assume that my offer expired, and I will take you up, 
and I will work with you and your organization to try and see 
if we can legislate in a way that allows for that third option, 
to, one way or another, be clearly included in this legislative 
process.
    And my desire, as you all know, I have my status 
preference. But I have a responsibility that goes beyond that. 
And that is for the people of Puerto Rico to have clearly 
defined options, so that they can make an informed and honest 
choice among options that are doable, that are constitutionally 
feasible, that is not pie in the sky. That is not [Spanish 
phrase], as Jose Serrano, my friend, says all the time, that is 
really something that is doable. We owe that to the 4 million 
residents of Puerto Rico. And I am more than willing to engage 
in that dialogue. And I know many others on this dais and 
Members of the full committee are willing to engage, as well.
    So I restate my statement.
    Mr. Duprey. You know one of your predecessors, Luis Vegas 
Ramos, I think that is a phrase that can guide us in this 
process. Puerto Rico por encima de todo. Puerto Rico of all.
    And I think that we are part of our new generation. As I 
said in my statement, that don't want to discuss any more this 
issue. I don't know how many hearings we need to solve this 
issue.
    We know which are the controversies. We know which are the 
real options. Forget about the political labels; we know which 
are the real options. There are only three. Free association, 
statehood, and independence. Let us legislate, and let the 
people decide.
    Mr. Fortuno. That is the way I see it, and again, the doors 
in my office are open to indeed achieve that. Since the 
Governor has been actually running away from that decision. And 
actually, many in his party have been running away from that 
decision for 50 years. So the fact that he has been doing it 
for one years is not that bad, I guess.
    Mr. Garcia Passalacqua, I am glad that you raised the 
recent Court decision having to do with the Guantanamo 
situation. And indeed, I know it is shocking at times, and some 
of my colleagues have been shocked by the statement in the 
report that indeed, you know, we could be ceded to a foreign 
power, whatever. We are property of the United States. And I 
was very glad to hear what you had to say.
    I also would like to restate very clearly. The Clinton 
Administration and the Bush Administration, in different ways 
and fashions, have stated very clearly that free association is 
one of the real options to solve this issue once and for all. 
So we have Democrats and Republicans stating the same thing, 
and the time is now, indeed, to move forward.
    And I just wanted to close with that statement. I wanted to 
thank Chairwoman, I wanted to thank you all for being here. And 
I wanted to thank the committee staff for hanging on there. And 
I only wish that the next step will be a markup session, so 
that the people of Puerto Rico will have clearly defined 
options before them. And if we can achieve that, I think we 
will all have discharged our responsibilities to the citizens, 
ones that we serve or represent.
    Thank you again, Madame Chairwoman, thank you for your 
leadership. And good night.
    Ms. Christensen. Thank you. And again, let me thank the 
witnesses on behalf of the Subcommittee and the committee for 
being here, for your patience, and for your testimony and your 
answers to our questions.
    We may have more questions as we review the transcript of 
this hearing, and we would be submitting them to you in 
writing. And the hearing record is held open for 10 days, as 
well.
    This is our last hearing. I think that we have worked 
together, Mr. Fortuno and I, to ensure that all perspectives 
have been brought to the table. We have been very liberal in 
our time, and tried to accommodate each party's wishes to the 
best of our ability. And I think it has worked well for the 
Subcommittee and committee; it has been very well informed.
    So again, thank you. And this Subcommittee hearing stands 
adjourned.
    [Whereupon, at 7:41 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Hon. Eliot L. 
Engel, a Representative in Congress from the State of New York, 
follows:]

          Statement submitted for the record by Eliot L. Engel

    The Commonwealth of Puerto Rico has a long, proud history and it 
has become an integral part of the United States. The people of Puerto 
Rico have contributed immeasurably to American culture in every way 
imaginable, including in the political arena, music, business, cuisine, 
creative writing, sports, and science. Perhaps the most important 
contribution made by the Puerto Rican people has been to our national 
defense. They have bravely served in the U.S. military in every major 
war since WWI and during the current conflict in Iraq, 29 Puerto Rican 
soldiers have made the ultimate sacrifice.
    The people of Puerto Rico have given us so much but for over 100 
years now, we have failed to give them a fair opportunity to determine 
their own future and their own form of government. Every U.S. President 
over the past 50 years has supported self determination. However, 
politics here and in Puerto Rico has denied the Puerto Rican people an 
opportunity to voice their true desires about whether they would like 
to continue as a commonwealth, achieve independence, or become our 51st 
state.
    My friend and colleague, Representative Jose Serrano, has written 
legislation which will remedy this situation. By creating a sensible 
two plebiscite structure, and requiring plainly worded questions 
describing the different options, H.R. 900, the Puerto Rico Democracy 
Act of 2007, will allow the Puerto Rican people to decide how they 
would like to be governed. We owe it to the Puerto Rican people to work 
together and pass this important legislation so this group of U.S. 
citizens can sensibly plan their future.
                                 ______
                                 
    [A statement submitted for the record by Hon. Ron Kind, a 
Representative in Congress from the State of Wisconsin, 
follows:]

Statement of The Honorable Ron Kind, a Representative in Congress from 
                         the State of Wisconsin

    Madam Chairman: While I am not a member of the Subcommittee, as a 
cosponsor of H.R. 900, I would like to weigh-in to add my voice to 
those supporting the bill. It offers us the opportunity to transcend 
the confused and befuddled ideological debate that has kept Congress 
and the people of Puerto Rico from finding a solution to the issue of 
the island's status. In keeping with the traditions and ideals of our 
nation, this bill will allow the people of Puerto Rico to determine 
their own destiny.
    It is fitting that we consider this legislation one week after the 
House passed the D.C. House Voting Rights Act, which would give 
residents of the District of Columbia a voice in the House of 
Representatives so that they, too, may have the same democratic voice 
as their fellow citizens in every other city, town, and village in the 
50 United States.
    The Puerto Rico Democracy Act of 2007 would test the assertion made 
by some that a majority of voters in the territory favor continuation 
of the status quo. If that is, indeed, the case, this bill will accept 
the democratic verdict of the people and maintain the current 
relationship with the United States. Alternatively, it would allow a 
majority of citizens the ability to exercise their right to call for 
change if that is what they desire.
    H.R. 900 offers a fair, status neutral, and, most importantly, a 
constitutionally valid approach to discerning the will of the people of 
Puerto Rico. This bill is the best way to establish true and legitimate 
majority rule in Puerto Rico on the question of whether or not the 
voters want to maintain the current status as defined by federal law. 
Such a determination is the first step that must be taken. Congress 
should become involved in deciding next steps only if a majority of 
Puerto Ricans rejects continuation of the current status.
    H.R. 1230 is the alternative proposed by opponents of H.R. 900. By 
proposing that the island's status be determined through a 
constitutional convention, it would allow a less democratic local 
process than is currently required under the local constitution. Such a 
convention could produce a proposal based on the local commonwealth 
party's platform rather than one that is supported by a majority of 
residents, and which Congress would likely reject.
    The responsible course for Congress is to approve H.R. 900 and find 
out if the people of Puerto Rico do or do not want change. Only then 
will this body be able to move forward with a status determination that 
meets the needs and the will of the people who would be affected.
                                 ______
                                 
    [A statement submitted for the record by Hon. Loretta 
Sanchez, a Representative in Congress from the State of 
Califonnia, follows:]

              Statement of The Honorable Loretta Sanchez, 
       a Representative in Congress from the State of California

    Madame Chair,
    Thank you for allowing me to participate in this important 
discussion, and for calling this hearing on the future of Puerto Rico. 
The two bills we will review here today concern the most glaring lack 
of democracy under our flag. Last week, this House voted to grant the 
District of Columbia, and its 60,000 residents, the right to be 
represented in our government. There has been a lot of attention to the 
issue, but an even more egregious disenfranchisement is going on almost 
without notice.
    There are nearly four million people in Puerto Rico. They have been 
U.S. citizens for 90 years but they remain without a single real vote 
in the government that makes and implements their national laws. This, 
even though ALL of their leaders want a democratic government at the 
national level.
    There is scarcely a more important issue before the Congress than 
righting this historical wrong.
    It is of special significance to those of us who are Latino or who 
represent Latinos. One of the reasons that the issue has not been 
resolved is the wrong-headed view that equal rights and 
responsibilities and permanence within our Union should not be an 
option for our fellow citizens in Puerto Rico because of their Latin 
culture. I reject that view completely.
    I personally have no preference regarding the territory's ultimate 
status; Puerto Ricans have earned the right to make the choice among 
all the options--statehood, independence, nationhood in a free 
association with the United States. They even could choose to continue 
as a territory if they don't want to decide yet on the islands' 
ultimate status.
    One of the bills before you, the Puerto Rico Democracy Act, H.R. 
900, which I have co-sponsored, would enable Puerto Ricans to make the 
choice among all the options.
    The other bill, H.R. 1230, would not. It excludes one of the 
options, free association.
    It also would include the ill-defined option of a ``Commonwealth'', 
a proposal that would only confuse and further delay the choice.
    This ``option'' for a non-territory ``Commonwealth status'' has 
already been rejected by the Clinton Administration on constitutional 
and basic policy grounds, as well as by President Bush's Task Force on 
Puerto Rico's status. It is a proposal that Congress could not accept 
even if it wanted to.
    Under this proposal, Puerto Rico would be a nation with the power 
to enter into international agreements but the United States would be 
permanently bound to it, granting:
    <bullet>  an additional subsidy to the insular government;
    <bullet>  all current aid to Puerto Ricans;
    <bullet>  free entry to all goods shipped from the islands; and
    <bullet>  citizenship.
    U.S. laws would apply and U.S. courts would have jurisdiction--but 
the ``Commonwealth'' government would be able to nullify federal 
authority.
    To be fair and meaningful, the decision has to be made among real 
choices of status.
    I urge the Subcommittee to favorably report H.R. 900 without delay 
and enable Puerto Rico to finally attain a democratic national 
government.
    Thank you again, Madame Chair, for letting me join you here today.
                                 ______
                                 
    [A statement submitted for the record by Hon. Nydia M. 
Velazquez, a Representative in Congress from the State of New 
York, follows:]

            Statement of The Honorable Nydia M. Velazquez, 
        a Representative in Congress from the State of New York

    Thank you, Chairwoman Christensen, for holding this hearing today. 
I appreciate the opportunity to be here and offer my views on our 
bipartisan bill H.R. 1230, The Puerto Rico Self-Determination Act of 
2007. It is so important that we clarify what is really at stake here.
    As I have said from the beginning--the path to self-determination 
for the people of Puerto Rico must be a conclusion that Puerto Ricans 
forge themselves. Whether they reside in Puerto Rico, New York, 
Illinois or Florida--it is up to them to decide their future.
    In addition to discussing H.R. 1230, we are also focusing on the 
alternative legislation, H.R. 900, today. While this bill is well 
intended, it mandates a flawed process. It only exacerbates the 
divisions on the island and fails to offer any hope to settle the 
matter.
    The status of Puerto Rico has been an issue for the past century--
any solution today needs to be one that has the consensus and support 
of the people of Puerto Rico. This is why I introduced ``The Puerto 
Rico Self-Determination Act.'' I saw the need for a true path towards a 
long-term solution to the status issue. This is a bipartisan bill, co-
sponsored by my colleagues Congressmen Gutierrez and Wicker. H.R. 1230 
represents a fair and just path because it seeks to bring consensus to 
the over 8 million Puerto Ricans that live on the island, and in the 
States.
    It is apparent that the real issue here is process. Members of 
Congress cannot favor Puerto Ricans deciding their future, but then 
support legislation that dictates the key terms to them, and fails to 
define those terms. What happened to real freedom to choose? I thought 
we were talking about a self-determination process, not Congressional 
mandates and meddling. The best thing Congress can do is to step aside; 
it is the Puerto Ricans process of self-determination we are trying to 
discuss here.
    Congress' best role at this stage should be to facilitate, not 
dictate. My friends, a vote can only be fair when you know what you are 
voting for and know the consequences of that vote. Have we not learned 
the hard way in Congress the consequences of voting for something 
without having all the correct information? How can we ask Puerto 
Ricans to make the most important decision without helping them see 
what it all means?
    You may be asking why H.R. 1230 is better? This bill does provide 
for a democratic self-determination process. It is fair--Congress does 
not place one group or idea ahead of any other. It is open--groups 
advocating for one option or another get to convince voters that their 
way is the best option. It is transparent--the people will be able to 
decipher what the options mean to them, for the future of Puerto Rico, 
and then vote. H.R. 1230 ensures people will be able to debate the 
ideas and reach consensus.
    The Governor of Puerto, and the followers in his party, perceive 
H.R. 900 as unfair. Just looking back at history, you will see that 
bills that have been perceived in similar ways in the past, by either 
of the main parties, have not succeeded. Without a consensus the 
process would always be under suspicion by a large segment of the 
population in Puerto Rico. If this is a true self-determination 
process, it would not be for us to define their status option for 
them--it would be for them to define it on their own consensus. That is 
what my bill allows.
    Chairwoman Christensen, I appreciate the time you have granted me 
today and I urge you to act judiciously on this important issue. I 
would like to again strongly encourage you to convene a third hearing 
so that this sub-committee can hear from local community leaders in New 
York, Illinois and Florida. They are also part of this process and 
their opinions must be heard. Thank you.

                                 <all>

</pre></body></html>
